<html>
<title> - INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                    INTERIOR, ENVIRONMENT, AND RELATED
                     AGENCIES APPROPRIATIONS FOR 2018

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION

                    ___________________________________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES

                    KEN CALVERT, California, Chairman

  MICHAEL K. SIMPSON, Idaho                BETTY McCOLLUM, Minnesota
  TOM COLE, Oklahoma                       CHELLIE PINGREE, Maine
  DAVID P. JOYCE, Ohio                     DEREK KILMER, Washington
  CHRIS STEWART, Utah                      MARCY KAPTUR, Ohio
  MARK E. AMODEI, Nevada
  EVAN H. JENKINS, West Virginia

   NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the full committee, and Mrs. Lowey,
 as ranking minority member of the full committee, are authorized to sit as members of all subcommittees.

               Dave LesStrang, Darren Benjamin, Jason Gray,
             Betsy Bina, Jaclyn Kilroy, and Kristin Richmond
                            Subcommittee Staff

                   ___________________________________

                                  PART 7

          Testimony of Interested Individuals and Organizations

                                                                   Page
                                                                   
 Members' Day Hearing, February 28, 2017 .........................   1 
                                                                      
 American Indian / Alaska Native Public Witnesses,
 May 16, 2017.....................................................  133
                                                                   
  American Indian / Alaska Native Public 
Witnesses,
May 17, 2017....................................................... 451 
                                                                    
  Written Testimony From Individuals and 
Organizations...................................................... 703
                                                           
                                  

                          ______________

          Printed for the use of the Committee on Appropriations

                        ________________

                    U.S. GOVERNMENT PUBLISHING OFFICE

  26-690                   WASHINGTON : 2017



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\                NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                         PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                  JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                      DAVID E. PRICE, North Carolina
  KEN CALVERT, California                    LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                         SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida                 BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania              BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                        TIM RYAN, Ohio
  KEVIN YODER, Kansas                        C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                     DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska                 HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida                  CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee          MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington          DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                       MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California               GRACE MENG, New York
  ANDY HARRIS, Maryland                      MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                       KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                     PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  <SUP>\1\}</SUP>Chairman Emeritus

  
  

                       Nancy Fox, Clerk and Staff Director

                                    (ii)


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2018

                              ----------                              --

                                        Tuesday, February 28, 2017.

                              MEMBERS' DAY

    Mr. Calvert. The committee will come to order. Good 
afternoon and welcome to the Interior and Environment Member 
Day hearing. This afternoon, the subcommittee will hear from a 
cross-section of members, both Republican and Democrat, about a 
variety of issues addressed by this subcommittee.
    The chair will call two members to the table each time. 
Each witness will be provided with 5 minutes to present their 
testimony. We will be using a timer to track the progress of 
each witness. When the button turns yellow, the witness will 
have 1 minute remaining to conclude his or her remarks. 
Witnesses who speak less than 5 minutes will score big brownie 
points with the chairman. [Laughter.]
    Mr. Calvert. Members of the subcommittee will have an 
opportunity to ask questions of the witness, but in the 
interest of time, the chair requests that we keep things moving 
so that we can stay on schedule. We have a big speech we want 
to hear tonight, so we want to keep things moving here.
    Before we get under way, I am happy to yield to my friend, 
Ms. Kaptur, for any remarks she may wish to make.
    Ms. Kaptur. Thank you, Mr. Chairman. It is just great to be 
on this subcommittee, to have you as chair----
    Mr. Calvert. Thank you.
    Ms. Kaptur [continuing]. And to receive our members. I just 
find this to be one of the most fascinating parts of the job. 
We get to know one another's districts better, and hopefully 
all that results in better legislation and an America that 
continues to make progress.
    So, welcome, and thank you, Mr. Chairman. I look forward to 
this hearing.
    Mr. Calvert. Great. Thank you, Marcy. The first witness on 
the dais today is our friend, Bill Posey, from Florida, the 
District 8. Bill, you are recognized.
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. BILL POSEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA
    Mr. Posey. Thank you, Mr. Chairman, Madam Ranking Member 
for the opportunity to provide testimony before you today.
    Mr. Calvert. Okay.
    Mr. Posey. As you know, last year a reauthorization of the 
National Estuary Program, hereinafter referred to as NEP, was 
passed unanimously through Congress, demonstrating the strong 
bipartisan support for this important initiative. The NEP was 
first established in 1987, and since its founding has proved to 
be a model for non-regulatory environmental management programs 
that provide tangible benefits to the communities they served.
    There are currently 28 estuaries of national significance 
that participate in this program. The health of America's 
estuaries, like the Indian River Lagoon, one of the most 
diverse in the world, spanning across five counties in Florida 
in my district and adjacent to the congressional district, is 
directly related to the health and vitality of our communities 
and national economy. In fact, these coastal ecosystems and 
their communities that surround them support more than 69 
million U.S. jobs, and contribute to an estimated $7.9 trillion 
to the GDP annually.
    The genius of the NEP is that it empowers local communities 
to take responsibility for managing their estuaries, and brings 
together a diverse group of experts and concerned citizens to 
address threats to these delicate ecosystems. The program 
correctly recognizes that the people whose livelihoods are 
directly connected to protecting and restoring the health of 
the estuaries are in the best position to use taxpayer money 
responsibly and achieve demonstrable results.
    In last year's reauthorization, we improved upon this model 
by ensuring that the EPA spent no more than 5 percent of 
appropriated funds on administrative costs at the Agency. The 
reauthorization also directs the EPA to use the savings from 
this reduction in Federal bureaucracy to create a new 
competitive grant program that will provide necessary resources 
to estuaries with urgent needs.
    The money in the Competitive Grant Program will be reserved 
for projects addressing threats, like harmful algae bloom, 
invasive species, and pervasive seagrass habitat loss, problems 
that get exponentially worse and more expensive to fix the 
longer they remain untreated. For that reason, I cannot stress 
enough the importance of having the Competitive Grant Program 
put in place in a timely manner. The newly reauthorized program 
and its uniquely transparent funding allocation formula will 
ensure that local NEP programs get the support Congress intends 
and prevent further expansion of what we do not intend.
    In addition to fully funding the National Estuary Program, 
I encourage the committee to ensure EPA officials reduce costs 
in compliance with the reauthorization statute, and begin 
administrating the Competitive Grant Program as quickly as 
possible.
    Thank you for the opportunity to appear before you today. I 
will be happy to answer any questions.
    Mr. Calvert. Well, thank you. Thank you, Bill. I certainly 
support estuaries. We have a few in the West Coast, and so it 
is something that is very important, and I am sure that we will 
be taking a very close look at that program as we go along. 
Thank you for your testimony.
    Mr. Posey. Thank you very much for your comments.
    Mr. Calvert. All right. Next, our good friend from the 
State of Utah, Jason Chaffetz, and welcome, Jason. We look 
forward to listening to you.
    [The statement of the Hon. Bill Posey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. JASON CHAFFETZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    UTAH
    Mr. Chaffetz. Thank you. Thank you for having me, Chairman, 
and to the ranking member and to each of the members here. It 
is an important opportunity, and I appreciate you hearing us 
out.
    I have three quick topics I would like to address. One is 
the Indian school bus routes. Last year, dirt school bus routes 
proved impassable on multiple occasions, causing Navajo 
students to miss 11 school days. In Utah, San Juan County is 
roughly the size of New Jersey. It has one stoplight. A portion 
of the Navajo Nation is in this county, but this is a problem 
throughout the four corners area.
    San Juan County receives about $85,000 per year from the 
BIA to maintain roughly 258 miles of school bus routes. That 
number has stayed consistent over a 30-year period. Since 2005, 
San Juan County has spent $11 million of their general fund 
monies to maintain these roads on the Navajo Nation.
    The imbalance is quite severe. Navajo Nation children, 
their dropout rates are some of the highest in the Nation, and 
yet they are missing more than an average of one school day per 
month just because they simply cannot get to school because of 
how poor these roads are.
    And I--with some indulgence, I have some pictures here. It 
may be tough to see on the television, but that is what they're 
dealing with on almost a monthly basis. It depends on when it 
is raining when the snow is melting. And we have got a host of 
other pictures.
    Not only do these kids get trapped there, sometimes 
spending the day and into the night, but the parents know that 
if it is rainy, they do not even bother to put them on the bus 
because they may get stuck there, and there have been horrific 
situations. It has been going on for years. We need some help 
solving it.
    You cannot necessarily just go and pave all those roads 
either. That would not necessarily be a prudent use of funds, 
but there are things you can do with gravel and other types of 
things to make them passable.
    The second issue I wanted to bring up is the Bears Ears 
National Monument. On December 28th, 2016, less than 30 days 
before President Obama left office, he created the Bears Ears 
National Monument covering 1.35 million acres. This is bigger 
than Delaware, Rhode Island, and Washington, D.C. combined.
    We have five national parks in the State of Utah. You could 
take all five of the national parks and combine them, and they 
would still fit in this Bears Ears National Monument. The 
delegation, all six of us, wrote a letter to President Obama in 
April asking for a meeting. He refused to meet with us on this 
issue. Ultimately we got less than 1 hours' notice that he was 
creating this national monument.
    Every single elected official at every level of government 
representing this area, other than the President, is opposed to 
this monument. Rebecca Benally, a Democrat from the Navajo 
Nation on the county commission in San Juan County, is opposed 
to this. The whole county commission is opposed to it. The 
state legislature is opposed to it. Both the Utah House and 
Senate passed a resolution in opposition to it. The entire 
congressional delegation is opposed to it. The governor is 
opposed to it, and yet it still happened.
    And so, we are asking that the committee seriously consider 
making sure that no funding for the Bears Ears Monument move 
forward.
    And finally, Mr. Chairman, nearly 1,900 counties across 49 
States face the expiration of a critical financial offset for 
tax exempt Federal lands under their jurisdiction. Still 
recovering from the recent economic downturn, these counties 
depend very, very heavily on PILT payments, the payment in lieu 
of taxes, to keep their communities afloat. PILT dollars allow 
local governments provide critical health, education, culture, 
and emergency services, particularly in my congressional 
district where we have two national parks and lots of BLM land. 
More than 90 percent of San Juan County is owned by State and 
Federal government. Yet the county has to perform all the 
emergency services and provide education funding with only 10 
percent of their county land being taxable. And--so, we have 
some of the highest property tax rates in the entire State or 
in some of the most rural areas because there is so much 
Federal land.
    And so, we ask that the PILT program be fully funded. The 
issue has come up, and Mr. Calvert, in particular, the chairman 
here has been very helpful on this. But we do need your help in 
making sure that these funds are there. These funds primarily 
go to education, and then they go on to emergency services. 
Those are the primary use of these funds and we need them.
    And with that I yield back. Thank you for your time.
    Mr. Calvert. Thank you, Jason. And, by the way, I I've been 
on those roads. Tom and I were on those roads just recently, 
about a year ago, and we were still having kidney problems 
because of the Washburn effect of the--that was in the summer 
months. God knows what they are like in the winter time. So, we 
appreciate your coming by and look forward to working with you.
    Ms. Chaffetz. Appreciate it. Thanks for the opportunity.
    Mr. Calvert. Thanks. Appreciate it. Okay.
    Next on our agenda, we have Bruce Westerman and Brian 
Higgins would please come up. Okay, we will have Bruce first 
here. Okay. Bruce Westerman from the great State of Arkansas, 
and would love to hear from you.
    [The statement of the Hon. Jason Chaffetz follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. BRUCE WESTERMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARKANSAS
    Mr. Westerman. Thank you, Mr. Chairman, and I appreciate 
this opportunity to testify before you today. I am here to 
address the urgent need for greater funding for our forest 
management programs, and on the ground scientific research.
    I have said this a lot, but there are no negatives to a 
healthy forest system, and healthy forests, they provide clean 
air, clean water. They sequester carbon at greater rates, 
promote recreational opportunities, and increase biodiversity. 
They also produce a steady supply to our Nation's forest 
products industry, which employs 2.8 million people nationwide, 
along with an annual payroll of $87 billion, and that accounts 
for 5.7 percent of total U.S. manufacturing.
    Unfortunately, the Forest Service has moved away from its 
original mission of managing our National Forest System in a 
scientifically sound manner for multiple purpose uses, and that 
includes a dramatic decrease in timber harvesting. Last year 
the Forest Service sold a mere 3 billion board feet of timber, 
that is about a quarter of the amount that was sold 30 years 
ago.
    The result of this shift in focus is clear. Drought and 
overcrowding leave the forests susceptible to insect and 
disease infestation, and make them more vulnerable to 
catastrophic wildfires. These fires destroy wildlife habitat, 
radically alter ecosystems, decrease carbon storage, and force 
taxpayers to pay hundreds of millions of dollars annually in 
increased fire suppression costs.
    Therefore, it is time for the Forest Service to return to 
its core mission and place a greater emphasis on multiple use 
in scientific management, which includes more timber 
harvesting, mechanical thinning, and prescribed burns. Our 
current management system is not working for the forest, 
wildlife, the recreation community, or the taxpayer. It is time 
for a new approach, and the subcommittee can play a key role in 
this new approach.
    The Forest Service must work hand in glove with scientists 
and industry to promote forest health through more timber 
harvesting, prescribed burns, and other sound management 
techniques. I urge the subcommittee to include robust funding 
for the forest products line item under the National Forest 
System. This will help the Forest Service to refocus on its 
core mission and improve landscape health.
    In addition to promoting better forest management and 
timber harvesting, I ask the subcommittee to fully fund the 
Forest Inventory Analysis Program. The FIA is designed to 
complete analysis of sample forest landscapes around the United 
States every 5 years. This is the data that is used to 
determine how much timber we have, and where it is being used, 
and the age of it.
    However, the Forest Service often finds itself on a 6- or 
7-year rotation, leading to delayed analysis of our landscapes. 
This can force States to increase their matching contributions 
in order to have sound, timely scientific analysis for 
statewide forest management plans.
    FIA takes proactive, positive steps in the area of better 
forest management. FIA leads to scientific forest management 
practices that increase carbon storage and reduce the threat of 
wildfire. Additional funding to FIA will also give the wood 
products and timber industry certainty in making business 
decisions, and assist in making ecologically sound forest 
management choices that benefit the environment and industry 
simultaneously.
    Additionally, I request robust funding for the Forest 
Products Laboratory. The Forest Products Laboratory conducts 
scientific research into wood products, forest biomass, the use 
of wood in tall buildings, and threats to various species, such 
as White-Nose syndrome, which is decimating northern long-ear 
bat populations nationwide. This research is integral not only 
to science and conservation, but also for promoting millions of 
rural jobs, where an individual can find good paying work, 
oftentimes without the need for a 4-year college degree.
    Once again, I would like to thank you, Chairman, and the 
members of the Committee for the invitation to speak today. And 
I ask you to ensure a strong, robust funding for forest 
products line item under the National Forest System that 
promotes scientific research on our Nation's forests through 
the Forest Inventory Analysis Program, and the promotion of new 
and improved wood products supporting a sound forest products 
industry through the Forest Products Laboratory.
    And I yield back the balance of my time.
    Mr. Calvert. Thank you, Bruce, for your testimony. We 
appreciate that. We are very supportive of that industry.
    Ms. Kaptur. Mr. Chairman?
    Mr. Calvert. Yes, Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. I just wanted to ask, 
I know Mr. Westerman's deep interest in forestry. And I just 
wanted to ask him if you could give us a 1-minute summary of 
what you think is happening to, for example, our eastern 
forests with the increasing deer population, and what is 
happening to our saplings. Could you kind of give us just your 
bird's eye view of what is happening across the country with 
forests?
    Mr. Westerman. The 1-minute version of what is happening 
across the country? You are asking a forester who likes to talk 
in detail about this. But, yes, the issue you are talking 
about, Ms. Kaptur, is what we call regeneration or growing new 
trees. And in our eastern forests, you can have problems if you 
have too many deer eating the young saplings that come up from 
the acreage. You could have a hard time getting regeneration.
    But the goal of forestry is to grow new trees, and that 
requires different management schemes, whether you are in the 
northeast, the southeast, the inner mountain area, out on the 
coastal area, or in Alaska. But our forest managers need to be 
able to apply the science to manage and to keep these forests 
healthy, whether it is hardwoods in the east or conifers in the 
west.
    I hope that is close to explaining it and----
    Ms. Kaptur [continuing]. Are our forests healthy?
    Mr. Westerman. Our private forests are very healthy because 
they have been managed. Our national forests sadly are not 
healthy, and the effect we see are the increasing wildfires. If 
you look at the graph of wildfires and expenditures on 
wildfires, they have gone up exponentially.
    So, an ounce of prevention is worth a pound of cure, and if 
we will manage these forests and spend some money to do that 
properly, then we will save a lot of money on the back end. 
Plus, we will have a better environment and healthier forests.
    Ms. Kaptur. Thank you. Thank you, Mr. Chairman.
    Mr. Westerman. Thank you.
    Mr. Calvert. Thank you. Thank you very much for your 
testimony.
    Next, Mr. Brian Higgins from the great State of New York.
    [The statement of the Hon. Bruce Westerman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
   
    
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. BRIAN HIGGINS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Higgins. Thank you, Mr. Chairman. I appreciate it very 
much.
    I just wanted to urge the subcommittee to consider the 
Great Lakes Restoration Initiative. I live in Buffalo. I 
represent Buffalo. And prior to the Clean Water/Clean Air Act 
of 1972, the chemical, steel, and grain industry essentially 
dumped their toxic poison into places like the Great Lakes and 
the Buffalo River
    Because of the Great Lakes Restoration Initiative over the 
last 10 years, we have removed 67,000 semi-truckloads of toxic 
waste from the bottom of the Buffalo River. In 1970 the 
Environmental Protection Agency declared the Buffalo River was 
biologically dead and ecologically destroyed.
    With this funding from the Great Lakes Restoration 
Initiative for that cleanup, EPA officials are now saying that 
the Buffalo River will be swimmable in the next 12 months, and 
the fish that are caught there are safe for human consumption 
in the next 5 years. It is a dramatic turnaround, but it has 
also resulted in unleashing the resources and creativity to the 
private sector, which have invested a lot of money for the 
restoration of habitat along the river, and also residential 
commercial-mixed use development in those corridors. So, it has 
really created a new economy in Buffalo, and it is a very, very 
important program. So, we appreciate very much the continuation 
of that.
    I used to be a teacher of history and economics at Buffalo 
State College, and I taught the history of Buffalo and western 
New York. A hundred years ago, Buffalo was the 8th largest 
economy in the entire Nation, among the strongest in the entire 
world. All the great landscape and building architects, they--
none of them were from Buffalo. They came to Buffalo--Henry 
Hobson Richardson, Louis Sullivan, Louise Bethune, the first 
female architect.
    Consequently, we have these beautiful buildings, but 
because of economic decline over the last 20 years, Buffalo 
took a major hit, and a lot of those buildings are empty. 
Because of the Historic Tax Credit Program, developers 
undertook the redevelopment of those buildings for commercial-
mixed use, and residential development.
    Now we are seeing Buffalo go through a major economic 
renaissance. For example, the fastest-growing neighborhood in 
all of western New York is downtown Buffalo. And it is 
primarily young people that are filling in these old historic 
buildings that have been converted to apartments, condominiums, 
and the like. But it is fundamentally changing the economy of 
Buffalo and western New York.
    So, my only message to the committee would be that without 
this tax credit, developers would not have the wherewithal or 
the confidence to undertake these important restorations. So, 
we are really losing nothing because by giving these developers 
a tax credit, we are not giving up any money, you know, 
overtly, but we are giving them the incentive, the financial 
incentive, to fill in that all important gap financing.
    And then finally, the National Endowment for the Arts and 
National Endowment for the Humanities. It is less than one-
tenth of 1 percent of the Federal budget. I know it is symbolic 
for a lot of people, but it does do a lot of good things in a 
lot of great communities, like my community in Buffalo and 
western New York. So, I would just ask the committee 
respectfully to look at those areas and give them your every 
consideration and support.
    Thank you so much.
    Mr. Calvert. Thank you. Thank you, Brian. Just one comment 
on the Great Lakes. There are lot of members on this committee 
that represent Great Lakes, so I suspect we will continue to do 
that.
    Mr. Higgins. Great.
    Ms. Kaptur. Two. Oh, three. Excuse me.
    Mr. Calvert. Three. That is right. Thank you. Thank you, 
Brian.
    Voice. Very powerful bipartisan goal. [Laughter.]
    Mr. Calvert. Incentive here, yeah. Okay.
    Francis, Mr. Rooney, representing the great State of 
Florida and the great Everglades. You are recognized.
    [The statement of the Hon. Brian Higgins follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. FRANCIS ROONEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Rooney. Thank you, Chairman Calvert, and members of the 
subcommittee for allowing me to speak today.
    The Everglades and Lake Okeechobee watershed includes 16 
counties and 164 cities, and has a $2 trillion economic impact 
on the State of Florida. They support 55 percent, that is $1.3 
trillion, of the real estate value throughout the State. For 
every dollar invested in the Everglades/Lake Okeechobee 
watershed restorations, $4 of economic benefit will be 
produced.
    Due to a century of human development, the greater 
Everglades ecosystem is now less than half of its original 
size. The other half is what is now Fort Lauderdale and Miami. 
Lake Okeechobee fills up 6 times as fast as it can drain, which 
results in massive discharges into adjacent rivers and coastal 
areas.
    These discharges are untreated and we have had many years 
of good dairy farms and other contributing factors that result 
in high phosphorus and nitrogen levels in the water, it is not 
just urban development. Additionally, the impact of the 
freshwater and salt water balance is another factor in the 
effort to control discharges.
    The Comprehensive Everglades Restoration Plan, or CERP, 
seeks to restore the balance in these ecosystems and reduce the 
harmful discharges into both the Caloosahatchee to the west and 
the Saint Lucie to the East, and sending cleaner water down 
into Florida Bay. The CERP was created by Congress and the 
State of Florida in 2000, nearly 17 years ago. It includes 68 
projects which are designed to store, treat, and move water 
southward into the marshes of the Everglades, and then into 
Florida Bay, to store and treat water entering Lake Okeechobee 
from the north, and to balance the flows of fresh and salt 
water to control salinity.
    The CERP was set up to share costs between the State and 
the Federal government 50/50, and so far, the State has 
contributed $2.2 billion, and the Federal government has 
contributed $1.26 billion. As of December 2016, the State has 
contributed a little over 63 percent of the total cost so far.
    While the bulk of the Everglades restoration funding goes 
to the Army Corps of Engineers for the construction and 
maintenance of projects, Department of Interior plays a 
significant role. The Department of Interior provides support 
for restoration programs and the CERP. It has important 
jurisdiction throughout the national parks, with the Fish and 
Wildlife Service, the National Park Service which oversees Big 
Cypress and the Everglades National Park, the U.S. Geological 
Survey, and the Bureau of Indian Affairs which is responsible 
for the Miccosukee Tribe of Florida.
    Through these agencies, the Department of Interior supports 
updates to the CERP's programmatic regulations, creation of the 
guidance documents for how the projects will be built, 
operated, and evaluated, and in establishing goals to track the 
restoration progress, and provide regular status reports to 
Congress. This all dovetails with the Corps mission which 
relies on funding for Interior CERP projects.
    While it is not possible to directly support these programs 
through the appropriations process, I hope that the Interior, 
Environment, and Related Agencies Subcommittee would consider 
supporting appropriate levels of funding to the Department of 
Interior, especially for the Park Service, Fish and Wildlife, 
Geological Survey, and the BIA, so they continue to do their 
part to work with the Corps to move the Everglades restoration 
forward.
    There is a chart in the testimony that shows that while the 
Interior Department funding for the CERP has been fairly steady 
at around $8 million a year, the non-CERP funding has varied 
widely from as little as $53 million to a high of $91 million, 
and last year was $56 million. I am asking the Energy and Water 
Appropriations Subcommittee for more money, and we are asking 
your subcommittee for more money, to try to move forward the 
remaining $7 billion of authorized projects that are already 
underway.
    With your help we are going to keep the ball moving down 
the field. Thank you very much, Chairman Calvert.
    Mr. Calvert. Well, thank you, and I believe that I am going 
to be heading down in that direction soon, I hope.
    Mr. Rooney. I think with your time, we are ready to go. We 
are looking forward to hosting you in southwest Florida.
    Mr. Calvert. We are trying to work that out. Look forward 
to getting down there. I want to go after snakes down there, 
too----
    [Laughter.]
    Mr. Calvert [continuing]. Causing great damage. Any other 
questions?
    Ms. Kaptur. I am just overwhelmed, by the challenges of the 
Everglades. From living there, do you think we are making 
progress? We are slow on the uptake here, but what is your 
sense, Congressman?
    Mr. Rooney. We are. I am a practical guy. I am from the 
business world. Every project helps some. Every rock thrown in 
the pond fills it up just a little bit more. Some of the people 
down there say, ``if we do not get $20 billion, just forget the 
whole thing.'' That is irrational.
    Every part we can complete of these projects will help move 
the ball forward. Some of them deal with the fresh water and 
salt water issue; C-43 and C-44. Some of them deal with water 
going south, which is these flow equalization basins which is 
the next big funding project, that moves the water down into 
the Everglades.
    The marshes will clean the water if we get the right amount 
going slow enough at the right depth that they can do their 
job. Then we will have clean water in the Everglades, and we 
will have enough fresh water to fight back the incursion of the 
saltwater that is killing the mangroves. If we lose the 
mangroves in Florida Bay, we really do have a serious problem, 
that is just like South Louisiana's problem.
    Mr. Calvert. Okay. Great. Well, thank you very much. We 
appreciate your testimony.
    We are going to recess for votes and then come back 
immediately after the votes.
    [Recess.]
    Mr. Calvert. I call the hearing on the Interior, 
Environment meeting in order. Thank you for coming. We 
appreciate it.
    First, I would like to recognize Ms. Radewagen. You are 
recognized for 5 minutes. Thank you for coming.
    [The statement of the Hon. Francis Rooney follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
      
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. AUMUA AMATA COLEMAN RADEWAGEN, A REPRESENTATIVE IN CONGRESS FROM 
    AMERICAN SAMOA
    Ms. Radewagen. Thank you, Chairman Calvert, Ranking Member 
McCollum. I appreciate you allowing me to testify before the 
subcommittee today.
    As the committee knows, the world has changed much since 
1974. That is the furthest back we could find records on the 
program account to assist American Samoa government operations, 
the Insular Affairs American Samoa Government Operations 
Account. Since then, the local population has grown, the 
infrastructure has become dated and in disrepair, and outside 
influences, particularly China, have begun to make inroads into 
the region with the development of a port in neighboring, 
independent Samoa, and future plans for a naval base in the 
same area.
    At the same time, recent Federal measures have severely 
threatened the main economic driver on the island, which is the 
local tuna fishing industry. From the Federal mandate to 
increase the minimum wage on the island, irresponsibly putting 
American Samoa on the same economic playing field as the United 
States, to closing off of large swaths of the ocean which our 
people have fished for over a millennium, to the 
disproportionate regulations imposed on U.S. fishing vessels 
that are not imposed upon foreign vessels in the same waters. 
It is a wonder that only one of the canneries has decided to 
close its doors so far.
    As it stands, the amount awarded in the first year of 
record--1974--for this account was $13 million. It is now 42 
years later, and that amount has increased to only $22 million 
annually.
    To give you an idea of just how thin this funding is 
currently being stretched, ASG operations funded under this 
program are strictly limited to basic Department of Education 
operations, LBJ Tropical Medical Center Operations, American 
Samoa Community College operations, and high court operations.
    The hospital, which is the only one in the territory, is in 
such disrepair due to lack of funding that the VA will not 
allow our veterans on island to receive care there, and instead 
must fly them to Hawaii and foot the bill for their boarding 
while there for medical treatment due to the limited number of 
flights to and from American Samoa each week.
    If adjusted for inflation, the current amount would be $64 
million annually. The good that this increase would do cannot 
be overstated, and would be utilized to improve the conditions 
at the only hospital on the island, as well as other needed 
improvements to those entities I just listed.
    I respectfully request that the committee increase the 
requested funding level of $22 million to $64 million, an 
increase of $42 million to address the many funding shortfalls 
currently affecting American Samoa government operations. While 
I understand that this is a dramatic 1-year increase, it would 
simply rectify the long overdue adjustment for inflation, and 
allow for much-needed maintenance and upgrades to existing 
facilities.
    Also, to give you an idea of just how disproportionate the 
funding is, not only between American Samoa and the States, but 
other territories as well, just last week the Department of the 
Interior sent an adjustment to the U.S. Virgin Islands in the 
amount of $18.2 million for their rum excise taxes for Fiscal 
Year 2016, bringing their total excise tax revenues to $231.5 
for the year.
    It is of note that the U.S. Virgin Islands' population is 
only double that of American Samoa, yet their excise tax 
benefits are currently 10 and a half times that of my home 
district. As a fallback, Guam has Section 30 funds, and with 
the military buildup, money will increase substantially.
    Now, I point this out not to do any disservice to the 
funding level of the other territories as I know they need all 
they receive, but to simply point out just how underfunded 
American Samoa has been. Please know that I am happy to answer 
any questions you may have, and look forward to working with 
you both to ensure that the good people of America Samoa are 
afforded the same opportunities and resources as their 
counterparts.
    I want to thank you again for your time and consideration 
of my request. While not a very large amount in the grand 
scheme of things, this increase would do so much good for the 
people of American Samoa.
    Fa'afetai tele lava. I yield back the balance of my time.
    Mr. Calvert. Thank you, Ms. Radewagen. I have been to 
American Samoa. It is a beautiful place, and I understand some 
of the challenges that you are having there, so we will take 
your testimony very seriously and see what we can do within the 
confines of our budget.
    Ms. Radewagen. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. No other questions?
    [No response.]
    Mr. Calvert. Mr. Thompson, you are recognized for 5 
minutes.
    [The statement of the Hon. Aumua Amata Coleman Radewagen 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                        Tuesday, February 28, 2017.

                                WITNESS

HON. GLENN THOMPSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Thompson. Chairman Calvert, Ranking Member McCollum, 
thank you for holding this session today.
    As a member of the Natural Resources Committee and as vice 
chair of the Agriculture Committee, I appreciate the 
opportunity to provide testimony on funding and policy 
decisions made in this important subcommittee. And I am going 
to do something somebody--someone from rural Pennsylvania would 
probably not often do. Last week I had the privilege of 
traveling with Mrs. Radewagen and Chairman Bishop to American 
Samoa, and saw firsthand absolutely every one of the points 
that she addressed today in her testimony. And just offer my 
support obviously as well to her.
    By way of background, my district, which is many miles from 
that island, thousands of miles, in Central Pennsylvania makes 
up 24 percent of the land mass of Pennsylvania, and it is among 
the most rural districts east of the Mississippi River. 
Agriculture, oil, and gas production, manufacturing, mining, 
and timbering are among our top economic drivers throughout the 
region.
    The region is also home to the world's first commercial oil 
well, Drake's Well, in Titusville, Pennsylvania, and 
consequently, the birth of the petroleum industry in 1859. 
Because of this storied history, the Oil Regional National 
Heritage Area, as recognized by the National Park Service, was 
established in 2004.
    With this in mind, I would like to first express my great 
support for heritage areas. It is important that we continue to 
recognize the history of these areas, such as the oil region, 
that directly helped to shape our Nation as well as build our 
communities.
    It is also in this region of northwestern Pennsylvania that 
the Commonwealth's only national forest is located. Four of my 
counties--Warren, Forest, Elk, and McKean--make up the 
Allegheny National Forest, where we long have had energy 
production, high-value timbering, and recreation that is second 
to none.
    As this subcommittee knows well, wildfires have skyrocketed 
in the past 2 decades, burning up 6.7 million acres per year on 
the average since the year 2000. In addition to the significant 
challenges of firefighting itself and those associated costs, 
national forests around the Nation continue to have great 
difficulty performing essential activities due to budget cuts 
as a result of fire transfers.
    Accordingly, in the Allegheny like most every national 
forest, we routinely lose funding, staff, and resources each 
year during the wildfire season. This directly diminishes the 
local Forest Service's ability to manage the ANF, allow for 
needed timbering, and pursue many other projects. Like many 
national forests in the West, the lack of timbering in the ANF 
directly undermines our local economy as well as my four 
counties that lose out on funding for essential services.
    Now, we can do much more harvesting in the Allegheny 
National Forest, but that will not happen without the necessary 
funding or direction from Congress. And, quite frankly, when it 
comes to timber in our national forest, we literally can print 
money because that high-value timber generates revenue if we 
are able to do that.
    In order to support management activities, and especially 
timbering national forests, I request robust funding for the 
National Forest System. I also urge full funding for the forest 
products and timber sales, capital improvement and maintenance, 
and forest roads.
    Further, I request that the committee include report 
language calling for the Forest Service to specifically meet 
each forest plan's harvesting levels. Forests are living and 
breathing ecosystems that need to be managed, and providing 
necessary funding for such management activities, including 
timbering, prescribed burns, and thinnings, is essential for 
force health and in order to prevent wildfires.
    Regarding other management activities, the Forest Service 
is doing important work on invasive species, diseases, and 
forest health, and I have seen this firsthand at the Warren 
Research Lab located in my district. This work is fundamental 
in helping to not only deal with existing forest health 
programs, but also to get in front of the emergency ones before 
they exacerbate and become greater threats. With this in mind, 
I request much-needed funding for Forest Service research 
activities, specifically for forests and rangeland research, as 
well as for the State and private forests.
    Similarly, we must provide necessary resources for the Fish 
and Wildlife Service's State and tribal wildlife grants for the 
purpose of insect, disease, and invasive plant research. This 
program directly supports grants to the States for species 
conservation in order to help prevent listings under the 
Endangered Species Act. And finally, I would like to register 
my great support for the Payments in Lieu of Taxes Program, as 
well as Secure Rural Schools. Though currently expired, Secure 
Rural Schools has been a critical lifeline for National Forest 
counties in providing essential services because of the greatly 
reduced timbering in the national forest since the early 1990s.
    With that, I want to thank you for the opportunity to 
provide testimony to the committee, and I look forward to 
working with you as the appropriations process continues to 
move forward in the Fiscal Year 2018. Thank you so much.
    Mr. Calvert. Thank you, Mr. Thompson, for your testimony, 
and we will take all this into account. Any questions?
    [No response.]
    Mr. Calvert. Seeing none, next, Ms. Sewell from the great 
State of Alabama. And Mr. LaMalfa, you may come over her and 
take a seat also. Good afternoon.
    [The statement of the Hon. Glenn ``GT'' Thompson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. TERRI SEWELL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ALABAMA
    Ms. Sewell. Good afternoon.
    Mr. Calvert. You are recognized for 5 minutes.
    Ms. Sewell. Thank you, Chairman and Ranking Member for 
giving me the opportunity to testify today.
    First, I want to thank the subcommittee for working with me 
in the past and for your demonstrated commitment to historic 
preservation. As you begin to consider the FY 2018 Interior 
Appropriations bill, I ask that you continue to strongly 
support historic preservation funds and the National Park 
Service Construction Account.
    Specifically, I am requesting an increase from $78.4 
million to $87.4 million in the Historic Preservation Fund, 
including $25 million for the Civil Rights Competitive Grants 
to preserve, document, and interpret the sites and stories of 
the Civil Rights Movement and the African-American experience.
    I am also requesting that, once again, we provide $3 
million to be included for competitive grants for historically 
black colleges to document sites and stories associated with 
the Civil Rights Movement. Furthermore, I am requesting that 
the National Park Service Construction Account be funded to 
$252 million from $215 in last year's budget. These dollars 
fund construction projects, equipment replacement, management 
planning, and special projects.
    Under the Construction Fund, I am asking that $4.3 million 
support the Civil Rights Initiative by completing high priority 
facility projects at National Park Service sites related to the 
Civil Rights Movement and the African-American experience.
    My district is the 7th Congressional District of Alabama, 
known often as the Civil Rights District. It includes 
Birmingham, Selma, and Montgomery. Many historic events took 
place there from the bombing of the 16th Street Baptist Church, 
to the Children's March, to the Montgomery Bus Boycott, to 
Bloody Sunday in Selma. Some of you may have even taken the 
trip with John Lewis through my district. These stories are of 
national and international significance, and we are fortunate 
that the National Park Service is preserving and interpreting 
these stories.
    In my district, we have the Selma to Montgomery National 
Historic Trail, as well as the new Birmingham National Historic 
Monument. I am so excited that the Park Service has a strong 
presence in my district, and I know firsthand how seriously 
they take their mission as the Nation's storytellers.
    The National Park Service not only preserves the sites and 
stories of our great American history, but they also provide 
very important economic revitalization and jobs to those 
communities. In my hometown of Selma, the Selma Interpretive 
Center brings tourism dollars to a rural Black Belt community. 
In Birmingham, the Civil Rights National Historic Monument is 
playing a critical role in the downtown revitalization of that 
city.
    In fact, for every dollar invested in the national parks, 
$10 is generated in national economic activity for those 
communities. I can testify that this is truly the case.
    National Parks support more than a quarter million private 
sector jobs according to the National Trust for Historic 
Preservation. Moreover, the American people overwhelmingly 
support the National Park Service and their missions. According 
to the National Parks Conservation Association, 95 percent of 
voters support the National Park Service, and more than 80 
percent have visited a national park in their lifetime.
    However, the National Park Service has faced deep budgetary 
restraints in recent years. Their deferred maintenance project 
list continues to grow, and they have been limited in their 
ability to protect new sites that would more fully tell 
America's story. That is why I am asking that the National Park 
Service Construction Account be increased to $252 million in 
order to complete pending projects and expand the National Park 
Service presence in more communities across America.
    Also, Congress must ensure that the Historic Preservation 
Fund is strengthened. The foot soldiers of the Civil Rights 
Movement are aging, and we must document their stories before 
they are lost. And who better to document those stories than 
the students from historically black colleges?
    These students are the beneficiaries of Civil Rights 
Movement, and they have the opportunity to not only preserve 
history, but to be inspired by the brave Americans that risked 
their lives in the pursuit of social justice and equality. I am 
requesting that $3 million is included for competitive grants 
to historically black colleges to document the sites and 
stories associated with the Civil Rights Movement.
    The funding that I am requesting is an investment, an 
investment not only in historic preservation, but also an 
investment in the economic redevelopment of many of the 
communities across America. We all have history in our 
districts, and it is important to preserve it.
    Thank you for listening to my testimony, and I hope that 
you will strongly consider my request. I look forward to 
working with you as we preserve our natural resources, the 
National Park Service, and historic preservation for all 
Americans to come.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    Mr. Calvert. Thank you. Condi Rice is from your district.
    Ms. Sewell. Birmingham, absolutely.
    Mr. Calvert. That is right. Well, thank you for your 
testimony.
    Ms. Sewell. Well, I thank you, and this committee has been 
very gracious to work with my office in the past, and I hope 
that you will work with us on historic preservation once again. 
Thanks.
    Mr. Calvert. Thank you.
    Next, Mr. LaMalfa from the greatest State in the Union, 
California.
    Mr. Simpson. I thought he was from Idaho for a second. 
[Laughter.]
    Voice. Are you going to take that?
    Mr. Simpson. No, I said I thought he was from Idaho for a 
minute when he said that. [Laughter.]
    [The statement of the Hon. Terri A. Sewell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. DOUG LAMALFA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. LaMalfa. I appreciate the time, Mr. Chairman, and 
committee members, Ranking Member. Thank you.
    Thank you for allowing me to testify today on the long 
issue of forestry-related problems, which I have so much in my 
district and which we share so much in common. I am asking the 
community to act this year on really three key areas: biomass 
and encouragement of the usage of that for creating energy; 
streamlining the post-fire restoration issues we face so much, 
especially in Northern California. Other States I understand 
have a little easier go of it post-fire. And also, addressing 
the vicious cycle of diverting force management funding to fire 
suppression. As we have seen, what used to be one-third for 
suppression for the Forest Service has now gone to two-thirds 
with one-third left to do other work.
    We have at catastrophic risk over 82 million acres in this 
country. Since 2001, forests in California have burned by 
wildfires at an average rate of about 320 acres per year. We 
have bark beetle infestations and other disease problems that 
have impacted a total of 4 million acres, or nearly 25 percent, 
of national forests.
    With so much land already negatively impacted by wildfires, 
streamlining the post-fire salvage process should be a key 
priority. That timber still has value within a short window of 
time, which can go towards the cost of helping reforest an area 
which needs to be done. Erosion is a problem. Erosion getting 
in our waterways, our lakes, is a giant concern across the 
board from so many points on the spectrum.
    Post-fire restoration costs can reach $2,000 an acre, 
ensuring that rapid salvage efforts that preserve this 
timberland can offset those costs by generating revenue, and 
the damage that can come from an erosive habitat. To help speed 
post-fire restoration efforts, the committee should include 
report language directing the Forest Service to utilize 
existing categorical exclusions to the greatest extent 
possible, streamlining the process, particularly when 
considering this post-fire salvage and restoration effort.
    We know bark beetles have the ability to kill a whole tree 
in a matter of just a few weeks. The period in which trees may 
be processed from useful timbers, as I mentioned, can be just a 
few short months. If dead trees preferably were not processed 
in that period, they still may be used as fuel for biomass 
energy production. Biomass plants can be an effective and 
efficient way to help rid the forest of salvage and hazardous 
fuel, generating electricity, and creating local jobs in an 
economy that has been very damaged in recent decades in the 
rural part of forested America.
    Yet the remote locations of many impacted forests can 
create cost challenges to getting this biomass to a plant. To 
help address the buildup of dead trees caused by drought and 
disease, the subcommittee should prepare report language 
directing the Forest Service to prioritize the use of $15 
billion in biomass support funds that exist for projects to 
expedite the removal of dead trees from areas designated as 
high fire hazard areas.
    I also believe, as do many of my western colleagues--that 
the subcommittee should consider including language similar to 
that of my colleague, Mr. Simpson, his H.R. 167 from the 
previous session, that would make large forest fires eligible 
for Federal disaster funding in the way that hurricanes, 
earthquakes, and other large disasters are already.
    The Stafford Act set guidelines for engaging in post-
disaster emergency activities that fails to recognize fires as 
major disasters eligible for Federal assistance, exempt from 
the NEPA process. Such changes would provide the Forest Service 
with the means to engage in restoration and reforestation work 
immediately, leading to an increase in overall forest health 
and resiliency.
    A common theme contributing to the decline of forest health 
is frivolous lawsuits filed by extremist groups intended solely 
to delay projects until they no longer become feasible, which 
is made possible by a loophole that allows payment of 
drastically higher attorney fees for ESA lawsuits than for 
other suits against the Federal government. This helped delay 
in my own district a fire from 2015 that took a year and a half 
to be sorted out instead of salvaging within six months, a tiny 
area of that forest.
    Representative Huizenga sponsored a measure addressing this 
issue on these lawsuits, and it was passed by the Committee on 
Natural Resources. He and Rep. Flores and I sponsored an 
amendment on the issue last session. To end these lawsuits and 
to end the practice of some groups using this as a business 
plan, as a money maker, the subcommittee should include 
language aligning attorney fees and ESA lawsuits to the $120 
dollar per hour cap applied to all other suits against the 
Federal government.
    So, Mr. Chairman with these investments and these reforms 
we can begin to engage in a much more effective forest 
management plan that favors a more practical approach, will 
improve forest health, protect rural communities, protect our 
air, protect firefighters, and generate revenue for the Federal 
and local governments with jobs for those people that have been 
so devastated by the economy being taken away.
    With that, I thank you for your time today.
    Mr. Calvert. Thank you, Mr. LaMalfa, for your testimony. 
I'm sure Mr. Simpson shares your hope that we can get the 
wildfire bill passed in this Congress. Every member of the 
committee, both Republican and Democrat, are signed on to Mr. 
Simpson's bill, and we are hopeful we have a better shot this 
year than we did last year. With that, thank you very much.
    Mr. LaMalfa. Thank you.
    Mr. Calvert. Next, Mr. Morgan Griffith from Virginia.
    [The statement of the Hon. Doug LaMalfa follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. MORGAN GRIFFITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
    Mr. Griffith. Yeah. Thank you very much. Appreciate it.
    Let me talk about my district first, and then I will talk 
more globally. First, I heard Mr. Thompson say something about 
PILT. It was affirmative. And even though you usually hear that 
coming from western States, mine, too, is a district that 
receives PILT, having one of my counties being 50 percent owned 
by National Forest, and another that is about 39 percent. So, 
it is--it is--for some of the eastern districts in the 
mountains, it is important as well.
    Let us talk about the mountains in my district where we 
have historically produced coal. We have had some problems. Mr. 
Chairman has been very helpful over the last couple of years. 
The Power-Plus Program is a great program. As you will recall, 
you helped me--we tried to finagle a way to help the 
Commonwealth of Virginia because we are in the second tranche. 
The first tranche is West Virginia, Kentucky, and Pennsylvania. 
They have gotten the lion's share of the money. Do not have any 
problem with them getting a big chunk.
    But I border West Virginia and Kentucky. The people who 
mine coal in Kentucky and West Virginia sometimes live in my 
district, and the people who mine coal in my district sometimes 
live in West Virginia and Kentucky. We are all the same culture 
in that end of the district, and we need some help. So, you 
have helped me in the past, and I appreciate that. If we can 
somehow not necessarily think of the second tranche ought to be 
equal, but substantial, that would be a big help to the people 
in my district because I have got counties that do not have any 
land that they can convert to a new----
    As people say, they want to--they want coal to convert or 
to change those jobs into something else. When you do not have 
anything but a two-lane road, and you have only got two flat 
pieces of land in one of my counties where they then condemned 
one flat piece of land to get the high school out of the flood 
way, where the cafeteria used to flood about every third year, 
it makes it tough.
    One of the things we can do is the Power-Plus where we can 
then reclaim that abandoned mine land and convert it to--some 
economic use as well, which would be of great benefit to the 
people. So, I ask for your help on that.
    Now, going global, EPA. And I think this is one, you know, 
you take off the regular thought processes. I think that we 
need to move some of the workforce out of Washington, D.C., but 
that does not mean taking to folks that are in Washington, D.C. 
who have been writing regulations and move them to some other 
part of the country to write regulations.
    I think we saw with Flint, Michigan that what you have got 
to do is we need more people out there like the EPA worker who 
blew the whistle and say, hey, something is going on here, 
offered with his own money to do the testing. And in that case 
we had a rogue EPA person. I am not blaming the whole EPA for 
that, but a rogue person who said, hey, hey, cover that up, and 
that person then immediately retired when it all came public.
    But it was a constituent of mine from Virginia Tech who 
came forward and said we are going to go out there. We are 
going to take our resources in Virginia and spend them on 
Flint, Michigan. And it was that professor at Virginia Tech who 
actually uncovered the whole lead problem.
    I think we need more people in the field working on 
projects where we have clean water to make sure we do not have 
lead coming in. That is the EPA's core purpose. When they do 
their core purpose, they are very good at it. When they start 
trying to put industries out of business, that is not their 
field. They do not always understand what they are doing. They 
have even told us in the past--well, the Court has since said 
they got--the Supreme Court has since said you got a different 
measure. They said it not our--it is not our job to figure out 
how many jobs are going to be lost or how much it costs. We do 
a rough estimate, but it's not really our job. They should do 
that.
    But I know of places in my district they could use some 
clean water that do not have it. I know people that need sewage 
treatment help. And instead of trying to punish folks, if we 
can move some of those people that are currently in Washington 
doing desk jobs into the field, and have them looking at trying 
to help us in the poorer regions of the country figure out how 
we are going to get clean water from point A to Point B, and 
how are we going to deal with sewage treatment in areas that 
are poor.
    It is interesting, we do not always qualify--watch my time 
here. We do not always qualify in some areas in my district 
because the people who have made good money in the coal 
industry build nice big houses, and they have those septic 
systems that take care of their problem. Their next door 
neighbors do not have that advantage, the folks who are not 
quite as well off financially. But they do not--unlike most 
parts of the country they do not live a long way away from each 
other.
    So, in the census block, we do not measure up as poor 
enough to get help on things like sewage treatment because you 
got the rich folks living just a stone's throw away from the 
not so rich folks, the people who cannot afford it, and it 
skews all the numbers for the census block.
    So, I don't know how you help with that, but one of my 
thoughts is I do not know how you change the formula. I do not 
have a magic bullet on that. But if somehow we could figure out 
a way that we get more people who their job is to help us 
figure out in the field how we are going to deal with getting 
clean water to the back hollows and how we are going to deal 
with sewage treatment where we do not have a sewage treatment 
plan.
    And literally, I know of a spot in my district where it is 
rolling down the side of a hill, and they have taken measures 
to put bolts and all kinds of things in the rain runoff section 
of the road so that they can hope by the time it gets to the 
bottom of the mountain it is not nearly as dirty as it was when 
it left their toilet.
    With that, I yield.
    Mr. Calvert. Well, and I appreciate your testimony. I know 
there has been discussion about using ZIP Codes instead of 
using economic zones, and I think that is something that these 
agencies with today's technology should consider.
    Mr. Griffith. And if you could help me on Power-Plus, I 
really would appreciate it, but you have in the past.
    Mr. Calvert. We're very aware of the program and how much 
help it has been in Appalachia Country. Thank you so much for 
your testimony.
    Mr. Griffith. Appreciate you all's time.
    Mr. Calvert. Thank you. Next, okay, Sheila Jackson, and Mr. 
Cleaver. I think, Mr. Cleaver, you were here first?
    Ms. Jackson Lee. I am on the list for being----
    Mr. Calvert. All right, fine. No problem.
    Ms. Jackson Lee. Yeah, if Mr. Cleaver does not mind. I am 
in a markup.
    Mr. Calvert. Okay.
    Ms. Jackson Lee. Mr. Cleaver, I will be very brief.
    Mr. Calvert. All right.
    Ms. Jackson Lee. As brief as I can be.
    Mr. Calvert. You are recognized for 5 minutes.
    [The statement of the Hon. H. Morgan Griffith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. SHEILA JACKSON LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Ms. Jackson Lee. Thank you to the chairman and ranking 
member, to the courtesies of Mr. Cleaver. Let me thank you to 
the members of this committee.
    As we reflect on the backdrop of a potential $54 billion 
dollar ramp up to military spending and the prospective cuts in 
discretionary spending, let me be counted as an advocate for 
the work that this committee does and for the important funding 
that you oversee, and speak to it as quickly as possible.
    Let me support initially the overall work that you do, but 
particularly the Safe Drinking Water, Clean Air, and Land 
Environmental Justice. That is a critical part in helping 
communities maintain safe and effective water infrastructure. I 
happen to be from an urban city, but we are constantly dealing 
with the question of water and water development in the City of 
Houston.
    I also want to add my support for the $15 million dollars 
for land and water conservation for the Outdoor Recreation 
Legacy Partnership that complements the traditional formula of 
State conservation grants and, in particular, the priority 
given to projects that engage and empower underserved 
communities and youth, and provide opportunities for employment 
and job training.
    I also want to add--and I have a whole list of which I ask 
unanimous consent that my whole statement be submitted into the 
record.
    Mr. Calvert. Without objection.
    Ms. Jackson Lee [continuing]. And speak to specific issues.
    I also want to acknowledge our support for $87 billion 
dollars for the--excuse me--$87 for the Historic Preservation 
Fund. It provides funding for the core historic preservation 
programs, support for the National Endowment for the Arts, 
funding for the NEA and its extremely important programs, and 
particularly Blue Star museums, Operation Homecoming, and 
others.
    I add my support, among others, for the HBCU Historic 
Preservation Program. The National Trust for Historic 
Preservation has designated the HBCUs among the Nation's most 
endangered sites, and this was done in 1998. And we have tried 
to continue to fund those historic sites, and I would ask that 
those dollars be continued, along with the monies for the 
historic preservation of Japanese-American confinements sites.
    And then I want to spend a little time on the Endangered 
Species Conservation Fund. The CESCF provides vital funding to 
regional habitat conservation through competitive grants, and I 
believe the importance of protecting endangered species is an 
important responsibility of your work, and I would encourage 
and support that work.
    I support the monies for the National Endowment for the 
Humanities. NEH is the single most important source of Federal 
support for the Humanities, and the investment, I call it 
critical learning, in U.S. interests by focusing on a workforce 
that should be enhanced with the knowledge that will make them 
a global workforce, but also a culturally exposed workforce.
    I want to conclude my remarks by speaking to the dollars 
that I support for the National Heritage Partnership Program. 
The 49 National Heritage areas across the country preserve and 
revitalize cultural, historic, natural resources, delivering 
recreational and educational opportunities to visitors, 
residents, and entire regions. Through innovative public 
private partnerships, National Heritage areas have effectively 
leveraged Federal resources, attracting an average of $5.50 of 
private funding. That is an important statement that when we 
have these Heritage Areas, we draw the private sector private 
involvement.
    Mr. Chairman and Ranking Member, as I said, are 49 sites, 
and there are none in the State of Texas. We hope to rectify 
this in the not too distant future. Texas is the largest and 
second most populous State in the Nation, and it has a unique 
story in American history with its diverse geographic 
landscape, natural resources, and population. From Galveston's 
port, East Texas farms, and forestry, and the Buffalo Soldiers, 
Texas has a rich multicultural heritage and history. And one of 
those stories to be told is the trail from the point of the 
Emancipation Proclamation delivered by Captain Granger in 
Galveston all through Galveston and counties beyond, through 
Emancipation Park in Houston, Texas, which was built by slaves.
    So, as I said there are many sites to be honored and 
respected, and the $9 billion dollars that has been set aside 
for the National Heritage Partnership Programs I hope will be 
strongly supported. I ask all of you as you proceed to look at 
some of the issues that we have emphasized to be able to help 
America's good health, and as it relates to its interior, its 
environment, and its water continue to be successful.
    Mr. Calvert. I thank the gentlelady for her testimony. Any 
questions?
    [No response.]
    Mr. Calvert. Thank you very much. Appreciate it. Mr. 
Cleaver, I appreciate you coming in.
    [The statement of the Hon. Sheila Jackson Lee follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
                                        Tuesday, February 28, 2017.

                                WITNESS

 HON. EMANUEL CLEAVER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
                                MISSOURI

    Mr. Cleaver. Thank you, Mr. Chairman. Let me thank you and 
the Ranking Member, Ms. McCollum, for this opportunity to speak 
with you.
    I want to especially thank both you, Ms. McCollum and Mr. 
Simpson for graciously participating in the colloquy on the 
floor with me last year when I came to express support for the 
World War I Commission. I would like to request the committee's 
support in providing funding in Fiscal Year 2017 and 2018 for 
the United States World War I Centennial Commission to carry 
out the duties and obligations that we in Congress gave them.
    As you know, April 6 is the 100th anniversary of the United 
States' entry into World War I. Over 4.7 million men and women 
served our Nation in uniform, and over 116,000 Americans gave 
their lives. The U.S. World War I Centennial Commission is 
currently planning and implementing programs and events to 
honor those who served.
    All the nations that participated in World War I are trying 
desperately to put on a worthy commemoration. Their governments 
are sponsoring all of the events that will take place in 
Europe, and, of course, there will be events taking place here 
in Washington, in Kansas City and around the country. So, why 
not get involved in the World War I Commission.
    Judge Poe and I, for separate reasons ended up pushing for 
a World War I memorial. There is no World War I memorial--
national World War I memorial in existence. At least there was 
not. There is a D.C. memorial that has fallen in deep 
disrepair. Money is being raised to build a memorial in 
Pershing Park here.
    The reason I became involved is that at the end of World 
War I, the people of Kansas City--kids gave dimes, pennies, and 
they built the most majestic World War I memorial anyplace. 
When I was mayor of the city, I came up because it had fallen 
into disrepair, offered it to the National Park Service. They 
respectfully declined. I went back, and the taxpayers decided 
to vote to put a museum in it and rebuild it. And this is it 
today.
    One hundred and three thousand people turned out to greet 
the leaders of the Allied Forces from World War I here in 
Kansas City, without microphones I might add, and including one 
veteran of the war, Harry Truman. And so, they built it with 
money from little kids, and this is it today.
    I am just desperately asking for consideration that we help 
fund this commemoration that is so significant to our national 
history. There are no World War I veterans left. I do not think 
we ought to allow this World War I Commemoration Centennial to 
go by without remembering the many sacrifices made.
    I think it will be an embarrassment if we fail to 
commemorate World War I at the level that our European allies 
are doing, and people from here including our President and 
members of the House and Senate are going to be invited to 
Europe. We want to have something significant in the United 
States.
    I appreciate your time. Thank you.
    Mr. Calvert. Thank you. It is a very noble cause, and I 
think it is worth doing. So, we will take a very close look at 
it. Thank you very much for your testimony.
    Mr. Gosar, you are recognized for 5 minutes.
    [The statement of the Hon. Emanuel Cleaver follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. PAUL GOSAR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF ARIZONA
    Mr. Gosar. Thank you, Mr. Chairman, for the opportunity to 
testify before the subcommittee. I am Congressman Paul Gosar, 
and I represent Arizona's 4th Congressional District. I am also 
the chairman of the Congressional Western Caucus, chairman of 
the House Committee on Natural Resources Subcommittee on Energy 
and Mineral Resources, and the vice chairman of the House 
Committee on Oversight and Government Reform Subcommittee on 
the Interior.
    Critical programs and oversight activities addressed by the 
Interior, Environment, and Related Agencies appropriations bill 
fall under my purview, and I would like to take this 
opportunity to discuss several of those today. The most 
important program I would like to advocate for today is the 
Payment in Lieu of Taxes, the PILT Program.
    PILT was first signed into law in October of 1976, and was 
created to compensate local governments for large quantities of 
untaxable Federal lands within their jurisdiction. Local 
property and sales typically fund county government, allowing 
them to provide essential services, like law enforcement, 
infrastructure, and educational needs.
    The inability for counties to collect local taxes on 
Federal lands are particularly burdensome, especially when 
counties often provide critical services on these very lands. 
PILT funding helps offset the losses of these critical 
revenues, and allows for the continuation of essential 
services.
    In Fiscal Year 2015, the national average for PILT payments 
was 72.4 cents per acre. This figure is nowhere near the amount 
of revenue that would be generated if these lands were able to 
undergo economic development and value-based taxation. This 
disproportionately impacts rural areas where access to 
government resources is already more difficult than in larger 
cities. I am a strong supporter of PILT and call on this body 
to provide full funding for PILT for the Fiscal Year 2017, 
Fiscal Year 2018, and beyond.
    The next program I would like to advocate for deals with 
on-the-ground sage-grouse conservation. The Fiscal Year 2015 
House Interior and Environmental appropriations bill provided 
an increase of $12 million above the Fiscal Year 2016 level for 
these purposes.
    Sage-grouse conservation and management is an issue best 
accomplished on the ground by States and local stakeholders. 
While Arizona does not have to deal with the sage-grouse issues 
directly, this is an important issue that impacts Western 
Caucus members and communities throughout the West. The 
subcommittee should continue to provide funding for local 
conservation and management purposes.
    The Subcommittee and the full Appropriations Committee 
should also work with Western members to defund the de facto 
sage-grouse listing implemented by the Department of Interior 
through the Resources Management Plan--the RMP--and Land 
Resources Management Plan, or the LRMP, amendments. These 
misguided amendments were not warranted and sought to prevent 
responsible mineral production and other activities across 11 
States, 67 million acres of land administered by the BLM and 
the Forest Service, and tens of millions of acres of Federal 
and mineral estate.
    The Fiscal Year 2017 Interior and Environmental 
appropriations bill included numerous prohibitions and riders 
that were important to Western communities, and I would like to 
thank you for including those provisions.
    I would like to ask the subcommittee to again retain the 
following provisions that were passed by the House in last 
Fiscal Year's bill: a rider prohibiting the Environmental 
Protection Agency's attempt to expand the Clean Water Act 
through unlawful guidance; a provision allowing for responsible 
State management of the Mexican wolf population; a rider 
blocking funds for the EPA to implement its Waters of the 
United States or the WOTUS rule; a provision prohibiting funds 
from the social cost of carbon; a rider prohibiting the EPA 
from implementing new greenhouse gas regulations for new and 
existing power plants and eliminating funds for the greenhouse 
gas New Source performance standards; a prohibition on the EPA 
from imposing duplicative financial insurance requirements; and 
a prohibition for the regulation of the lead content of 
ammunition and fishing tackle.
    Unfortunately, the Obama Administration also churned out 
numerous job killing regulations since last Fiscal Year's bill 
was passed. We have been addressing many of those in the House 
CRAs. However, many of these rules need to be addressed in the 
Fiscal Year 2018 Interior, Environment, and Related Agencies 
appropriations bill. These include, but are not limited to, the 
BLM's Venting and Flaring Rule; BLM's Planning 2.0 Rule; the 
Office of Natural Resources revenues revision of the Federal 
Mineral Production Valuation Rule, and numerous others.
    I appreciate the opportunity to testify before you. I would 
like to thank all of the members of the subcommittee for your 
important work, and hope this Fiscal Year's bill is as good as 
the excellent legislation passed out last year. The Western 
Caucus and the members of my subcommittee look forward to 
coordinating with you and building on that effort.
    Thank you again, and I appreciate all your time.
    Mr. Calvert. Thank you. I just want to point out, as you 
know, PILT is fully funded----
    Mr. Gosar. Yeah.
    Mr. Calvert [continuing]. In the 2017 appropriation bill. 
But long term, we need help from the authorizing committees to 
fix this problem.
    Mr. Gosar. Yeah, I agree with you, Mr. Chairman.
    Mr. Calvert. So, any help you can do on that, that would be 
very beneficial in the process.
    Mr. Gosar. We will certainly do whatever we can.
    Mr. Calvert. Great. Thank you. Appreciate it.
    Mr. Gosar. Thank you.
    Mr. Calvert. Any questions?
    [No response.]
    Mr. Calvert. Next, David Price from North Carolina and 
Jimmy Panetta from the great State of California.
    [The statement of the Hon. Paul A. Gosar follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. DAVID PRICE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NORTH 
    CAROLINA
    Mr. Calvert. We appreciate you both coming in today. David, 
you are recognized for 5 minutes.
    Mr. Price. Good afternoon, Mr. Chairman, ranking member, 
and colleagues. Glad to see all of you. I appreciate the chance 
to address the subcommittee regarding the importance of the 
National Endowment for the Arts and the National Endowment for 
the Humanities.
    I am co-chair of the Congressional Humanities Caucus in the 
House, a responsibility I share with Representative Leonard 
Lance. Additionally, I am a member of the Congressional Arts 
Caucus. So, in these capacities I am happy to support the 
missions of these two agencies.
    The Humanities Caucus is bipartisan. We support the efforts 
and contributions of the National Endowment, an Agency that has 
a broad impact on districts across the Nation, both rural and 
urban. Since its inception, NEH grants have leveraged more than 
$4 billion in matching grants for the humanities. I mean, 
expenditures in both of these endowments had that leveraging 
feature. For example, in the last year alone, Federal NEH 
museum grants leveraged $33 million into an additional $104 
million. Pretty good return for the American taxpayer. Further, 
every Federal dollar that state humanities councils give out in 
grants leverages $5 at the state and local level.
    So, the work of the Humanities' endowment goes far and runs 
the gamut from very sophisticated projects of national 
importance. For example, the digitization of key material, such 
as the electronic publication of Alexander Hamilton's 
Federalist Papers, makes the humanities more accessible to all 
Americans, especially in rural areas. Two very local projects, 
projects with very small grants that encourage local history 
and local access to new culture and the heritage that flourish 
in our States and communities.
    There are projects like the virtual gallery of Buffalo 
Bill's Wild West Show. So, it is not just the Founding Fathers, 
but it is a range of approaches to history, all of which 
promote understanding, excitement, and interest. It reaches 
Americans in every walk of life. Grant allocations are small, 
but they do target unique projects that expand research and 
knowledge.
    The NEH remains the most important source of Federal 
funding for research, scholarship, history, literature, foreign 
language, and other fields to provide us with a rich and 
dynamic ethical, and cultural, and historical perspective.
    I will be more brief with the NEA, but I think it is 
equally important. It is a twin agency. It helps us glimpse 
through the keyhole of history, discovering the social, and 
economic, and political environments of the past.
    The Arts Endowment's effectiveness is due in part to the 
program's robust system of partnerships. I think we have all 
experienced this with our local arts councils, our state arts 
agency. We come into contact with this with the Congressional 
Arts Competition, for example.
    These programs have a cultural impact. They also have a 
profound economic impact. The estimate I have seen, NEA helps 
support 4 and a half million jobs, $698 billion in economic 
activity. So, we need to protect and, if possible, enhance the 
work of these agencies. I know there are reports that we might 
do just the opposite, that there are some proposals from 
outside groups, from think tanks, to eliminate funding 
completely. I hope we can reject this misguided approach.
    I know as a senior member of this committee that we have a 
lot of difficult choices, but it seems to me this one should be 
fairly clear cut. With the NEA and NEH, the facts are clear. 
These are modest expenditures that generate millions of jobs, 
hundreds of millions in direct economic activity, and broad 
public benefit and support.
    So, to quote Thomas Campbell, director of the Metropolitan 
Museum of Art, ``Eliminating the NEA would, in essence, 
eliminate investment by the American government in the 
curiosity and intelligence of its citizens.''
    It is also important the way NEA and NEH grants signal 
private investors. They serve a kind of validation function in 
terms of standards that might justify investment, while at the 
same time, cultivating diversity in the kinds of grants made.
    So, instead of eliminating our government's modest support 
for these endowments, we should hold steadfast in our 
investment, and understand that this is just that, an 
investment, where we are generating more than $4 billion in 
private funds for the humanities, for example.
    So, I thank you for the opportunity to testify on behalf of 
these agencies. I urge you to look at the nationwide impact of 
these endowments, and continue to provide support. Thank you.
    Mr. Calvert. Thank you for your testimony, David. As you 
know, there has always been bipartisan support for these 
programs. I suspect that will be in the future, too.
    Mr. Panetta.
    [The statement of the Hon. David Price follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. JIMMY PANETTA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Panetta. Thank you, Mr. Chairman. I appreciate this 
opportunity to be here to testify in front of you. Ms. 
McCollum, Mr. Simpson, and staff thank you. I appreciate this 
chance to talk to you about investing in programs that preserve 
and protect something that I feel is important to all of us, 
and that is that is our natural resources.
    I represent the 20th Congressional District in California, 
the Central Coast, which I believe is the most beautiful 
district in the United States.
    Mr. Simpson. You are only one off. [Laughter.]
    Mr. Panetta. You will understand that sentiment after my 
testimony, or at least have some empathy for why I would say 
that.
    I admit I am new to Congress, but I am learning a lot about 
the process and protocol. One thing I do realize is how 
important the Appropriations Committee's annual check on our 
Nation's priorities is through the power of the purse. That is 
why I am asking for the Appropriations Committee to focus on 
providing funding for three areas: the Land and Water 
Conservation Fund, the Bureau of Land Management, and the 
Wildland Fire Management in the Forest Service.
    The Land and Water Conservation Fund is the only Federal 
program for the conservation and promotion of national parks, 
forests, and Bureau of Land Management land. In my district on 
the Central Coast of California, Federal grants have allowed 
the purchase of a number of land in holdings, in areas such as 
the Los Padres National Forest, the Ventana Wilderness Area, 
the Pinnacles National Park, and the Ellicott Slough National 
Wildlife Refuge. These land holdings are stunning pieces of 
land, yet like anything, they need to be managed properly.
    Continued Federal funding of those Federal and State 
projects allows them to be managed effectively and efficiently. 
That is why I submit to you that $475 million in discretionary 
funding should be appropriated for the Land and Water 
Conservation Fund.
    When it comes to the Bureau of Land Management, there are 
two areas I want to focus on: the Recreation Resources 
Management Account and the National Landscape Conservation 
System Account. The Recreation Resources Management account is 
important because it provides for the upkeep of BLM land, but 
requires the necessary funding. In order to maintain a safe and 
engaging experience for the vast areas of BLM land, I recommend 
appropriating $69.4 million this fiscal year.
    In regards to the BLM National Landscape Conservation 
System, in my congressional district we have two national 
monuments: the California Coastal National Monument and the 
Fort Ord National Monument. The California Coastal National 
Monument spans 1,100 miles along the entire California coast 
and includes the coastline of my district. It is focused on 
protecting the intertidal areas of the coast. The BLM's 
National Landscape Conservation System protects an estimated 
200,000 breeding seabirds and thousands of marine mammals 
within this national monument.
    The Fort Ord National Monument is 15,000 acres of dedicated 
open space. It was used as a military training ground for the 
brave men and women that served our Nation from World War I to 
the Gulf War. Now that land attracts not just veterans, but 
scientists who are interested in the rich diversity of rare and 
unique species of plants that can only be found in that area. 
That area also attracts hikers, mountain bikers, and 
birdwatchers. It is a prime example of California's outdoor 
recreational opportunities, but also a revenue source.
    In California, outdoor recreation supports over 700,000 
jobs and $27 billion in wages and salaries. That is why I 
support the continued investment of $80 million for Fiscal Year 
2018 for the BLM National Landscape Conservation System. I 
believe that this is an investment that will not only help 
maintain the national monuments, but also the people who live, 
work, and experience those areas.
    Finally, I would ask to invest in our Nation's response to 
natural disasters, especially wildfires. Last summer in 2016, 
the Central Coast experienced the Soberanes fire near Big Sur. 
As you probably know, that was the most expensive fire in our 
nation's history. It took thousands of firefighters many months 
to contain this expansive wildfire that consumed more than 
130,000 acres and cost more than $200 million to fight. That 
cost does not include the lost wages, the high cost of repairs, 
and the loss of business revenue.
    We are still feeling the impact of that fire today because 
that same area is now being torn apart by massive flooding. 
Without the vegetation to hold the soil in place, the ground 
shifts and that is what causes mudslides, which not only 
destroy our roads and properties, but it also traps and cuts 
off hundreds of people in certain communities. Right now, Big 
Sur is reeling because of all the landslide damage, including a 
316-foot-long bridge that has been taken out and is in need of 
replacement.
    Therefore, I recommend that the Wildland Fire Management in 
the Forest Service receive no less than $2.7 billion for both 
fighting wildfires, but also for anti-fire protection, such as 
the maintenance of fire breaks.
    I realize my testimony contained evidence about parks, 
national monuments, and open spaces in my district on the 
Central Coast of California, but it is my home, and I am proud 
of it. I grew up there, and due to my experiences it is why I 
am here in front of you. But I also believe that is why it is 
important to protect these areas for my daughters so they can 
have these experiences, and go on to promote and talk about the 
national treasures as I do.
    I hope that you consider those investments, and that is why 
I advocate and respectfully ask for the funding of programs 
that are vital to the preservation and protection of our 
natural resources for all of our children and our future.
    Thank you very much.
    Mr. Calvert. Thank you, and you probably already are a 
signatory to Mr. Simpson's bill on wildfire.
    Mr. Simpson. If not, you can sign up really easily.
    Mr. Calvert. Big Sur was a large fire, but we had the Rim 
fire over by Yosemite. It cost us about $250 million dollars to 
put that fire out. In California we have very expensive fires.
    But I really do enjoy your district, especially Pebble 
Beach. [Laughter.]
    It is a nice place.
    Thank you for your testimony.
    Any questions?
    Ms. McCollum. I think Mike and I like our districts, too.
    Mr. Calvert. Yeah, we do.
    Ms. Simpson. Pebble Beach is kind of special. [Laughter.]
    Mr. Calvert. That is a national treasure, that is for sure.
    Well, thank you for your testimony. Appreciate it.
    Okay. Next, Alma Adams. How are you today?
    Ms. Adams. I am doing well, thank you.
    Mr. Calvert. Well, thank you for coming today, and you are 
recognized for 5 minutes.
    [The statement of the Hon. Jimmy Panetta follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. ALMA ADAMS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NORTH 
    CAROLINA
    Ms. Adams. Thank you, Mr. Chair. Good afternoon, Chairman 
Calvert and Ranking Member McCollum. Thank you for allowing me 
the opportunity to testify about the arts and humanities in our 
country.
    As the representative of North Carolina's 12th 
Congressional District, a member of the Art Caucus here, a 
practicing professional artist and arts educator, and a curator 
and college art professor for over 40 years, I am pleased to 
join my colleagues in expressing my support for funding for the 
National Endowment for the Arts, the National Endowment for the 
Humanities, and for arts funding.
    The arts and humanities are critical for adding value to 
our shared culture. The arts are not just used to mark 
celebrations, but to change our perceptions of society. The 
arts connect us to the past and present, convey our unique 
experiences, and are presented in many forms.
    Museums function as tools to house and preserve our 
collective history as a Nation and bind us together as one 
community; visual artists reflect on our society and force us 
to reconcile our past, and writers record history and expose 
and challenge readers to different ideas presented in our 
society; and musicians transcend social and cultural boundaries 
to connect to the listener through the sound of their 
instruments. Time and time again, we have made a conscious 
decision to fund the arts, signaling that we intrinsically 
value the arts as being crucial to our collective identity.
    The National Endowment for the Arts has been and continues 
to be necessary to the success of the arts in my home state of 
North Carolina. As a representative of Charlotte, one of the 
largest cities in the South, I understand how important the NEA 
is to our unique and thriving art culture. In 2016, the NEA 
invested $60,000 in grants in Charlotte for programs such as 
the Children's Theater of Charlotte Inc.'s performance of the 
``Journey to Oz'' and the McColl Center for Art and 
Innovation's exhibition and residency featuring Latino and 
Hispanic artists. NEA grants make these cultural events 
possible. The nationally-recognized Charlotte Ballet also 
depends on the NEA for grants, which has allowed this company 
to create and perform its own unique ballets.
    The arts not only provide entertainment, but they also 
encourage us to think critically. Advocates and researchers 
have shown that the arts have a positive impact on a young 
person's development. Because of this understanding, the arts 
and music were included in the Every Student Succeeds Act as a 
part of a well-rounded education. The NEA is a critical 
component to ensuring strong arts education in our schools. 
Through direct grants, the NEA is able to support crucial pre-K 
through 12th grade art education projects.
    By establishing partnerships with our colleges and 
universities, the NEA is able to engage with our institutions 
of higher learning to provide necessary grants to preserve and 
restore historic works of art. As a former college professor of 
40 years, I had the privilege of working with the NEA to secure 
a matching grant which allowed the college to preserve and 
restore a historic painting by Aaron Douglas, the father of the 
Harlem Renaissance, a 1931 treasure. In order to continue to 
ensure that our students remain competitive in a global 
economy, we must continue to fund the arts.
    In addition to their cultural and educational impact, the 
arts play an important role in helping our veterans transition 
to civilian life and combat physical and mental illnesses. 
Through the NEA and Military Healing Arts Partnership, the NEA 
has worked with the Department of Defense to create an art 
therapy program to treat service members with traumatic brain 
injuries and associated psychological health issues at the 
Walter Reed National Military Medical Center. This program 
places art therapy at the center of a multidisciplinary 
treatment approach.
    Through art therapy, our brave service members are able to 
receive specialized treatments that enable them to heal both 
their physical and mental wounds. Participants in this program 
have found relief and have seen vast improvements in sleep, 
communication, pain, and their ability to confront emotional 
challenges. This program has also invested in critical research 
on the impacts and benefits of this treatment.
    The NEA's budget for Fiscal Year 2017 was $148 million, 
just .004 percent of the federal budget. Through a relatively 
small investment in the arts, we are able to yield large 
returns. Not only are the arts culturally significant, but the 
nonprofit arts and culture sector is an economic driver, 
supporting about 4.13 million jobs and contributing to a gross 
domestic product of 4.2 percent, or about $729 billion.
    The arts are critical to our culture, education, and our 
economy. In all respects it is the arts that make us human. For 
this reason, I join my colleagues in requesting $155 million 
for the National Endowment for the Arts in the Fiscal Year 2018 
appropriations bill, and hope that you would consider this 
request.
    Thank you very much for allowing me to testify.
    Mr. Calvert. Thank you very much for your testimony.
    Ms. Adams. Thank you.
    [The statement of the Hon. Alma S. Adams follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Calvert. Our next two witnesses are en route. They 
should be here momentarily, so if we will just wait a moment. 
Our ranking member is coming and Ms. Plaskett from the Virgin 
Islands.
    Yeah. Ms. Slaughter.
    Mr. Simpson. I agree with all those people. You have a hell 
of a tough job this year.
    Ms. McCollum. Mr. Chair? PILT kept coming up over and over 
and over again, as well as fire suppression, and then all the 
other things that people were asking for. Some of them were EPA 
water programs for clean water and sewer sanitation.
    I hope that our colleagues will be supporting not only Mr. 
Simpson's fire bill, but also supporting PILT go back where it 
belongs in Ways and Means as mandatory spending. Because I am 
very nervous that they are pointing out that the PILT payments 
are not high enough. If it stays in our budget and people are 
successful in making the PILT payments higher--the Bureau of 
Indian Affairs work that we do, National Parks, Forestry, all 
the other things that people listed in their comments along 
with PILT payment will be short-changed.
    It looks like from what I am reading in the press, we are 
going to be short on change in this committee to begin with.
    Mr. Calvert. Well, as you know, I agree with you. PILT 
should be handled as a mandatory program, and hopefully the 
authorizing committees will fix that for the 2018 budget. And 
we certainly should pass Mr. Simpson's bill as soon as 
possible, and hopefully we can work out an arrangement in the 
Senate this year.
    Mr. Simpson. I will tell you that was mentioned.
    Mr. Calvert. Mr. Simpson, you are recognized.
    Mr. Simpson. You are only that far away. They can hear me. 
Something else that was mentioned. It is--if you go out and do 
timber sales, reforestation is a mandatory thing. It is not on 
a wildfire.
    Ms. McCollum. Right.
    Mr. Simpson. It is voluntary as funds are available. We 
need to make it mandatory that they do reforestation after a 
wildfire.
    And that would mean that they could not take funds out of 
that part.
    Mr. Calvert. That is a good point. We need to speed up the 
process of salvaging timber after these wildfires----
    Mr. Simpson. Yeah.
    Mr. Calvert [continuing]. And allowing people in to start 
reforestations.
    Mr. Simpson. I have got a meeting, but I agree with these 
two people.
    Mr. Calvert. Thank you.
    Ms. McCollum. Mr. Chair----
    Mr. Calvert. Yes.
    Ms. McCollum [continuing]. Mr. Trump is currently 
announcing his executive order to start rolling back the Clean 
Water rules of the United States. So, to the point that we have 
all these riders in the bill, I think they can come out, and we 
can debate these things on the floor.
    Mr. Calvert. Anything that is already being done outside 
the committee obviously I do not think need to be in the bill, 
so I do not think----
    Ms. McCollum. I could not agree with you more, Mr. Chair.
    Mr. Calvert. Is it Plaskett?
    Ms. Plaskett. Plaskett, uh-huh.
    Mr. Calvert. That is great. Welcome to the committee.
    Ms. Plaskett. Thank you.
    Mr. Calvert. And when you are ready, you are recognized for 
5 minutes.
                              ----------                              --
--------

                                        Tuesday, February 28, 2017.

                                WITNESS

HON. STACEY PLASKETT, A REPRESENTATIVE IN CONGRESS FROM THE U.S. VIRGIN 
    ISLANDS
    Ms. Plaskett. Thank you. Okay. Good afternoon. Thank you, 
Chairman Calvert, Ranking Member McCollum for the opportunity 
to testify on the Department of Interior, Environment, and 
Related Agencies appropriations bill, which will reflect 
Federal support for the United States' territories and 
possessions over the next Fiscal Year. Importantly, this 
legislation will serve as a statement of the commitment from 
the Federal government to address some of our most pressing 
local needs.
    In the United States territories, there are nearly 4 
million Americans, and we are too often left out of important 
programs or underfunded compared to benefits available to 
Americans living on the mainland United States. As a result, it 
is more difficult for the islands to improve economic 
conditions.
    Data from the Bureau of Economic Analysis illustrates the 
economic challenges facing the insular areas. The islands must 
transition from 100 percent reliance on imported oil to a 
clean, sustainable energy future and relief from power rates 3 
times the national average.
    The territories continue to suffer from high unemployment. 
Last year, the unemployment rate in the Virgin Islands of the 
United States exceeded 10 percent. The economic picture is 
corroborated by data indicating lost population over the 
previous decade.
    By their mere geography, the territories are critically 
vulnerable to natural forces unique to daily living in an 
island environment--hurricanes, tropical storms, as well as 
daily sea blasts, among others. As a result, we face a 
formidable challenge in adapting and responding to the effects 
on infrastructure, economic development, food security, and 
natural resources.
    The Office of Insular Affairs is responsible for generally 
administering the Federal government's relationship with the 
territories on behalf of the Secretary of Interior. Top 
priorities for OIA, Office of Insular Affairs, have 
traditionally included initiatives for economic and 
infrastructure development. OIA assistance to territories 
provides critical funding to support construction and 
maintenance of infrastructure, such as medical centers, 
schools, and wastewater systems.
    Let me give you an example: our medical hospitals. We have 
to have a hospital on each island because of the challenge of 
people being able to go from one place or another. So, the 
duplication of those services presents additional challenges on 
our systems, including having generators servicing on each 
island, and the lack of being able to get scale in a manner 
that other States have been able to do. We cannot attach 
ourselves to grids in the same way that the mainland United 
States can. In addition, assistance for climate change adaption 
planning also helps to address top concerns identified by 
island leadership.
    The less than adequate support is evident in our daily 
life. OIA assistance to the territories has seen an overall 
reduction in funding over the last 10 Fiscal Years. I would 
like to stress that it has been over 20 years since the Virgin 
Islands has had sufficient resources to build a new school. Our 
schools are crumbling because of the sea blast, never mind the 
hurricanes and others. Electrical circuiting, as well as 
pooling of water through the concrete over time has left our 
children in a deplorable state of condition in terms of their 
schooling.
    I would like to touch on the National Park Service budget 
as well. National park sites on the U.S. Virgin Islands include 
some of our country's most iconic tourist destinations. They 
also provide critical protection for terrestrial habitat, as 
well as opportunities for education and volunteerism in the 
parks. Many of our young people, after having worked summers in 
the parks, go on to work in maritime, marine biology, 
architecture, and other fields that come from those 
relationships. I have been pleased to see increases in Federal 
support for the national parks in the Virgin Islands, and I 
would also like to urge for that to continue.
    In order to maintain and improve quality of life, create 
economic opportunities, and promote effective governance in the 
territories, I am here before you to strongly urge an increase 
in the budget of the Office of Insular Affairs for its 
activities in technical and maintenance assistance to the 
territories, and for our capital improvement grants. Last year, 
there had been great discussions with OIA about supporting our 
farmers going back into agriculture after the closing of 
Hovensa, the second largest oil refinery in the Western 
Hemisphere that skyrocketed unemployment to 18 percent for a 
period of time just on the island of St. Croix. OIA's technical 
assistance is really instrumental and invaluable to the people.
    While I fully understand that we need to look for ways to 
reduce the deficit, abandoning our responsibility to provide 
safe and reliable infrastructure in the territories and build 
resilience to the impacts of climate change is not the way to 
go. The last several cycles have placed impositions on the 
territories which force them to compete for already inadequate 
funds they receive. And increasing these accounts would go a 
long way in resolving these issues.
    Thank you for the opportunity to present my testimony.
    Mr. Calvert. Thank you for your testimony. We appreciate 
your coming out today.
    Ms. Plaskett. Thank you.
    Mr. Calvert. Thank you.
    Ms. Plaskett. Take care.
    Any questions? No?
    No questions? Great, thanks.
    Mr. Calvert. Thank you. Next, Ms. Slaughter from the great 
State of New York. You are recognized.
    [The statement of the Hon. Stacey E. Plaskett follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    
                                        Tuesday, February 28, 2017.

                                WITNESS

HON. LOUISE SLAUGHTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Ms. Slaughter. Yes, thank you very much.
    I have been very anxious to get over here because, you 
know, the NEA is very important to me, and I want to just talk 
to you about it. I have got a statement here, but I think I 
more or less would just really would like to discuss it with 
you.
    First, you know we put $148 million in for the arts 
programs in the whole country, and from that we got about $9 
billion back in the Treasury. It supports about 4 million jobs, 
and a lot of good things. But I want to talk far beyond that.
    What has been discovered lately is that in the program 
between the military and the arts programs, they have 
discovered that more than any medicine that they could use, any 
counseling, anything else that they could do, by exposing 
wounded veterans to arts programs, they are getting better. 
They give up that shoe box full of medicine they carry around. 
They rejoin their family and society. Medicine could not do 
that for them. Years in a hospital could not do that for them. 
But part of that $148 million was able to do that, and you know 
it was well worth that.
    It has been one of the most remarkable things. They have 
discovered, for example, that PTSD responds better to yoga than 
anything else. And because they found that out, they are also 
using it on people with Alzheimer's and kids with autism with 
some good results.
    I saw Yo-Yo Ma, that magnificent cellist, in a concert one 
night at the Kennedy Center. He had six young men who had been 
in Iraq, and among those six, they only had two legs. Yo-Yo Ma 
played his cello like nobody else on earth can, and they were 
playing guitars and singing with such great enjoyment. I know 
from my own life, and I am sure from yours, how you have been 
moved by these kinds of stories.
    But to cut this the NEA out, if it is not worth $148 
million for us to help all those soldiers that we have wounded 
in our name, to really get back into life, to be a part of 
life, to feel good about it again, to be creative in the things 
they are doing. And how does that work? Because art opens up 
the left side of the brain. And then what they are able to do 
is take out the trauma and look at it, and once they can take 
it out, they can really begin to deal with it.
    Now, I had not thought about this that much for soldiers, 
but I knew what it did for children. I know we are used to 
seeing 16-year-old kids who are involved in crime and 
traumatized with those dead eyes just staring at us. We found 
while they were incarcerated, if we could expose them to art 
just simply to open up both sides of the brain, that we could 
make great changes in their lives and they want to get out. It 
is really things that they have not been talking about almost 
all of their lives. There is something about working with your 
hands, something about what you are seeing with your eyes and 
your heart that makes it possible for you to do that.
    What we get for art programs are smarter children. Kids who 
graduate from high schools in the United States who had art the 
four years they were in high school, SATs verbal go up 9 
points. It is so cheap, the price. I mean, I wish we could give 
3 times what we give because we would get 3 times the results.
    We need to be doing so much more than we are doing, and 
people are eager for it. When I first started trying to say all 
this, it was considered property of the elite, and if they 
wanted to go, great, but nobody else was going to be bothered 
with that.
    And then what we discovered, some work done at UC Davis was 
the economic benefit of it. It has been--you know, in one year 
about three or four years ago, a study was done in New York 
City, and the Metropolitan Museum by itself got more money into 
that museum in one year than the Yankees, the Mets, the Knicks, 
and all the rest of the teams they have there for sports 
combined. Imagine that.
    Art is something they come back to. Art is something you 
expose little children do. What is the first thing they do? 
They draw little stick figures. But it is so important that we 
do it for all of those reasons.
    But in these museums and in these art galleries is our 
history. Look at what you have on the walls in here. I mean, 
art is the only thing that I know of that tells us who we were, 
and who we are, and who we hope to be.
    So, I beg of you, maybe the most important thing you may do 
for civilization and society in this country is to put as much 
money as you can in the humanities and in the arts because we 
get a hundred-fold return on investment. I promise you that. I 
can show you all the statistics and all the things about it. 
But I will tell you, if you were to go to Walter Reed and see 
those programs, how those veterans are doing, and see what 
happens to them later in life.
    I mean, they have had enough experience to know that is 
lasting. And as a matter of fact, one of my staff members who 
is with me here today just came back from Fort Knox. He was out 
there last week for the Army. And he said a General had told 
him that--a group apparently, that one of the most important 
things to him were the creative writing programs that he had 
had. But it all comes back to the brain. It is when you open up 
both sides that you are really able to create a whole person.
    Please, please do not let the NEA get killed. I feel like I 
have been begging you forever. And if you do not, as John Lewis 
said--he came up to campaign for me, and he said to everybody, 
now, I really want you to vote for her, and if you do not, I 
will come back and step on you nonviolently. [Laughter.]
    Ms. Slaughter. I would hate to have to threaten you with 
that, but----
    Mr. Calvert. Thank you for your testimony. The arts and the 
humanities touches every congressional district in the United 
States.
    Ms. Slaughter. Indeed, and it brings a lot of money into 
them as well.
    Mr. Calvert. I recognize that, both Republicans and 
Democrats, a bipartisan program.
    Ms. Slaughter. Always has been.
    Mr. Calvert. There is a lot of support for that, and we 
will certainly take that into consider as we move forward. I 
know Ms. McCollum is a big supporter of the arts and 
humanities, and we will be working together to try to resolve 
these things.
    Ms. Slaughter. We will do incalculable harm if we did not 
keep that going, and we are better people than that. So, thank 
all of you, and thank you for your hard work. I know it is not 
easy, and this year is spectacularly hard. Thank you.
    Mr. Calvert. Thank you. I appreciate everybody's testimony. 
We are adjourned.
    [The statement of the Hon. Louise Slaughter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              --
--------

                                             Tuesday, May 16, 2017.

          PUBLIC WITNESSES--AMERICAN INDIAN AND ALASKA NATIVES

    Mr. Calvert. Good morning, and welcome to the public 
witness hearing specifically for American Indian and Alaska 
Native programs under the jurisdiction of the Interior and 
Environment Appropriations Subcommittee.
    I especially want to welcome the distinguished Tribal 
elders and leaders testifying today and in the audience. Most 
of you have traveled a long way to be here this week. I hope 
you will seize the opportunity to meet with other Members of 
Congress outside this subcommittee to remind them that honoring 
the Nation's trust obligations is a responsibility shared by 
all Members of Congress, regardless of our State or 
congressional district.
    I assure you that your voices are heard by this 
subcommittee. For those new to this process, today's hearings 
are just the start of a dialogue we have come to depend upon to 
make smart choices in the budget and to earn the votes of our 
colleagues. American Indian and Alaska Native programs will 
continue to be a nonpartisan priority for this subcommittee, 
just as they have been in recent years under the chairmanship 
of Democrats and Republicans alike.
    Before we begin, I have a little bit of housekeeping items 
to share. Committee rules prohibit the use of outside cameras 
and audio equipment during these hearings. The hearing can be 
viewed in its entirety on the committee's website, and an 
official hearing transcript will be available at gpo.gov.
    I will call each panel of witnesses to the table, one panel 
at a time. Each witness will have 5 minutes to present 
testimony. Your full written testimony will be introduced into 
the record. So please don't feel pressured to cover everything 
in 5 minutes. Finishing in less than 5 minutes may earn you 
some great brownie points, so think about that.
    We will be using a timer to track the progress of each 
witness. When the lights turn yellow, the witness will have 1 
minute remaining to conclude his or her remarks. When the light 
blinks red, I will have to ask the witness to stop.
    We will hear from every witness on each panel before 
members will be provided an opportunity to ask questions. 
Because we have a full day ahead, I request that we try to keep 
things moving in order to stay on schedule and respect each 
other's time. I am sure many of you have planes to catch.
    With that, I will thank you again for being here today. I 
am happy to yield now to our distinguished ranking member, 
Betty McCollum, for her opening remarks.
    Ms. McCollum. Thank you, Mr. Chair. This is a very, very 
important listening hearing that we have. There are other 
members flying in, but your full testimony will be given to 
them. I will be briefing the Democratic Members, as Mr. Cole 
and Mr. Calvert will be talking to--well, we all talk together. 
We are very nonpartisan when it comes to Native American 
affairs. So I welcome you all here.
    Mr. Chair, thank you again for holding this very 
informational hearing the next 2 days.
    Mr. Calvert. Thank you.
    So we are going to start with the National Indian Health 
Board, Vinton Hawley, the chairman. You are recognized for 5 
minutes.
                              ----------                              

                                             Tuesday, May 16, 2017.

                      NATIONAL INDIAN HEALTH BOARD


                                WITNESS

VINTON HAWLEY, CHAIRMAN
    Mr. Hawley. Thank you for your time.
    Chairman Calvert, Ranking Member McCollum, and members of 
the subcommittee, thank you for holding this important hearing 
and allowing me the opportunity to be here today. My name is 
Vinton Hawley. I am the chairman of the National Indian Health 
Board, and I also serve as the chairman for the Pyramid Lake 
Paiute Tribe in Nevada.
    Today, I would like to offer recommendations on the fiscal 
year 2018 budget for the Indian Health Service. As you are 
aware, the health status of American Indians and Alaska Natives 
continues to be among the worst in the country. Historical 
trauma, poverty, lack of access to healthy foods, loss of 
culture, and many other determinants of health all contribute 
to the poor state of American Indian and Alaska Native health.
    We live, on average, 4.5 years less than other Americans, 
but in some States that is 20 years less. But none of these 
challenges alone is as damaging as financially starving the 
Indian health system. All these determinants of health and poor 
health status could be dramatically improved with stronger 
investments in the health, public health, and health delivery 
systems in Indian Country.
    In 2016, the IHS per capita expenditures for patient health 
services were under $3,000, compared to almost $10,000 per 
person for healthcare nationally. America needs to keep its 
promises to American Indians and Alaska Natives and fully fund 
the IHS.
    Tribes are grateful for the recent increases to the IHS 
appropriation over the last several years but note that the 
increases have not allowed for expanded services but mainly 
keep up with inflation and population growth.
    NIHB supports the budget request of the National Budget 
Formulation Workgroup, which is comprised of Tribal leaders, 
technical experts from across Indian Country. For fiscal year 
2018, Tribes recommend fully funding IHS at an estimated $30.8 
billion, which includes amounts for personal health services, 
wraparound community health services, facilities, and capital 
investments.
    We understand that getting $30 billion appropriated this 
year may not be possible in the current budget environment, so 
we recommend that Congress phase this in over 12 years. For 
2018 then, we recommend $7.1 billion for IHS.
    The Workgroup's fiscal year 2018 request has five top 
priority areas: purchase/referred care, hospitals and clinics, 
mental health, alcohol and substance abuse services, and dental 
services. These are real lives at stake.
    A father from Northern Cheyenne reported that his daughter 
was born prematurely due to her mother's struggle with 
methamphetamine. The child battled for its life and caused 
trauma for the whole family and community. He said, ``Meth 
abuse doesn't just affect one or two in our large extended 
Tribal families. It affects everybody. The services available 
on the reservation weren't helpful to my needs nor to my 
family.''
    This is just one example of why the money that Congress 
provides means life and death for our people.
    Congress should also encourage programs at IHS that are 
culturally informed and locally driven. NIHB spoke with a young 
woman from the Oglala Sioux Tribe who courageously shared her 
story about multiple suicide attempts. She went into an 
inpatient facility in Rapid City but did not feel she received 
healing. It wasn't until she attended a Lakota cultural healing 
camp that her life turned around. She said, ``It made me feel 
powerful. I got to learn about my culture and it made me feel 
closer to who I am.'' But the camp operates through donations 
and community support. These are the types of programs we 
should be encouraging with predictable, sustained funding.
    Congress, please take the courageous and ethical step of 
adequately funding healthcare for this country's first peoples. 
While we understand that the jurisdiction of this committee is 
annual appropriations, I must mention the concern Tribes have 
about potential cuts to the Medicaid program.
    Medicaid represents a substantial part of IHS third-party 
revenues. Current proposed changes to the Medicaid program 
outlined in the House-passed American Health Care Act will mean 
less services for our people and increase pressure on the 
severely underfunded IHS.
    We encourage the committee to stand up against these 
Medicaid cuts. IHS and Tribal facilities are seeing referral 
dollars go much further thanks to Medicaid funding. These 
drastic cuts to Medicaid will only result in more rationed care 
and poor health outcomes for our people.
    I would like to close with a quote from Jerilyn Church, CEO 
of the Great Plains Tribal Chairmen's Health Board. Last year 
she stated, ``We make up 2 percent of the entire population of 
this country. We are the genocide survivors. It is not a big 
ask to ask for this country to fund schools, health, our 
judicial systems at a level that allows us to live functional, 
healthy lives''.
    In 2018, NIHB, on behalf of the 567 federally recognized 
Tribes across the United States, calls upon Congress to fully 
commit to funding our health services by enacting a robust 
budget for IHS.
    Thank you very much for your time.
    [The statement of Vinton Hawley follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Mr. Calvert. Thank you for your testimony.
    Next Yatibaey Evans.
    Ms. Evans. Good morning. Thank you.
    Mr. Calvert. Good morning.
                              ----------                              

                                             Tuesday, May 16, 2017.

                 NATIONAL INDIAN EDUCATION ASSOCIATION


                                WITNESS

YATIBAEY EVANS, BOARD PRESIDENT
    Ms. Evans. Hi, my name is Yatibaey Evans. Good morning, 
Chairman Calvert and Ranking Member McCollum and members of the 
subcommittee. Thank you for this opportunity to provide 
testimony on behalf of the National Indian Education 
Association.
    NIEA is the only national organization advocating for 
improved educational opportunities that enable Native students 
to thrive in the classroom and beyond. We equip educators with 
the knowledge and tools needed to support our Native students 
in reaching their full potential. We also offer professional 
development opportunities, policy and advocacy assistance, as 
well as educational resources.
    I currently serve as the president of the board of NIEA and 
am honored to be the first Alaska Native president in the 
history of the organization. I am happy to be with you today to 
talk about the needs of more than 650,000 Native students 
across the country.
    Over the past year, the Every Student Succeeds Act has 
begun to be implemented within our States, leading to changes 
in how leaders in States across the country--from Oklahoma to 
California to Alaska and Minnesota--think about how to best 
educate our students.
    NIEA has been leading the way, working with Tribes as well 
as Chief State School Officers, to make sure that we seize the 
opportunity that ESSA provides greater local leadership to 
improve educational outcomes for all students, including 
American Indian, Alaska Native, and Native Hawaiian students.
    The subcommittee's work on fiscal year 2017 appropriations 
shows that you understand the importance of providing funding 
to improve BIE schools. Thank you for holding firm and 
including increases in several key areas.
    Here are our fiscal year 2018 recommendations. Our written 
testimony contains quite a few details, but I would like to 
highlight some--four of them in particular: First, BIE school 
construction. We are asking for $263.4 million. I ask for this 
increase first and foremost to meet the needs of our Native 
students. NIEA recognizes that there are administrative issues 
with fully appropriating BIE's school construction list; 
however, our students should not suffer and be expected to 
learn in dilapidated buildings.
    Far too many BIE schools are not in adequate physical 
condition to put Native students, or any students, in schools 
where students should be able to succeed. Numerous examples 
have come to NIEA's attention over the last year. There are 
schools without air-conditioning, broken windows, wiring that 
is uncovered, ceilings and floor exposed. We simply must do 
better. NIEA requests $130.3 million above the fiscal year 2017 
amount to fully fund construction and repair.
    Second, we would like to ask for $431 million for the 
Indian equalization program. ISEP funds provide the core budget 
amount for BIE elementary and secondary schools by covering 
teacher salaries, aides, principals, and other personnel.
    Unfortunately, ISEP funds have been reallocated to cover 
the program funds in other areas of education. ISEP must have 
adequate funding to ensure all program needs are fulfilled and 
must not be reduced to provide funds for new initiatives that 
have not been vetted by Tribes. NIEA recommends $30.78 million 
above the fiscal year 2017 omnibus.
    Third, I ask for $5 million for BIE immersion demonstration 
grants. And I want to thank the chairman, ranking member, and 
subcommittee for the $2 million in the fiscal year 2017 bill. 
It is well documented that Native students are more likely to 
thrive in environments that align with their culture.
    The immersion program will support Native students to 
strengthen their language, improve academic outcomes, and 
become future leaders of their Tribes. We recommend that BIE 
immersion demonstration grants be a line item moving forward 
with a $5 million appropriation.
    Fourth and finally, we ask that you continue the investment 
and oversight for and of the Bureau of Indian Education so that 
BIE schools that serve all Native students are able to attend 
them well and served appropriately. The BIE's ongoing work to 
reform and better serve Native students is critically important 
to Tribes.
    In conclusion, fiscal year 2018 funding has the potential 
to translate bipartisan commitment to improving BIE's school 
construction into action. By ensuring that all schools have the 
facilities and resources necessary to provide a 21st century 
education, Congress and the Nation can reverse the challenges 
BIE faces and address the needs of our Native students. The 
over 43,000 students who depend on BIE funding deserve nothing 
less than full funding for the schools they need to realize 
their dreams.
    Thank you for this opportunity.
    [The statement of Yatibaey Evans follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Mr. Calvert. Thank you for your testimony.
    Next, Carrie Billy, president and CEO of the American 
Indian Higher Education Consortium. You are recognized.
                              ----------                              

                                             Tuesday, May 16, 2017.

              AMERICAN INDIAN HIGHER EDUCATION CONSORTIUM


                                WITNESS

CARRIE L. BILLY, PRESIDENT AND CEO
    Ms. Billy. [Speaking native language.] I am Carrie Billy, 
the president and CEO of AIHEC, the American Indian Higher 
Education Consortium.
    And on behalf of the Nation's 37 Tribal Colleges, thank you 
for your past support. Your investment is yielding a remarkable 
and proven return. It is transforming families, communities, 
and Tribal nations. It is helping us serve more than 160,000 
American Indians, Alaska Natives, and others each year through 
academic and community-based programs at more than 75 sites in 
16 States.
    Our requests today are fairly modest, and they are outlined 
in our prepared statement, so I will just mention two. An 
additional $10 million, for a total of $80.2 million, for 
institutional operations and technical assistance under titles 
I and II of the Tribal College Act.
    That is all that is needed to provide funding at the fully 
authorized level for 27 Tribal Colleges for the first time in 
37 years. So $10 million, 27 Tribal Colleges, first time in 37 
years. I can guarantee you that you will not get a better 
return on your investment anywhere. Need proof? It is right 
here in this independent report. I don't have time to talk 
about it, but here it is.
    Overall, operating funding for these 27 Tribal Colleges 
hasn't increased for 4 years. In that time, 14 of the 27 
colleges have seen dramatic enrollment growth. Three schools 
are up 20 to 30 percent, two were up more than 40 percent, and 
one has more than doubled its overall enrollment in just 1 
year.
    Plus, we have two new Tribal Colleges joining the funding 
pool--College of Muscogee Nation in Oklahoma and Red Lake 
Nation in Minnesota--adding hundreds more students to an 
already stressed overall funding formula. So our first request 
is $10 million additional for titles I and II. It is time and 
it is a proven investment.
    Second, thank you so much for working with us over the past 
few years to ensure that IAIA, Navajo Tech, and United Tribes 
receive their operating funding on an academic schedule. It has 
had an enormous impact on their stability.
    Now only two schools under the Department of the Interior 
are not forward funded. They are fully owned and operated by 
the BIE by the Federal Government. That is Haskell in Kansas 
and SIPI in New Mexico.
    Please help us, through report language and good old arm 
twisting, encourage the administration to find the resources to 
transition its own institutions to a funding that is based on 
an academic year schedule.
    How can we expect our schools and colleges to create 
miracles, deliver world-class educational programs, and prepare 
the next generation of scientists, teachers, and entrepreneurs 
if they have inadequate operating funding and can't even 
develop a realistic budget every year? The answer is simple: We 
cannot.
    If we want excellence, let's at least give our Tribal 
Colleges the tools they need to strive for normal. We will take 
it from there. From normal, commonplace, ordinary, we will 
create miracles. We will create transformative change. I know 
because I see it happening every day at Tribal Colleges.
    Just last week, I attended the Sitting Bull College 
commencement on the Standing Rock Reservation. There at Sitting 
Bull College I saw the future of Indian Country: hardworking, 
passionate, proud, and committed to change. Fifty-three 
graduates ready to enter the workforce to join the Standing 
Rock government or Tribal council, many of whom are already 
graduates of Sitting Bull College or students, or enter the 
private sector and help grow the local economy.
    Last week, Wiyaka Chasing Hawk earned a vocational 
certificate to operate heavy equipment. He gave the student 
benediction at the ceremony in his Lakota language asking for 
patience and strength for all the graduates.
    Bridget Eagle, a long-time employee at the college, earned 
her degree in business administration. She was especially proud 
because her daughter also earned a degree last week.
    Then there is ShanLee Taken Alive LeBeau and Tonya Wouner, 
both cum laude graduates, ready to educate young Lakotas with 
their bachelor's degrees in elementary education.
    Harriet Blackhoop is all set to help address the water 
challenges on Standing Rock with her certification to be a 
water technician.
    These individual students together will transform Indian 
Country.
    Over the course of these hearings, the committee will hear 
of the many challenges we face as Native people. These 
challenges are real and serious. But as you listen to the 
stories, please remember the Tribal College students for whom 
no challenge is insurmountable. Our students, with their 
resilient ability to look back and hear our stories and songs 
have our history and language with them, and they have the 
tools and the confidence to shape a better world on our own 
land.
    Tribal Colleges gave them that transformative power. 
Whether it is through an opportunity for a healthier life 
through innovative public/private--or community-based research 
projects, like our NIH-funded NARCH grant; a more prosperous 
community through public/private partnerships like our advanced 
manufacturing initiative; or revitalizing Native language in 
cultures through Tribal College established K-8 immersion 
schools right on the college campus, Tribal Colleges are there 
building a stronger future.
    Mr. Chairman and members of the committee, thank you so 
much--and staff--for your work to sustain and strengthen the 
best experiment and experience in Tribal self-determination 
ever, and one of the best investments in the Federal 
Government, Tribal higher education. Thank you.
    [The statement of Carrie Billy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Mr. Calvert. Great. Thank you. Thank you for your 
testimony.
    We have another Carrie, Carrie Whitlow, treasurer of the 
Tribal Education Departments National Assembly. Welcome, and 
you are recognized for 5 minutes.
                              ----------                              

                                              Tuesday, May 16, 2017

             TRIBAL EDUCATION DEPARTMENTS NATIONAL ASSEMBLY


                                WITNESS

CARRIE F. WHITLOW, TREASURER
    Ms. Whitlow. Good morning.
    Chairman Calvert, Ranking Member McCollum, and members of 
the subcommittee, my name is Carrie Whitlow, and I am an 
enrolled Cheyenne-Arapaho Tribal member. I serve as the 
executive director for the Department of Education Cheyenne-
Arapaho Tribes. I am also the treasurer of the Tribal Education 
Departments National Assembly, TEDNA.
    TEDNA is a national nonprofit membership organization for 
the education departments/agencies, TEDs, of American Indian 
and Alaska Native Tribes. Thank you for the opportunity to 
speak today about funding for TEDs.
    We appreciate this subcommittee's commitment to Indian 
education for appropriating funds for the past 3 fiscal years 
to support TEDs through the Department of the Interior's title 
25, section 2020 grants, and for providing increased Federal 
funding in fiscal year 2017.
    This subcommittee clearly values the crucial role of TEDs 
in providing support in coordinating education programs and 
services to Native American students. To continue this vitally 
important work, TEDNA respectfully requests $5 million to 
support TEDs in the Department of the Interior, Environment, 
and Related Agencies appropriations bill for fiscal year 2018.
    Since the 1970s, Congress has stated a policy of supporting 
local, Tribal control of many formally federally run programs 
and services for Native Americans. Pursuant to this sound 
Federal policy, in 1988, Congress authorized section 2020 
funding for TEDs to coordinate and develop Tribal education 
programs and services. However, it took more than 25 years for 
funds to be appropriated.
    There are currently 11 section 2020 TED grantees whose 
vital work and initiatives under these grants are just getting 
started. I would like to briefly highlight one example of the 
important work the section 2020 grants fund from my more 
extensive written testimony submitted.
    The Leech Lake Band of Ojibwe in Minnesota TED serves 
students attending eight State public schools as well as one 
BIE-funded school. The Tribe is using its section 2020 grant to 
develop a Tribal education code and a comprehensive education 
plan that will be culturally specific to Leech Lake Band of 
Ojibwe.
    In this process, Leech Lake has actively sought the input 
of the community, including students, parents, and caregivers 
on the community's most important challenges and what is needed 
to foster student success. Not surprisingly, many have voiced a 
need to be culturally supported within their school. As one 
student framed it, ``education not only in the sense of a 
school setting but also our cultural ways and our language.''
    The feedback from the local Tribal community has led to a 
multi-pronged approach to policy and capacity building. This 
includes gathering data on the fields postsecondary students 
are graduating within, working with the Tribal workforce 
development division to identify current and future workforce 
needs, and coordinate with State agencies to ensure family 
financial stability so that students, parents, and caregivers 
can focus on education.
    Activity funded by its section 2020 grant has strengthened 
the Tribe's relationship with outside entities and was a 
catalyst for Leech Lake's involvement in areas beyond its 
grant. This capacity building is precisely what Congress 
envisioned when it enacted section 2020 grants.
    As my written testimony more fully explains, section 2020 
grants enable TEDs to, one, support early education initiatives 
and develop culturally relevant curriculum; two, increase 
Tribal participation through providing coordination, 
administrative support services, technical assistance to 
schools, and education programs; and three, develop and enforce 
Tribal educational codes, policies and standards applicable to 
curriculum personnel, students, facilities, and support 
programs.
    These are core educational governance functions that are 
most appropriately left to the local government closest to the 
students being served: the Tribes. Section 2020 grants help 
facilitate local Tribal control of education.
    Thank you for the invitation to testify today. I ask that 
my full written testimony be made part of the record, and I am 
happy to answer any questions you may have.
    [The statement of Carrie Whitlow follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Mr. Calvert. Thank you for your testimony, and all your 
testimony.
    Obviously, education is a high priority of this committee, 
and I hear you on a new school construction. This entire 
committee, we are very concerned about that, and we are trying 
to figure out where to get the resources. Obviously, our demand 
is a lot more than the $200 million you are asking for. It is 
in the billions. And so we are going to hopefully come up with 
a solution to this problem, but it is not for lack of trying.
    Any other questions or comments?
    Ms. McCollum.
    Ms. McCollum. Just really briefly. Thank you, Mr. Chair.
    Mr. Hawley, there was a brief news clip when I was getting 
ready to come in this morning talking about how 
internationally, young adults--and they were using, I think, 
10- to 18-year-olds--were living longer; in other words, they 
were doing better.
    Mr. Hawley. Right.
    Ms. McCollum. Have we seen success with some of the 
interventions, and do you have a list of interventions that are 
working on suicide prevention? You gave one example, but if you 
have more that you could give to the committee to make sure 
that we are appropriately funding programs.
    I am going to be really quick in what I am asking. It is 
more for supplemental. Thanks for your appendix. It is great, 
Ms. Evans.
    But, Ms. Billy, do you have a copy of that to enter into 
the record, what you were saying?
    Ms. Evans. Yes.
    Ms. McCollum. Do you know if you are able to come up with 
the number of NIH grants that the Tribal institutions have been 
using to supplement and enhance their program dollars? Because 
some of the Federal grants that you also use have been zeroed 
out, whether it is the arts or the humanities or the sciences. 
If you have that information available, if you could share it 
with the committee.
    Ms. Billy. We can definitely do that. There is a great 
program at NIH called the Native American Research Centers in 
Health--something like that--that has just a little bit of 
funding, but extremely helpful. So we can get you that list.
    Mr. Calvert. By the way, we will introduce that report into 
the record, and any other--report.
    Ms. McCollum. Yeah. It is NEA and the humanities that have 
been zeroed out, not NIH.
    But Mr. Cole is fighting for every penny he can get. So any 
arrows I can put in his quiver, I am ready to do, so thank you.
    Ms. Billy. We will. Thank you.
    Mr. Calvert. Speaking of arrows, Mr. Cole.
    Mr. Cole. Well, it is always good. My friend stocks my 
quiver pretty well every year.
    So I just want to actually make a couple of comments just 
to get them in on the record. Number one, thank all of you for 
being here and thank you for your testimony. It is extremely 
helpful to this committee.
    And as my good friend from Minnesota suggested, there are 
other pots of money out there that, it doesn't all come through 
Interior. We have actually done pretty well in Labor-H the last 
couple of years, and President Obama chose to pursue a number 
of his youth initiatives through that particular thing.
    And because we have got a much bigger jurisdiction, we have 
got a bigger pot of money and we are able to do maybe a little 
bit more. I think that is the big challenge this committee has, 
is just to what our overall allocation is.
    I mean, I don't know how we are ever--number one, I don't 
know how we have done as much as we have in the last few years 
in some ways, because all collectively, both education and 
health, have been the top priorities on this subcommittee, and 
honestly, have gotten more new money even in a shrinking budget 
than anyplace else.
    But unfortunately, the chairman does have to think about 
how he runs the National Park System and the Bureau of Land 
Management and a myriad of other things that are under our 
jurisdiction with a fairly limited amount.
    So there are two things I would like to suggest we figure 
out, Mr. Chairman, how to pursue. One would be, on the health 
programs, we are never going to catch up as long as this is all 
discretionary spending. That is just a huge problem for us, and 
I think it is really, from what I can determine, rooted in the 
fact that the Indian Health Service predates Medicare and 
Medicaid by many decades.
    That is the way we used to do it. And so that was a system 
functioning, and we saw the consequences of that, frankly, 
during sequester, where because they were outside the mandatory 
umbrella, they took cuts that no other health programs had to 
take. And that really put extra burdens on Tribes.
    So, one, we need to see if there is some way legislatively 
that we can do something, and that takes care of a lot of our 
issues with forward funding and a lot of other things.
    The second one, honestly, I approach with some hesitation. 
You and I have mentioned it occasionally. While I want to keep 
the jurisdiction of this committee intact, on the other hand, 
we just simply have more money at Labor-H, for instance, than 
this committee does.
    Indian Health Service--we have all the rest of Health for 
Human Services except Indian Health Service. And the chairman 
and I had the opportunity, we actually visited with Secretary 
Price. You know, he has got a vast agency. I think this is sort 
of new to him.
    And when we took him the figures, which you mentioned, Mr. 
Hawley, in your testimony, per capita Native American health 
funding with everybody else, I think he was genuinely shocked. 
He really did not know. And that is no disrespect to him. I 
mean, there is not a Tribal presence to speak of in Georgia, so 
it is not something he would particularly know about.
    And he is certainly committed to work with us and try to 
help us. But with the best will in the world, there is only so 
much money in this budget. And, you know, we could probably 
find an extra billion dollars in the Labor-H bill.
    Mr. Calvert. We will move it over to your jurisdiction, as 
long as they keep the money over here.
    Mr. Cole. Yeah. Not all the--send the money with it, and I 
will add money on top of it.
    Mr. Calvert. I am just----
    Mr. Cole. I just think there needs to be some way to look 
at these things, because I think we are going to be, 
perpetually, trying to catch up until we either get a larger 
pot of money, particularly in the healthcare area, or we find 
or--and maybe it is a combination--some way to transfer some of 
these responsibilities into the mandatory program so that there 
is a larger, again, pool of money.
    I really worry, this year particularly, none of us know 
what kind of allocations we are going to get. That is going to 
be very difficult to continue the progress we have had, let 
alone catch up on the very legitimate needs.
    So let me just end with this: I invite any of you out 
there, legislatively, if you have got some ideas about how to 
proceed--I see Caitrin over there. She is never short of ideas 
about how to proceed--and if we can work together. We need to 
find some ways to just simply, honestly, get a bigger pot of 
money for some of these programs.
    Mr. Calvert. You are absolutely right, Chairman Cole. We 
have talked about this, and to get healthcare over would be the 
answer we would give to the nondiscretionary side of the 
budget, which then we have to work together with your 
jurisdiction.
    Mr. Cole. Certainly. Yeah, if we can do some things. I am 
just trying to figure out how to align this stuff in a way that 
would put greater resources available that we could draw from 
for these very legitimate needs.
    I mean, when you cite your statistics of, life spans are 
4.5 years less, and in some cases, I guess Montana, if I 
remember correctly, 20 years less between White men and Native 
American men, those are pretty stunning indictments of how we 
have operated over many, many decades.
    So it has to change, and I know we are trying. I know this 
committee really in a very bipartisan way is trying. So I just 
wanted to get those on the record, just those things to think 
about, and to invite those of you that are testifying here 
today, or those of you in the audience that hold significant 
positions in Tribal governments and various national Tribal 
advocacy groups, to kind of help us think through what kind of 
framework we can approach it. Because I think we are stuck with 
a $31 billion allocation or whatever. There is just no way to 
rapidly make it out of poverty.
    Mr. Calvert. If we are lucky.
    Mr. Cole. If we are lucky. I am sorry. More than I meant to 
say, but I will yield back and be more quiet the rest of the 
day, but I wanted to get those things out.
    Mr. Calvert. No, no. Always happy to hear from you.
    Thanks to you and to this panel, and we appreciate your 
attendance.
    Mr. Calvert. Next, our second panel, if you will come on 
up. National Council of Urban Indian Health, the Indian Health 
Center of Santa Clara Valley, Riverside-San Bernardino County 
Indian Health, and the California Rural Indian Health Board, so 
some folks from back home. That is good.
    Hi. How are you doing? Good to see you.
    Welcome, and we appreciate you being here. And we will 
start right away.
    Ashley Tuomi. Is that close?
    Ms. Tuomi. Close.
    Mr. Calvert. Close, okay. That counts in government work.
    Ms. Tuomi. Yep.
    Mr. Calvert. National Council of Urban Indian Health. You 
are recognized for 5 minutes.
                              ----------                              --
--------

                                             Tuesday, May 16, 2017.

                NATIONAL COUNCIL OF URBAN INDIAN HEALTH


                                WITNESS

ASHLEY TUOMI, NATIONAL PRESIDENT
    Ms. Tuomi. Thank you.
    My name is Ashley Tuomi. I am an enrolled member of the 
Confederated Tribes of Grande Ronde of Oregon, the CEO of 
American Indian Health and Family Services of Southeast 
Michigan, and the president of the National Council of Urban 
Indian Health, or NCUIH.
    On behalf of the 43 clinics and programs located in 22 
States--one you will hear from in a few minutes, another one 
later today--I am grateful for this opportunity to once again 
testify before you guys today.
    NCUIH represents culturally competent, quality healthcare 
clinics in urban environments across the country. Currently, 
over 70 percent of American Indians and Alaska Natives live in 
these areas, often because of the Federal Government's 
relocation policy or lack of economic opportunity.
    Before I ask for additional funding for fiscal year 2018, I 
must convey our profound appreciation for the funding increase 
for urban Indian healthcare which was included in the fiscal 
year 2017 bill, thanks to this subcommittee's strong 
leadership. However, as you know, even with that increase, IHS 
is still significantly underresourced and usually funded at 
between 50 and 60 percent of need.
    While healthcare spending per capita across the Nation was 
more than $9,990 in 2016, IHS spending on healthcare per user 
was just $2,834. As you know, Federal prison per capita 
spending is higher than that of Indian Health Services.
    Even with the much appreciated fiscal year 2017 increase, 
IHS spends little more than 1 percent of its budget on the 
provision of healthcare to urban Indians. In addition, IHS's 
Office of Urban Indian Healthcare Programs acquired seven new 
national institute for alcohol addiction programs over the past 
year, bringing the number of programs and clinics from 36 to 43 
with a minimum budget to work with.
    Unlike IHS and Tribal facilities, urban Indian programs can 
only draw from one line item for funding, the urban Indian line 
item. Taking money from Tribes who are also underfunded is not 
the answer, as Indian healthcare as a whole is in need of more 
funding. Increasing the overall IHS funding and increasing the 
urban line item is the solution.
    Last year, I discussed the need for urban clinics to 
receive 100 percent Federal Medical Assistance Percentage, or 
FMAP. Urban Indian health programs were coming into existence 
when the Social Security Act was amended in 1976 to include IHS 
and Tribes. But that should not exclude urban programs, 
considering they are providing the same services and care as 
IHS and Tribes provide to Indians living on reservations.
    The Federal Government's trust responsibility extends 
beyond reservation borders, and failure to provide urban Indian 
health programs with 100 percent FMAP harms clinics and 
programs. Fulfilling this 100 percent FMAP would reaffirm trust 
responsibility as well as encouraging States that may feel 
compelled to restrict Medicaid eligibility. The cost to do 
this, according to IHS, would be minimal at approximately $2.3 
million per year.
    One of the great programs that has helped tremendously is 
the Special Diabetes Program for Indians. Grants made to help 
this program have seen a reduction in diabetes cases, as well 
as subsequent healthcare cost. This program expires on 
September 30, and due to its success, we would like to see it 
renewed.
    SDPI supports over 330 diabetes education, treatment, and 
prevention program in 35 States. The failure to reauthorize 
this program would severely undermine the promising progress 
UIHPs have made against diabetes.
    American Indians and Alaska Natives are 1.6 times at higher 
risk of diabetes than the general population. And over the past 
11 years, this program has helped to reduce end-stage renal 
disease by 43 percent. End-stage renal disease is a major 
driver of healthcare cost, and this program will help to offset 
costs not only in IHS but in Medicaid and Medicare as well.
    IHS and Tribal providers, as well as other comparable 
Federal health centers, are covered by Federal Tort Claim Act. 
However, urban programs were left out and must purchase their 
own malpractice insurance, which is costly.
    Two large highly regarded UIHPs in Oklahoma, which are 
represented by NCUIH, each pay $250,000 per year for 
malpractice insurance. And while this may seem unrelated to 
this subcommittee, it would allow programs and clinics to focus 
their funding on helping patients and resources.
    Finally, we would ask that a memorandum of understanding 
between Indian Health Services and the Department of Veteran 
Affairs be fully implemented. They have this agreement with 
Tribes but not with urbans. Many American Indian and Alaska 
Native vets prefer using urban health programs because of 
accessibility and cultural reasons.
    There are also times when the VAs experience high traffic, 
and urban Indian programs can reduce this workload. After their 
sacrifice for this country, it is our responsibility to make 
sure that all of our vets are taken care of.
    I appreciate the support that the subcommittee expressed 
last year on the MOU when I testified, and I regret to report 
that our efforts to work with the agencies involved have not 
been successful, and that is why I am back again this year 
asking for your help.
    Thank you for your time today.
    [The statement of Ashley Tuomi follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Mr. Calvert. Thank you.
    Next, Sonya Tetnowski, CEO of the Indian Health Center of 
Santa Clara Valley.
                              ----------                              --
--------

                                             Tuesday, May 16, 2017.

 INDIAN HEALTH CENTER OF SANTA CLARA VALLEY AND CALIFORNIA CONSORTIUM 
                        FOR URBAN INDIAN HEALTH


                                WITNESS

SONYA TETNOWSKI, CEO
    Ms. Tetnowski. Good morning, Chairman Calvert, Ranking 
Member McCollum, and subcommittee members. My name is Sonya 
Tetnowski. I am the chief executive officer for the Indian 
Health Center of Santa Clara Valley, an Urban Indian Health 
Program in San Jose, California. I am an enrolled member of the 
Makah Tribe of Washington State. I would first like to thank 
the subcommittee for holding Tribal witness hearing days.
    In addition, IHC has received an IHS contract, which does 
not allow for us to get as many resources as we need to run our 
facility. As a 330 federally qualified health center, we are 
certified by the AAAHC for ambulatory healthcare and by the 
National Committee of Quality Assurance as a recognized patient 
center medical home.
    We provide medical, dental, mental health, traditional, and 
community services to our over 22,000 clients throughout Santa 
Clara County, where there are more than 26,000 American Indian 
and Alaska Natives.
    Of our clients, 89 percent are served by Medicaid, and 43 
percent of our Medicaid clients are under the age of 18. Of all 
the patients served by the IHC, 73 percent are under the 
poverty line. Urban Indians are three times more likely to be 
homeless than non-Indians.
    And we do our best to adjust these social determinants of 
health in our healthcare setting, but if 100 percent FMAP 
eligibility was expanded to include Urban Indian Health 
Programs, all IHC-eligible AI/ANs would be able to access the 
Federal trust responsibility throughout the I/T/U system of 
care, making I/T/U system of care whole.
    Medicaid has given us the opportunity to serve our urban 
AI/AN community, but our capacity and infrastructure are in 
dire need of investment to accommodate this need. We have been 
able to leverage our current resources to continue the work 
with a measured return on investment.
    Every change in funding, reduction, and program or change 
in funding methodology has direct impact on patient care. I 
would like to extend my appreciation for the UIHP assessment, 
which increases understanding of our community's needs.
    We seek the committee's consideration for followup measures 
to this assessment, including funding formularies and clear 
spending protocols to promote transparency and accountability, 
measurable technical assistance so that the UIHPs can maximize 
billing potential, leverage resources, and continue to manage 
and monitor progress of our patients served.
    Given the robust programs we have been able to develop as a 
330, we could not continue to operate only on IHS funding. I 
would like to voice my support for legislation like H.R. 292, 
reintroduced by Congressman Young and Ruiz, which would exempt 
programs serving AI/AN from sequestration. Decades of 
unfulfilled Federal obligations have devastated Tribal 
communities who continue to face persistent shortfalls and 
overwhelming unmet need.
    Federal support remains critical to ensuring the delivery 
of essential healthcare services both on and off reservation 
land. As this committee is aware, relocation played a 
significant role in the health and well-being of the 723,000 
American Indians and Alaska Natives in California, with a large 
number of them being or descendants of those who were impacted 
by the Indian Relocation Act of 1956.
    The impacts of this are still far reaching, as San Jose was 
an assigned relocation center, and just in the IHS facility 
alone, we have identified 114 different Tribes served.
    Urban Indians not only share the same health problems as 
the general Indian population, their health problems are 
exacerbated in terms of mental and physical hardship because of 
the lack of family and traditional cultural environments. In 
many cases, like mine, the Urban Indian Health Program is the 
only American Indian program in the county. We have recognized 
that for the urban Indian health youth that are at greater risk 
of serious mental health, substance abuse problems, suicide, 
increased gang activity, teen pregnancy, abuse, and neglect.
    The IHC has worked diligently to address these ever-growing 
needs, but we need steady support and continued funding to plan 
for the seventh generation. We have developed a youth-guided, 
family-driven approach to mental health and wellness.
    We believe healthy individuals make up healthy communities, 
but it is our responsibility to find ways to bring the support 
to the community. Culturally competent care depends on us.
    I would like to voice my support for Senator Cole's Indian 
Health Care Improvement Act bill, H.R. 1369, which confirms the 
Federal Government's duty to all AI/AN people making, permanent 
the Urban Indian Health Program and recognizing AI/ANs can be 
served where they reside.
    We ask that while you consider appropriations for fiscal 
year 2018, consider a $10 million increase for the I/T/U system 
of care with a formulary that takes into account the entire AI/
AN population and steps to create network capacity and 
infrastructure to meet the health needs wherever they are. As 
long as you don't do this by divesting Tribal moneys but by 
increasing the abilities of Tribes and Indian healthcare 
providers to reach the AI/AN community where they are, rather 
than forcing them into an already strained system, who also 
does not have enough to serve the people they already have in 
the system.
    So your support will help make the Federal trust 
responsibility whole and move us closer to a seamless I/T/U 
system of care, where IHS-eligible AI/AN can access primary 
care, behavioral health, and specialty care networks within the 
four walls or beyond through 1115 and 1915(b) waivers. The U in 
the I/T/U system of care needs your support to ensure that the 
system remains strong and the investment in the system can 
withstand any scrutiny.
    As the chair of the California Consortium of Urban Indian 
and Health Centers, representing 10 UIHOs in California 
providing health services to 78,000 patients, we ask that you 
increase the title V urban Indian line item so that it can 
support the patients and continue the continuity of care we 
have already established with our patients and reach those who 
have not had the opportunity to receive those services yet.
    Together we can stabilize the I/T/U system of care by 
increasing the funding, increasing urban's opportunities 
throughout legislation, and to help us--and to help you meet 
the requirements of Public Law 94-437, title V, by providing 
culturally competent care to every American Indian and Alaska 
Native.
    Thank you for your time today.
    [The statement of Sonya Tetnowski follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Mr. Calvert. Thank you. Thank you for your testimony.
    Next, Mark Jensen, CEO of the Riverside-San Bernardino 
Indian Health Service. Welcome.
                              ----------                              --
--------

                                             Tuesday, May 16, 2017.

          RIVERSIDE-SAN BERNARDINO COUNTY INDIAN HEALTH, INC.


                                WITNESS

MARK JENSEN, CHIEF FINANCIAL OFFICER
    Mr. Jensen. Thank you, and good morning, everyone.
    I am Mark Jensen. I am the chief financial officer for 
Riverside-San Bernardino County Indian Health. We are located 
in southern California. I am substituting today for Teresa 
Sanchez, our board president, who had a family emergency and 
could not be here to testify.
    We are thankful for the support of Congress and the funding 
provided to improve the health status of our people. This is 
why I was appointed by our consortium Tribes to bring to your 
attention a tactic that has been recently used by the IHS to 
stagnate growth in our budgets.
    Mr. Calvert. Some water?
    Mr. Jensen. Thank you. That would be great.
    Starting in 2014 and continuing into 2015, 2016, and 2017, 
the IHS has been redirecting new annual congressional moneys 
from the recurring category to the nonrecurring category. The 
IHS indicates it has been doing this to ensure that 100 percent 
of contract support cost is funded.
    But starting in 2016, contract support costs have their own 
appropriation line. Yet this damaging practice continued on 
needlessly into 2016, and now into 2017. The negative effect on 
Indian health programs across the country is that our budgets 
are not growing from year to year as they have been in previous 
years. The result is flat budgets that do not keep pace with 
inflation.
    It is beginning to take a terrible toll. For our program, 
budgets have only grown 2.3 percent over the past 4 years. 
Meanwhile, the IHS national budget has been funded by Congress 
at a much higher rate.
    The bottom line is the new moneys are not trickling down to 
where it is needed most, and that is the Tribal healthcare 
programs. And IHS can now more easily manipulate these new 
moneys by keeping it for themselves to fund their own special 
projects.
    These new moneys provided by Congress every year need to be 
recurring moneys to help us keep up with the cost of inflation 
and patient growth demands.
    A second area of growing concern is purchase and referred 
care funding, formerly known as contract health services. The 
California Tribes are much different than Tribes in the other 
49 States. The reason is that we don't have available to us 
hospitals and specialty services, such as cardiologists and 
neurologists.
    Because of the lack of these expensive medical services, 
the California Tribes have to go out into the community and 
hire these hospital and specialty services, and it gets really 
expensive.
    We have asked the IHS to take these factors into their 
calculation so as to make it more fair to the California 
Tribes. The IHS has attempted a weak response to our strong 
needs by placing a no-access-to-hospitals factor in tier 3 of 
their tier 3 system. And according to their own tier system, 
tiers 1 and 2 get funded every year. But in most years, there 
is not enough purchase and referred care moneys to make it to 
tier 3. The result is the California Tribes fall further behind 
the rest of the Tribes in the country.
    In conclusion, I am authorized by my consortium Tribes to 
ask this committee to instruct IHS to do two things: First, 
direct IHS to restore funding from the nonrecurring category to 
the recurring category, starting with fiscal year 2014 and 
moving perpetually forward. Recurring moneys grow the budgets, 
and this is the method IHS has used historically to grow the 
Tribal budgets. They need to get back to that method.
    Second, direct IHS to move the no-access-to-hospitals 
factor from tier 3 into tier 2, so as to ensure that California 
Tribes get a fair increase every year. Two GAO reports have 
also recommended similar changes to make the formula more 
equitable.
    I thank you for your time and consideration.
    [The statement of Mark Jensen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Mr. Calvert. Thank you. Thank you for your testimony.
    Next, Lisa Elgin, chairwoman of the California Rural Indian 
Health Board. Welcome. You are recognized.
                              ----------                              --
--------

                                             Tuesday, May 16, 2017.

                  CALIFORNIA RURAL INDIAN HEALTH BOARD


                                WITNESS

LISA ELGIN, BOARD CHAIRWOMAN
    Ms. Elgin. Good morning, chairman and committee members. My 
name is Lisa Elgin, and I am the board chair for the California 
Rural Indian Health Board, known as CRIHB. Thank you for giving 
CRIHB the opportunity to testify about funding of the IHS.
    As authorized by the Indian Self Determination, Education, 
and Assistance Act, CRIHB is authorized to provide services to 
Public Law 93-638 contracted Tribal health programs.
    CRIHB was founded in 1969 to bring federally funded health 
services back to Tribal communities in California. These 
services were withdrawn as a result of Federal termination 
practices that began in the 1950s. As a result of these 
practices, many American Indians in rural areas had no access 
to medical or dental services, and child mortality rates were 
abysmal.
    Since CRIHB was founded, California Tribes have built a 
network of 32 Tribal health programs and has served more than 
80,000 patients who are eligible for IHS services. While our 
health has improved, our population is growing, and we still 
face some of the worst health inequities of underserved 
population in the U.S.
    Here are our requests: First, we respectfully request that 
the committee fully fund the IHS and ensure the California IHS 
area receives equitable funding, regardless of overall funding 
level received by IHS. It is evident from numerous GAO reports 
and current funding levels that California does not receive 
equitable funding, despite having more American Indian and 
Alaska Natives and more federally recognized Tribes than any 
other State.
    During the last several years, bipartisan collaboration 
between Congress and the administration has resulted in a 
noticeable overall increase for the IHS budget since fiscal 
year 2008.
    Year after year, the Federal Government has failed by 
drastically underfunding IHS far below the demonstrated level 
need. The treaties entered into between the Tribes and 
government establish a responsibility for the Federal 
Government to provide healthcare to Tribes and American Indian 
and Alaska Natives. The Federal Government has a legal, moral, 
and trust responsibility to uphold its part of the treaties and 
provide these services to serve our diverse population.
    We request full funding of the IHS at $30.8 billion, phased 
in over 12 years. This is the amount calculated by Tribal 
leaders on the National Tribal Budget Formulation Workgroup of 
IHS, representing all 12 IHS areas, to develop the national IHS 
budget recommendations for fiscal 2018 budget year.
    Second, we request the committee to do everything in its 
power to have all government GAO recommendations related to IHS 
services acted upon, particularly those recommendations 
relating to ensuring equitable funding to underfunded areas 
like California.
    Third, we ask that the committee increase funding through 
the IHS facilities M&I program to catch up with the amount of 
facility space of the IHS facilities inventory, including 
California IHS area. We respectfully request that the committee 
fund the IHS facilities M&I funding in the amount of $105 
million.
    In California, this funding is critically important, 
because despite many years of trying and more than 50 
applications, no Tribal health clinic or hospital facility has 
ever made it to the IHS facility construction priority list, 
nor joint venture program. As a result, Tribes in California 
have cobbled together funding and taken out loans in order to 
build facilities for our growing population. This funding, if 
increased, will go a long way to help maintain our facilities.
    Fourth, we ask that the committee request a GAO report on 
the IHS facilities construction priorities system, which have 
been substantially revised since 1991.
    Next, we ask your support for the SDPI program. This 
authorization ends September 30, 2017, so swift congressional 
action is needed for continuity in staffing, medical supplies, 
prevention, and education services.
    Next, we ask that you support the American Indian and 
Alaska Native mental health substance abuse programs by fully 
funding Methamphetamine Suicide Prevention Initiative and the 
Domestic Violence Prevention Initiative. These programs are 
currently funded through a competitive grant process that 
creates barriers to care and requires Tribal programs to fight 
against each other for critical funding.
    We also thank you for your continued support of the 
California Indian Youth Regional Treatment Programs. Your 
support will assist the youth to strengthen communities.
    We also ask that you require IHS to develop a new method to 
purchase/referred funds to account for variations across IHS 
areas. We have testified before on this, and we are still 
asking for funding for actual need.
    In conclusion, on behalf of California Rural Indian Health, 
I ask that IHS appropriations be increased to fully fund its 
services and programs over the next 12 years and that you hold 
the IHS accountable for inequities in its funding distribution, 
because it continues to impede our efforts to provide level of 
care to our area.
    Thank you.
    [The statement of Lisa Elgin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Mr. Calvert. Thank you. Thank you for your testimony. Thank 
you all for your testimony.
    Mr. Jensen, your testimony regarding nonrecurring to 
recurring, we will look into that, find out what is going on.
    And on this IHS construction, I know the infrastructure 
throughout Indian Country throughout the United States is 
woefully behind, and so just like Indian schools, we have a big 
challenge ahead of us. And I am going to take up Mr. Cole on 
his offer to work together to see if we can get some additional 
dollars any way we can get it to take care of some of these 
challenges. So I appreciate your testimony.
    With that, Ms. McCollum.
    Ms. McCollum. Mr. Chair, I concur with the remarks that you 
made. And to add onto it, this programming and seamless 
transition between veterans, Indian Health Services, and 
getting services where and as needed is something that we 
talked about when I was on the Veterans Affairs Committee and 
that we have discussed here. I think we need to have the staff 
figure out if we need to put report language in the VA bill as 
well as in our bill to just get it done. A couple of us are on 
DOD and watch them struggle with healthcare records between the 
VA. So sometimes stronger medicine--to use maybe a bad phrase--
is needed to get things moving.
    The diabetes funding has come up a couple of times, and I 
am sure it will come up again. And if my memory serves me 
correct, Mr. Cole, that is a combination of some different 
funding. There is funding for the diabetes programs that goes 
through Indian Health Service and there is funding in the CDC 
and there is funding in the Affordable Care Act.
    To your point earlier, it takes a pretty astute accountant, 
both in Indian education and Indian health, as well in Indian 
Tribal government accounts, to take all these different streams 
of money and figure out how they make things whole.
    But as we look forward, working to reauthorize and keep 
this moving forward, an eight-point reduction in diabetes is 
something to celebrate. I wanted to make sure I had the number 
right, so I took a look at it--that is something that we need 
to keep working towards. As cuts are made, we have to make sure 
that as we are funding what we can here, there is not a cut 
made some other place that throws everything out of balance.
    So, Mr. Cole, I think we have got our homework cut out for 
us on the Indian diabetes special project funding.
    Mr. Calvert. Mr. Cole, you are recognized.
    Mr. Cole. Very quickly, Mr. Chairman. I hope we do look at 
some of these places. These urban Indian healthcare centers do 
an amazing job, and that is where a lot of our population is. 
Over the break, I actually went to the new facility in Oklahoma 
City.--It was quite stunning. But they have done it by raising 
the money themselves. I mean, basically had a capital campaign. 
And we have got a much better facility. It is being more used. 
But, again, we are not up to speed.
    I wonder if we could urge--again, on these diabetes 
programs--the appropriate committees of jurisdiction, which I 
assume is Energy and Commerce, to do their job. I mean, they 
need to reauthorize this program.
    And I wonder if we could also urge again in our report 
language this Indian health centers, urban health centers 
having to pay malpractice insurance when nobody else does, in 
the Federal system is unbelievable. That is a lot of money out 
of pocket.
    Your point was extremely well made. That is a function the 
Federal Government ought to be paying themselves. Those 
individual clinics shouldn't be having to do that, particularly 
when, again, IHS facilities don't--nobody else does it. It is 
just them. And that is something that we need to look at.
    Mr. Calvert. Especially if they take the claims out of the 
judgment account and not out of our budget.
    Mr. Cole. Absolutely.
    Mr. Calvert. Yeah.
    Mr. Calvert. Well, thank you very much. I appreciate your 
testimony.
    We will move on to the next panel.
    Thank you.
    Next, the Cherokee Nation, the Muscogee Creek Nation, and 
the Osage Minerals Council.
    Mr. Cole. Osage.
    Mr. Calvert. Osage.
    That is why I have Tom here: to keep me straight.
    I got Cherokee right.
    Mr. Cole. Well, you are one.
    Mr. Calvert. That is right. Everybody have a seat.
    We thank you for coming out this morning. First, we will 
recognize Bill John Baker, the Principal Chief of the Cherokee 
Nation.
    Welcome.
                              ----------                              

                                             Tuesday, May 16, 2017.

                            CHEROKEE NATION


                                WITNESS

BILL JOHN BAKER, PRINCIPAL CHIEF
    Mr. Baker. Chairman Calvert, Ranking Member McCollum, and 
distinguished members of the subcommittee, Osiyo.
    I am Bill John Baker, Principal Chief of the Cherokee 
Nation, our country's largest Native American Tribe. I 
appreciate the opportunity to testify before you this morning. 
We are more than 350,000 Tribal citizens and have long been a 
driving force in the economy of our State. We employ over 
11,000 people and support 18,000 jobs. Our economic impact on 
northeastern Oklahoma for 2016 alone exceeds over $2 billion. 
We are a stabilizing force in our region.
    Early this year, we broke ground on a $200 million, 
470,000-square-foot health center, and in 2019, this facility 
will be the largest health center in Indian Country. I want to 
thank this subcommittee who had such a large role in making 
this possible in opening up the joint venture for his.
    The Cherokee Nation is making a difference for our citizens 
and for Oklahoma, and this is why the proposed funding cuts in 
the President's fiscal year 2018 budget concern me. The 
blueprint calls for an 18-percent cut to the Department of 
Health and Human Services. Such drastic cuts to his would have 
a lasting impact on our healthcare system. Jobs would be lost. 
Patient wait times would increase. We estimate that nearly 
92,000 patients would go unseen, putting their health and lives 
at risk.
    The blueprint also calls for a 12-percent cut to the 
Department of Interior. This cut to Interior would be unfair to 
Cherokee students. At least 2000 would go unserved. The drama, 
band, and robotics programs at our BIA school we operate would 
be eliminated. It would lead to the closure of daycare centers, 
reduced staff and hours at nutrition sites, and the number of 
citizens that we serve.
    As you work through the appropriations process, I urge you 
to reject any cuts to his, BIA, BIE, and other Tribal accounts. 
I applaud the subcommittee for highlighting BIE school 
construction and repair in recent years.
    Last year, I called for the establishment of a BIE program 
equivalent to the his joint venture program. I repeat that 
request today. Sequoyah High School requires immediate 
assistance. Because of the great cost to replace these aging 
facilities, it is unlikely we will receive BIE funding. We need 
a solution. If given the opportunity to assume school 
construction and repairs in exchange for fixed operating and 
maintenance costs, we could alleviate some of the massive 
backlog. We must embrace innovative solutions to school 
construction.
    I would also like to update you on an issue I raised 2 
years ago. We continue to have a stalemate with the Interior 
and the Interior Business Center over their shift in policy 
regarding costs related to Tribal enrollment activities and 
calculating our indirect cost rate. This issue has caused a 
serious delay in determining our indirect cost rate for fiscal 
year 2017. The House Appropriations Committee included language 
on this matter in fiscal year 2016. The language directed the 
Interior to report to the subcommittee on its justification for 
this change and how it would apply to Tribal enrollment 
activities.
    Your directive has been ignored. Our discussions are moving 
in the wrong direction. Verifying Tribal citizenship and 
preventing fraud is crucial to eligibility for many of the 
Federal programs we administer. For decades, these costs have 
been allowed. We ask for your assistance to ensure that the 
long-lasting policies which properly allowed such costs remain 
in effect.
    Finally, we continue to support full funding for his and 
BIA contract support costs and thank the subcommittee to fully 
fund contract support cost without jeopardizing program 
funding. Failure to fund these costs impedes our ability to 
meet the needs of Cherokees.
    We respectfully urge the subcommittee to continue employing 
a separate and indefinite appropriation. Thank you for granting 
me this opportunity today.
    [The statement of Bill John Baker follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Mr. Calvert. Thank you, Chief. Thank you for your 
testimony.
    Next, James R. Floyd, Principal Chief, Muscogee Creek 
Nation.
    Sorry, Tom.
    You are recognized for 5 minutes.
                              ----------                              

                                             Tuesday, May 16, 2017.

                         MUSCOGEE CREEK NATION


                                WITNESS

JAMES R. FLOYD, PRINCIPAL CHIEF
    Mr. Floyd. Thank you, Chairman Calvert.
    Good morning, everyone. Congressman Cole, Congresswoman 
McCollum, good to see you again.
    Muscogee Creek Nation, I am James Floyd, Principal Chief, 
speaking today on behalf of the more than 82,000 members of the 
Muscogee Creek Nation, neighboring Tribe of the Cherokee 
Nation, and I support many of the points that were brought out 
in previous testimony.
    I would like to begin my remarks this morning to, first of 
all, talk about the need for regular order in the budget 
process. As we go into fiscal year 2018, we need to make sure 
that Congress does follow the regular order process in getting 
the appropriation bills enacted. We have worked since 2015 with 
continuing resolutions.
    Mr. Calvert. It is time to make that change, sir.
    Mr. Floyd. Along with that, I think it is time that we 
again talk about mandatory funding versus just the 
discretionary that we have endured since inception. I guess I 
can put it that way. I know my whole entire career, more than 
30-some-odd years, we have dealt with discretionary funds. So, 
having been a senior executive within the Department of 
Veterans Affairs, I guess I can say I enjoyed the 2-year 
funding and the advanced funding and the mandatory funding in 
terms of being an executive and managing healthcare systems for 
the VA. That was very crucial in us making sure that we did not 
have stops in service delivery to our veterans, and I think the 
same thing should occur with our Indian people. We all know 
about the treaty and trust obligations, and I think this would 
fulfill that. And I would be glad to assist in any way possible 
with doing so. But I think that it is imperative that this year 
we address that.
    I would also suggest that we increase funding to expand the 
joint venture program. Chief Baker talked about that. We 
presently have a joint venture program in Eufaula, Oklahoma, 
one of the highest unemployment counties in the State of 
Oklahoma, exceeding 10 percent. The difference that makes: We 
have invested in this particular joint venture $30 million of 
our funds; we are moving from a 5,000-square-foot clinic to a 
70,000-square-foot clinic. That 5,000-square-foot clinic was 
built in the late 1960s. Facilities within the Muscogee Creek 
Nation include three State-licensed hospitals and six 
outpatient clinics. The average age of our facilities is 40 
years old. So they all need replacing. We have two right now 
that need to be placed in the joint venture program. So I think 
expanding that provides that we can continue to keep up with 
adequate facilities for the safety of the staff, for the 
provision of care, and improvement of quality to our patients.
    Most recently, the Tribe itself invested $90 million of our 
own money to rebuild a hospital in Okemah which was originally 
built in 1948. We are just now going to be opening that in 
October. So you can see that model of kind of desperation 
funding of these facilities is just not the way to go. So I 
think the expansion of the joint venture program would go a 
long way toward systematically replacing aging facilities and 
have quality facilities that we need, and so I strongly support 
that.
    So we request an increase in funding for hospitals and 
clinics as we go into 2018--thank you, sir--and we understand--
we haven't clearly seen all the proposed reductions but expect 
that to be 12 to 18 percent. And, you know, having endured 
continuing resolutions for previous years, that in itself 
brought cuts to the program. So we don't really want to see 
proposed further cuts that would just continue to reduce the 
services that we provide. And so we ask that you fully fund 
hospitals and clinics, line items, so we can provide those 
basic services that our patients need.
    I would also like to speak about the Self-Governance 
Program and talk about that, that we do two things: one, expand 
that to other services and programs within the Department of 
Health and Human Services. There are programs in the Health and 
Human Services Department that go through States and are 
offered to the Tribe in terms of grants. That really needs to 
be looked at in terms of those being able to be compacted from 
the Department of Health and Human Services directly to the 
Tribes.
    And, finally, I just wanted to talk about real estate trust 
services and say that, you know, we need to continue to look at 
that and continue to move forward with fee-to-trust processes, 
sir.
    Thank you, very much, for your time this morning.
    [The statement of James R. Floyd follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    Mr. Calvert. Thank you. Thank you for your testimony.
    Next, Cynthia Boone, council member of the Osage Minerals 
Council.
                              ----------                              --
--------

                                             Tuesday, May 16, 2017.

                         OSAGE MINERALS COUNCIL


                                WITNESS

CYNTHIA BOONE, COUNCIL MEMBER
    Ms. Boone. Good morning, Mr. Chairman and members of the 
subcommittee. My name is Cynthia Boone. I am a member of the 
Osage Minerals Council. The Osage Minerals Council has eight 
members. Thank you for the opportunity to testify.
    Our Osage Reservation is unique in all of Indian Country. 
First, the Osage purchased our 1.5-million-acre reservation in 
1883 for about a million dollars. Second, the Osage Minerals 
Council, not the Osage Nation, is responsible for developing 
and protecting the Osage Minerals Estate. The Osage Minerals 
Council was given this opportunity under a 1906 act of Congress 
and the Osage Nation Constitution.
    Development of oil on our reservation goes all the way back 
to the 1890s, more than a hundred years ago and before the 
allotment of our reservation in 1906. As you know, under 
allotment, Congress divided up Indian lands and provided small 
parcels to individual members of the Tribe. In our case, 
Congress allotted the surface lands but not the minerals. 
Congress reserved our entire Minerals Estate for the benefit of 
all members on the Tribal rolls at that time.
    Congress called our members on the rolls at that time 
headright owners. Each headright owner had one share of 
royalties from the production of oil and gas in the Osage 
Minerals Estate. Today, many of those headright interests are 
fractionated.
    The Osage Minerals Estate has been producing oil since 
1896, making it one of the oldest fields in the United States. 
Our Minerals Estate fields still contains proven reserves. In 
2015, it was estimated that headright owners would receive 
about $13.6 billion in royalties from 2012 to 2017. That is 
about a billion dollars a year. Despite our success, the Osage 
Minerals Council faces many of the same challenges as other 
energy-producing Tribes. We also face some challenges that are 
unique to the Osage.
    First, like other Tribes, energy production on our lands is 
limited by a lack of staff, expertise, and resources in the 
Bureau of Indian Affairs agency offices. Without the BIA staff 
or expertise to keep up with the energy industry, we are not 
able to fully develop our resources to benefit the Osage 
headright owners. For example, we estimate that the BIA 
averages more than a year just to approve a single workover 
permit. A workover permit only approves maintenance for an 
existing oil and gas well. You can imagine the delays for 
permitting a brandnew well. The BIA needs far more than the $5 
million or so budgeted in the past to manage our oil and gas 
development across Indian Country. BIA needs 10 times that 
amount. When you compare the BIA's budget to the $187 million 
budget that the BLN budget has for oil and gas development on 
Federal lands, it is no wonder that the Government 
Accountability Office recently determined that the BIA 
management hinders Indian energy development and needs sweeping 
exchanges.
    Second, unlike other Tribes, the 1906 Allotment Act creates 
special requirements for leasing on our land. For example, 
leasing on the Osage Minerals Estate is specifically excluded 
from the Indian Mineral Leasing Act. Instead, the Interior 
follows Osage-specific regulations, and the BIA is the only 
agency involved in approving our oil and gas permits in our 
Minerals Estate.
    The BIA does not get any help from BLM or the Office of 
Natural Resources Revenue like other Indian reservations. The 
Osage Minerals Council also has unique management 
responsibilities, but our funding is limited as well. We 
currently manage the estate with an annual drawdown from 
royalties that should be distributed to the Osage headright 
owners. This is an unfair burden on our headright owners, and 
there is not enough funding for effective management of the 
estate.
    Meanwhile, every year since 1921, the State of Oklahoma has 
collected a 5-percent gross production tax from our royalties. 
In many years, the tax generated is in excess of $5 million for 
the State but provides no benefits to the Osage Nation. With 
this impact from State taxes and many responsibilities for 
managing the Osage Minerals Estate, we respectfully request 
that the subcommittee provide direct funding to the Osage 
Minerals Council to help us hire the staff we need to manage 
the estate and promote drilling and production.
    As highlighted in our written testimony, we need about $2 
million in funding to employ experienced staff, create a 
digital database to monitor well production and environmental 
hazards, and about $5 million in funding is needed to plug 
abandoned wells. Just as an example, BIA found roughly 1,400 
wells for plugging. Each of these wells cost between $10,000 to 
over $100,000 to properly plug and abandon. These are old, open 
wells, and they are a hazard to all.
    Even worse, the BIA has not complied with environmental 
review requirements for years. This subjects the United States 
and the Osage Minerals Council and Osage leases to never-ending 
litigation and kills development of new wells.
    We need to turn this situation around. Oil and gas 
production at Osage Minerals Estate supports thousands of jobs 
and provides badly needed economic development.
    We respectfully request that you increase the BIA's 
national energy budget, and we request $4 million in direct 
funding for the Osage Minerals Council so that we can bring 
management of the Osage Minerals Estate into the 21st century.
    Thank you for the opportunity to testify, and I am 
available to answer any questions.
    [The statement of Cynthia Boone follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Mr. Calvert. Thank you. Thank you for your testimony. I 
appreciate that.
    Chief Baker, your testimony, obviously, you struck a chord 
when you talked about the 2018 budget. You are not the only one 
that is worried about it. I think that you will find a choir to 
sing to around here. But we are all anxious to see what the 
budget looks like when it comes around on May 22. So we will 
see what happens.
    But we will need all of your help, I suspect, when that 
occurs. And, certainly, we will take a look at this issue with 
indirect cost rate and find out why our directive was ignored. 
That is not a good thing. I will certainly follow up on that.
    And as far as the mandatory spending side, we were talking 
about that earlier today, Chief Floyd. And so Chairman Cole and 
I will be working on that together with his committee, and I 
hope we can come to some kind of solution to that problem.
    And energy production in the United States is important. We 
will certainly look at that. And we have challenges, not just 
in Indian Country, but throughout the United States, as far as 
getting these permits done in an orderly fashion.
    Ms. Boone. Thank you.
    Mr. Calvert. With that, Ms. McCollum, you are recognized.
    Ms. McCollum. Thank you, Mr. Chair. Once again, I think you 
summarized some of the issues really well.
    Ms. Boone, one of the challenges that we were hearing back 
several years ago when we were doing public witnesses is that 
people were being hired out of the Bureau to work in the 
private sector because they could make so much more money. That 
was creating this ever cycling spindown in staff shortage. I 
know things have changed a little bit in the market, but it 
sounds like the staffing levels haven't improved. So I know we 
will take a close look at that.
    And then, gentlemen, both of your testimony reflects some 
of the earlier testimony on Tribal colleges and students 
attending Tribal colleges. There is a huge gap in what those 
students have, whether it is for tuition dollars, boarding 
dollars, and that. It is really making the cost of college a 
real struggle.
    I have had the opportunity to speak to students working on 
their advanced education after finishing high school not only 
from Minnesota, but from around the country. And this country 
cannot afford to leave anybody behind who wants to enter the 
workforce and be part of the future of this country. So I want 
to understand some of this funding gap better because they get 
hit in a couple of different ways beyond what other college 
students do. And quite often these young adults are young 
parents too, trying to balance work life and home life.
    I am picking this up more as a theme this year in all the 
testimony. So I thank you both for bringing that forward.
    Mr. Calvert. Thank you.
    Mr. Cole.
    Mr. Cole. Thank you very much.
    I want to begin by pointing out that Chief Baker was much 
too diplomatic to point out that this hospital he is building 
has become the largest American built, surpassing the Chickasaw 
hospital. So I have to say this is a great program. And our 
Tribes have really, really used these, I think, exceptionally 
well. And, frankly, it is a great boon to all of Indian Country 
because this is our money going into building these facilities 
we are operating, basically. But it takes a burden off the 
Federal Government and puts it on the Tribe. And that, frankly, 
then frees up other money to go to Tribes that are not as 
fortunate, quite frankly, in terms of being able to afford the 
cost of facilities. So it is a big win for the Federal taxpayer 
for sure and for Indian Country. And it is a program we ought 
to continue to fund.
    But these Tribes are to really be commended because they 
are taking an enormous responsibility upon themselves and using 
their own resources in ways that, again, help those that are a 
lot less fortunate.
    I, too, want to just echo my concerns about the budget cut 
proposals but also suggest that we look at our own budget 
committee because that is where those decisions are going to 
ultimately be made. I mean, the President's proposal is just 
that: It is a proposal. And I sit on that committee. And the 
tendency will be--the President wants to do some things that I 
agree with very much. I mean, we have not adequately funded 
defense. He wants to increase that. I think that is a necessary 
thing to do. And if you want to offset the cost, I understand 
that. But you need to look over the entire budget, not just 
focus on the nondefense discretionary. And I am afraid that is 
what we will do.
    And if we basically adopt the administration proposals on 
defense without raising--and my friend here will know exactly 
what this is--the 302(a), which is the total discretionary 
spending line, then these cuts will come. And they won't come 
in exactly the manner forecast, but if all of a sudden my 
friend the chairman's allocation falls dramatically, he is 
going to have to do the best they can. So it is what Congress 
does on the budget, honestly, more than what the President 
proposes that is really the key. And we are having those 
debates and discussions.
    I don't think that that budget will be out until June. So I 
think making the points in May, when the President's budget 
comes out, are important. Now, again, to be fair, particularly 
in the area of Indian health, the chairman and I both visited 
with Secretary Price about this is not one of the areas that 
ought to be suffering these kinds of cuts. And the 
administration, in its own budget, said this would be a 
priority item, Indian healthcare service. He didn't tell us 
exactly what that meant. And I suppose we will have a fuller 
disclosure.
    But those are things that, I mean, an already underfunded 
system just can't afford. There is no way we can have cuts of 
that magnitude without seeing dramatic impact in Indian Country 
and health outcomes as well.
    So I appreciate all of you highlighting that. And this 
mineral issue, as Ms. Boone knows, is particularly not only in 
Osage Country. It is difficult for Utes. It is difficult for 
the Three Affiliated Tribes. But this unique relationship that 
they have with the BIA really does hamper the funding issues 
even beyond what we see, you know, in the other areas because 
the BLM just has a lot larger budget. And we ought to look to 
see if there is some way--and it would probably require a 
legislative action--to at least make those resources available 
in Osage Country as well.
    I mean, this is one of those leftover type situations--we 
have so many--of which, in Indian Country, that are due to very 
unique historical circumstances. It has been a very mixed 
blessing for the Osage, to say the least, as my friend would 
know. But it is something that ought to be able to be solved. 
They ought to have access to a larger pool of money. And I 
don't know why the BLM shouldn't be--their resources, at 
least--available for some of these kind of issues because it 
really--as Ms. Boone pointed out, these are old fields, and we 
are making it so hard to drill. These don't produce a lot of 
oil. Most of these are stripper wells, under 10 barrels, a lot 
of them under 5, and some of them one and 2, literally. So, 
when it is taking a year to get a permit to rework a well that 
is only producing----
    Mr. Calvert. Why doesn't the BIA just contract that out to 
the BLM since they are more apt----
    Mr. Cole. That is something we ought to explore.
    Mr. Calvert. They are more apt to do that. It would 
probably be more logical for them to----
    Mr. Cole. But there needs to be some way. Again, the Osage 
situation is very unique in Indian Country. But there has got 
to be a better way to administer this thing than what we are 
doing now.
    Mr. Calvert. Sure.
    Mr. Cole. Anyway, I yield back. Thank you.
    Mr. Calvert. Thank you.
    And thank you all for your testimony. We appreciate you 
being here today.
    Next up is Valorie Walters, Executive Officer and Trustee 
of the Chickasaw Nation--I got that one right----
    Mr. Cole. You got that one right.
    Mr. Calvert [continuing]. And Oklahoma Humanities Council.
    Jennifer L. Johnson, Ph.D. Student, University of Oklahoma, 
Spoken Creek Documentation Project.
    Good morning. Thanks for coming.
    Without any further ado, I am going to recognize Valorie 
Walters with the Chickasaw Nation.
    Welcome.
                              ----------                              --
--------

                                             Tuesday, May 16, 2017.

            CHICKASAW NATION AND OKLAHOMA HUMANITIES COUNCIL


                                WITNESS

VALORIE WALTERS, EXECUTIVE OFFICER AND TRUSTEE
    Ms. Walters. Good morning, Mr. Chairman and members of the 
subcommittee. Thank you all so much for allowing me to testify 
today. I am here to talk with you about the Oklahoma Humanities 
Council and also how they help tell the Native story as well as 
those across the U.S.
    The programs within the humanities cover all areas, from 
history, philosophy, literature, and ethics. And the programs 
themselves include everything from museum exhibits to 
literature sessions to films. In these stories or in these 
programs, we are able to share the importance of the Native 
American history all across the United States, which, as we all 
know, is very important to all of us as Americans.
    Our audience for the Oklahoma Humanities includes everyone. 
We truly believe that the Humanities Council or that the 
humanities is something for everyone--of all ages, all races, 
all income levels. It is really for everyone.
    I want to talk to you a little bit about some of the 
programs that happen in Oklahoma. We have supported Symposium 
on the American Indian, which is a week-long symposium at the 
Northeastern State University where Tribal members and 
humanities scholars share their knowledge of American Indian 
contributions in art, literature, and sustaining traditional 
culture. Along with that, we have also helped in ``An 
Everlasting Fire: The Seminoles of Oklahoma,'' where we 
actually helped support them in redesigning their gallery 
through artwork, photos, audio, and video recordings.
    Throughout the State, we actually help with, also, 
festivals that take place. One is the soft language department 
of the Sac and Fox Nation where we supported them as they put 
on an Algonquin cultural and language festival and brought 
together Tribes and different organizations to help celebrate 
their history and culture.
    We have helped with the Cherokee National Historical 
Society's Heritage Center Outreach Educational Program. And 
this is a cross-cultural teaching where they expanded over 14 
counties and actually reached 15,000 people in sharing their 
history, their culture, their arts, everything for the Cherokee 
people.
    Ms. Walters. We worked with the Metro Caddo Cultural Club 
in Norman, Oklahoma, where they have received several grants in 
participating their Caddo culture, celebrating that through 
traditional dances and demonstrations of foodways. Now, this 
also actually leads into a bigger discussion about diabetes and 
the impact that has on Native Americans.
    In Oklahoma, we have also worked for different films or 
producing different films. We work with curriculum to profile 
Native Oklahoma women.
    We have worked with the National Cowboy & Western Heritage 
Center to help fund a wonderful exhibit: ``Power and Prestige: 
Headdresses of the American Plains.''
    So, in 2015, when the NEH offered State humanities funding 
for programs about veterans, Oklahoma partnered with OETA and 
some Tribes to produce a film called ``Native Oklahoma: Vietnam 
Veterans.'' And it was a 30-minute documentary that was shared 
with all Oklahomans.
    We also, as part of the Chickasaw Nation, have partnered 
with the Oklahoma Humanities to bring about some funding to 
help with our literature program called ``Let's Talk About 
It,'' which is a free and open program to folks all across 
Oklahoma in various public libraries.
    In other States, whenever we talk about sharing the Native 
stories, we are talking about various States across the U.S.: 
Alabama, Colorado, South Dakota, Texas focus on Native American 
traditions in their States. Colorado's institutes on the 
Cheyenne and Arapaho Tribe were planned with the Tribe's input 
and include Tribal presenters.
    Texas supported the Caddo Traditions Teachers' Workshops 
and a 2-day program allowing teachers the opportunity to meet 
with Tribal members and scholars.
    We do all kinds of programs within the humanities. We do 
films. We do programs for reading, some of the documentary 
films. We have done a Native Hawaiian where it featured a 60-
minute documentary called ``Hawaiian Masterpieces: Ka Hana 
Kapa,'' showcasing the art and techniques of master 
practitioners used by ancient Hawaiians.
    Indiana actually produced a film focused on the Fall Creek 
massacre and its aftermath.
    Rhode Island's Council for the Humanities funded two 
documentaries, one that explored New England Native identity 
from the point of view of language preservation and loss, and 
another one on King Philip's War and its effect on the Native 
people.
    Now, as I talked about films, we also do festivals, which 
include film festivals as well. The festivals funded--the Idaho 
Humanities Council funded a Native American film series 
featuring five monthly documentary films by Native Americans. 
The South Dakota Festival of Books annually features a history 
and tribal writing track with American Indian humanities 
scholars and authors. Significant Tribal voices have included 
people like Sherman Alexie to help tell the stories.
    We support exhibits to help tell the Native American story. 
Throughout, we have councils in Indiana, Massachusetts, 
Michigan, Texas, and South Carolina, who have all funded 
exhibits that help tell the Native American stories.
    The Michigan Humanities Council partnered with local groups 
to bring an interpretive highway exhibit described as a last 
Potawatomi homestead.
    In New Jersey, funding from the New Jersey Council for the 
Humanities enabled the reinstallation of the Newark Museum's 
Native American collection in a new location.
    Some of our other programs that help tell the Native 
American story include festivals, history days, curriculum, 
always that we help.
    So, in conclusion, I just want to say, first of all, thank 
you for your time. We do certainly appreciate everything that 
you all do, and we truly believe that the humanities help tell 
the Native story. And we thank you for all of that.
    [The statement of Valorie Walters follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    
    Mr. Calvert. Thank you. Thank you for your testimony.
    Next, Jennifer Johnson, you are recognized for 5 minutes.
                              ----------                              

                                             Tuesday, May 16, 2017.

       UNIVERSITY OF OKLAHOMA--SPOKEN CREEK DOCUMENTATION PROJECT


                                WITNESS

JENNIFER L. JOHNSON, PH.D. STUDENT
    Ms. Johnson. Mr. Chairman, Ranking Member McCollum, and 
members of the subcommittee, Estonko.
    My name is Jennifer Johnson, and I am a citizen of The 
Seminole Nation of Oklahoma, and a Ph.D. student in the College 
of Education at the University of Oklahoma. I am here today to 
testify in support of the National Endowment for the 
Humanities.
    I grew up in a rural community of Konawa, Oklahoma. My 
community is nestled within the Tribal boundaries of the 
Seminole Nation, a Tribe with approximately 18,000 citizens 
located in the south-central portion of the State. Although my 
community is small, it is rich in heritage.
    Within my family, my grandmother was a monolingual speaker 
of the Maskoke language. She didn't speak English at all. My 
aunts and uncles were required to attend boarding schools in 
which they acquired the English language. The generation that 
precedes me is bilingual in Maskoke and in English. It is my 
generation that is not, and it is a loss that I feel deeply 
today.
    When my generation was born, we were spoken to in English. 
Our parents didn't want us to struggle in school as they had. I 
can still remember my aunt telling me about how she was forced 
to stand with her nose in the middle of a circle in the wall 
because she had been caught speaking Maskoke in school. School 
language policy directly affected my family's use of the 
Maskoke language. And when my grandmother passed away, I began 
to hear the language less and less.
    My testimony today is to highlight the impact of the NEH-
supported Spoken Creek Documentation Project, which is an 
endangered Muskogean language originally spoken in the 
Southeastern United States. It is now spoken by the Seminole 
and the Muscogee Creek Nations in Oklahoma and the Seminole 
Tribe of Florida.
    The project is part of the Documenting Endangered Languages 
Program, which is a partnership between the NEH and the 
National Science Foundation to develop an advanced knowledge 
concerning indigenous languages and human languages. The 
project builds on existing collaboration between the College of 
William and Mary and the Seminole Nation to provide the first 
documentation of Spoken Creek, or Maskoke as we call it.
    The goal is to produce 24 hours of audiovisual recordings, 
transcriptions, and translations into English, and train 
students in language documentation methods. We have been 
fortunate to include a round table of military veterans as 
participants in the interviews. These veterans served in 
Bosnia, Korea, Vietnam, and World War II. The stories and life 
lessons that they have shared through our language is 
invaluable to the repository of knowledge of American history.
    We were reminded of the importance of the Maskoke language 
in service to the United States when, in November of 2013, our 
esteemed elder, the late Mr. Edmond Andrew Harjo, was presented 
with the Congressional Gold Medal for his service as a code 
talker in World War II. The Maskoke language was one of a few 
indigenous languages utilized as military code that could not 
be broken.
    Within the Seminole Nation, I estimate there are 
approximately 200 first-language fluent speakers remaining. 
Unlike other world languages, such as Spanish, Italian, and 
French, the Maskoke language is only spoken in the United 
States. There is nowhere else in the world that you can travel 
to hear it spoken in its natural state. According to 
information from the 2010 national census, there are only 169 
indigenous languages still spoken, and of that number, only 5.4 
percent were spoken across all ages. However, it should be 
noted that those census figures do not give us a clear picture 
of what degree of fluency those languages are spoken.
    With the commencement of the next census in the next 3 
years, I expect the number of indigenous languages spoken will 
decrease significantly as the number of first-language speakers 
have passed on. So the work that we are doing today is 
important as our languages within the United States are unique 
to the heritage of our country. Yet their very existence is 
fragile. I know that, within my lifetime, I will bear witness 
to seeing the last of our first-language speakers go, and this 
project has provided such vital assistance in not only 
documenting the Maskoke language, but also providing us with 
such a concise understanding of American history.
    The information I presented is dire, but I can testify to 
the positive correlations that this NEH-supported project has 
had within my State. I have seen second-language learners who 
are committed to the revitalization of Maskoke. These learners 
include a young teacher who goes to work each day teaching 
classes of Oklahoma high school students the Maskoke language 
in a local public school. These students then achieve their 
world language requirement by studying our language. School 
curriculum has been developed to include the project videos, 
and it is through these experiences that I have found hope for 
our language.
    This project is one of the many that have been funded by 
support from the National Endowment for the Humanities. Through 
its Documenting Endangered Languages program, the endowment has 
been a leader in providing support to endangered languages 
around the world, especially indigenous languages and cultures 
that are unique to this country. Since 2004, NEH has provided 
nearly $40 million in funding to these efforts. To ensure that 
programs and projects such as these, vital to the heritage of 
the United States, I ask you to provide $155 million for the 
National Endowment for the Humanities for fiscal year 2018.
    Thank you for the opportunity to speak to you today.
    Mvto.
    [The statement of Jennifer L. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Calvert. Thank you.
    And thank you both for your testimony.
    You will find that we all support the National Endowment 
for the Humanities. As a matter of fact, we were able to plus-
up that budget slightly this year, both the National Endowment 
for the Arts and National Endowment for Humanities with all of 
our support, and hopefully we are able to maintain that support 
and that funding level. We will see as this budget year 
continues. But we are going to need your assistance in that.
    I think it is important to point out what this means to 
Native programs throughout the United States. The humanities is 
extremely important, as this history may slip us by a little 
bit. We need to make sure we maintain that. So I share your 
concern about that, especially Native languages. Most of the 
Native languages, for instance, in California, are gone. So 
very few of them are left.
    Ms. McCollum.
    Ms. McCollum. Well, thank you. I think this just goes to 
show how impactful the humanities and the arts are to each and 
every one of us, but in particular at preserving something that 
is special to each and every one of us and very special to the 
different Tribal Nations in Indian Country. The chairman from 
Red Lake is going to come up shortly. We had a very powerful, 
impactful display at the Minnesota Historical Society on the 
Sioux uprising. And watching, as a history teacher, as a person 
from Minnesota, as a person who works on Tribal issues--I live 
a couple blocks away, so I stop in there quite often. Watching 
immigrants from the Hmong community and from the Somali 
community as well as people who are traveling on vacation, 
going through and learning of the courage of some of the Tribal 
people who took in settlers who thought their lives were 
threatened as well as settlers who took in Native American 
children from the surrounding community whose parents entrusted 
them with their care was a story that I had never heard of the 
Sioux uprising.
    So it is very, very important that we share our history 
because that is how we learn about each other and learn not to 
make mistakes.
    Thank you. You have so many issues in Indian Country, but 
thank you for coming and reminding us all how important it is 
to share our stories.
    Thank you.
    Ms. Walters. Thank you.
    Mr. Calvert. Mr. Cole.
    Mr. Cole. I just want to make a couple of points. You know, 
if you are from Oklahoma, we have more endangered languages, 
literally, than anyplace else in the world. And that is 
actually a Federal Government statement.
    But our Tribes have really done some remarkable things. And 
I want to first point out that if you guys haven't had a chance 
to see it--and I actually talked to Governor Anoatubby about 
this--the Choctaws have this amazing program where they have 
gathered their first--these are all first-language speakers. 
And they linked up the public school districts with 
telecommunication thing. And they literally bring classes into 
the public schools, over a hundred different schools in their 
territory. And you can come in--and I have watched these things 
in action--with lively students, you know, learning the 
language. And it meets their language requirement, as you 
suggested. And I think even the University of Paris has picked 
this up. I have never seen a center quite like it. A lot of us 
struggle with different ways to do it. But that way you 
concentrate people that really are excellent instructors in one 
site. But you connect them to a territory where there is a 
broader interest in the language, and a lot of people, you 
know, in danger of losing their language that finally have an 
opportunity, in a public school setting, to recapture that.
    And I would be remiss not to thank my friend who works with 
my Tribe. Our Tribe really has done some remarkable things. I 
don't know very many other Tribes that run their own press. We 
literally print histories of our Tribe and significant figures 
in it.
    And, someday, when we are done competing in film festivals, 
I will get you guys a copy of the film of my Great Aunt Te Ata, 
which has, Graham Greene in it, you know, from ``Dances with 
Wolves.'' It is unbelievable. And you would love her. I mean, 
she was your kind of person, Betty.
    And we have done that with the first woman aviator, Pearl 
Scott, who was a very famous figure. So it is amazing how much 
this history is being recaptured by Tribes when they have the 
means. You know, again, and that is why the National Endowment 
of the Humanities is such an enormously important agency 
because not every Tribe has the means. And so just focusing, 
you know, this attention on this really has helped us uncover a 
lot of parts of history that I think the average Americans have 
forgotten or, frankly, in some cases, have, honestly, been 
actively suppressed. But they ought to be remembered.
    And I commend both of you coming here. Most of the people 
who come and testify, appropriately, come and testify here 
about the BIA or the, you know, Indian Health Service. But for 
each of you to be here testifying for something that literally 
is beyond just Indian Country--obviously, every American 
benefits from--just says a lot about both of you and, 
obviously, the Tribes that you represent.
    Thank you.
    Mr. Calvert. Thank you.
    Thank you both. Have a good day.
    Next we will recognize our next panel: Darryl Seki, 
Chairman of the Red Lake Band of Chippewa Indians, and Kevin 
Dupuis of the Fond du Lac Band of Lake Superior Chippewa 
Indians.
    Welcome. Thank you for attending.
    And, Mr. Seki, you are recognized for----
    Mr. Seki. Seki.
    Mr. Calvert. Seki. Okay. Excuse me. Seki. For 5 minutes.
                              ----------                              

                                             Tuesday, May 16, 2017.

                   RED LAKE BAND OF CHIPPEWA INDIANS


                                WITNESS

DARRELL SEKI, CHAIRMAN
    Mr. Seki. [speaking native language.]
    Good morning, Chairman Calvert, Ranking Member McCollum, 
Tom Cole, and all of the good friends of Indian Country on this 
subcommittee.
    [speaking native language.] Chairman, thank you for 
listening today. My name is Darrell Seki, and I am chairman of 
the Red Lake Band of Chippewa Indians. Red Lake has over 12,000 
enrolled members, half of whom live on 840,000-acre reservation 
in northern Minnesota. Our Tribe, alongside the Federal 
Government, is responsible for providing public safety, health 
services, creating employment and economic development 
opportunities, and using our natural resources in ways that 
benefit future generations.
    Our remote reservation suffers 50 percent unemployment and 
lack of basic infrastructure. Our reservation's safety net is 
stretched beyond its breaking point. Year after year of 
sequestration cuts has made it worse and worse. Sequestration 
has been a nightmare for Tribes like Red Lake who have limited 
opportunities for economic development because of our remote 
location, are unable to raise revenue through taxation, lack 
access to capital available to other government entities, and 
are forced to rely on fickle Federal funding to provide 
essential government services.
    For years, I served as Tribal Treasurer at Red Lake, and I 
know full well our need for Federal funding and how painful it 
is to cut programs. From fiscal year 2013 to 2017, 
sequestration and rescissions cut Red Lake BIA's annual funding 
levels by more than $900,000 each year, forcing Red Lake's 
already underfunded programs to take a big hit.
    To cover our shortfalls in public safety funding, Red Lake 
used Tribal Self-Governance Act authority to shift money from 
other critical BIA programs, cut back on staff, reduced hours 
for law enforcement and other public safety services. This left 
our public safety programs understaffed, underequipped, way 
below the BIA's own safety standards. Red Lake cannot afford to 
lose any more BIA funding.
    Sequestration additionally cut $750,000 each year from his 
funding medical services at Red Lake. This has cost the Tribe 
several medical positions, made patients wait even longer for 
treatment, delayed patient followup care, reduced medical 
transportation, diminished supply stocks, and delayed 
replacement of outdated equipment.
    In my written testimony, I have listed similar cuts to 
EPA's General Assistance Program, or GAP, and many other 
Federal programs that Red Lake relies on to support our Tribal 
members. As you begin to shape the fiscal year 2018 
appropriations bill, Red Lake requests that you consider the 
following:
    First, the legal and moral trust responsibility requires 
Congress to appropriate funds at the level needed to meet basic 
needs of Tribal communities like Red Lake. Red Lake and the 
United States are parties to several treaties by which Red Lake 
conveyed millions of acres of land to the United States in 
exchange for Red Lake's basic needs being met in perpetuity. 
Yet, by every measure, our needs are not being met. We have too 
few job opportunities, inadequate infrastructure, shrinking 
public safety, healthcare services. We are fighting against 
violence, drug abuse, mental health dysfunction.
    Second, the U.S. Congress should uphold treaty obligations 
regardless of political disputes over Federal budget cuts and 
deficits. This means you should protect Indian Country.
    Budgets from the White House propose 12 percent cut to the 
2018 Interior budget. It means you should add funds back to 
restore BIA, his and base Tribal government funding to make up 
for the cuts in reservations' programs caused by years of 
across-the-board sequestration.
    Third, we ask that you increase funding for programs that 
are brining Red Lake success. BIA's Tiwahe and recidivism 
reduction initiatives are two initiatives that Red Lake has put 
to maximum use. Because of these programs, we have opened the 
juvenile treatment facility, a Tribal health and wellness 
program, providing a vital service to our youth for a variety 
of issues, including mental health, substance abuse, domestic 
abuse, and petty crime.
    Before 2 years ago, I was here to testify about suicides. 
But we are proud to report, in the last 16 months, for the 
first time in years, we have had zero youth suicides--zero. 
This outcome is the direct result of our hard work with the 
funding you provided for the Tiwahe and recidivism reduction 
initiative programs.
    [Speaking native language.] Thank you, again, to members of 
this subcommittee for your steadfast dedication and working for 
and with Indian Country.
    Again [speaking native language] to you all for listening.
    [The statement of Darrell Seki follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    Mr. Calvert. Thank you. Thank you for your testimony.
    Next, Kevin--is it Dupuis?
    Mr. Dupuis. Yeah. Dupuis.
    Mr. Calvert. Chairman of the Fond du Lac Band----
    Mr. Dupuis. Fond du Lac.
    Mr. Calvert. Fond du Lac.
                              ----------                              

                                             Tuesday, May 16, 2017.

           FOND DU LAC BAND OF LAKE SUPERIOR CHIPPEWA INDIANS


                                WITNESS

KEVIN R. DUPUIS, SR., CHAIRMAN
    Mr. Dupuis. [speaking native language.]
    First of all, I would like to thank everybody for allowing 
us to come here and speak our mind. I am not used to reading 
off a piece of paper. Within our culture and our traditions, it 
is always talk from the heart and soul. You can't put the same 
things on paper. So I will try the best that I can. And I am 
really nervous about sitting in front of a clock that is 
telling me I can talk and when to stop.
    Good morning. I am Kevin Dupuis. I serve as the Chairman of 
Fond du Lac Band of Lake Superior Chippewa. I want to thank 
this committee for inviting me to testify today and the good 
work you have done over the years, especially this year, to 
make sure that the needs of Indian Country are being addressed.
    We have a small reservation in northeast Minnesota. We have 
4,200 Tribal members. We provide government services, including 
healthcare, education, public safety, to 7,300 Indian people in 
our region. We use Tribal funds and partner with other 
governments and private entities to do much of this work. But 
these are not enough to address the needs. Federal funding is 
essential.
    We are battling a long history of poverty and related 
problems that arise from poverty. We are making progress. We 
see improvements in student achievement and health of our 
people. But progress is very slow. We have yet to close the 
large gap between the Indian people and Minnesota population 
overall. We still suffer from higher rights of poverty, 
unemployment, diabetes, and heart disease than the statewide 
population. Much more work still needs to be done.
    Education, including preschool and afterschool programs, 
opens the door for our children to move past the poverty and 
achieve. But without sufficient Federal funds, we cannot hire 
and retain qualified teachers without sufficient Federal funds. 
We cannot maintain school buses or the school building itself.
    The school also helps protect our children from crime. We 
are on the front lines of fighting a drug epidemic. Our small 
rural community is seeing an influx of heroin, opioids, and 
meth that are poisoning our people. Our school provides 
programs and safe haven for children.
    Over the years, our police department has assisted the 
school by assisting--assigning an officer to prevent juvenile 
crime. At the same time, our police must also respond to and 
investigate the growing numbers of incidents, many of which are 
drug-related. The funding that the Federal Government provides 
to Tribes to help cover the costs of law enforcement salaries 
and equipment is key to this work.
    The drug epidemic has also increased demands on our 
clinics. We have worked very hard to build and run clinics that 
can provide a broad range of care. We have programs to help 
combat substance abuse, but because of the drug epidemic, more 
is needed.
    Our healthcare provides programs that are funded only 33 
percent of the level of need. Our clinics work hard to fill the 
funding gap by third-party billings so that we are repaid by 
insurance companies or Medicare for the healthcare we provide. 
In fact, third-party billing through Medicaid are very 
important sources of funding for our clinics. If the law 
changed and the Medicaid dollars were cut or simply block-grant 
to the State, our clinics would suffer substantial losses. We 
would only be able to maintain the current level of care by 
very significant increases in his funding.
    Finally, the healthcare and welfare of our people are 
directly tied to our natural resources. This was true at the 
time of our treaties with the United States, and it remains 
true today. To ensure that we can sustain ourselves and our 
families, the United States and our treaties promised that we 
retain the right to hunt, fish, and gather natural resources, 
both within and outside of our reservation.
    Our members rely on these treaty rights to put food on the 
table. This is especially important for many of our people who 
are unemployed or live at, near, or below poverty. Natural 
foods, like wild rice, fish, game, and berries, also improve 
diet and health. The use of these natural foods are an 
important part of nutrition programs taught in our clinics and 
schools. These natural resources are also essential to our way 
of life and our culture.
    Given the importance of these resources, we actively work 
to protect them from harm. We cannot eat fish that have high 
levels of mercury. Our wild rice will not grow in waters that 
have high sulfate levels. Far too many waters in Minnesota are 
impaired. Federal funds provided through the Interior and EPA 
for natural resources management and environmental protection 
are essential for us to restore waters, prevent pollution, and 
improve wildlife habitat. Unfortunately, funding has not kept 
pace with the need.
    The Federal investment in the environment also improves the 
economy. The funding for the Great Lakes Restoration Initiative 
is a good example. By cleaning Lake Superior, we improve 
commercial fisheries, enhance tourism of the hunting and 
angling industry, a business that generates $73 million each 
year. This creates jobs in a region that desperately needs 
them.
    We are very worried about the deep cuts that the President 
is proposing for the Federal budget. We are concerned that the 
new administration has not yet had time to learn what these 
important programs do or how effective and vital they are in 
Indian Country. We are very grateful for the work you did to 
preserve the increased funding for these programs in 2017, and 
we urge the same be done for 2018.
    Thank you.
    One quick note: As a former Secretary Treasurer of Fond du 
Lac, I have come to several hearings to testify. And we have to 
come here to ask for things that should have been promised to 
us--are promised to us.
    I believe that there should be a large campaign to go over 
the program or the formula for funding under the base of the 
unmet need because we know that the formula is wrong, and we 
are not receiving that funding.
    And, most importantly, when we come here, it is not about 
listening. We want you to hear us. There is a difference. We 
want to be heard.
    Miigwech.
    I am happy to answer any questions.
    [The statement of Kevin R. Dupuis, Sr., follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Mr. Calvert. Thank you. Thank you for your testimony.
    Obviously, there is some discussion about the upcoming 
budget, that comes in June or late May. And I used to serve on 
the Budget Committee with Chairman Cole, and he still is doing 
a great job representing us all in the Budget Committee. But at 
some point, I hope we can come to what we call around here a 
budget agreement because that is what we need to do, between 
the Senate and the House and the President, where we can get 
unshackled from the sequestration and move on to a more logical 
budget process, which I am sure Chairman Cole agrees with. We 
just have to get everybody to agree to do that.
    But that has--a lot of the problems that we are having 
around here; it is not just in Indian Country but throughout 
the Federal Government.
    Unemployment, as I know, is a big issue throughout Indian 
Country, especially in your area. Fifty percent unemployment is 
huge. Obviously, that leads to a lot of other problems in that 
part of the world. So it is something that we are concerned 
about.
    And Great Lakes cleanup, trust me, there is a gentlelady 
right over here to my left that continually makes sure that we 
have the money that is necessary for Great Lakes cleanup. And 
we have been doing that, and we intend to continue to do that. 
So we will keep that in mind.
    Ms. McCollum.
    Ms. McCollum. Thank you.
    Thank you, gentlemen, for being here.
    I appreciate the fact that you both brought up the 
environment, and the Federal role in working with Tribal 
governments, Tribal DNRs, as well as the work that the Tribal 
governments do with the State DNR. Bringing up the issue of 
sulfates, which is something that I have been watching the best 
that I can. There was very poor consultation with all the 
Tribes when the State was looking at changing the sulfate 
standard levels and the way it would affect the wild rice. It 
was like, ``Well, we think it will be okay.'' But if you lose 
your wild rice, you not only lose one of your first foods, but 
for many of the Tribal Nations, it is also economic income; it 
is employment.
    I hope that the consultation will be good with the new 
Trump administration, but I think it is something we have to be 
vigilant about to make sure that it happens.
    A timeout on mining leases is happening with the Forestry 
Service and with the Department of Interior right now, with the 
proposed copper sulfide mine up in the area. See, our water 
flows north. Sometimes people look at these mines, and they go, 
``Well, that is not a problem because the water is going to 
drain that way, and there is nothing happening.'' Well, where 
we are in the Laurentian Divide in this part of the State that 
these gentlemen are talking about, the water actually flows 
north. It flows up into their watershed, up into their water 
district. So we hope that this timeout is used to really study 
its effects.
    I almost called you Mr. Chairman, Mr. Seki. I don't want to 
be too informal here.
    The new Tribal College at Red Lake was mentioned in some 
earlier testimony, and how there was funding needed for that. 
If you could perhaps elaborate a little more to the committee 
on that. There are two colleges that are being set up, and we 
need to make sure the full commitment for the funding is there 
for those colleges. I know Fond du Lac also has a very strong 
interest in making sure that funds are there for the tribal 
colleges. That is part of how we work on entrepreneurship, and 
for reducing unemployment, and that is to make sure that Native 
American students have appropriate colleges.
    Could you talk about what your concerns are? If the funding 
isn't there, what happens with the big investment that was 
made?
    Mr. Seki. Well, our Red Lake Tribal College is going well 
so far. But, recently, we reported on the accredited status to 
get accredited. And it is getting some dollars; however, it 
needs more dollars for operation. And our students are 
increasing. And it is a good college, and it is going to be 
great once we get all the paperwork in place, what we need to 
be full accredited.
    And we you all to give us hope and help to create 
opportunity for our Tribal members to go to college, but not 
just Red Lake. There are others that come from different areas 
that come to that school, if that helped any.
    Ms. McCollum. Thank you.
    And the suicide prevention programs are working, but you 
just can't shut funding for those off with a switch and hope 
that they can continue. So thank you for speaking so----
    Mr. Seki. These programs, Tiwahe and Recidivism, these are 
great for our youth. It helps them. And Mr. Calvert talked 
about unemployment. That creates our membership going into 
drugs. Drugs is not part of Indian Country, but it happens. 
That goes to suicides, overdoses, bullying. This should not be.
    Continued broken promises, promises from the Federal 
Government, creates these shortfalls for our Tribal membership. 
There are treaties in place, and there are contracts they 
should abide by. These treaties were set by your ancestors and 
our chiefs, and they are still there, and they will never go 
away, and you guys have to remember that. Treaties are very 
important to Indian Country.
    So consider that. Consider both of our testimonies. And I 
want to say chi-miigwech, thank you, for allowing me to come 
over and speak again. And I did here a couple years ago, and, 
whenever invited, I will be back. Miigwech.
    Mr. Calvert. Thank you.
    Mr. Cole.
    Mr. Cole. Well, a couple things. I just want to thank both 
gentlemen for coming. It is extremely helpful for this 
committee to get firsthand testimony.
    And, two--and I am sure you do this--as a matter of fact, I 
know you do this, but I hope you are talking to other Members 
as well, because, unfortunately, many of our colleagues don't 
represent parts of the country that have strong Tribal presence 
and traditions. And so they really need to hear this, and they 
need to understand the importance of these agreements and 
treaties and the rights of Tribes.
    Sadly, you know, our history tells us treaties aren't kept 
very often, frankly. The history of my people would be a lot 
different. I would probably be a Mississippi Congressman 
instead of an Oklahoma Congressman if people kept treaties, or 
I wouldn't be a Congressman at all because we wouldn't be a 
State if people kept treaties. That was never supposed to 
happen in Oklahoma, but it did because people routinely 
violated treaties. So you are right to be here reminding us of 
the obligation because it has certainly been forgotten plenty 
of times in the past.
    But please do, on these budget items. And I just want to 
end up where Mr. Calvert was on that. There will be some 
proposals out, but, in the end, Congress sets what the budget 
is going to be, not the White House. And it is extremely 
important that Members hear not to blindly follow, you know, 
what comes out of the White House but to remember there is a 
whole set of obligations here that need to be adequately 
funded.
    And this committee has shown what it will do with the 
dollars it has, but if its allocations get cut, then it is 
going to have to make a series of tough decisions. So, again, 
we are used to doing tough decisions; that is what you get paid 
to do. But you have to have enough money to cover the 
obligations that both of you spoke so eloquently about.
    So, with that, I yield back.
    Mr. Calvert. Thank you.
    And thank you both for your testimony. We appreciate it.
    Mr. Seki. I would like to comment on Mr. Cole. I am going 
to be doing six, seven visits while I am here, today and 
tomorrow.
    Mr. Calvert. Good. Great.
    Appreciate that.
    Mr. Seki. Miigwech.
    Mr. Cole. That is what I thought. I have a pretty good idea 
of what your schedule is going to be like. I almost feel sorry 
for you.
    Mr. Calvert. Thank you, and we appreciate your testimony.
    Next, we are going to have Robert Miguel, chairman of the 
Ak-Chin Indian Community; Ron ``Tehassi'' Hill, Business 
Committee member of the Oneida Nation of Wisconsin; Aurene 
Martin, board member of the National Indian Child Welfare 
Association; and Lloyd B. Miller, counsel, National Tribal 
Contract Support Cost Coalition.
    Hi, you all. It seems like we see you guys every year, so 
we all know you. We appreciate you coming.
    Mr. Miguel, chairman of the Ak-Chin Indian Community, 
welcome.
                              ----------                              

                                             Tuesday, May 16, 2017.

                        AK-CHIN INDIAN COMMUNITY


                                WITNESS

ROBERT MIGUEL, CHAIRMAN
    Mr. Miguel. Good afternoon, Chairman Calvert, Ranking 
Member McCollum, and members of the subcommittee. I am Robert 
Miguel, and I am currently the elected chairman of the Ak-Chin 
Indian Community. We are a small tribe of 1,067 rogue members, 
about 80 percent of whom live on the reservation 30 miles south 
of downtown Phoenix, Arizona.
    Our ancestors were farmers, and we are still farmers today. 
In fact, the name ``Ak-Chin'' is an O'odham word that refers to 
a type of farming practice by our ancestors. While the farming 
methods have changed, we still run a 16,000-acre farm that 
provides jobs for our people, income for the Tribe, and food 
for people around the world.
    As we preserve our heritage and respect our history, we are 
also inundated by growth and its associated challenges. The 
population of our neighboring community, the city of Maricopa, 
has grown from 1,040 people in the 2000 census to over 50,000 
today.
    It has been staggering growth, and we have self-funded many 
projects to help both the Tribe and surrounding communities 
adapt, including the central plant, wastewater treatment plant, 
surface-water treatment plant, roads and infrastructure 
projects, and, most recently, our multipurpose justice complex. 
The justice complex is truly a state-of-the-art, 50,000-square-
foot facility. It houses the community's police department, 
public defender's office, prosecutor's office, detention and 
probation center, and courts, all under one roof.
    As I testified last year, we built this $18 million 
facility ourselves because the backlog in the BIA justice 
construction budget is so long that our grandchildren probably 
wouldn't even live to see it completed.
    From the beginning of the design phase, our community has 
worked hand-in-hand with the BIA to ensure the facility was 
being built in full compliance with all agency and health 
safety requirements. Compliance with these codes is the only 
requirement in the BIA regulations or handbook necessary to be 
eligible for BIA operations and maintenance, or O&M, funding.
    The facility was certified to be in compliance with all BIA 
codes when it opened in June 2014. However, when we reached out 
to people at the BIA who had been advising us on how to meet 
all requirements necessary to receive O&M funding, we were met 
with silence and then told to talk to another BIA office. This 
runaround has been going on for almost 3 years now, and we 
still have not received 1 cent of O&M funding, not even what we 
were receiving for the old facility that was replaced.
    As we continue to press for O&M funding, we learned that 
the BIA was denying all PL-638 requests for new funding. Beyond 
the inherent unfairness in the notion that Tribes can only be 
eligible for funding if they are currently receiving it, this 
practice presents some serious long-term policy challenges we 
hope this subcommittee will work to address.
    We are certainly not alone in our need to replace aging 
infrastructure, and many other Tribes are going to have to 
start self-funding projects in the future. This will apply far 
beyond justice-related projects but also to schools, roads, 
sewage plants, hospitals, and other infrastructure projects.
    If such Tribes are going to be denied O&M funding owed by 
right, as we have been, not only is the BIA penalizing Tribes 
for taking on this substantial expense and responsibility, but 
it would also be a disincentive to follow BIA health and safety 
codes in the construction process.
    We hope this subcommittee will help us push the BIA to 
embrace and encourage Tribal innovation and self-reliance. 
Instead, we are currently being penalized for exercising our 
sovereignty and taking on the cost of a project that should 
otherwise be a Federal trust responsibility.
    Our experience is not unique here. Until Congress forces 
some changes on the BIA, Tribes will continued to be treated 
unevenly and be penalized for taking on BIA responsibilities 
and building new projects.
    Thank you for holding this hearing to directly listen to 
the most pressing needs of Tribes across the country. My 
community has high hopes that this committee will continue its 
good work to address the challenges Tribes face and help shape 
the BIA into an agency that is more flexible and responsive to 
the ever-changing needs and capabilities of Tribal Governments.
    If I can, subcommittee, we have some photos here of our 
judicial facility. That is the current facility now. That was 
the old one. So--exactly.
    And then I believe we also have photos of the inside. The 
old facility--that is the older facility there. And the second 
one is the new facility today.
    And, again, we funded this all by ourselves because we had 
to.
    So, again, I thank you, Chairman Calvert, Ranking Member 
McCollum, and members of the subcommittee, for listening to us 
today.
    [The statement of Robert Miguel follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Calvert. Thank you very much for your testimony. 
Beautiful new facility.
    Next, Ron ``Tehassi'' Hill, Business Committee member of 
the Oneida Nation of Wisconsin.
                              ----------                              

                                             Tuesday, May 16, 2017.

                       ONEIDA NATION OF WISCONSIN


                                WITNESS

RON ``TEHASSI'' HILL, COUNCILMAN AND BUSINESS COMMITTEE MEMBER
    Mr. Hill. [Speaking native language.]
    Chairman Calvert, Ranking Member McCollum, Mr. Cole, thank 
you for this opportunity to appear before you today. It is an 
honor to be here on behalf of the more than 17,000 members of 
our community.
    I am here to make three requests: number one, incorporate 
self-governance into a greater number of Tribal programs; two, 
restore funding to the Great Lakes Restoration Initiative; and, 
three, to protect the EPA's Tribal General Assistance Program.
    I will begin with our most broad request, Tribal self-
governance. Tribal control and distribution and the 
administration of Federal funding must be expanded.
    At Oneida, we have assumed the responsibility for our 
healthcare, education, and most BIA programs. This means that 
the Tribal Government, not the BIA, administers our grants. The 
result has been unambiguously positive. Environmental, health, 
and education indicators have all gone up while administrative 
costs have gone down. Just as important, our Tribal Government 
capacity has also improved. Our staff now have the knowledge, 
skills, and experience to take on new, more complex governance 
operations, and they do so on a regular basis.
    Congress needs to learn from our experience and expand the 
scope of programs that are eligible for self-governance. For 
instance, the Department of Health and Human Services allows 
Indian Health Service functions to be contracted out to Tribes, 
but the same department prohibits Tribal Governments from 
running TANF or Medicaid programs.
    Similarly, USDA, Department of Homeland Security, 
Department of Justice, EPA programs should all allow Tribes to 
receive direct funding rather than have their grants pass 
through States.
    Self-governance is a good policy and is a good practice. It 
ensures that scarce Federal dollars are used to build capacity 
rather than bureaucracy, and it also makes good on the United 
States' sacred obligation to respect Tribal sovereignty and 
allow Tribal Governments to manage their own affairs.
    Our second request has to do with the EPA Great Lakes 
Restoration Initiative. Oneida Nation's creation story teaches 
us that everything is connected and it must be balanced for the 
environment to thrive. It is this ethos that has led us to 
become long-term partners with the Environmental Protection 
Agency on the Great Lakes Restoration Initiative.
    Oneida Nation has been awarded nearly $4.5 million for 
watershed improvement projects. In short, this initiative has 
been the single most successful Federal program designed to 
restore our lands.
    Given this enormous success of the program at Oneida and 
across the Midwest, it is also deeply concerning that the 
President proposes to virtually eliminate funding for this 
initiative in fiscal year 2018. This could be a catastrophic 
mistake. It would hurt our fishing, tourism, and agriculture 
industries, and it would put into jeopardy hundreds of millions 
of dollars of investment from State and local governments as 
well as the private sector.
    Oneida Nation of Wisconsin strongly urges the committee to 
reject the proposed cuts to the program and restore it to the 
fiscal year 2017 funding levels.
    Lastly, I urge you to protect the EPA Tribal General 
Assistance Program. This program helps Tribal communities build 
technical capacity to manage our own environmental programs and 
ensure that we have a voice on national policy decisions that 
affect our land, air, and water.
    At Oneida, this funding allows us to expand our 
environmental staff. We have used the funds to hire an area 
environmental manager and cover parts of the cost of a wetland 
program manager as well. This not only protects the health of 
our members and improves the environment, it also supports 
Oneida sovereignty.
    Perhaps even more important, the GAP grant helps offset the 
cost of interacting with the EPA and other Federal agencies on 
environmental policy issues. As a member of the Regional Tribal 
Operating Committee, I witness how important this funding is 
firsthand. At least three times a year, my colleagues on the 
RTOC and I meet with EPA to identify how policies may impact 
Tribal Governments and Tribal lands in our region.
    In fiscal year 2017, Congress appropriated $65.5 million 
for GAP. I ask that the committee maintain this level of 
investment next year. Significant cuts below the current 
funding levels will directly and negatively impact the 
environmental health of Tribes across the Nation.
    In conclusion, there are dozens of other programs that are 
vitally important to Oneida Nation in the interior 
appropriations bill, but in the interest of time I will 
conclude my remarks here. Thank you again for this opportunity, 
and I look forward to working with you to ensure that Indian 
Country can continue to thrive in fiscal year 2018 and beyond. 
[Speaking native language.]
    [The statement of Ron ``Tehassi'' Hill follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Mr. Calvert. Thank you.
    Aurene Martin, National Indian Child Welfare Association, 
welcome.
    Ms. Martin. Thank you.
    Mr. Calvert. You are recognized.
                              ----------                              

                                             Tuesday, May 16, 2017.

               NATIONAL INDIAN CHILD WELFARE ASSOCIATION


                                WITNESS

AURENE MARTIN, BOARD MEMBER
    Ms. Martin. Good morning, Mr. Chairman, Congresswoman 
McCollum, and Congressman Cole. As you know, I am Aurene 
Martin, and I am a member of the Bad River Band of Lake 
Superior Chippewa. And I am here today on behalf of the 
National Indian Child Welfare Association, or NICWA.
    As you know, NICWA is a national organization representing 
American Indian and Alaska Native families which specializes in 
public policy related to Native children and families. Our 
mission is twofold: First, it is to address the issues of child 
abuse and neglect through training, research, and policy 
development; our other focus is to support compliance with the 
Indian Child Welfare Act.
    I am here today to talk to you mainly about Bureau of 
Indian Affairs programs serving Native children and families.
    So one thing we all know, and it is well-known, is that 
Native children are placed in foster care at a much higher rate 
than the general population--in some States, 10 times higher 
than their representation in the general population. In a State 
where you might have 1 percent Natives, 10 percent of the 
foster care population is Native children.
    But Tribal Governments seem to have some of the most 
limited funding of all governments for dealing with these 
issues. And we know and studies have shown that Tribes are 
actually the best entity at providing services to prevent 
foster care and, once kids go into foster care, for finding 
them the services and the placements that they need. So it is 
for these reasons that we provide our recommendations.
    Our first recommendation is to fund Indian Child Protection 
and Family Violence Prevention Act programs at the fully funded 
rate of $40 million.
    And I have come here a few years now, and we always talk 
about this, but these two programs are really our highest 
priority because they are unique. They are the only programs in 
Federal law that authorize direct funding to Tribes for 
domestic violence prevention and for treatment for child abuse 
victims.
    And the law creating these programs--actually, it was 
originally passed in 1990. It really had two purposes. One was 
to increase the identification and prevention of child abuse 
and neglect and domestic violence on the reservation. And the 
other was to provide funding to treat and prevent child abuse 
and domestic violence.
    So, on the one side, the act actually provided for 
mandatory reporting requirements for people who interact with 
children--teachers, police officers--which weren't there 
before. The other thing that it did was to create these 
programs.
    The act has been actually very successful in identifying 
child abuse and reducing those numbers, and it has enjoyed 
tremendous support from Congress. Last year was actually--
protections were expanded to cover foster care parents and 
background checks for foster care parents.
    But the treatment side of it has never been funded, and so 
we are asking that for both programs, the family violence 
prevention and the abuse treatment for children, be funded at 
$40 million.
    Our second request is that ICWA title 2 funding for on-
reservation child welfare services be increased from $20 
million to $30 million.
    So, when the Indian Child Welfare Act was passed in 1978, 
the idea behind authorizing these programs was to provide base 
funding for Tribes to be able to provide basic social services 
for their families. And I think it has been extremely 
successful in that.
    But these child welfare programs work with some of the most 
at-risk and needy members of our society, but the funding level 
is such that almost every tribe gets the funding but they only 
get about $30,000. And with that $30,000, they are expected to 
provide child protective services, family reunification and 
rehabilitation, case management, foster care recruitment and 
retention, and adoption services.
    In most instances, that doesn't even fund a person full-
time. So we are asking to increase that amount from $20 million 
to $30 million. And, you know, if you just do the basic math, 
that could possibly fund one person at least full-time for a 
year.
    Our final recommendation is that title 2 funding for off-
reservation services be funded. It was previously funded, but 
that ended in the mid-1990s.
    The thing is that off-reservation populations have 
increased since ICWA was passed in 1978 from 37 percent of 
Indians at that time were living off-reservation and now it is 
over 67 percent.
    These programs actually provide a bridge for folks living 
off the reservation with their communities, and it can help 
provide programs and placements that, you know, State workers 
might not otherwise find.
    So those are our requests. We feel it is imperative for 
Tribes and off-reservation child welfare programs to receive 
increased base funding because of our increase in our number of 
people and the people that are moving off-reservation.
    So this concludes my remarks. Thanks for having me today.
    [The statement of Aurene Martin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Mr. Calvert. Thank you, and thank you for your testimony.
    Next, Lloyd Miller, National Tribal Contract Support Cost 
Coalition, you are recognized for 5 minutes.
                              ----------                              

                                             Tuesday, May 16, 2017.

            NATIONAL TRIBAL CONTRACT SUPPORT COST COALITION


                                WITNESS

LLOYD B. MILLER, COUNSEL
    Mr. Miller. Thank you, Mr. Chairman, Ranking Member 
McCollum, Congressman Cole. Thank you for inviting me again to 
talk about the contract support cost issue.
    This issue 5 years ago was nearing a disaster. There was a 
collision between the efforts of this committee and the 
dictates of Supreme Court decisions in the Ramah and Arctic 
Slope and Cherokee cases. But over the course of 5 years, this 
committee did heroic work, truly heroic work, and fashioned a 
unique solution which protects program funding, fully funds 
contract support costs, and eliminates the problems that really 
bedeviled the committee and the courts years ago.
    So I truly salute the committee. And you will hear in my 
testimony today remarks more in the nature of oversight than 
changes that are needed in law or appropriations.
    Three things I would like to touch upon: First, the 
agency's policies have now been finalized. It has taken them 4 
years since the Supreme Court decision, but at the end of 2016 
and the last administration they completed their two policies, 
the Indian Health Service and the Bureau of Indian Affairs 
policies, on contract support costs.
    I also want to talk a little bit about the domestic 
violence, substance abuse, and related programs and the 
contract support cost obligation associated with those 
programs.
    And then, thirdly, we would just like to talk about the 
appropriations structure itself and the estimating problems 
that have come up.
    So first, the policies. These are the two policies--I 
didn't want to burden members of the committee with copies, but 
I will provide the chairman with a copy. You will see----
    Mr. Calvert. They will be submitted for the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Mr. Miller. Thank you, Mr. Chairman.
    The BIA document is about 5 pages; the Indian Health 
Service document is about 20 pages. That tells you everything, 
perhaps, you need to know about what worked and what didn't 
work.
    To be fair, the policies are good. Nothing is perfect. The 
policies are good, but the Indian Health Service policy is too 
complex, too unworkable, and the agency is poorly staffed to 
deal with the complexities that are reflected in that policy.
    This committee has been excellent in urging the agencies to 
continually simplify the contract calculation process. I think 
your directives again would encourage the Indian Health Service 
to chop that 20-page document down to 10 pages and make it a 
little bit more workable.
    At the same time, the agency ought to be directed to direct 
some real resources into this area. They now have one person in 
headquarters due to the reassignment of the second person to a 
different position--one person left in headquarters who is also 
serving as an acting director of one of the divisions within 
the agency. This is not good when you have 350 Tribal contracts 
around the United States, many of them representing multiple 
Tribes, such as the California Inter-Tribals you heard today.
    This is not proper staffing for this important account. And 
I know that the committee wants to be sure that there is 
absolute accountability on these funds, and that can only 
happen if the agency is properly staffed. So I would 
respectfully request that the committee consider directing the 
agency to staff up this account from within the existing 
budget.
    Secondly, I wanted to talk a little bit about the domestic 
violence, suicide prevention, and related funds. The committee, 
in response to calls from Tribes, eliminated a notwithstanding 
clause. The notwithstanding clause, which had appeared in the 
appropriations act a few years back, had been used by the 
agency to discontinue calculating contract support costs on 
those funds.
    Now, contract support cost consume about 25 percent of nose 
funds. So, if those programs have to cut 25 percent to manage 
the contract support burden on those programs, there is that 
much less funding. And as it is, the funding is quite low. It 
is a very modest funding.
    There was a $4 million increase, domestic violence, a 
modest increase necessary to require those programs to absorb 
their overhead, unlike any other BIA program or his program, is 
really not reasonable, doesn't serve the purpose of the 
program, and it isn't what the agency itself did.
    The agency, on its own, in 2012, after the Supreme Court 
decision incidentally, discontinued the practice of calculating 
contract support costs on those funds and discontinued the 
practice of paying those funds to the Tribes through their 
existing self-governance contracts, required them to do grants 
and incur additional burdens in the way of grant reporting.
    All of that can be undone. I think it will be undone now 
that the notwithstanding clause has been removed. And all I 
would ask for is that the committee monitor the agency's 
behavior and, as the grants expire and need to be renewed, that 
instead the funds go into the self-governance compacts and the 
638 contracts and contract support cost gets calculated on top 
of it. Frankly, it is not a very large number in the large 
scheme of things, certainly not in comparison to the two 
appropriations.
    And the third thing is the appropriation structure. And on 
this, I think we are all a little disappointed that the Indian 
Health Service--if I may have a few extra seconds, Mr. 
Chairman?
    Mr. Calvert. Go ahead.
    Mr. Miller [continuing]. The Indian Health Service missed 
the mark in 2017. They predicted that the contract support cost 
requirement would be in the neighborhood of $800 million. Our 
own experts have calculated that it will be far lower than 
that, perhaps close to $700 million.
    I think I have detected one of the problems, and it may be 
that the two were not speaking the same language. The Indian 
Health Service calculates what the total contract support cost 
requirement is nationally. But part of that requirement is not 
in the contract support cost account. It is actually covered by 
agency dollars, to the tune of about $50 million. That could 
account, alone, for a $50 million error.
    And that is my fear, that perhaps there was just a 
miscommunication. I am confident this is not going to happen 
going forward. The agency has acknowledged this error. And I 
think it may provide some grease in the mechanisms as you go 
into 2018 and worry about a severe restriction in your 
allocation.
    Thank you, Mr. Chairman and Ranking Member McCollum.
    [The statement of Lloyd B. Miller follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Mr. Calvert. Thank you.
    Thank you for your testimony, and we appreciate your coming 
out today.
    Mr. Miguel, I have been by your reservation outside of 
Phoenix. It is not too far from where I am, out in southern 
California. I know you have a substantial farming operation out 
there. Do you own the land around Maricopa?
    Mr. Miguel. No, we don't. Actually, they were our original 
lands. We were 40,000-plus acres when we were first 
established. Six months after we were established, the 
President Taft, at that time----
    Mr. Calvert. Put that mic near you.
    Mr. Miguel. If you think about it, the city of Maricopa is 
our original lands. When were first established back in 1960 by 
President Taft, we were a 40,000-acre tribe. But 6 months after 
we were designated the 40,000, it was rescinded, and we were 
reduced to 20,000 acres.
    Mr. Calvert. Another one of those treaty violations that 
Mr. Cole----
    Mr. Miguel. Unfortunately.
    Mr. Calvert [continuing]. Talked about. But you have been 
very successful with the 22,000 acres that you have remaining. 
And I recognize we have commitments to you, and we will 
certainly take a look at that as we move this process along.
    We have been talking about the Great Lakes all day today, 
Mr. Hill, so we are on it. And I know you have done a great job 
of self-government at the Oneida Tribe. And we believe in self-
governance around here, so we know you have the--Indian Country 
has the competence to run their own affairs. We should allow 
them to do so.
    And, Aurene, you are right, we need to--you know, child 
abuse and neglect is unfortunate. You have to separate the 
children from that. And that is a big problem throughout Indian 
Country. We see a lot of that. We have an institute where a lot 
of these children are separated from their parents if they are 
exposed to that kind of treatment. Unfortunately, as you know, 
unless you deal with that, it tends to be generational. So it 
is a huge problem, and we need to deal with that.
    And, Mr. Miller, you come out every year, and we appreciate 
your oversight and what you do and letting us know what we need 
to do with oversight.
    So there are a lot of challenges out there. We talked about 
substance abuse. This opioid epidemic is terrible. The former 
chairman of the full committee has been a big advocate of what 
we can do to fix this, but there are over 1,000 deaths a day 
around America with opioids.
    And I forget this other drug that was an elephant 
tranquilizer. Anyway, just a small gram of it can lead to 
instant death.
    And it is just a horrific situation, so we need to get a 
hold of that. And, unfortunately, Indian Country is not immune 
from that scourge.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman.
    I am very proud of the Great Lakes Nations who have been up 
here testifying--but it just goes to show the obligation for 
maintaining clean water, drinking water, water for habitat, not 
only in the Great Lakes but throughout the United States.
    The work that the EPA does with Tribes, if the EPA's budget 
is cut too much so that work can't happen, it is going to 
affect quality of life and a lot of programming and, quite 
frankly, a lot of jobs, good jobs that Tribal Governments have 
stood up with their own departments of natural resources.
    But it is an inter-dependent organization. They cannot do 
it without the Federal EPA being there; Fish and Wildlife, as 
well. I know that many of the Tribes in some parts of the 
country are also looking to set up more robust relationships 
with the National Park Service, with monument interpretation 
and other things, moving forward.
    So I thank you for sharing that.
    In the urban settings, Ms. Martin, where we are working on 
home placement or appropriate Tribal placement for children, 
there is a missed opportunity because of the way the dollars 
flow?
    Ms. Martin. Yes, that is true. ICWA authorized this funding 
stream for off-reservation programs, and it was funded until 
1996, I want to say. And what those programs would do is they 
would provide a connection for State workers who were looking 
for placements or trying to find out information about a family 
or even to provide services. And then when that stopped being 
funded, that is just a gap.
    And the problem is that we have a huge increase in our 
urban populations now over time, where it has basically 
flipped. We used to have, you know, a minority of our members 
would live off-reservation, but now it is up to 67 percent 
during the last census.
    So we know that people are falling through the cracks on 
the urban setting if those Tribes that are on-reservation don't 
have outreach programs. And there are some Tribes that do, like 
Oneida, but not every tribe is able to do that.
    Ms. McCollum. Okay. Well, I am going to talk to the folks 
at Little Earth and learn a little more about that, and I am 
sure you have somebody I can talk to.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    Mr. Cole.
    Mr. Cole. Just quickly, I want to thank all of you for 
coming. Some of you are regulars here. As a matter of fact, all 
of you are regulars here. But that is so helpful to this 
committee and to staff, just over time, those relationships and 
that information.
    Mr. Hill, I want to go back to a point you made, and 
really, Ms. Martin, you sort of reinforced it, but it is a 
pretty common theme: Usually, Indians do better running their 
own affairs than somebody in Washington does.
    I know in my tribe I have seen it over and over again. If 
nothing else, if there is a mistake, it is so much easier to 
correct if the people responsible for it are--you can get to 
your Tribal legislator pretty quickly, as opposed to some 
faceless bureaucrat 1,300 miles away.
    So putting as many of these resources in the hands of the 
people who are on the ground running programs just makes it so 
much better and so much more responsive and self-correcting. So 
I know that point of view is shared by everybody on this 
committee. And where we can do things to, again, push down the 
decisionmaking to the Tribal level, we are just always better 
served, every single time.
    So, anyway, thank you for your consistent advocacy and your 
role in educating all of us to the concerns. And, hopefully, 
over time, you know, as Mr. Miller suggested, the arc is bent 
in the right way. I mean, we really have tried on a bipartisan 
basis here--and the successive chairmen--to try and do the 
right thing, but, you know, if you hadn't been going to the 
Supreme Court asserting your own rights, the right thing 
wouldn't have gotten done.
    So, I mean, that active participation, using the tools that 
are available through--obviously, through legislation but, 
sometimes through negotiation, sometimes through litigation, 
those things are all necessary. And all of you are to be 
commended because you have done it not only for your respective 
Tribes but for the good of Indian Country in general, and it 
has made a big difference.
    So thank you.
    Mr. Calvert. Great. Thank you.
    And thank you for your testimony.
    This concludes our morning hearing. Thank you for making 
the effort to be here this week.
    Our next hearing begins at 1 o'clock this afternoon.
                                             Tuesday, May 16, 2017.

                           AFTERNOON SESSION

    Mr. Calvert. Welcome. Welcome to this public witness 
hearing specifically for American Indian and Alaska Native 
programs under the jurisdiction of the Interior, Environment 
Appropriations Subcommittee. I especially want to welcome the 
distinguished Tribal elders and leaders testifying today and in 
the audience. Most of you have traveled a long way to be here 
this week. I hope you will seize the opportunity to meet with 
other Members of Congress outside of this subcommittee to 
remind them that honoring the Nation's trust obligations is a 
responsibility shared by all Members of Congress, regardless of 
our State or congressional district. I can assure you that your 
voices are heard by this subcommittee.
    For those new to this process, today's hearings are just 
the start of a dialogue we have come to depend upon to help us 
make smart choices in the budget, and to earn the votes of our 
colleagues. The American Indian and Alaska Native programs will 
continue to be a nonpartisan priority for the subcommittee, 
just as they have been in recent years under the chairmanships 
of both Democrats and Republicans alike.
    Before we begin, I have a bit of housekeeping items to 
share. Committee rules prohibit the use of outside cameras and 
audio equipment during these hearings. The hearing can be 
viewed in its entirety on the committee's website. An official 
hearing transcript will be available at gpo.gov.
    I will call each panel of witnesses to the table one panel 
at a time. Each witness will have 5 minutes to present 
testimony. Your full written testimony will be included in the 
record, so please don't feel pressured to cover everything in 5 
minutes. Finishing in less than 5 minutes may even earn you a 
few little extra brownie points. So we will be using a timer to 
track the progress of each witness. When the light turns 
yellow, the witness will have 1 minute remaining to conclude 
his or her remarks. When the light blinks red, I will ask the 
witness to stop. We will hear from every witness on each panel 
before members will be provided an opportunity to ask 
questions.
    Because we have a full day ahead, we have over 80 Tribes 
here the next couple of days, I request that we try to keep 
things moving in order to stay on schedule and respect each 
other's time. I am sure many of you have planes to catch.
    With that, I thank all of you again for being here today. 
And I am happy to yield now to our distinguished ranking 
member, Betty McCollum, for her opening remarks.
    Ms. McCollum. I would just like to thank the chairman for 
having this important listening hearing with our Native 
American, Alaska Native brothers and sisters, and I look 
forward to the testimony. And thank all of you for traveling 
and coming to enlighten us. Thank you.
    Mr. Calvert. Great. With that, let's start with our first 
witness, Fawn Sharp, president of the Quinault Nation.
                                             Tuesday, May 16, 2017.

                         QUINAULT INDIAN NATION


                                WITNESS

FAWN R. SHARP, PRESIDENT
    Ms. Sharp. Good afternoon, Chairman Calvert and Ranking 
Member McCollum, and our Congressman Kilmer. We really 
appreciate the opportunity to be here and to testify on such a 
lovely spring afternoon. So thank you for the invite.
    The Quinault Nation is an Indian tribe located in southwest 
Washington. We occupy about 31 miles of international border 
along the Pacific Ocean. I serve as president to nearly 3,000 
Quinault citizens.
    We have four basic issues that we want to touch on this 
afternoon. And before I get into the specific issues, I want to 
provide just a little bit of background on a priority that the 
Quinault Nation has been advancing, and that is, to draw 
attention to the significant funding disparities across Indian 
Country. There was a report in 2003 delivered to Congress 
called The Quiet Crisis. The U.S. Commission on Civil Rights is 
currently updating that report, and we fully expect their 
report to be delivered to Congress at the end of the year.
    We did some homework this last year at Quinault, and found 
that we subsidize the Federal trust responsibility to the tune 
of $5.9 million annually. So over a 10-year period, that is 
about $10 million that we provide supplemental funds to close 
that funding gap to carry out Federal responsibilities. We also 
realize that, to some extent, some of our most vulnerable 
citizens subsidize the Federal trust. We had Tribal elders who 
would like to have their timber harvested, but because they 
don't want to wait the 2 years that might be necessary to go 
through the BIA process, they, out of their own pocket, pay for 
a timber appraisal to expedite the process. So at some level, 
even our elders are subsidizing the Federal trust 
responsibility.
    So against that background, I want to provide just a little 
bit of testimony on the needs that we have in Tribal forestry. 
When you look at a report, another report that was submitted to 
Congress called the Indian Forest Management Assessment Team, 
IFMAT, there has been a series of three of those reports over 
the last 30 years, each of the 10 years it has been submitted. 
The IFMAT report also pointed out in 2011, Western States 
average $20.46 per acre to manage Federal forests. The BIA 
allocation for forest management stands at just $2.82 an acre. 
You look at hazardous fuel suppression in the National Forest. 
That is funded at $1.49 an acre. The BIA receives $0.69 per 
acre.
    So just with those two facts alone, the report points out 
that we are not only chronically underfunded, there is an 
incredible disparity, the congressional investment into either 
State and Federal activities versus Tribal. And so we strongly 
urge each of the committees to look at both IFMAT reports, The 
Quiet Crisis, and we thank the committee for the 2 percent 
increase in forestry funding for the National Trust Resource 
Management. However, this will fall short of the increases 
needed to bring parity to Indian forestry as compared to other 
forests within the United States. Given the 2017 forestry line 
item funded at $54 million, for 2018, we urge the subcommittee 
to increase such funding to a minimum of $60 million.
    The next issue that I would like to turn to is climate 
change. The Quinault Nation has, over the last 5 years, 
declared four states of emergency. The ocean is encroaching 
into our traditional homelands and territories. There are 
elders who, during their lifetime, can attest, we had the 
length of a football field just to the west of our village. The 
ocean is now encroaching, and at certain high tides, the ocean 
actually breaches into our village. It came very close to our 
courthouse, our jail facilities. We have our school, daycare, 
all in the lower village, and so we are, right now, under a 
comprehensive effort to move an entire village to higher 
ground.
    And so we urge the committee to appropriate funds to help 
Tribes prepare to respond to climate change. And we support the 
Department of Interior's request for $15.1 million increase in 
such funding. We further urge the subcommittee to direct the 
BIA to prioritize spending for Tribes on the front lines of 
climate change, and include report language that mandates 
funding criteria drafted in consultation with Tribes that are 
flexible to meet the needs described in my written testimony.
    I also want to, lastly, touch on drug interdiction efforts. 
As I mentioned at the beginning of my testimony, the Quinault 
Nation occupies 31 miles of international border. We have been 
under constant threat of drug trafficking in our reservation 
and around our reservation. And we applaud the increase in 2017 
for $202 million, and we urge the committee to increase the 
line item within criminal investigations to combat drug 
trafficking within Indian Country.
    With that, I thank you for the opportunity to testify, and 
I have 10 seconds left.
    [The statement of Fawn R. Sharp follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    Mr. Calvert. Good for you. Thank you.
    Next, Aaron Payment, secretary of the National Congress of 
American Indians.
                              ----------                              --
--------

                                             Tuesday, May 16, 2017.

                 NATIONAL CONGRESS OF AMERICAN INDIANS


                                WITNESS

AARON A. PAYMENT, SECRETARY
    Mr. Payment. Good afternoon, Chairman Calvert and Ranking 
Member McCollum, and members of the subcommittee.
    On behalf of the National Congress of American Indians, we 
thank you for holding this native public witness hearing, 
specifically for troubled programs under the jurisdiction of 
the subcommittee.
    NCAI would like to acknowledge the steadfast work 
undertaken and attention paid by the members of this committee 
to uphold the Federal trust and treaty obligations funded in 
this appropriations bill.
    This hearing is so important, because the Federal budget 
for Indian programs is one of the key measures of how and 
whether the Federal Government is fulfilling its Federal trust 
responsibilities towards Tribal governments. NCAI recognizes 
that in the past few years, this subcommittee has supported 
Indian Country and Tribal self-determination through 
appropriations. The fiscal year 2017 Omnibus included hard-
fought increases for the BIA, Bureau of Indian Education, IHS, 
and other core Tribal governmental programs. We are hopeful 
that the final fiscal year 2018 Interior appropriations bill 
will build on the investments made in Indian Country and the 
fiscal year 2017 Omnibus.
    The fulfillment of the Federal trust responsibility and 
respect for Tribal self-determination is essential for the 
ability of Tribal governments to meet the basic public service 
needs of Tribal citizens. Importantly, these programs are not 
based on race or ethnicity, but rather, on the centuries-long 
political relationship between Tribes and the United States.
    While the Federal treaty and trust responsibility calls for 
Federal funding for health, education, social welfare, and 
other governmental services, upholding these treaty obligations 
is a critical component of Tribal and surrounding regional 
economies. Economists have found that Tribal economic growth 
leads to economic growth in surrounding regions. Tribal 
economic activity produces regional multiplier impacts for the 
off-reservation economy. Economic research on Tribal colleges, 
timber procurement, and other Tribal enterprises has shown 
direct, indirect, and induced impacts on gross regional product 
and employment. Governments provide local and national public 
goods that the private sector would otherwise under-provide, 
such as public safety and justice, which is essential for 
conducting business on reservation and Tribal lands. In 
addition, the central government funds public investments in 
core infrastructure, such as roads, bridges, and water and 
sanitation systems that provide high economic rates of return. 
Such core infrastructure in Indian Country has faced 
insufficient public investments for decades. Please recognize 
that noncore public investments also, such as early childhood 
education, child care, healthcare, and a range of human 
services, provide at least as much near-term economic boost as 
core infrastructure.
    Recent estimates show that Indian Affairs programs 
contributed $14 billion to the GDP, $18 billion in economic 
activity, and supported nearly 93,000 jobs, many of them on 
Indian lands. These estimates did not include education and 
public safety, which also provide significant social and 
economic benefits that are difficult to measure. Justice 
service programs provide economic and social benefit of support 
of health and safety, lower medical costs from crime, human 
capital development, and other positive spillover effects.
    While the details of the President's budget are not 
available, many of the BIA programs areas supported by this 
subcommittee in previous years remain important. For instance, 
Tribes from all of the BIA regions identified social services 
and family support programs in need of increases in fiscal year 
2018 to address the interrelated needs of their children, 
families, and communities. The broad outline proposed by the 
administration would reduce the budget for the Department of 
Interior by 11.7 percent.
    Hopefully, the department-wide reductions would not apply 
to the BIA in the same proportion, as we have just begun to 
reach parity across interior divisions. Any reductions would 
undercut the potential progress of Indian Country as well as 
undercut the ability of Tribal Nations to provide for our 
citizens.
    We urge this committee to continue its bipartisan approach 
to meet the Federal obligations for Indian Country. The 
President's budget outlined aimed to abolish many initiatives 
that serve Tribes. At the moment, the initiatives that fall 
into this category are unclear. Several of the top Tribal 
budget priorities reviewed in the recent BIA budget formulation 
process are programs included in the Tiwahe Initiative.
    Our written testimony also addresses several 
recommendations for the public safety, roads, natural 
resources, BIE, IHS, and EPA. NCAI looks forward to working 
with you on these important issues to uphold the treaty and 
trust obligations while, again, are negotiated to our last--to 
last as long as the rivers flow, grass grows, and the winds 
blow.
    Thank you. And I am happy to answer any questions you may 
have.
    And I beat you. 15 seconds.
    [The statement of Aaron A. Payment follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    Mr. Calvert. It is a race. Good. That is a good race. Thank 
you.
    Next is Esther Lucero. You are recognized.
                              ----------                              --
--------

                                             Tuesday, May 16, 2017.

                      SEATTLE INDIAN HEALTH BOARD


                                WITNESS

ESTHER LUCERO, CHIEF EXECUTIVE OFFICER
    Ms. Lucero. Good afternoon, Chairman Calvert and Ranking 
Member McCollum. Representative Kilmer, it is nice to see you 
in person. I have to say that it is quite a privilege to sit at 
a table with such incredible leaders. It is an honor to be here 
today. And it was also an honor to hear the morning testimonies 
and to recognize this subcommittee's knowledge when it comes to 
Tribal issues and also urban Indian issues. And I am here today 
representing the Seattle Indian Health Board. I am a fairly new 
CEO, although I guess I am past a year now, so that newness is 
going to have to pass pretty soon.
    We at the Seattle Indian Health Board, there are a couple 
of things that make us unique, and one of those things is the 
fact that we operate a 65-bed residential treatment center. We 
are the only urban Indian health program that has a residential 
treatment center as a component of it. We also operate the 
Urban Indian Health Institute. And the Urban Indian Health 
Institute is one of 12 Tribal epidemiology centers, and the 
only one that actually has a national purview. We provide 
technical assistance and support to the urban Indian health 
programs across the Nation, and we serve the data and 
epidemiology and surveillance needs to those urban Indian 
health programs.
    Now, that said, I would just like to thank the subcommittee 
for the continued equipment to strengthen the I/T/U system of 
care, the I being his hospitals, the T being Tribal 638, and 
the U being urban Indian health programs. That was really 
demonstrated with your budget allocation of $232 million 
increase to the IHS budget and also the $3 million increase to 
the urban Indian line item. So I just want to thank you for 
that. That demonstrates your continued commitment. It also 
demonstrates your understanding of the great disparities that 
we all have to face. It also shows that you respect the I/T/U 
system of care. We work very closely with our Tribes in the 
State of Washington to maintain our position and fulfill our 
responsibilities as part of that continuum of care.
    Now, you heard from a couple of my colleagues earlier 
today, Ashley Tuomi from NCUIH, and also Sonya Tetnowski, who 
runs the Indian Health Center of Santa Clara Valley. So I will 
echo some of their requests of this subcommittee, and 
hopefully, I will be able to provide some real-life examples to 
support their request.
    One of them is around 100 percent FMAP and the access for 
urban Indian health programs. Now, we have actually received a 
resolution letter from NCAI, we are grateful for that, and also 
more recently, from NIHB. Again, recognizing that these are 
Medicaid dollars that are directed to incentivize States to 
actually work with Tribal programs, and we, as urban Indian 
health programs, really value that leverage, so that we can 
maintain the cultural integrity of our programs, and so that we 
don't consistently get pushed into the broader community health 
center network.
    The way that plays out in our State is that our counties 
then begin to make--they get to make decisions on who is 
actually placed in our programs. And if we had not received the 
CMS carve-out for our BHO program in the State of Washington, 
we would have lost a significant number of our American Indian, 
Alaska Native clients being placed into residential treatment.
    Now, as it stands, because we were part of the CMS carve-
out, we actually increased our Native percentages to above 60 
percent, which was really challenging to meet in the past. 
Typically, it was roughly about 30 percent. So it is just an 
example of why that is important.
    It is also important to not capitate or cut Medicaid and 
Medicaid expansion, and I will tell you why. Representative 
Cole pointed out earlier that urban Indian health programs have 
done really well in being able to leverage other resources to 
really improve the impact within our communities, and I would 
say that is absolutely true, and let me give an example of 
that. We actually have a Suboxone pilot program, one of the 
things that we discussed when I provided testimony last year 
was the growing opioid crisis within urban Indian communities, 
and so now, we have actually been able, using Medicaid dollars, 
to hire an addiction medicine doctor; and we have been able to 
provide comprehensive wraparound services that include mental 
health services, outpatient chemical dependency, also access to 
traditional medicine.
    And so those are things that we are able to do with these 
dollars. And I would tell you that because of Medicaid dollars, 
we were also able to add a clinic site at our residential 
treatment center. And so what happened there was we are no 
longer transporting people from the residential treatment 
center to our clinic site, because when we did that, we lost 30 
percent of our residents. So that is no longer happening.
    I would like to encourage the revitalization or the 
reauthorization of the SDPI funds, you heard that earlier, and 
let me tell you why; because as we move towards full 
integration of services, the SDPI programs were actually the 
first pilot for our patient-centered health home models, right, 
where we can measure both behavior change and patient outcomes. 
And so, if we can begin to build upon those programs, we can 
certainly begin to grow and establish culturally-centered 
integrated services within our clinics.
    I also recommend the expanded view of health. So if we 
think about social determinates of health, one example in 
Seattle is that we have seven--American Indians and Alaska 
Natives are seven times more likely to be homeless than any 
other race. That is very important to know.
    And then again, I encourage the increase of $10 million for 
the urban Indian line item, $5 million dedicated to address the 
capacity and infrastructure needs that we have within urban 
Indian health programs, and then $5 million to meet the growing 
service needs. And I think that is----
    [The statement of Esther Lucero follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Mr. Calvert. Thank you very much.
    Ms. Lucero. Thank you very much.
    Mr. Calvert. Appreciate it.
    Next is Samuel Penney, president of the Board of Directors 
of the Healing Lodge of the Seven Nations. Welcome.
                              ----------                              --
--------

                                             Tuesday, May 16, 2017.

                 THE HEALING LODGE OF THE SEVEN NATIONS


                                WITNESS

SAM PENNEY, PRESIDENT, BOARD OF DIRECTORS
    Mr. Penney. Thank you, Mr. Chairman. Thank you, Ranking 
Member McCollum and members of the subcommittee.
    Ms. McCollum. We are going to see if we can get the echo 
chamber stopped.
    Mr. Penney. Oh. Okay.
    Mr. Calvert. Change mics. Just trade.
    Mr. Penney. Is that better, Mr. Chairman?
    Mr. Calvert. Very good.
    Mr. Penney. Thank you, Mr. Chairman and Ranking Member 
McCollum and members of the subcommittee. I thank you for 
taking this time to hold this very important hearing on behalf 
of Tribes across this country. It is very important to us and 
it is very much appreciated. And actually, Congressman Simpson 
is not present today, but he is one of our Congressmen from the 
State of Idaho. Our tribe is located in Lapwai, Idaho.
    So my name is Sam Penney. I am a council member of the Nez 
Perce Tribe executive committee, and I currently serve as the 
president of the board of directors of the Healing Lodge of 
Seven Nations. With me in the audience today is Rebecca 
Crocker, who is the executive director of the Healing Lodge.
    On behalf of the Healing Lodge of the Seven Nations, I 
respectfully provide this testimony on Indian Health Service 
fiscal year 2018 budget. Personal background on the Healing 
Lodge. The Healing Lodge is one of 12 IHS youth regional 
treatment centers. We are a Tribal organization that contracts 
with Indian Health Service under the Indian Self-Determination 
and Education Assistance Acts. We were formed in 1988 by seven 
Tribes in Idaho, Oregon, and Washington. The seven-member 
Tribes were the Confederated Tribes of the Colville 
Reservation, the Coeur d'Alene Tribe, Kalispel Tribe of 
Indians, Kootenai Tribe of Idaho, Nez Perce Tribe, Spokane 
Tribe of Indians, and the Confederated Tribe of the Umatilla 
Indian Reservation.
    The Healing Lodge is one of the most successful Tribal 
adolescent treatment centers, serving over 55 Tribes across 
this country. Performance statistics over a 3-year span show a 
consistent completion rate of 82 percent annually. We strive to 
exceed this amount with the new additions to the facility. As a 
youth regional treatment center, our main purpose is to provide 
residential substance use disorder services to American Indian 
and Alaska Native youth between the ages of 13 and 17. We 
operate a 45-bed adolescent residential chemical dependency 
treatment center within a centrally located, safe and caring 
healing center in Spokane Valley, Washington.
    We have a unique multidisciplinary approach to patient-
centered care designed around the individual youth's needs 
grounded in Native American traditional, cultural, and 
spiritual values and practices.
    Now I will talk a little, Mr. Chair, about substance use 
disorder and mental health needs. Our adolescent population 
suffers from severe opioid dependence, Cannabis, and alcohol 
abuse and addiction, and benzodiazapine dependency. These 
substance use disorders result in significant family and social 
issues, impairs motivation and normal functioning, and can lead 
to legal problems.
    At the Healing Lodge, we are also seeing more and more 
youth who are presenting with higher mental health disease, 
which is a serious concern for the future health of these 
adolescents if not addressed appropriately.
    The number of adolescents that the Healing Lodge had to 
turn away from the program due to higher mental health issues 
increased from 25 percent to 31 percent in 2016, which is 
estimated about 115 youth, resulting in a significant barrier 
to treatment and suffering at the Tribal level. This is a major 
concern of the Tribes because of the lack of--we need--the lack 
of access to culturally appropriate mental health treatment is 
very significant to all our Tribes, and the youth need this 
level of care if they are to become successful contributing 
members of the society.
    The needs of the increase for IHS facilities funding, the 
Healing Lodge is thus proposing to create an innovative 
adolescent program focused on outpatient and inpatient 
treatment that is designed to address the chronic unmet 
behavioral healthcare needs within this high-risk population. 
We have two new construction projects that we feel we need to 
complete at a cost of $2.5 million related to this program. If 
approved, the infrastructure project will create jobs and 
stimulate the economy of the greater Spokane Valley region. The 
first is to add a 4,072-square-foot behavioral health family 
and wellness center. This building will give us space to 
provide mental health and chemical dependency and clinical 
services. It will include office space, family-focused 
counseling rooms, and the capacity for engaging in 
telemedicine. The cost of this construction is estimated at 
$1.6 million. It will be built within the 38 acres of property 
that is currently assigned to the Healing Lodge by the Indian 
Health Service.
    The second project is to construct a 2,300-foot addition to 
the existing gymnasium. This will allow us to add showers, 
dressing rooms, a workout room, and restrooms. The project is 
intended to improve our young people's mental and physical 
health through physical exercise. By adding showers, that will 
also give us better opportunity to discover any contraband, 
mainly drugs, that the adolescents may try to bring back into 
the youth center.
    We expect expansion will cost around $868,000. Our facility 
maintenance costs would be covered through our Indian Self-
Determination Assistance Act agreement with Indian Health 
Services. We are very excited about both these projects, and we 
look forward to the subcommittee considering our request. And 
it is just such a great need, Mr. Chairman, I will just use a 
quick example for our Tribe. We extend youth up there, and 
because of their core-occurring disorders and mental health 
issues, that we are unable to get them admitted to the regional 
treatment center. So this mental health will be a great 
addition to our facility.
    So thank you, Mr. Chair.
    [The statement of Sam Penney follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    Mr. Calvert. Thank you. Thank you. It seems a common theme 
here with all the witnesses is this epidemic of opioids. It 
seems like things change. Years ago, it was methamphetamine. It 
is still out there. I am not saying it isn't, but now it seems 
opioids are the drug of choice right now, and that is the most 
deadly of all. I saw a statistic the other day a thousand 
people a day are dying from opioid abuse in the United States, 
and, obviously, your communities are not immune from that. And 
a lot of the opioids are coming across the Canadian border, of 
course, certainly across the Mexican border.
    So, Ms. Sharp, do you see more intensity along the border 
to try to stop this now, or what are you seeing right now?
    Ms. Sharp. Yes. When we first started taking a look at this 
issue back in 2007, we had a December 1 storm, and noticed a 
lot of heavy traffic into the interior of the reservation from 
101, Highway 101. I asked our staff, how many points of entry 
do we have from the Pacific Ocean to this Interstate Highway 
that runs through Quinault? 21 points of entry. I began to have 
direct discussions with Federal officials, and I found out they 
were patrolling from Port Angeles south to Kwaylok, which is 
just a few miles from our northern border, and then from the 
Columbia River north to Grays Harbor. So the entire exterior 
boundary of the Quinault Reservation was not being patrolled 
actively. And so when a Tribal elder talked to me about going 
through a logging road at midnight coming from Neah Bay from 
Akan noticing a low-flying helicopter surrounded by some cars 
at midnight, it seemed very odd. Our commercial fishing fleet 
would notice small Zodiacs making multiple trips to Raft River. 
We saw heavy road traffic on a dirt road that was obviously a 
lot of traffic.
    So it was at that point we began to make a direct 
investment to combat this, and it ended up culminating in the 
execution of 17 Federal indictments. And the U.S. Attorney's 
Office brought drug trafficking charges, individuals spent 10 
years in Federal prison, but we found it was not only 
trafficking the drugs, they were laundering drug money in the 
timber industry. They were making bids on sales of $80,000 when 
there was maybe $20,000 of product. So it was putting out not 
only Tribal small businesses, but individual nontribal cedar 
salvagers and logging folks.
    So, yes, it was quite intensive. There was hardly any 
patrol, and it was--we found the point of entry into Quinault 
was not for distribution at Quinault, it was tracked to Ohio 
and other parts of the country where the product ultimately 
ended up, but the point of entry was through the Quinault 
Reservation.
    Mr. Calvert. That is something we need to do something 
about.
    I am interested in this--obviously urban healthcare is a 
growing phenomenon with many people moving off reservation, and 
we will certainly keep an eye on that and obviously, the other 
challenges that we are having with that. And I certainly do 
believe that we have Federal trust responsibilities, which we 
have been trying to keep those responsibilities on this 
committee and looking for new ways to find--thinking out of the 
box to try to expand our financial capabilities, because we do 
have some difficult challenges ahead of us, I suspect.
    So, Mr. Penney, your job is difficult to try to get people 
off of these drugs. Are you having pretty good success on 
getting people off and not coming back on these drugs?
    Mr. Penney. Yes, Mr. Chairman. Our treatment program is 
from 90 to 120 days. It is strictly voluntary. So we have had 
some--I think Harvard did a study on the statistics that I read 
that I think about 82 percent success rate.
    Mr. Calvert. Very good.
    Mr. Penney. Of course, we think that could be more.
    And, Mr. Chairman, your earlier question, you know, when 
the Healing Lodge first started, it was mainly alcohol 
addiction; now it is, as you stated, opioids, meth, heroin, and 
marijuana are some of the drugs of choice. So what it meant, 
getting some of these core-occurring disorders, and mental 
health is a big part of that, because we also have to think of 
the safety of the--we call them residents, the adolescents, 
residents of the Healing Lodge. We want to make sure that they 
are well taken care of, that their health needs are addressed 
in a holistic manner, but also, make sure that they are in a 
very safe environment, so that mental health is very important.
    Mr. Calvert. Well, thank you for all you are doing.
    Ms. McCollum.
    Ms. McCollum. Thank you. Climate change and relocation. Mr. 
Chair, if we have to call it sea level rise, as we do in the 
Department of Defense, so that we can work with some of these 
Tribes that are identifying the impacts of climate change and 
having to relocate, I think the Department of Interior should 
be getting a handle on that. They should be having a plan on 
what they are going to do.
    I don't care what we have to call it, so that we can put it 
in print and put it out there. But the sooner we start 
predicting the cost and putting up a budget for this, the 
better. It is not going to be easy, because land is going to 
have to be taken into trust and then there are going to be some 
people who aren't going to be happy about that, and there are 
probably going to be adjudication fees and things like that.
    I know the Alaska Native folks have been facing that and 
having to do some moves, and some of the Tribes are looking at 
now moving for the second time. I know that down in Florida, 
when I was with one of the Tribes down there, they are very 
concerned. They might not necessarily have to relocate, but 
they are losing some of their traditional hunting and fishing 
places, and it is going to affect their quality of life.
    I know that climate change has been a controversial issue 
for this administration, so let's come up with a different name 
so that we can talk about it in public and put it in writing.
    One other question that I had, when we had people testify 
last year from the urban health clinics, especially from 
California, Mr. Chair, they talked about how their software and 
hardware wasn't adequate. With this recent hack that just 
happened, if I could put you on the spot, because I didn't 
think to ask this this morning, did you feel very vulnerable 
when you heard about this recent hack? Has anything changed 
with helping you so you are not as vulnerable. One of the 
places was still using DOS.
    Ms. Lucero. Yes.
    Ms. McCollum. With that, I will stop the questions. And 
thank you all for your testimony.
    Ms. Lucero. Thank you, Congresswoman McCollum. Yes, as I 
said, I am fairly new to the organization. So one of the first 
things we did, actually, was upgrade our IT system, and we did 
not use the IHS RPMS system, so we actually used a separate 
electronic health record system. And just recently, we 
implemented a new cloud-based system so that we could have a 
backup. So with this recent attack, we were very confident and 
safe. Over the weekend, our IT manager made sure that we had 
the appropriate backups, and so, I feel very blessed and lucky 
to say that. I will have to tell you, if this had happened last 
year, we would have been in very dire straits.
    Mr. Calvert. Well, if the gentlelady will yield, too, on 
this subject, this was a Microsoft backdoor, which was 
discovered some time ago. Microsoft did do a patch on that.
    Ms. Lucero. Yes.
    Mr. Calvert. And I would say to all businesses out there 
that it is--I know it is a pain to go back and do these 
security protocols and go back and fix these things, but 
everyone should do that. I mean, you get these announcements 
from your provider, your software provider, you need to pay 
attention to it. A lot of people do not. And those who did the 
patch were protected, those who did not do the patch were not. 
And so that is a problem.
    Ms. McCollum. Mr. Chair, I totally agree with you, but 
based on the fact that we have old and ineffective software out 
there, it is just a matter of time until somebody decides to 
break in and wreak havoc.
    You decided not to go with the----
    Ms. Lucero. With the RPMS.
    Ms. McCollum. Yeah. The RPMS. Did it cost you more not to 
go with the RPMS system? Did you have to pay out of pocket to 
have a more secure system?
    Ms. Lucero. Yes, ma'am, we did.
    And if I may respond, Chairman Calvert, that is the issue. 
It is the lack of resources to even have a team that could 
actually implement a patch like that, much less the fact that 
the RPMS system has been very challenging to even work with. 
And I feel terrible for the Tribal communities who have decided 
to go that direction. We feel blessed, again, because of some 
of our supplemental dollars that we have been able to get ahead 
of this. And like I said, if this was a year ago, we would have 
been in a very different situation.
    Ms. McCollum. Thank you.
    Mr. Calvert. Mr. Kilmer.
    Mr. Kilmer. Thanks, Mr. Chair. I just want to thank you all 
for traveling so far to be here today.
    President Sharp, I was hoping you could give the Committee 
a sense of the cost of relocation. Do you have a ballpark 
estimate of how much it is going to cost the Tribe to move to 
higher ground?
    Ms. Sharp. At this point, the first phase we are looking at 
is close to $200 million.
    Mr. Kilmer. I ask that question because we are talking 
about literally relocating an entire village that is very, very 
vulnerable. And I know the chair has asked for suggestions of 
where the subcommittee might be able to go and visit. There are 
four Tribes just in my district that are threatened by 
encroachment from the ocean, and trying to go through this 
process of relocating. We can sit here and talk about the cost, 
but a picture is worth a thousand words.
    Mr. Calvert. Is it just the rising ocean or is it also some 
subsidence issues in there?
    Ms. Sharp. Both. And Quinault is a good example of 
frontline impacts of climate change. To the far east, the 
Anderson Glacier that feeds the Quinault River has disappeared. 
You could see photos from the University of Washington show the 
glacier receding. I took a helicopter flight over and saw that 
it was entirely gone. Then to the west, you have the ocean 
encroachment. You have our fishery studies that show millions 
of sockeye in the Quinault River, and there is a direct 
correlation to a drop to just 4,000, and that is tied to ocean 
acidification and the warming temperatures. So at Quinault, you 
could see the impacts of ocean acidification, a melting 
glacier, the ocean encroaching taking out an entire village. 
Thank you.
    Mr. Calvert. Okay. Thank you very much. We appreciate this 
panel. We will move on to the next panel. So come up. I guess 
we are running a little behind schedule here. Jonathan Nez, 
vice-president of the Navajo Nation; Edward Johnstone, 
treasurer of the Northwest Indian Fisheries Commission; Leland 
Bill, the chairman of the Columbia River Inter-Tribal Fish 
Commission. Welcome.
    Mr. Nez, welcome. We will start with you. You are 
recognized for 5 minutes.
                              ----------                              --
--------

                                             Tuesday, May 16, 2017.

                             NAVAJO NATION


                                WITNESS

JONATHAN NEZ, VICE-PRESIDENT
    Mr. Nez. Good afternoon, Chairman Calvert and Ranking 
Member McCollum and members of the subcommittee. My name is 
Jonathan Nez, I am the vice-president of the Navajo Nation. And 
I appreciate some of the committee members coming out to Navajo 
a couple years ago. So thank you for that visit.
    I appreciate this opportunity to provide testimony to 
address the Navajo Nation's 2018 funding priorities and needs. 
We do not have the benefit of the President's 2018 budget 
request, but we encourage the subcommittee to hold the line 
against any proposed cuts. I also commend the subcommittee for 
increased funding in fiscal year 2017. Indian Country is far 
from sufficient funding. However, it is still good to see 
incremental increase.
    The Navajo Nation is the largest Indian reservation in the 
U.S., with about 17.2 million acres of land. As such, the 
Navajo Nation is also a member of the Coalition of Large 
Tribes, which consists of 12 Indian Tribes who hold large land 
bases.
    For our natural resources division, we request an 
additional 3.5--3-1/2--$3.56 million for a variety of 
activities for water resources, forest management, and fish and 
wildlife. Also, we need to resolve the issue of redevelopment 
of the former Bennett Freeze area. Development in this area had 
been frozen for at least 40-plus years going back to 
congressional legislation enacted in 1934 and the actions of 
the Commissioners on Indian Affairs in 1966.
    As a result, homes and infrastructure are lacking or in 
poor condition; the results of a lack of roads, schools, health 
centers, and other facilities. We are working to bring 
development back to the area, but it requires a huge amount of 
funding, and at start, we have requested around $20 million.
    For our public safety division, we request an additional $3 
million, based on Interior guidelines. However, we estimate 
that $74 million is needed to ensure proper services.
    The Navajo Nation has 11.4 patrol officers per 10,000 
citizens, which is less than the national average of 24 
officers per 10,000. Navajo requested an additional $1.47 
million to increase the number of officers to close the gap. We 
also requested an additional $1.47 million for our detention 
facilities and $107,000 for our courts that average 4,000 cases 
per year.
    In regards to education, we have approximately 85,000 
students attending 244 schools located on and near the Navajo 
Nation. With the recent Federal approval of our Dine school 
accountability plan, we can improve our educational system 
while using Dine content standards. Our goal is to seek 
recognition as a State education agency, but we need sufficient 
funding to meet the standards. We also requested additional 
funding for scholarships in Johnson O'Malley. We also 
appreciate the $63.7 million increase in education construction 
which allowed replacement of two Navajo schools, and seven are 
in design phase, but we need funding for 31 other Navajo BIE 
schools that are in poor condition.
    We also encourage the committee to provide funding for our 
school bus routes.
    Our Navajo division of social services provide many 
services to families, children, and individuals. We request an 
additional $1.83 million in order to keep up with the 
increasing costs and inflation for social services and welfare 
assistance. Because our caseloads per social worker does not 
meet national standards, we request an additional $95,000 to 
hire more social workers.
    In regards to Indian Health Service, we are currently 
designing a new alternative rural health center, which is 
projected to serve over 60,000 primary care visits per year. 
This facility provides a start, but with the outstanding 
priority list for healthcare facility construction totaling 
$2.5 billion; we urge Congress to start funding it at $170 
million yearly so that we construction in 14 years versus 20 
years under the pre-2016 funding levels.
    We also urge Congress to continue support for the special 
diabetes program for Indians, which has decreased blood sugar 
and cholesterol levels in American Indians and Alaska Natives.
    In regards to the environment, the Gold King Mine spill 
occurred almost 2 years ago, and farmers still have not been 
compensated for their loss. We encourage the committee to make 
it their goal to rectify the situation despite EPA's recent 
legal decision to not compensate. Also, the Navajo does receive 
other EPA funding for its programs, and we encourage this 
committee to not cut funding from Tribal environmental 
programs.
    In conclusion, the priorities outlined by the Navajo Nation 
seek to strengthen the sacred treaty responsibility and trust 
response relationship and assist the Navajo Nation in 
furtherance of self-sufficiency and Tribal sovereignty.
    I am available for any further questions you may have. 
Thank you.
    [The statement of Jonathan Nez follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    Mr. Calvert. Thank you.
    Mr. Johnstone, you are recognized for 5 minutes.
                              ----------                              --
--------

                                             Tuesday, May 16, 2017.

                 NORTHWEST INDIAN FISHERIES COMMISSION


                                WITNESS

EDWARD JOHNSTONE, TREASURER
    Mr. Johnstone. Thank you. For the record, my name is Ed 
Johnstone. I am a Quinault Tribal member. I am the treasurer of 
the Northwest Indian Fish Commission, and the Northwest Indian 
Fish Commission is a 20-member Tribes. We formed the Commission 
shortly after U.S. v. Washington, commonly called the Bolt 
decision. I am very proud to represent the 20-member Tribes as 
the treasurer. I am here today with Justin Parker, executive 
director, and it is truly an honor to be here. And I thank the 
chairman, Mr. Calvert, and Ranking Member McCollum and my 
Congressman, Mr. Kilmer. It is--it is really an honor to be 
able to do this testimony, because I sit in some big steps, big 
shoes from our former chairman for over 30 years, Billy Frank, 
Jr. And it really struck me in listening to the Tribes, and I 
have been blessed to be in this hearing room many times and 
listening to our people throughout the United States tell their 
story.
    And our story from the Northwest Indian Fish Commission is 
a story of the salmon people. That is our culture, that is our 
way of life. When you listen to Sam Penney talking about those 
kids, you know, that are in some form of addiction, you know, 
our salmon is what gives us hope, our salmon is our way of 
life, our salmon is woven into our cultures. And we have faced 
many changes since we signed those treaties in 1854 and 1855, 
as the growth and development of the United States moved west. 
And we came to the table and we sat with Isaac Stevens, and we 
signed those treaties, and we signed them with the 
understanding of what we knew at the time, that we would always 
have salmon, we would always be salmon people.
    So when we talk about our request, you know, you can see in 
the written testimony that it gives figures, you know, provides 
protections, treaty rights protection, the RPI account, that is 
so meaningful for us 41 Tribes. The Northwest, you have 
Columbia River and then the Northwest Union Fish Commission; 
you have--over in the Great Lakes, you have the Great Lakes 
Fish Commission; you have CORA in 1854.
    Those stories are woven into every one of these treaty 
areas and Tribal areas that mean so much to us. So when we get 
a chance to present, you know, those numbers, and in some cases 
we are thanking you for a current 2017. You know, we don't know 
what 2018 is going to bring us. We try to bring what we know 
and how we can explain the good and wise use, not only by the 
Tribes, but the State of Washington and the Federal Government. 
We are all invested in recovering salmon. And that is what I am 
talking about, is our salmon are in trouble in several areas of 
Puget Sound. Thankfully on the coast, we have not been subject 
to the massive amounts of growth and development that has come 
to us since the signing of those treaties. And so in there--
there is a story of those funding--different fundings and in 
the request, some of them like rights protection, or whether it 
be hatcheries, there are requests for additional funds to take 
on the almost overwhelming task of rebuilding these stocks and 
how important, for instance, that hatchery fish are, and it 
is--you know, it is really hard to impart, you know, our story 
about how much we appreciate and how meaningful it is and have 
a dialogue with you about what holds the future in these 
funding requests.
    So I only know how to do it one way. We wrote a whole bunch 
of stuff down and I practiced it, but I didn't hardly use any 
of it, but what comes to me, and I prayed last night that words 
would come to me, always in the style of Billy Frank, and 
probably Joe Delacruz and Guy McMinds and my president, Fawn 
Sharp, who I am glad is my chairwoman and I get to serve with 
her, under her, and she is my boss, and I respect, highly, her 
and these folks that have come to tell our story.
    [The statement of Edward Johnstone follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Mr. Calvert. Thank you. You did well.
    Mr. Bill, you are recognized.
                              ----------                              

                                             Tuesday, May 16, 2017.

              COLUMBIA RIVER INTER-TRIBAL FISH COMMISSION


                                WITNESS

LELAND BILL, CHAIRMAN
    Mr. Bill. Thank you. Good afternoon, Chairman Calvert, 
Ranking Member McCollum, and committee members. [Speaking 
Native language], Leland Bill. I am a member of the Yakima 
Nation Tribal Council, and chairman to the Columbia River 
Inter-Tribal Fish Commission. It is my pleasure to address you 
today regarding funding needs for the Columbia River Inter-
Tribal Fish Commission and the fisheries programs for our 
member Tribes. The Yakima Nation, the Nez Perce Tribe, Umatilla 
Tribes, and Warm Springs Tribes. We are celebrating our 40th 
anniversary this year, and there is a lot of reason to 
celebrate.
    We conduct a comprehensive treaty rights implementation 
program, which ensures compliance with our Tribal treaties, 
court orders, regional, intergovernmental agreements, and 
international salmon treaties. Together, our Tribes manage and 
co-manage lands equivalent to the State of Georgia. We are the 
leaders in ecosystem management working in collaboration and 
partnership with five States, 13 Federal agencies, and several 
private entities. Prefect in our member Tribes have a goal 
through the region's efforts to halt the decline of salmon, 
lamprey, and sturgeon populations and rebuild them to the 
levels that support ceremonial, subsistence, and commercial 
harvest. We emphasize the highest level of scientific rigor, 
cost-effective management, strategies, holistic approaches for 
the protection of our first foods.
    While many of the Pacific Coast salmon stocks remain in 
distress, our treaties--our Tribes are building Columbia basin 
success acre by acre, tributary by tributary, and stock by 
stock. And one of our success stories is Chinook from the Nez 
Perce Tribe that you can see that they have--this orange part 
right here is where it started like nothing, and then the blue 
part is what they rebuilt and the success of them after we 
implemented the fisheries.
    Rights protection implementation dollars have allowed this 
success story to happen. We are deeply appreciative of the 
subcommittee's ongoing support for Tribes and our core 
programs, including rights protection implementation, but the 
needs remain high. Specifically, Columbia River Fisheries 
Management, U.S.-Canada Pacific Salmon Treaty, Tribal Climate 
Resilience, all these vital programs are carried out by 
topflight professionals under the rights protections 
implementation.
    We also ask for robust support for public safety and 
justice, which supports enforcement of Federal laws at in-lieu 
and treaty fishing access sites on the Columbia River, and 
support for BIA's facilities management operation and 
maintenance to support annual operations and maintenance 
funding for the 31 in-lieu treaty fishing access sites.
    I have three directly related supporting requests of the 
subcommittee. The first is the evaluation of the Federal 
requirement to mass mark all hatchery salmon. In the Columbia, 
this requirement is becoming more and more costly and 
unnecessary, as we have seen the summer Chinook and fall 
Chinook management. Salmon managers should be provided the 
latitude to make case-by-case decisions whether to mark, and if 
so, in the appropriate percentages.
    I also ask the members of the subcommittee to support two 
bills before you in the House of Representatives. The first is 
H.R. 2083, the Endangered Salmon and Fisheries Predation 
Prevention Act. This bill would allow Tribes and States to 
better balance the interactions between overabundant sea lions 
and endangered salmon.
    The second is H.R. 1630, the Columbia River In-Lieu and 
Treaty Fishing Access Sites Improvement Act, which will provide 
operations and maintenance funding and jobs for Federal 
properties heavily used by Tribal members. Both bills directly 
affect Tribal treaty rights and protect the investment this 
subcommittee has already made.
    In summary, the CRITFC and its four-member Tribes have 
developed the capacity and infrastructure to lead in 
protecting, restoring, rebuilding Columbia River basin salmon 
populations, our collective efforts to protect our 1855 treaty 
reserve fishing rights for the next seven generations through 
collaboration and partnerships with the States, Federal, and 
nonIndian community in showing some success to provide healthy, 
harvestable salmon population for all citizens to enjoy.
    Thank you for this opportunity to testify. We will be 
pleased to provide any additional information that this 
subcommittee may require. Thank you.
    [The statement of Leland Bill follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Mr. Calvert. Thank you.
    Thank you. I enjoyed our trip to Navajo country just a 
while back. And you have the largest land area in the 
continental United States with 17 million acres, something like 
that?
    Mr. Nez. Yes, sir. 27,000 square miles.
    Mr. Calvert. 27,000 square miles. That is the size of West 
Virginia.
    Mr. Nez. The size of West Virginia, sir.
    Mr. Calvert. And we were both on your reservation, the Hopi 
reservation, and it was an interesting school. One thing we do 
remember is the condition of the roads, which were not good.
    Mr. Nez. The school bus routes, yes, sir.
    Mr. Calvert. So I am hoping that if we ever get around to 
an infrastructure bill, that we can make sure we have a carve-
out for infrastructure throughout the United States for Indian 
Country to fix some of these roads that obviously are in badly 
need of repair. So that is something that I think we all should 
keep an eye on as this year goes forward. And I know----
    Mr. Nez. If I may say, Chairman, sir, in regards to the 
Department of Interior BIA budget, there is--$6 million goes 
into road maintenance every year. I know the Navajo Nation has 
been receiving a portion of that $6 million to address those 
roads, but as you know, being a large land-based tribe, $6 
million doesn't really cut it.
    Mr. Calvert. It doesn't go a long way. You have a 
significant increase, and when we do an infrastructure bill 
that we have to have a carve-out, I think, for Indian Country 
in that, so hopefully we will have that. And certainly, we 
need--on the school construction nationwide, we have to come up 
with a solution to that problem. You guys have obviously the 
most schools, but we have a problem all across the United 
States.
    One thing on the salmon issue that is interesting, you kind 
of perked my attention on the sea lion issue. I know that is 
quite an emotional issue up there, but is the sea lion 
population not managed properly? Let me be, I guess, somewhat 
political about it, so you guys can answer that question. Is it 
a little overpopulated?
    Mr. Johnstone. Yes. What we have observed is in Quinault 
territory in Grays Harbor, which has the Humptulips and the 
Chehalis River and over into the Quinault River is we are 
seeing sea lions, and we are not their normal habitat. They are 
not--this is not their range. They are usually in the coastal 
environments to the south of us or they come from that southern 
range out of Alaska, but they are in Grays Harbor by the 
hundreds.
    And I recall about 5 or 6 years ago visiting with Billy 
Frank on the Nisqually River, and we were at Frank's landing 
and we were taking some photos, and behind us on the sandbar 
was about eight sea lions. And Billy said, That is nothing. 
There are 300 of them at the mouth of the Nisqually. They are 
out of balance.
    Mr. Bill. If I may, Chairman.
    Mr. Calvert. Yes. Go ahead.
    Mr. Bill. About 4 weeks ago we lost a member of our tribe 
due to hazing of the sea lions, and it was very detrimental. 
The boat capsized while hazing. Three of the four made it out 
safely and the other one perished there in the--during the 
whole incident.
    And the sea lions down at Astoria are pretty abundant 
there. I think they even took over one pier site. And roughly 
there are about 300 sea lion bulls in that area, so they are 
getting pretty carried away.
    Mr. Calvert. Ms. McCollum.
    Ms. McCollum. Mr. Chair, I will yield to the gentleman from 
the west coast.
    Mr. Kilmer. I just want to say thank you once again for 
coming all this way to testify. And, Ed, you always do an 
eloquent job of emphasizing the importance of having the 
Federal Government uphold its treaty obligations. It was an 
honor tojoin you to see those treaties in person. I thank you 
for being here.
    Mr. Calvert. Thank you. And I thank you for your testimony 
and we appreciate your being here.
    We will go on to our next panel Frances Charles, Jim 
Peters, Annette Bryan, and Jamie Valadez. Please come up. These 
are all Mr. Kilmer's constituents, I understand.
    Mr. Calvert. All right. Mr. Kilmer has been negotiating for 
a visit, I suspect. You need to get on over there.
    We appreciate your being here.
    And let's see, we will start with Frances Charles, the 
Lower Elwha Klallam Tribe--is that----
    Ms. Charles. Klallam.
    Mr. Calvert. Klallam. Okay. I appreciate your being here. 
You are recognized for 5 minutes.
                              ----------                              

                                             Tuesday, May 16, 2017.

                       LOWER ELWHA KLALLAM TRIBE


                                WITNESS

FRANCES CHARLES, CHAIRWOMAN
    Ms. Charles. Good afternoon, Mr. Chairman and the 
subcommittee members and my friend, the gentleman from District 
Six from Washington State, Derek Kilmer, the Congressman. We 
thank you for being here today and listening to us.
    I went home and I dusted off my testimony and brought it 
back.
    Mr. Calvert. Welcome back.
    Ms. Charles. So we have some Tribal specifics--and I 
listened to the earlier testimonies from the previous chairs 
just as well as the other community members as much, because we 
are kind of ditto in regards to the issues that we are faced 
with in Lower Elwha.
    We are located 6 miles west of Port Angeles in Washington 
State, and we are a population of a little over a thousand 
Tribal members and still growing. We had acquired some 
additional land base, so we have a little bit over a thousand 
acres now, but we are continuing to purchase more of our 
homeland.
    Roughly, we are a checkerboard reservation. On the left 
side as you drive down the reservation, it will be fee status; 
on the right side, maybe reservation trust land status.
    To date, our economic development opportunities have been 
limited, and we are continuing to look for some of the 
opportunities for a long-term perspective in regards to our 
natural resources.
    We are known to have taken the historical two dams down 
into Port Angeles in regards to our home bases of our river and 
protection and restoring the Chinook runs and some of the other 
habitat. The beauty and the nature of it, not only are we 
seeing and witnessing the salmon come back, but we are also 
seeing other natural surroundings come back, whether it is the 
elk, the deer, the eagles, and the resources that are moving 
back into the homelands.
    Unfortunately, the removal of the dam had caused short-term 
threats to the salmon runs. Due to the settlement released from 
behind the former dams would have a disparate impact on our 
Tribal land base and to the Tribal budgets.
    We are strongly committed to the restorations of the 
fishery, the fish habitat, the streams, and the rivers in the 
Port Angeles Harbor. We are asking and urging for an increase 
in the self-governance funds to support the operation of the 
dam removal, mitigation, and restoration features that revive 
our other self-governance activities that have been forced to 
transfer funds to support the dam removal mitigations.
    In 1992, in the Elwha Act, there was a set-aside in it that 
was in accordance with the Congress' direction for the Elwha 
River ecosystem and the fishery restoration of $4.4 million not 
only for the impact that it had on our land base for the 
economics but for the impacts that it had on our river.
    We are looking for some of the resources for the O&M costs 
for our fish hatchery. The continuance operation budgets had 
increases, and we had some impacts because of the settlements 
that had come in behind the dam, utilizing the well system 
rather than the river itself to raise the--so we are asking for 
the continuance of $702,000 for that.
    Flood control levee operation and maintenance. We were 
mandated because of the Katrina episodes that had taken place 
for a state-of-the-art levee, and that had impacted our revenue 
just as much for the requirements that we are obligated to now 
with the levee that is within the reservation boundary. So we 
are asking for some increase in allocations not only of 
$270,000 but some operation allocations of $10,400.
    I know that I had talked with our Congressman and many 
others in regards to the land acquisition for the Park Service 
lands that we had acquired in the earlier stages of 1992 with 
the congressional set-asides that were earmarked and that they 
were stricken and taken away of the $4 million for the land 
acquisition.
    We have very sentimental values to the river. We have a 
creation site that was rediscovered again. In regards to that, 
we have a lot of cultural, sentimental values to the river, not 
only to seeing the fish come back, but we have ceremonial 
outreaches that are related to our youth, the activities that 
we do with the surrounding communities just as much, that we 
share the knowledge and the capabilities of what the river had 
provided in the earlier stages. The cultural ties and the 
economic aspects that it has for our ancestry all reaches for 
the creation sites.
    Tribal court and Tribal law enforcement enhancements. We 
have seen a rise--I heard the testimony earlier in regards to 
the drug activities. We, too, are having those issues and 
seeing a rise because of the wraparound in the social services 
programs not only under the Tribal TANF dollars but just in the 
Indian Child Welfare and in our Tribal court and the 
jurisdictional aspects of it. We have no control of our 
juveniles. They go into the outside agencies, and they are 
placed into detentions and juvenile court systems.
    So we are looking for other resources and aspects to 
maintain families. Foster children are on the rise within our 
community, but we have limited families that are offered to 
take the children because of their limited activities 
themselves.
    And treatments, I heard the treatments. It is something 
that our people have gone to. I have gone and witnessed the 
ceremonies and the fears that they have of going back home to 
move back into the same environment, and that is part of it 
too.
    Indian Child Welfare, we have risen on our caseloads, as I 
indicated in that part. The Indian Health Service specifics 
funding, I have to go back and get after my staff, because I 
think they are undercutting us $500,000 for the need. But the 
mental aspects of it, again, is important. We have an outreach, 
we have the wraparound programs, we have the fortunates and 
opportunities, but it is not enough for our Tribal communities, 
and we are underfunded.
    So we are asking to continue with the Medicare and the 
Medicaid Services' formulas for our Tribal people but also for 
the people themselves and the elders. So we have a rise on 
elder abuse/neglect that is taking place because of the pain 
pill epidemic that are happening in the Tribal communities as 
well as ours.
    EPA, environmental, with the problems that we have with our 
harbors. And I know that a lot of the delegates are involved in 
that part of it. And we continue the support--I am cutting it 
short now--that we will support with the Northwest Indian 
Fisheries and the national and the Portland health community 
members, as well.
    Thank you.
    [The statement of Frances Charles follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Mr. Calvert. Thank you. Sorry. We are just running a little 
behind right now.
    Ms. Charles. No, I see that.
    Mr. Calvert. I appreciate your indulgence.
    Next is Jim Peters, Tribal councilman with the Squaxin--how 
do you pronounce that?
    Mr. Peters. Squaxin.
    Mr. Calvert [continuing]. Squaxin Island Tribe. Welcome.
                              ----------                              

                                             Tuesday, May 16, 2017.

                          SQUAXIN ISLAND TRIBE


                                WITNESS

JIM PETERS, TRIBAL COUNCILMAN
    Mr. Peters. I am Jim Peters. On behalf of the Squaxin 
leadership and the citizens, I am honored to be here in front 
of you, Chairman, and the rest of the committee.
    And, Congressman Kilmer, good to see you again.
    We applaud the committee's foresight and leadership on 
seeking a long-term resolution of fully funding contract 
support costs for the BIA and Indian Health Service. We thank 
you for that.
    I want to be able to just kind of touch some bases and then 
maybe come back on a little bit of the Squaxin story here.
    We are requesting $500,000 for shellfish management 
programs for the BIA; $2.5 million to build and operate an 
oyster and clam nursery in the southern Puget Sound; also the 
$2.5 million increase in the Northwest Indian Treatment Center 
that we run in our area. Also, a regional request to fully 
support the budget request from the Affiliated Tribes of 
Northwest Indians, the Northwest Portland Area Healthcare 
Board, and also the Northwest Indian Fish Commission.
    So Squaxin Island is located in southern Puget Sound. The 
Tribe itself is a maritime people, and we are known as the 
``People of the Water'' because of our strong cultural 
connection to the water in Puget Sound.
    The island reservation is located in southeast Mason 
County, and we also are a signatory Tribe of the Medicine Creek 
Treaty. We are also one of the first 30 federally recognized 
Tribes to enter into a compact of self-governance with the 
United States.
    I want to go into some of the specifics of our shellfish 
management requests that we have. We are in an area of very 
enriched shellfish, and for us to be able to exercise our 
treaty rights, we need moneys to be able to manage those lands. 
Those are both on private lands and State lands that we have 
the right to harvest.
    We are not harvesting a lot of those because of that lack 
of management dollars to be able to manage these properties. A 
lot of times, the State of Washington, as soon as we are on 
them, then we have to manage them ourselves. Obviously, the 
private property they are managing a little bit but not to the 
extent that really needs to happen. And so we are losing out on 
a lot of our traditional economic source of funds that our 
Tribal members go out to exercise these treaty rights. So we 
really need the assistance to be able to do that.
    Along with the oyster and clam nursery that we want to try 
to build. Because of climate change, ocean acidification, there 
are problems with the reproduction of shellfish. And so, by 
doing them in a hatchery environment, it actually protects them 
to get them big enough so then we can put them out on the 
beaches. And part of the problem with the ocean acidification 
is it affects the capabilities of the shellfish to grow their 
shells on them. So being able to do this, we will be able to 
not only provide seed for our own beaches but also with the 
industry in southern Puget Sound and other Tribes.
    Our Northwest Indian Treatment Center, it is something that 
I am very proud of. We have named it an Indian name, 
``Returning from the Dark Deep Waters to the Light.'' And we 
have been fairly successful with that program because we have 
incorporated our traditional teachings and our traditional 
healings to be able to get Native Americans from Washington, 
Idaho, and Oregon to come to our facility and get off of some 
of the addictions that you have heard, the problems, the 
epidemics of these drugs and alcohol and things in our world 
today.
    And so we have been really successful at doing that, but we 
need to be able to increase for that center to be able to adapt 
to the growing need for our people to be able to use that. We 
have a pretty highly successful success rate. Rarely people 
relapse, or if they do, they want to come back to our facility 
instead of some other facility because of that cultural 
connection that we provide at our treatment facility.
    I want to just say thank you for the time here and allowing 
Squaxin Island to come and share our important issues. I know 
you guys have a tough job, and thank you for all your support.
    [The statement of Jim Peters follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
                                             Tuesday, May 16, 2017.

                       PUYALLUP TRIBE OF INDIANS


                                WITNESS

ANNETTE BRYAN, COUNCILWOMAN
    Mr. Calvert. Thank you. Thank you, Mr. Peters.
    Next, Annette Bryan, councilwoman--I always have a hard 
time pronouncing this.
    Ms. Bryan. Like a church pew, ``Puyallup.''
    Mr. Calvert. Oh, Puyallup--Tribe of Washington State.
    Ms. Bryan. Thank you. [Speaking native language.] Good day, 
my honorable people.
    Mr. Chairman and members of the subcommittee, thank you for 
the opportunity to provide testimony for the fiscal year 2017 
appropriations for American Indian and Alaska Native programs. 
My name is Annette Bryan, Tribal Council member for the 
Puyallup Tribe of Indians. Today I am here representing our 
Tribal chairman, Bill Sterud, members of my Tribe, and my 
elders, my ancestors, and our future generations.
    The Puyallup Tribe of Indians serves more than 5,200 
Puyallup Tribal members and 25,000-plus members from 
approximately 355 federally recognized Tribes who utilize our 
services. The Puyallup reservation is located in the urbanized 
Seattle-Tacoma area of the great State of Washington.
    First and foremost, while we do not know the details of any 
cuts the administration may propose to programs critical to 
Tribes, including Johnson-O'Malley, education, Native American 
housing, social services, or healthcare, I must impress upon 
you that Indian programs are already underfunded, and we cannot 
do the job necessary to prevent homelessness, addiction, 
violence, or protect our natural resources if the Federal funds 
we do receive are cut.
    The Puyallup Tribe contributes substantial amounts of funds 
to support our programs, but we need the Federal Government, 
our trustee, to remain a partner in these efforts.
    The Puyallup Tribe accomplishes critical work with Federal 
funding, and I would like to extend an invitation to any and 
all of you to come and see the new justice center, our school, 
our youth center, or our culturally relevant housing.
    In 2009, the Puyallup Tribe received a Department of 
Justice grant in the amount of $7.9 million to construct a 28-
bed adult correction facility. The estimated cost of operating 
the facility was set at $2.6 million annually. The BIA base 
funding offered to the Tribe in fiscal year 2015 was just over 
$700,000, or 27 percent of the actual need, with no increases 
to base funding in fiscal year 2016 or 2017.
    We request support from the committee, to include committee 
report language that would direct Office of Justice Services to 
submit a plan for fully funding the staffing and operations of 
the detention facilities now operating in Indian Country.
    We would also like to thank the committee again for Tribal 
court funding for Tribes in P.L. 280 States, like mine in 
Washington, allowing the Tribe to operate and provide justice 
to our people with prosecutors, public defenders, and law-
educated judges.
    Addressing public safety needs in our community means 
nothing if our natural resource environment is not protected. 
The Tribe has treaty responsibilities to manage its natural 
resources for uses beneficial to the Tribal membership and the 
regional communities. Our fisheries are in danger, as we have 
heard here today, and they must be protected.
    Again, we support the call for increased funding for rights 
protection implementation to ensure compliance with Federal 
court orders through effective Tribal self-regulatory and co-
management systems. It is essential that adequate funding is 
provided to allow Tribes to carry out our inherent stewardship 
of these resources.
    Related to this, the Puyallup Tribe continues to operate a 
number of salmon hatcheries that benefit fisheries to the 
Pacific Northwest and the Puget Sound. We work cooperatively 
with the Northwestern Indian Fisheries Commission, neighboring 
Tribes, Federal agencies, and State fisheries' managers to 
ensure the success and sustainability of our hatcheries 
program. Thus, we greatly appreciate the committee's $1 million 
increase in funding for fish hatcheries operations and fish 
hatchery maintenance.
    The Tribe has been a leader in education for a generation. 
Today, the Tribe operates Chief Leschi Schools, with an 
enrollment of over 900 students. Chief Leschi Schools will soon 
exceed its capacity in the near future. Additional education 
facility space will be necessary to provide quality education 
services to the Tribal students in the community. Thus, the 
funding to address BIE facilities maintenance needs and 
upgrades is vital.
    Finally, as with education, the Tribe has been a leader in 
healthcare, with the first 638 contract for an his clinic in 
the Nation. We know all too well the inadequate funding of 
Indian Health Service is the most substantial impediment to the 
current Indian healthcare system. The Puyallup Tribal Health 
Authority's current patient load exceeds 9,000, of which 
approximately 1,700 are Tribal members.
    There are no Indian Health Service hospitals in the 
Portland area, so all specialties and hospital care are paid 
for out of our purchased/referred care, PRC, allocation. The 
PRC allocation remains inadequate to meet the need. The Tribal 
PRC subsidy has grown to more than $6 million.
    Given that the PTHA service population is only comprised of 
17 percent of Puyallup Tribal members, it is clear that the 
Tribe is shouldering the responsibility that lies within the 
Federal Government. Thus, we urge the committee to continue to 
support the Indian Health Service, including direct care, 
dental, mental health, substance abuse, and purchased/referred 
care.
    Tribes are found in the Constitution, and the U.S. 
Government has a trust obligation and, in some cases, as with 
the Puyallup Tribe, a treaty obligation to fund our programs.
    Thank you for your time.
    [The statement of Annette Bryan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    Mr. Calvert. Thank you.
    Next, Jamie Valadez, you are recognized for 5 minutes.
    Jamie is the language teacher at the Lower Elwha Klallam 
Tribe, Port Angeles School District.
                              ----------                              

                                             Tuesday, May 16, 2017.

        LOWER ELWHA KLALLAM TRIBE, PORT ANGELES SCHOOL DISTRICT


                                WITNESS

JAMIE VALADEZ, KLALLAM LANGUAGE TEACHER
    Ms. Valadez [Speaking native language]. Good afternoon. 
[Speaking native language.] My Indian name is [speaking native 
language], also known as Jamie Valadez, and I teach the Klallam 
language and Native American studies at Port Angeles High 
School since 1999.
    I am here to tell you about the success of our Klallam 
Language Program that was funded by the National Endowment for 
the Humanities in 2007 to publish this dictionary. By 2012, we 
completed the publication of the dictionary, the most extensive 
Native language dictionary in our State and a very important 
tool in preserving our language.
    The Klallam language is spoken by three federally 
recognized Tribes: besides Lower Elwha, Jamestown S'Klallam, 
and Port Gamble S'Klallam. These three Tribes are located in 
western Washington along the Straits of Juan de Fuca and to the 
Puget Sound. Klallam is a language of the central-coast branch 
of the Salishan languages, which are spoken in Washington, 
Oregon, Idaho, and the western part of Montana.
    The Klallam language was the last language in western 
Washington that had first language speakers. Our last two 
fluent first language speakers passed on in 2013 and were major 
contributors to this dictionary. Fortunately, we were able to 
preserve their traditional knowledge here. Thirty-eight elders 
contributed to this dictionary.
    The Klallam Dictionary project, in turn, made it possible 
to preserve the language by passing it on to second language 
speakers, such as myself, and younger generations.
    I have been teaching here since 1999 at Port Angeles High 
School, and until the dictionary--and then after the dictionary 
was published, we were able to publish our grammar with the 
proceeds that were made from this publication.
    Let's see. We had very limited resources, and now there are 
more second language speakers of Klallam than any other Tribal 
language in our State. This has authenticated our existence, 
raised up our standard of living, and helped make our social 
fabric whole once again.
    The academic impacts for Native American students 
associated with the Klallam Language Program have been 
enormously positive. Grade point averages have risen from 1.3 
to 2.5 from 2005 to 2012. More students are staying on track to 
graduate, and test scores in English have risen, and more 
Native American students are graduating high school.
    The Klallam Language Program has also helped the 
relationship between the Lower Elwha Tribal community and the 
local city of Port Angeles. It wasn't that long ago that the 
Native American and non-Native communities in Port Angeles were 
isolated from one another, with little interaction or mutual 
trust, but increased interest in the language and culture has 
helped change that.
    We have seen a huge increase in usage of the Klallam 
language in local publications, street signage, and the city's 
new beach park with interpretation and Klallam place names. The 
Klallam language is spoken as a regular part of the programs at 
many community gatherings.
    It is safe to say that the National Endowment for the 
Humanities grant has been a great investment not only in Native 
language preservation but also in improved understanding 
between two communities that really needed it.
    By having the opportunity to speak with you today, allowing 
us to share our success story, we hope that the committee 
continues to support projects under NEH that help Native Tribes 
revitalize languages.
    [Speaking native language.] Thank you for your hard work. 
[Speaking native language.] I also thank you for listening to 
our story.
    [The statement of Jamie Valadez follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
        
    Mr. Calvert. Thank you very much for your testimony, for 
all of you.
    Just one quick question for Frances.
    On the dam removal side, I understood the environmental 
enhancement that created for future fish population. But did 
those dams offer any flood control? Is that some of the reasons 
why you to have this levee management?
    Ms. Charles. It was a requirement to have the flood control 
levee in place because of some of the old homes that were down 
there but were transferred over to the----
    Mr. Calvert. So these homes are all----
    Ms. Charles. They are no longer there----
    Mr. Calvert. Okay.
    Ms. Charles [continuing] Because of the flood in that 
earlier stage, it was a mandate.
    Mr. Calvert. I understand. Thank you.
    And shellfish. I know that shellfish populations are kind 
of up and down. How is it up there in your neck of the woods? 
Are the populations rebounding pretty well?
    Mr. Peters. It goes up and down, certain years, we will get 
higher number of natural production and stuff like that, but 
because of the climate issues, it is continuing to go down.
    So the production of that natural environment has been 
impacted such that it can't sustain itself, so that is where 
the hatchery type of facilities come into play. And it is 
impacting not just the Tribal harvest, but it is impacting the 
industry in general.
    Mr. Calvert. Okay.
    And I wanted to plug--I understand the National Endowment 
for the Humanities helped with that. And, as you know, that is 
part of our responsibility on this committee also. So we fully 
funded the National Endowment for the Humanities and Arts this 
year.
    Ms. Valadez. Good.
    Mr. Calvert. So, hopefully, that will continue to help not 
just Indian Country but throughout the United States. So it is 
an important program.
    Ms. Charles. Mr. Chairman, with the last funding sources on 
that, it was a little over $300,000 of that endowment money 
that had helped us with the language program.
    Mr. Calvert. Great. That is good. Thank you.
    Ms. McCollum.
    Ms. McCollum. Congratulations on the grammar book--which is 
every child's trepidation, right?--and the dictionary.
    But children who learn a second language do much better in 
school. Whether that second language is music, math, or another 
spoken language or sign language, they do much, much better in 
school. And for those children then to feel proud of who they 
are and understand where they have come from, it grounds them 
even more.
    So congratulations, and I am glad to see my tax dollars at 
work with the National Endowment for the Humanities.
    Ms. Valadez. Thank you.
    Mr. Calvert. Mr. Kilmer.
    Mr. Kilmer. Thanks, Mr. Chairman.
    I know we are short on time, so I am going to ask one brief 
question.
    Annette, I know in the past representatives from your Tribe 
have said that the Justice Department project probably wouldn't 
have happened if you had known that the operating expenses 
wouldn't be covered. Do you want to just affirm that?
    Ms. Bryan. Yes. Good question. Thank you, Congressman 
Kilmer.
    The operating expenses are burdensome, and had we known 
that they weren't going to be covered, we may have reconsidered 
this project, absolutely.
    Mr. Kilmer. I want to thank Jamie for the programming you 
are doing at my alma mater.
    And I thank the rest of you for coming.
    I also just want to mention to Chairwoman Charles, the 
Interior Secretary visited with our subcommittee a couple weeks 
back, and I raised the issue of the land acquisition with him. 
I know it is an issue for the Tribe, so please know we are 
trying to elevate that issue for the Tribe.
    And I appreciate the chair's attention to it, as well.
    Mr. Calvert. Thank you.
    And thank you for your attendance. We appreciate it.
    Our next panel is Charlene Nelson, Dee Pigsley, Mel 
Tonasket, and Donald R. Michel, if you all will please come 
forward.
    First, we are going hear from Charlene Nelson, the 
chairwoman of the Shoalwater Bay Tribe.
    Welcome. You are recognized for 5 minutes.
                              ----------                              

                                             Tuesday, May 16, 2017.

                          SHOALWATER BAY TRIBE


                                WITNESS

CHARLENE NELSON, CHAIRPERSON
    Ms. Nelson. Thank you for having me this afternoon, and I 
would like to thank the other members of the subcommittee.
    And, fellow Washingtonian down there, I am glad you are 
here in the sunshine.
    Mr. Kilmer. I haven't seen it in 8 months.
    Ms. Nelson. My name is Charlene Nelson. I am chairwoman of 
the Shoalwater Bay Tribe. The Shoalwater Bay Tribe is right on 
the coast, and we are a Lower Salish Sea Tribe. We are close to 
the Columbia River.
    I know my allotted time is short, so I am going to try to 
go through what is important.
    One of the very important things I wanted to do is give a 
thank you. Twenty-five years ago, Congress listened to the 
story from the Shoalwater Bay Tribe. We were losing our babies; 
it was an infant mortality crisis. And they provided us with 
funding. We had no doctor, nothing on-reservation, no medical 
care. They provided us with funding so the Tribe for the first 
time could administer a wide range of healthcare on the 
reservation. We, as a Tribe, say masi--``masi'' means ``thank 
you''--to the Congress for doing that.
    Now we have a baby due any day. And the exciting thing to 
me is we have, this year, nine graduates from high school--nine 
graduates from high school, and we will send every one of them 
to college that can go, because we believe in them.
    Our wellness center, which we built afterwards--when we 
first had our wellness center, it was in a very small area, but 
we had a good doctor and a good dentist, so it really, really 
helped us. And we had other things. But right now our clinic is 
open to everyone, Indian and non-Indian alike. It is a good 
model for affordable care.
    It was dedicated to our ancestors, and it was named the 
Wellness Center because we consider health very, very 
important. If you are well, you have a different outlook on the 
world. And I believe that we want all people well. And if they 
are ill, we strive hard to make them well.
    But you all have my written testimony. Our people are 
becoming more healthy, but the community itself is in severe 
danger.
    We have a reservation, and we are a small reservation, of 
1,034 acres. Of that land base, over 700 acres is unbuildable 
tidelands. You can't build down there; I don't think you would 
want to. Of the remaining 334 acres, the vast majority is 
steep, forested hills, land slopes, roads, or wetlands. All 
buildable lots on the reservation are already occupied.
    And our wellness center, government offices, graveyard, and 
almost all residents sit within just a few feet of the high-
tide line. Some of us are right down near at sea level, 
definitely. That is sea level, but we are below.
    If we had an earthquake on shore, the land below us sinks 6 
feet. It becomes liquified because it is sand. And the sea will 
inundate the village. If the earthquake is offshore, we have 20 
minutes to get uphill. And we actually have a place for people 
to go. And we don't care who they are; anybody who gets up 
there is welcome to come in and be safe. Twenty minutes is not 
very long, and it is hard to get people up there. We need to 
move to high ground.
    I am requesting--coastal erosion is a constant threat. The 
U.S. Army Corps of Engineers reconstructed a natural sandspit 
that was out in front of us forever, and that is helping keep 
care of our reservation right now. But we had two severe storms 
in a different wave action last year, and we lost about 2 miles 
of it.
    And, right now, the Corps, who I consider great friends and 
most, most helpful, are trying to arrange so that they can 
repair the berm. The berm cost about 9 years of my time and 
Federal moneys. I don't want to see it disappear. And they can 
do some revetment on it that will help. Revetment is like a 
rock, I believe, they are going to use.
    In case of a tsunami, our reservation would no longer 
exist. In case of tsunami, many will go to God's house, like, 
overnight, right then. We need to move to high ground.
    I am requesting that this subcommittee work with the 
Washington delegation for a funding vehicle for $480,000 for 
initial planning and construction that would begin the process 
of our Tribe moving uphill, relocating to higher lands that we 
have already bought but we have bought with the idea that we 
would move uphill, but we did not begin that process. We 
realize now, as things change, or are changing, we really need 
to get our reservation uphill.
    The written testimony discusses and illustrates with the 
attached map what we plan to do. The land and road are going to 
cost money, and it has to go over wetlands, where I think we 
are going to have to mitigate for that. We need to start now. 
And we have, by resolution, as a Tribe, said in 2016 that we 
will move uphill.
    In order to survive, the Tribe has repeatedly had to make 
its way through lean times. The Tribe prides itself on its 
resilience and its capacity to make a little go a long ways. 
The Tribe counts on full funding from Congress on contract 
support costs in order to make these things work.
    I appreciate that Congress is making CSC a separate account 
in the his and the BIA budgets. This ensures that the Tribe's 
self-governance compacts with the his and the BIE will be 
implemented, and we have assurance that the Federal programs 
are strong.
    Mr. Calvert. Thank you.
    Ms. Nelson. I am in support of the congressional funding 
provided for the Tribal court systems for Tribes impacted by 
P.L. 83-280. We have one. It is in an old trailer, and you can 
all come down to see it. But we have a judge and the 
prosecuting attorney and lawyers that come in, and we are now, 
as far as the county, being looked at as real. That is a good 
thing.
    We rely on that court for health, safety, justice, and 
peace. We cross-commission our officers so that we can help the 
county. Because, where we live, it is a long ways for the 
sheriff to get to--and his deputies.
    State Highway 105 runs through our reservation. It is our 
only way to leave this area except by boats or helicopters. We 
have boats, no helicopters. The highway and the beach beside it 
needs repair.
    The part that is in worse shape is north of us, and it is 
not on-reservation, but this is the highway the school buses 
carry the children from the reservation and surrounding lands 
to school. This is the highway emergency vehicles take when 
headed for the hospital, which is 33 miles. This is the highway 
that law enforcement must travel to assist citizens north of 
here. This is the highway that people use to go to grocery 
stores, et cetera. This is the highway that is an important 
trunk highway in case of emergencies, such as terrorism attacks 
or flood or whatever. And this is the highway that brings 
tourists in to our enterprises. If it is washed out, it would 
destroy historical and traditional lands, cranberry bogs, and 
homes. When these things are gone, they are gone forever.
    Please consider helping us back Pacific County's request 
for help by supporting the U.S. Army Corps of Engineers under 
section 103 of the Rivers and Harbors Act of 1962 for the 
Shoreline Protection Project.
    I believe in health and safety. Masi for letting me talk to 
you today. We live in a beautiful area of the coastline. Please 
come down and visit us.
    [The statement of Charlene Nelson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    
    Mr. Calvert. Would love to.
    I am trying to stay within these timeframes because we have 
so many witnesses here today. Please, we will try to stay 
within the 5-minute rule. You know, I will try to be 
respectful, but we are getting a little bit behind.
    Next is Dee Pigsley, Tribal Council, Confederate Tribes of 
the--Siletz Indians?
    Ms. Pigsley. Siletz Tribe of Oregon.
    Mr. Calvert. Welcome.
                              ----------                              --
--------

                                             Tuesday, May 16, 2017.

                 CONFEDERATED TRIBES OF SILETZ INDIANS


                                WITNESS

DELORES PIGSLEY, CHAIRMAN
    Ms. Pigsley. Thank you for entertaining our testimony 
today.
    I have been the Tribal chairman at Siletz for a very long 
time. I am not going to say how many years. We rely on multiple 
funding sources and the flexibility of self-governance to 
adequately fund services to our membership. And we are entering 
the era of a new administration, and we are a little bit 
nervous about some of the proposed changes that we are 
obviously going to have to live with.
    Indian Health Service and the Bureau of Indian Affairs 
contract support costs. Sufficient contract support costs are 
essential for Tribal Governments to carry out our new and 
existing program services, functions, and activities under 
self-determination and self-government. We urge Congress to 
continue to adequately fund CSC. And we appreciate the lady's 
testimony on contract services.
    The Purchased/Referred Care Program. This program is the 
most important budget line item in the IHS budget for the 
Siletz Tribe. With no IHS or Tribal hospital in our entire 
region, Oregon Tribes are 100-percent dependent on this program 
to pay for hospitalization, hospital services, including 
specialty care.
    Historically, insufficient resources for this program 
resulted in underfunded/deferred healthcare requests such as CT 
scans, hernia repair, knee and hip surgery, psychological 
counseling, and back surgeries, and other treatments that did 
not meet current funding levels. As a matter of fact, we were 
on Priority 1 for about 8 years, and that meant only treating 
people with emergency kinds of care. Healthcare rationing 
causes Tribal members to be diagnosed only when their disease 
is advanced and the cost of the treatment becomes prohibitive.
    So we support full funding of Purchased/Referred Care at 
$1.3 million, which is an increase of $422,000 over the current 
budget level. And we support the testimony of the Northwest 
Portland Area Indian Health Board.
    BIA Tribal courts. The Siletz Tribal Court exercises only 
civil jurisdiction, handling about 552 cases a year. And it is 
staffed by a part-time judge, a full-time court administrator, 
a part-time deputy court administrator, and four on-call 
judges. The court's budget is only $249,000, with only $21,000 
provided by BIA funds.
    The BIA methodology for calculating Tribal court programs 
shows a minimum budget at $717,000 for a part-time court, 
serving a population of less than 600 people. And our current 
enrollment is 5,119 members--half men and half women, by the 
way. We recommend funding Tribal courts at $106 million to 
provide a functioning justice system.
    BIA Tribal law enforcement. The Siletz Tribe is a Public 
Law 280 Tribe and has struggled to create and maintain a 
sufficient public safety program. We operate our own police 
department, but funding was not sufficient to maintain a 
program.
    We then contracted for reduced hours from a local city 
police department but had to terminate the contract in 2014. 
And we actually went without any policing activities for 2 
years, until, 2016, the Tribe and the city of Siletz were 
successful in forming a special district levy to help pay the 
costs for law enforcement, and we currently operate one with 
Lincoln County Sheriff's Office and contribute a share of that.
    Enhanced services began in 2016 at 80 hours a week. We only 
received $93,000 of BIA funds for law enforcement, which is 
less than half of the Tribe's current law enforcement costs 
with the county. The BIA methodology for estimating law 
enforcement costs showed that the most minimal program should 
be funded at $666,000 for a population of 600 people.
    In 2016, the BIA law enforcement was funded at $348 
million. Recently, the BIA determined the total need for basic 
law enforcement and detention services in Indian Country is $1 
billion. This disparity is exacerbated by the Bureau's long-
term policy of generally providing law enforcement and 
detention funding only to P.L. 280 Tribes.
    We were encouraged to see that the omnibus appropriations 
bill included a $10 million set-aside to address the needs of 
Public Law 280 Tribes, and we look forward to learning how the 
assistance will be provided. We support funding law enforcement 
and detention at $548 million, taking into the account the 
needs of Public Law 280 Tribes.
    BIA hatchery operations and maintenance. The Tribe operates 
its fish hatchery on a shoestring budget using our own funds 
and a minimal amount of BIA hatchery maintenance funding. The 
hatchery is important to the continuance of the Tribe's 
subsistence salmon fishing resource. To operate the hatchery 
properly, we need to invest several hundred thousand dollars. 
But the Tribe cannot tap into the BIA hatchery operations 
funding because there is not enough funding in that pot to 
sustain the operations of the existing hatcheries of other 
Tribes. We support increasing the hatchery operation budget to 
$3.8 million and the hatchery maintenance budget to $6.6 
million.
    One of the very important duties of our Tribe is to provide 
education benefits for Tribal members. We are currently funded 
at the same level we were funded in 1995 when we became a self-
governance Tribe. And the BIA funding totals $200,000, and, 
currently, we support 125 students in higher education, 18 in 
vocational training. We provide over a million dollars a year 
in our own funds to help these students.
    Mr. Calvert. We need to wrap this one up, please.
    Ms. Pigsley. So we want to thank you for listening today.
    [The statement of Delores Pigsley follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Mr. Calvert. Great.
    Oh, by the way, all statements will be submitted for the 
record, and I will be looking through them all.
    Sorry to be on this timeline. I know that some people have 
to catch an airplane at 5 o'clock, I have been told, so we are 
trying to keep it on schedule.
    Ms. Pigsley. Thank you very much.
    Mr. Calvert. Next, Mel Tonasket, vice chairman of the 
Confederate Tribes of Colville Reservation.
                              ----------                              

                                             Tuesday, May 16, 2017.

            CONFEDERATED TRIBES OF THE COLVILLE RESERVATION


                                WITNESS

MEL TONASKET, VICE CHAIRMAN
    Mr. Tonasket. Thank you.
    My name is Mel Tonasket. I am currently the vice chairman 
of the Colville Confederated Tribes Business Council. And I 
would like to thank Chairman Calvert, Ranking Member McCollum, 
and our friend from the Northwest, Mr. Kilmer. I met you when 
you were first running for Congress over on the coast.
    There are three items that the Colville Tribe really wanted 
to present to your committee today, along with all of the other 
kinds of things, but I am going to focus on BIA forestry, BIA 
law enforcement, and Tribal EPA programs.
    I don't know if you heard in the media back here, but back 
in our country, in 2015, we had some major fires, forest fires, 
on the Colville Indian Reservation. And we lost about 255,000 
acres of forest in those fires, which was nearly 20 percent of 
our full 1.3-million-acre reservation. And in that loss, it was 
almost a billion board feet of timber that burned up, which 
leaves us--as a Tribe that primarily was supported by the 
forestry program, timber sales, and a couple mills, it has 
really been a devastating effect on the Tribe.
    So the Colville Tribe would like to request an increase of 
$5 million for BIA forestry for reforestation and an additional 
$5 million for hiring 67 additional foresters. What we would 
like to do is to get back into replanting the areas that we 
have lost.
    The BIA's entire replanting budget for Tribes nationwide is 
$3.2 million. This would cover planting of less than 11,000 
acres. At the current funding level, this would mean that 
hundreds of thousands of acres of forest burned in the Colville 
Reservation in 2015 may not be replanted for decades.
    In fiscal year 2016, the committee provide an additional $2 
million for fire restoration, which we greatly appreciated and 
used for replanting our forest. The $5 million increase we are 
requesting for 2018 will help us and other affected Tribes 
continue these efforts. This increase is needed to ensure the 
Colville Tribe and its members can continue to utilize our 
forest for future generations.
    BIA law enforcement. What we are asking is that the 
committee continue to fund the BIA law enforcement at least at 
its current levels. As the committee is aware, large-land-base 
Tribes often lack enough police officers to adequately patrol 
and respond to calls. The Colville Tribe is no different. On 
occasions, the Colville Tribe has only a single officer on duty 
for the entire 1.4-million-acre reservation, which caused us to 
have to cross-deputize with counties and cities so that we 
wouldn't have those blank areas where there is no law 
enforcement whatsoever.
    There is a constant need for reliable funding for Tribal 
law enforcement and detention operations. BIA law enforcement 
has received much-needed base funding increases during the past 
few years, but, despite these increases, these programs 
continue to be underfunded relative to need. And the committee 
should ensure that current levels are maintained.
    We are in an area--it is not in my written, but we are in 
an area between Canada and the south, which is what we see as a 
drug route through the Okanagan Valley. And we have seen 
evidence now of Mexican mafia coming in. And so we know that we 
are going to have more problems as the drug issues increase, 
like on all reservations.
    The third and last is Tribal EPA programs. Finally, the 
Colville Tribes request that the committee maintain current 
funding levels for several Tribal EPA program activities. These 
programs are described in more detail in my written statement 
but include the Tribal General Assistance Program and the 
Tribal components of the EPA's Clean Air Act and Clean Water 
Act programs.
    Since 2004, the Colville Tribes have been fighting to 
compel the Canadian mining company called Teck Cominco Metals 
to clean up decades' worth of slag that is deposited into the 
Columbia River for nearly a century. All of this--the Tribal 
EPA programs that I mentioned in my written statement have and 
continue to contribute to our efforts.
    What we are getting in that slag is mercury and lead, and 
so that doesn't just affect the Colville Tribe but affects all 
of the communities on both sides of the river, to a point that 
even the Governor has tried to put out--for the State of 
Washington--tried to put out a certain amount of fish that is 
safe to eat out of the Columbia River, and that is scary. So 
that is one of our really important fights that we are in for 
today, and we would hope to continue to be able to fund the 
cleanup and the fight.
    Thank you very much. That concludes my statement. Did I 
make it?
    Mr. Calvert. You did. You did fine.
    Mr. Tonasket. Okay.
    [The statement of Mel Tonasket follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Calvert. Next, Donald Michel, executive director of the 
Upper Columbia United Tribes.
                              ----------                              

                                             Tuesday, May 16, 2017.

                      UPPER COLUMBIA UNITED TRIBES


                                WITNESS

DONALD R. MICHEL, EXECUTIVE DIRECTOR
    Mr. Michel. Good afternoon, Chairman Calvert. I appreciate 
the opportunity to be here today to provide testimony on behalf 
of the Department of the Interior on the President's budget 
request for Indian Affairs for fiscal year 2018 to continue 
support for the $16 million of base budget funding of the 
Bureau of Indian Affairs, BIA, trust--natural resource 
management account, sub-activity--Tribal Management Development 
Program.
    My name is D.R. Michel. I am a member of the Colville 
Tribe, and I am currently the executive director of the Upper 
Columbia United Tribes. Our organization consists of the Coeur 
d'Alene Tribe, the Confederated Tribes of the Colville 
Reservation, the Kalispel Tribe of Indians, the Kootenai Tribe 
of Idaho, and the Spokane Tribe of Indians.
    Combined, the five UCUT member Tribal Governments represent 
over 15,000 enrolled Tribal members and retain management 
duties over 2 million acres of reservation lands, 14 million 
acres of aboriginal territories, and includes over 500 miles of 
waterways, 40 interior lakes, and 30 dams and reservoirs. The 
UCUT responsibilities encompass diverse land uses, ranging from 
wilderness to timber, grazing, mining, industrial zones, and 
growing urban areas.
    Out of that $16 million line item, UCUT receives 
approximately $589,000. We are a decentralized organization, so 
there are five of us that work at the central staff. Out of 
that $589,000, we subcontract out to our member Tribes, which, 
in turn, allows them to participate back in the organization, 
so that gives us access to all of their technical, legal, and 
policy folks. So we are able to do what a lot of bigger 
organizations with bigger budgets do for, you know, a very, 
very small portion, $589,000.
    Some of the major things that we are working on or are 
involved in is the Columbia River Treaty, which includes 
modernizing of the Columbia River Treaty between Canada and the 
U.S. to include ecosystem function, ecosystem services. Within 
that is fish passage at Chief Joe and Grand Coulee Dam.
    I think over, you know, the past 80 years or with the 
development of the Columbia River, we have tended to focus on 
the two aspects of the treaty, which is flood risk management 
and hydro-production, and based all of the economics or a lot 
of the things that we do around those two legs of the stool, so 
to speak.
    So we worked real hard through the sovereign review process 
to get ecosystem function or ecosystem services included in the 
modernization of the treaty, which would allow us to look at 
the economic opportunities of fish passage, of some of the 
other things that currently aren't necessarily looked at when 
you are planning operations at the Federal Columbia hydro 
system. So there are a lot of economic opportunities that we 
feel are available in modernizing the Columbia River Treaty.
    We are in the process of completing an economic study of 
the Columbia River Basin, including the portion in Canada, 
which puts a value on those things--irrigation, navigation, 
recreation. All of the uses within the Columbia River, we are 
working on valuing those.
    So, for the last 80 years, 100 years, ecosystem has been a 
cost to flood risk management and hydro while, in our opinion, 
flood risk management and hydro production has been a cost to 
ecosystem. And we are just trying to swing that balance back a 
little bit. So we are looking at all of those economic 
opportunities when we operate the Columbia River. It is a huge 
asset.
    Our mission statement--I will run through real quick--is to 
unite the Upper Columbia River Tribes for their protection, 
preservation, and enhancement of treaty, executive order 
rights, sovereignty, culture, fish, water, wildlife, habitat, 
and other interests and issues of common concern in our 
respective territories through a structured process of 
cooperation and coordination for the benefit of all people.
    And that is our philosophy, is, while the Tribes are out in 
front of these issues, the Tribes aren't the only ones that 
benefit. All the work that the Tribes do benefits everybody who 
lives along the reservoir, who lives in the region, recreates 
in those areas. And just a small budget allows the Upper 
Columbia United Tribes to come together on those common issues 
for the benefit, again, of all people.
    And we thank you again today for this opportunity to 
provide testimony. If there is anything else we can provide or 
answer, we would be more than happy to. Thank you.
    [The statement of Donald R. Michel follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Mr. Calvert. Thank you. I appreciate it.
    One thing I just kind of remembered as we were having this 
testimony today is, obviously, being from California, 
earthquakes are a big thing in California, but I was surprised 
a number of years ago to read that, actually, the largest 
earthquake calamity could occur, in the Pacific Northwest and 
that, historically, it happens every so many thousands of 
years. And it seems like----
    Mr. Kilmer. We are overdue.
    Mr. Calvert. You are overdue, yeah. So I was reading that, 
which was somewhat alarming, because if that occurs, that would 
be truly a----
    Ms. Pigsley. We won't be back next year.
    Mr. Calvert. Yeah.
    So that just--it reminded that I know of the subsidence 
issues that are going on in that part of the world, not just 
water rising but ground sinking. So those two things are not 
good if you own low-lying land, I know that.
    So, with that, Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. I was getting a map out 
to look.
    So for part of where you are on the Canadian border, are 
there First Nations right above you? Are your lands rather 
contiguous, and is the Canadian Government helping the First 
Nations with some of these requests as you are having these 
discussions, because these are artificial lines that 
governments drew.
    Mr. Michel. Correct.
    Ms. McCollum. Your Tribal Nations didn't draw them, the 
First Nations, or as we refer to ours, as the First Americans. 
So can you tell me how the synergy works along the border 
between you and Canada?
    Mr. Michel. So there are still family ties, family 
relations between First Nations in Canada, and Tribes in the 
U.S., Colville Tribe is actually part of the Okanagan Nation 
Alliance, the Kootenai Tribe of Idaho is one of the seven 
bands, the Tanana, which the other six are located in Canada, 
so we have those family ties.
    Again, you mentioned the borders. You know, we don't really 
recognize it, but have to kind of follow along with that.
    Ms. McCollum. Yeah.
    Mr. Michel. We do work with the First Nations on those 
issues, coordinating messaging, and we have met with folks 
within the BC Hydro, and other entities, so there are those 
ties and that working relationship between First Nations and 
the U.S. Tribes.
    Mr. Tonasket. Can I add that I am also chairman of the UCUT 
organization, at least until July and then I am retired.
    But, when we have had meetings, with all of the Columbia 
River Tribes, that are affected by what is going on on the 
Columbia, and the UCUT hosted it, we also invited the Canadian 
Tribal leadership to come down and participate with us there 
too. So they are sitting with us when we are talking about the 
Columbia River Treaty so that we won't be at heads on the 
issues, because we are--you know, we are all in it together, 
water, fish, everything.
    Ms. McCollum. Because the water flows north?
    Mr. Tonasket. South.
    Ms. McCollum. It flows south there? Because near the Great 
Lakes, up where we are in our water basin, it flows north.
    Mr. Tonasket. It flows south.
    Ms. McCollum. Yours flows south?
    Mr. Tonasket. Yes.
    Mr. Michel. Flows south. And it is unique that it comes 
into the U.S., goes back into Canada and then comes back into 
the U.S., some of the waters, the Okanagan, the Pend Oreille. 
So there is a lot of trans-boundary issues. Mel mentioned Teck 
Cominco and the pollution. That is a trans-boundary issue.
    Ms. McCollum. I am going to have to look at a U.S. map. So 
you must be below the Laurentian Divide. You have got this 
former geography teacher really, really confused.
    Mr. Tonasket. It is easier to paddle a canoe south on that 
river than it is to paddle it north----
    Ms. McCollum. Oh, I will figure that out quick.
    Mr. Tonasket [continuing]. Because it is going south.
    Ms. McCollum. Okay, thanks. Because we don't have the water 
flowing up there, it is concerning. Their water quality then 
falls down into yours.
    Mr. Tonasket. Yes.
    Ms. McCollum. Okay.
    Mr. Tonasket. Yes. That is why we are fighting the Teck 
Cominco.
    Mr. Michel. If I may, there is a lot of information on our 
web page, UCUT.org.
    Ms. McCollum. I will go there after the meeting.
    Mr. Michel. A lot of information about operations and 
currently what we are working on.
    Ms. McCollum. Thank you.
    Mr. Calvert. Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chair.
    Briefly, I just want to say thanks to all of you for 
coming. And, Mel, congratulations on your impending retirement. 
I know that you have been spectacular not only in your service 
to your own Tribe, but to NCAI. You have demonstrated decades 
of leadership, so thank you for that.
    Mr. Tonasket. Thank you very much.
    Mr. Calvert. All right. Thank you. Thank you to this panel. 
We appreciate your attendance.
    Next we have Reynold Leno, Phil Rigdon, Patty Brown-
Schwalenberg, Mark Hoover. So we are going to start off with 
Reynold L. Leno, Tribal council chairman for the Confederated 
Tribes of the Grand Ronde Community of Oregon. Did I get that 
right.
    Mr. Leno. Grand Ronde.
    Mr. Calvert. Grand Ronde.
    Mr. Leno. Grand Ronde.
    Mr. Calvert. You are recognized for 5 minutes.
                                             Tuesday, May 16, 2017.

                   CONFEDERATED TRIBES OF GRAND RONDE


                                WITNESS

REYNOLD L. LENO, CHAIRMAN
    Mr. Leno. Thank you, Chairman Calvert, Ranking Member 
McCollum, members of the subcommittee.
    My name is Reynold Leno. I am the Tribal council chairman 
of the Confederated Tribes of Grand Ronde. Thank you for 
providing the opportunity to raise an issue of great importance 
to Grand Ronde and other restored Tribes.
    I would like to thank Dee for her comments. She is a 
neighboring Tribe from Siletz.
    The lack of adequate law enforcement funding for our 
reservation and in particular the continued impacts of 
termination has had on Grand Ronde's ability to secure Federal 
funding for much needed law enforcement services. Grand Ronde's 
reservation is located in the outlying areas of Polk, Yamhill, 
Lincoln County, and Tillamook County in rural northwest Oregon. 
The Tribe has over 5,000 members.
    The Tribe was terminated by the Federal Government in 1954, 
but we all stayed there in Grand Ronde, but we were restored by 
the government in 1983. Grand Ronde, like other terminated 
Tribes, did not receive any of the Federal money for services 
and infrastructure that was otherwise available in Indian 
Country in the years before restoration.
    Since restoration, the Tribe has spent a lot of time and 
money rebuilding its Tribal community, including the 
development of housing, which is approximately over 200 houses 
just for our Tribal members, not counting outside community, 
government buildings and an education complex, a health and 
wellness center, fire and police station, management of over 
10,000 acres of timberland, and operation of a successful 
casino.
    The Tribe has made substantial contributions in the 
infrastructure of the surrounding community as well, including 
roads, water systems, fire protection, and more.
    Due to the high crime rate in the community and inadequate 
county resources since 1997, the Tribe has funded or provided 
criminal law enforcement on or near its reservation and 
surrounding community, initially entering into an agreement 
with Polk County and paying hundreds of thousands of dollars 
per year for coverage.
    In 2012, following a change in the State law, the Tribe 
started its own police department, and now has the primary 
responsibility for law enforcement in all four of them county 
areas.
    Crime on our reservation is a problem. Grand Ronde Tribal 
Police Department and the Polk County Sheriff's Office handled 
nearly 900 cases in 2015 and more than 1,000 in 2016 in the 
Grand Ronde area.
    The numbers so far suggest we are on track to handle an 
estimated 1,200 cases in 2017. Drug-related crime is a real 
concern for our community, as it has increased in sex crimes 
also. Many reductions in force which resulted in loss of gains 
made and reduced our ability to keep our youth safe and drugs 
off of our lands. While Grand Ronde has made great strides in 
rebuilding its reservation community, the Tribe continues to 
suffer the effects of 29 years of termination and it continues 
to have problems getting funding for law enforcement.
    The Tribe has never received operational funding from BIA, 
and requests for funding have been denied. The Tribe has 
utilized Cop grants and State grants to fund some law 
enforcement and emergency preparedness function, which I will 
also say when we were talking about the earthquake, we do serve 
as the emergency center for Polk and Yamhill County.
    Due to the high crime rates in the remote and rural areas, 
which also contains one of the largest tourist destinations in 
the State, it is imperative there be a police protection, and 
the Tribe needs for BIA funding to provide it.
    The Tribe has requested that BIA enter into a 638 contract 
under which the Tribe would procure law enforcement services, 
but these requests have been turned down because the BIA hasn't 
provided law enforcement services, so there are no services to 
contract for. Had Grand Ronde not been terminated in 1954, we 
believe the BIA would have provided law enforcement services on 
the reservation, thus allowing the Tribe today to qualify for a 
638 contract to fund its police department.
    There is a lack of law enforcement funding for Indian 
Country. As a formerly terminated Tribe, Grand Ronde and other 
Tribes who have been restored are at a disadvantage, as we are 
unable to secure law enforcement funding through the 638 
program. BIA funding should be made available to those Tribes 
who have been terminated and then restored and who provide 
criminal law enforcement in their respective communities.
    So on behalf of the Grand Ronde people and myself, I would 
like to thank you for the time.
    [The statement of Mr. Leno follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Mr. Calvert. Thank you very much.
    Next, Phil Rigdon, president of the Inter-Tribal Timber 
Council. Welcome.
                              ----------                              --
--------

                                             Tuesday, May 16, 2017.

                       INTERTRIBAL TIMBER COUNCIL


                                WITNESS

PHILIP RIGDON, PRESIDENT
    Mr. Rigdon. Thank you, Mr. Chairman and Ranking Member.
    My name is Phil Rigdon. I oversee the Department of Natural 
Resources for Yakima Nation and I am also the president of the 
Intertribal Timber Council. I want to thank you for this 
opportunity to testify today.
    Indian forests are sacred to our people. They provide the 
food, medicine, jobs, revenue, and the connection to our 
culture, our past, and our way of life today. One-third of 
Indian forest lands held in trust by the Federal Government are 
forest and woodlands. That translates to 18.6 million acres.
    Indian forests generate over $40 million in annual Tribal 
government revenue for about 19,000 jobs nationwide. Overall, 
Indian forestry produced $3 in economic activity for every $1 
invested by the Federal Government. With only a couple of 
Tribal sawmills left in production, most of our timber is 
processed by nonIndian mills across the West, meaning that 
surrounding communities share in the benefits of Indian 
forestry.
    Our commercial forest management is guided by an annual 
allowable cut that harvests a sustainable benchmark that can be 
maintained indefinitely. The current AAC has targeted about 750 
million board feet. That lumber could generate--or could build 
about 47,000 houses. But the BIA forest management has been 
chronically underfunded. BIA Forest received $1 for $3 that the 
U.S. Forest Service was appropriated. As a result, Tribes are 
challenged every year to meet the goals within our forest 
management plans.
    Tribes are currently harvesting half of the annual 
allowable cut since 1991. This decline in itself will cost $700 
million in foregone stumpage revenue and tens of thousands of 
jobs in the woods and mills.
    In fiscal year 2015 alone, the depressed level of harvest 
cost Tribes more than $60 million. Even small increases in BIA 
forestry funding can and has resulted in positive results. The 
ITC thanks this committee for its willingness to invest in 
Indian forestry, and every additional dollar will generate more 
in local economies. As such, the ITC provides the following 
recommendations for fiscal year 2018.
    We ask that you increase two accounts within the BIA 
Forestry. First would be a $5 million increase in the Tribal 
priority allocation for forestry. This will pay for an 
additional 67 foresters to increase Tribal trust timber 
harvests. Tribes can't cut timber without foresters on the 
ground laying down timber sales according to our forest 
management plans. The modest investment we request could 
increase Tribal harvest by up to 200 million board feet, 
generating $3 in stumpage for $1 invested and create over 
15,000 rural jobs.
    To cite my own reservation, the Yakima Nation, 33 of the 55 
BIA positions have not been filled. To date, it is basically 
unchanged despite the pleas by our Tribal government. Our 
harvest targets are not being met, our forest health is at 
risk, and economic opportunities are being lost.
    Second, we ask for a $5 million increase in BIA forestry 
projects. This will go towards reforestation as well as 
thinning projects.
    On a related issue, wildfire plagued Indian Country, as it 
does other large landowners. 2015 was the worst fire season in 
recorded history for Tribal forests, killing 1.5 billion board 
feet of timber worth more than $200 million in Tribal revenue.
    Before fires, Tribes are ready and willing to thin 
overstocked stands and reduce the threat of wildfire. When 
fires do hit, however, we struggle to compete against other 
Federal agencies for fire suppression resources. After fires, 
Tribes can move quickly to salvage portions of the damage and 
get moving on rehabilitation, because Tribes rely heavily on 
our forest for our jobs and food. We are better motivated to 
get this work done than other of the Federal agencies, but we 
need funding in place to accomplish these three actions before, 
during, and after wildfires.
    So we are asking for three items within the Department of 
Office of Wildland Management. $49.5 million in burned area 
rehabilitation for Indian forests burned in 2015. The vice 
chair from Colville talked about the need that Colville has to 
reforest. The Yakima Nation, where I come from, we have the 
need from the 2015 fires for reforestation on our lands.
    Increase the fields management funding to $206 million and 
allow reserve treaty right lands to be expended on Tribal 
lands. The fund request within the Office of Wildland Fire is a 
reassessment of the Federal wildfire suppression priorities. 
Specifically we are asking the committee direct UAI to raise 
the priority of fires on Indian Lands to that of threat--that 
of life and property on other lands.
    Time after time we have seen air tankers and fire crews 
diverted from Indian forests to protect private property in or 
near other Federal lands. We don't want to diminish the 
importance of suppression of these areas, but surely an 
uninsured summer cabin somewhere north of us is not worth more 
than a million acres of Indian land that sustains entire 
communities as well as being a trust asset to the United 
States.
    Finally, the Intertribal Timber Council requests broader 
authorization for Anchor Forest initiative with the Forest 
Service. We are making great progress and planning many of 
these type of projects now, and we need to implement them, 
which includes timber harvests. We would appreciate report 
language that accelerate their completion.
    We also ask the committee to encourage the Forest Service 
to increase the Tribal Forest Protection Act authority. 
Previous report languages provided by the committee have been 
helpful in initiating a number of TFPA projects and agreements, 
but much more can be done.
    [The statement of Mr. Rigdon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    Mr. Calvert. I thank the gentleman. Next is Patty Brown-
Schwalenberg, executive director of the--how do you pronounce 
that? Chugach?
    Ms. Brown-Schwalenberg. Chugach.
    Mr. Calvert. Chugach Regional Resources Commission. You are 
recognized for 5 minutes.
                              ----------                              

                                             Tuesday, May 16, 2017.

                 CHUGACH REGIONAL RESOURCES COMMISSION


                                WITNESS

PATTY BROWN-SCHWALENBERG, EXECUTIVE DIRECTOR
    Ms. Brown-Schwalenberg. Thank you, Mr. Chairman. And thank 
you, committee members, for allowing all the Tribes the 
opportunity to share our information with you today.
    [Speaking native language.]
    I am an enrolled member of the Lac du Flambeau Band of Lake 
Superior Chippewa Indians in northern Wisconsin and the 
executive director of the Chugach Regional Resources 
Commission, also known as CRRC. We are located in south central 
Alaska.
    And I wanted to start just by thanking my elders for 
sharing their knowledge with me over the years both at my own 
home reservation and in Alaska, and as well as my ancestors, 
who I know or watching over each and every one of us.
    So I am here to ask Congress to sustain the current level 
of funding for the $410,000 in the BIA budget for our 
organization. While we recognize the reality of our Federal 
deficit and the need to reduce Federal spending, we also 
encourage Congress to continue to fulfill its legal and 
contractual spending obligations to the Tribes.
    CRRC is a nonprofit coalition of Tribes established in 
1984. The Tribes are located in Prince William Sound and Lower 
Cook Inlet, and include Tatitlek, Chenega, Port Graham, 
Nanwalek, the Native Village of Eyak, the Qutekcak Native 
Tribe, and the Valdez Native Tribe.
    So our mission is to work with the Tribes to collectively 
address environmental and natural resources issues that affect 
the subsistence resources upon which they depend. We are also 
charged with developing culturally sensitive economic projects 
at the local level to support the sustainable development of 
the region's natural resources, such as shellfish and salmon.
    The action to create a separate entity to address natural 
resources rather than relying on the regional nonprofit 
organizations in Alaska is a testament to the level of concern 
and importance these Tribes hold for the environment and the 
need to preserve these resources for future generations.
    So through our programs, we provide employment for up to 20 
native people in our region, and this is an area that faces 
high levels of unemployment. So support from this committee has 
allowed us to realize real economic opportunities, savings, and 
community investments that have had a great impact on our 
region. So our employees are able to earn a living and reinvest 
that money back into the community.
    So--and we have also been very successful at leveraging 
this funding into almost $2 million annually to support 
community-based programs. So we have been able to match this 
funding with other sources, such as University of Alaska, the 
State of Alaska, the Bureau of Indian Affairs, Fish and 
Wildlife Service, Department of Education, and many 
philanthropic foundations.
    So this diverse funding pool has assisted us in funding the 
development of the Alutiiq Pride Shellfish Hatchery. It is the 
only shellfish hatchery in the State of Alaska run by our 
organization, and it is located in Seward. It houses shellfish 
seed, brood stock, and algae production facilities, and has 
undertaken hatchery nursery operation as well as grow-out 
operation research to adapt mariculture techniques for the 
Alaskan shellfish industry.
    The hatchery is also conducting scientific research on blue 
and red king crab as part of a larger federally-sponsored 
program, and we have already been successful at culturing 
geoduck oyster, littleneck clam, and razor clam species, and we 
are currently working on sea cucumbers, which as a potential to 
dramatically increase commercial opportunities for the region 
in the future.
    And as you have heard from the Squaxin Island Tribe and Mr. 
Peters mentioned that their populations of shellfish are 
declining, and we have been experiencing that same phenomenon 
for the past 20 years, and so we also have an ocean 
acidification lab in the hatchery, and we are testing the water 
throughout the region to determine if that is one of the causes 
of the shellfish decline.
    So we are doing some important work at the hatchery and it 
is also providing some food security opportunities for the 
villages, as we are planting some of those clams back into the 
beaches near the communities.
    And as I said, it is the only shellfish hatchery in the 
State, and it is also the only organization in Alaska that can 
carry out this research and production. So we have many 
important partners, but it also allows opportunities that we 
continue to enjoy if our funding remains stable.
    So, we have also developed natural resource curriculums 
with the University of Alaska Fairbanks and NOAA, and that is 
to encourage students to pursue degrees in the natural 
sciences. And it is kind of a step down from the, I don't know 
if you are familiar with the Alaska Native and Engineering and 
Science Program, and so that is a college based, at the 
university, this is more of a voc tech type thing.
    And then, finally, the Migratory Bird Co-Management 
Council. The Alaska Migratory Bird Co-Management Council is a 
partnership between the Fish and Wildlife Service, the State of 
Alaska, and the Alaska Natives to set regulations for the 
spring-summer harvest of migratory birds.
    And so we were able to after 30 years to offer the harvest 
of Emperor geese this year, which is exciting. And that also--
it is done through a funding agreement. And we would like to 
ask Congress to encourage the service to more seriously 
consider 638 contracts with the Tribes for services that the 
Tribes can provide on their behalf.
    So in conclusion, we urge you to sustain the current level 
of funding of $410,000 in our budget, and we will, again, use 
these dollars to leverage more to do more for the Alaska 
people. So thank you.
    [The statement of Ms. Brown-Schwalenberg follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Mr. Calvert. Thank you very much for your testimony.
    Ms. Brown-Schwalenberg. [speaking native language.]
    Mr. Calvert. Next, Mark Hoover from Cordova, Alaska.
                              ----------                              

                                              Tuesday, May 16, 2017

                 NATIVE VILLAGE OF EYAK TRIBAL COUNCIL


                                WITNESS

MARK HOOVER, MEMBER
    Mr. Hoover. [Speaking native language.]
    Mark Hoover. We are located on the eastern shores of Prince 
William Sound, most notoriously known as the biggest DUI event 
in the world probably, Exxon Valdez oil spill.
    Our big concern is the sequestration, the possibility of 
that with a proposed budget of $54 million in defense spending, 
and probably that means cutting out a lot--$54 million, and we 
are part of what that would be, so we are asking for an 
exemption like the Veterans Administration, if that would be 
possible.
    Healthcare, we are trying to decide how to go about 
building a new hospital or a clinic, but we live in a town that 
has a hospital already, but they are losing 500 to 1 million 
dollars a year, and that has been going on like that, the city 
has to subsidize it.
    So we don't know how long they are going to last, so we 
don't know what to go for next, you know. I mean, a hospital 
would make sense, but we are in a lease situation right now 
with an old building, it is getting too small. And we are also 
taking care of the nonnative people in Cordova through a 
community health center grant.
    And then the Tribal courts, funding is really important to 
us. We are just kind of getting started with that. We are doing 
referrals from the State court for minors consuming right now, 
and we are hoping to expand that to other, you know, 
jurisdictions of law.
    And so we also would like to speak in favor of the village-
built clinics and the joint venture program also for--
especially if that could be opened up for 2018 for new Tribes 
to be involved in that.
    So I had one thing here I wanted to conclude with. We face 
some of the same problems dealing with mental health and 
learning to deal with post-traumatic stress disorder that the 
government faces right now. Soldiers returning from war are 
experiencing the same symptoms that our indigenous peoples are 
dealing with, alcohol and drug abuse, loss of identity, high 
numbers of suicide.
    And Native People have been dealing with trauma for 
generations, such as disease wiping out entire villages, loss 
of language, loss of land, and the nightmare of boarding 
school; still trying to deal with those events. And we are 
hoping that once there is a tool that can be used to deal with 
it, I don't know if the government has that for their soldiers 
yet or not, but we would really be interested in knowing 
anything that we could do to help stop that.
    We have done our best to deal with the physical health 
issues with funding that has not really kept up with rising 
costs over the years, and little to no funding to deal with 
trauma-based disorders.
    And so those are our main key problems, and we thank you 
very much.
    [The statement of Mr. Hoover follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    Mr. Calvert. Do you know my good friends John and Barbara 
Harville up there?
    Mr. Hoover. Oh, yeah.
    Mr. Calvert. I was raised with him, so he is a good guy. So 
say hi to him the next time----
    Mr. Hoover. I will. I will.
    Mr. Calvert [continuing]. You see him. So you have a direct 
line to me through John. No. John is a little older than me.
    Mr. Hoover. Yeah.
    Mr. Calvert. He is a great person.
    I was curious, why were you terminated in the first place 
as far as----
    Mr. Leno. Well, I guess everybody probably shares their own 
story--I guess everybody could share their own story. The 
belief of our people was that we were terminated because they 
wanted our timber.
    Mr. Calvert. I see.
    Mr. Leno. We sat right at the coast range on this side of 
the mountain and we had prime timber, prime old growth timber, 
some of the best stands in the state of Oregon, and they wanted 
it and they took it.
    Mr. Calvert. Okay. Well, I am sorry that occurred, but 
thank you for your service in the United States Marine Corps. I 
appreciate that.
    Mr. Leno. Thank you.
    Mr. Calvert. God bless you.
    On timber, which is obviously an interest to many of the 
Tribes in the Pacific Northwest and in Alaska, but, I think I 
know the answer to this question, but I am going to ask it 
anyway. How is the interaction between the BIA forest 
management and the United States Forest Service and the State 
and the, say, other agencies? Do they work well together?
    Mr. Rigdon. I don't know if the BIA necessarily. I think 
the Tribes spend a lot more time trying to coordinate between 
the States, the Feds and, you know, the BIA and the Forest 
Service. There is some interaction at times with the Forest 
Service and the BIA, but usually they are way off on what their 
missions are also.
    Mr. Calvert. Well, I know we need to work better on that.
    One thing I know that we should all work together on, as 
this committee is, Mr. Simpson is not here right now, but to 
support his bill to have a better way to fund the forest 
calamities, the forest fires that we are having throughout the 
United States, and that way we can use our, you know, disaster 
accounts rather than having to take money out of the forest 
accounts and other accounts to fight fire.
    It makes it more difficult to manage fire, because we end 
up taking out money from all these various accounts, and I 
suspect that happens in the BIA accounts also. So it is 
something we should look at.
    With that, Ms. McCollum, do you have any questions?
    Ms. McCollum. You must have been reading my mind, because I 
was thinking the same thing.
    Mr. Calvert. Yeah.
    Ms. McCollum. Would Mr. Simpson's bill help, or do we need 
to look at better integration between what the BIA Division of 
Forestry is doing and what the U.S. Forest Service is doing.
    We would have to do it with the support and with consulting 
the Tribes, but would there be a way to make this more 
commonsense? Rather than standing up two separate organizations 
and all the bureaucracy that goes with that, to have one 
organization be in charge, but to make sure you got your fair 
share and to have good oversight on it.
    I don't know the answer to that, but it seems duplicative. 
You are not getting good service because they are not filling 
the positions, not because people are giving you bad service, 
you are just not getting any service. Is that correct?
    Mr. Rigdon. I think it is a real important concept, because 
I will use our Yakima Nation as an example. Back in the 1990s, 
we had a western spruce bloodworm, and we had resources to do 
this. We harvested 225 million board feet of timber a year, 
over 25,000 acres a year--you know, salvaging these areas.
    As we move into today, you know, we were challenged with 
the resources that we had to get 106 million board feet 
following the 2015 fires. And that shouldn't have been as big a 
problem, but the resources that we have, we have a third of the 
resources, and so our ability for that. As far as, I think--we 
are very proud of what we accomplish on our ground, and we look 
across the boundaries and we see a lot of red tape that holds 
up activities.
    And so if we had the same resources as the Forest Service, 
I think we could be able to treat a lot more acres in a lot 
more consistent manner that is actually, I consider, more 
conducive to what the natural world looked like when my 
ancestors were here before the nonIndians came, and so----
    Mr. Calvert. Sure. Now, one last comment on the budget. 
Both Ms. McCollum and I serve on the Defense Appropriations 
Committee, so we spend a lot of time together between this 
committee and that committee, and we have our challenges in the 
Department of Defense, but you shouldn't have to suffer through 
that. And so we are hopefully going to come up with a budget 
agreement, I hope, that we can agree on, so that shouldn't 
devastate the Department of Interior.
    So that is what we are working toward, anyway. So we will 
see how that all works out.
    Any other questions?
    Ms. McCollum. No. Thank you.
    Mr. Calvert. Okay. Thank you very much. Appreciate it.
    Next panel is Audrey Hudson, Victoria Demmert, Victor 
Joseph, and Christopher Bolton. We are all here.
    First I would like to recognize Audrey Hudson, mayor of 
the--see if I can pronounce this correct--the Metlakatla Indian 
Community. How's that?
    Ms. Hudson. How about we sit here until you get it right? 
It is Metlakatla Tribe.
    Mr. Calvert. Okay. I will take your word for it.
    You are recognized for 5 minutes.
                                             Tuesday, May 16, 2017.

                      METLAKATLA INDIAN COMMUNITY


                                WITNESS

AUDREY HUDSON, MAYOR AND TRIBAL CHAIR
    Ms. Hudson. Thank you. Good afternoon, Chairman Calvert and 
Ranking Member Betty McCollum. It is an honor to be here today.
    My Tsimshian name is Galksiyaa da mangyepsa tgwa, my 
English name is Audrey Hudson, and I am the mayor of Metlakatla 
Indian Community.
    I am here today on behalf of the Metlakatla people of 
southeast Alaska, the federally-recognized tribe that I was 
elected to represent, and I do so as one sovereign nation to 
another.
    We are an island Nation of people. We have the only 
reservation in the State of Alaska, which we fought to retain 
all through the statehood and later as the Alaska Native Claims 
Settlement Act era.
    When you live on an island, you recognize the nature of the 
resources around you, and like our ancestors, you learn to keep 
and fight for those resources.
    As you will note in our written testimony, we have specific 
resources we are highlighting this year, which by no means 
indicates that we have full funding in other areas. I encourage 
you to hop on a plane and visit the island community of the 
Metlakatla so that you have a better understanding of our 
people, our culture, and history, and our need. We need water 
to drink to survive, and energy to heat our homes, maintain our 
government, and engage in economic development.
    As discussed at greater length in the written testimony, we 
have two dams on Annette Island, and the BIA has determined 
this spring in its Safety of Dams Evaluation, that the Chester 
Lake Dam qualified to have its hazard classification upgraded 
from low to high hazard. This is significant. And while this 
determination now requires additional comprehensive evaluation 
of the dam, its status and steps to take to prevent any kind of 
an emergency or hazard to the community health and wellness, 
there is no immediate funding. We determined through this 
process that $1 million in infrastructure funding is necessary 
to make safety improvements at Chester Lake Dam as well as 
carry out necessary planning and studies for expansion of the 
dam's storage and hydropower production capacity.
    We make this request to the subcommittee that it 
appropriate this additional $1 million in funding. The total 
cost of this project will be approximately $12 million, but the 
initial funding will allow for the immediate safety measures to 
be implemented to protect the drinking water supply while 
planning for the Phase II improvements that will increase not 
only the water storage capacity, but also expanded hydro power 
production for Chester Lake Dam.
    In order to maintain order and provide public safety and 
community justice systems, we maintain law enforcement and 
Tribal court systems. I strongly urge the subcommittee to move 
forward with funding in line with the appropriation levels in 
the fiscal year 2017 act supporting Tribal court systems in 
states impacted by Public Law 83-280. Alaska is such a State, 
and the need for Tribal court funding support in Alaska was 
underscored in the 2013 bipartisan Indian Law and Order 
Commission Report.
    As the subcommittee is aware, effective governance through 
the Federal Tribal trust relationship requires full contract 
support cost funding. I want to personally thank this 
subcommittee for its continued leadership in the contract 
support cost funding.
    Our objective, though, continues to be the indefinite 
appropriation of CSC funding as mandatory and permanent full 
payment of CSC is not discretionary, it is a legal obligation 
under the ISDEAA affirmed under the U.S. Supreme Court. Funding 
of CSC on a discretionary basis has in the very recent past 
placed the House and Senate appropriations committees, in their 
own words, in the untenable position of appropriating 
discretionary funds for the payments of any illegally obligated 
contract support costs.
    We remain committed to working with the appropriate 
congressional committees to determine how best to achieve this 
objective.
    On the health side, our testimony focuses on two key 
initiatives, village-built clinics funding and his funding 
protection from sequestration. We thank Congress so much for 
the $11 million for the Tribal health clinic leases in the 
fiscal year 2017 Consolidated Appropriations Act and in 
particular for Senator Murkowski's determination in advocating 
for these very small clinics, which are the health lifeline in 
rural Alaska villages.
    I ask that you put yourself and your family in the position 
of living in a tiny, incredibly remote village with limited 
roads and challenging weather, and needing the healthcare that 
can be provided by trained community members and the health 
professionals who rotate in and out of those communities and 
utilize the small clinics as headquarters.
    The $11 million increase in fiscal year 2017 was a major 
step forward, but still does not cover the full amount of need. 
In addition, without a separate line item for the village-built 
clinics, much of the funding could be distributed to other 
types of facility leases, leaving the village-built clinics 
coming up short.
    Finally, we have requested in our previous years testimony 
that the his budget be protected from sequestration. We again 
ask your support in amending the Balanced Budget and Emergency 
Deficit Control Act to exempt the his from sequestration of 
funds just as Congress has done for the Veterans Health 
Administration.
    Thank you on behalf of the Metlakatla people for the 
opportunity to provide this testimony in person. And I am 
looking forward to seeing all of you this summer when you take 
me up on my invitation and come to Annette Island in southeast 
Alaska.
    I was here last year before you requesting some funds for 
our natural resource department, and the hatchery was funded, 
so thank you very much. That has provided the community with 
another source of income to become financially independent, and 
it will definitely help with our economic development plan. So 
thank you for last year's funding.
    [The statement of Ms. Hudson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Mr. Calvert. Thanks for the help.
    Next is Victoria Demmert, President of the Yakutat----
    Ms. Demmert. Tlingit.
    Mr. Calvert [continuing]. Tlingit Tribe. Welcome.
                              ----------                              

                                             Tuesday, May 16, 2017.

                         YAKUTAT TLINGIT TRIBE


                                WITNESS

VICTORIA L. DEMMERT, TRIBAL COUNCIL PRESIDENT
    Ms. Demmert. Good afternoon, Chairman Calvert and Ranking 
Member McCollum.
    My name is Kuddukeit. My English name is Victoria Demmert. 
I have the privilege and honor of having been elected president 
of the Yakutat Tlingit Tribe for the past 12 years. We want to 
thank you for scheduling these hearings to allow us a voice.
    Our tribe is located in the community of Yakutat on the 
eastern shores of the Gulf of Alaska between Juneau and 
Anchorage and in the northern part of the Tongass Rain Forest. 
We also have the beautiful mountain range that separates us 
from Canada.
    We are only accessible by air and boat, and our tribe is 
the only provider of healthcare in the community and 
surrounding area. We are very pleased to have been selected 
into the joint venture project with his. We intend to build an 
11,000-square-foot health facility and provide equipment, while 
his will provide the staffing.
    When completed, we will complete our primary and dental 
care services and make space available for our visiting 
providers and our administrative staff. Our concern is whether 
the funding will be provided in a timely manner for the 
staffing packages, because a tribe like us in our very remote 
location, we must commit far in advance for construction costs 
and also have sufficient time to get the staffing, which will 
require advertisement and relocation, et cetera. We think this 
should be in fiscal year 2019, so we are letting you know at 
this time that that is when it will be.
    Regarding his maintenance and improvement, they have a 
backlog of maintenance and repair, which is currently $473 
million. There hasn't been much progress made on this critical 
need. We will qualify for this when our facility is completed, 
so we do have a concern.
    We know that you are hearing from many Tribes and Tribal 
organizations that are appreciative of your leadership in the 
his for fully funding the his BIA contract support costs, and 
we join in that appreciation and also concur with the view that 
contract support costs should be made permanent and mandatory.
    We also are asking for your support for Congress to 
enacting a permanent reauthorization of the special diabetes 
program for Indians and an increased annual funding level.
    EPA Indian Environmental General Assistance Program is of 
great interest to us, also known as IEGAP. This was recommended 
for elimination in the administration's quote/unquote ``skinny 
budget,'' and it includes a focus on solid waste management, 
water and air quality monitoring, recycling programs, renewable 
energy, among others, and it also helps us to recruit and 
retain professionals to carry out our regulatory programs. It 
has also helped us with remediation of the World War II 
cleanup, which there was quite a bit in our area.
    For a small little community of 600, and it was about 250 
at the time, we had about 10,000 soldiers located all over. So 
we are busy with cleanup working with DOD regarding that.
    We also monitor our water quality, because we have so many 
salmon streams in the area. We are very rich in resources, and 
we really want to stay that way.
    We also partner with the city and bureau of Yakutat, the 
forest service, our village ANCSA corporation to increase the 
dollars that we receive. We have great partnerships with them, 
and we help each other out, because in a small community, that 
is what you do.
    We have a real concern about the universal service proposal 
to slash subsidies for the internet service. Apparently the FCC 
is proposing to prorate by 7.5 percent the subsidies for 
internet. We currently have a subsidy from Universal Services 
Administrative Company, USAC, the FCC designated administrator 
of Universal Service that pays the internet service, which if 
it was paid in full price would be $20,000 a month. Our portion 
after subsidy is $500 a month. There is no way we can afford 
$20,000 a month. So this would definitely sink us. That is 
$240,000 a year.
    Connectivity is a lifeline for the provision of health 
services in Alaska, and while this is an FCC and USAC matter, 
we do need to bring this to your attention because of the 
subcommittee's critical importance to the provision of health 
care in Indian Country.
    And we also ask that the IHS and BIA budget and any of the 
Federal agencies that tend to give money and help us out with 
our healthcare and our other programs, we really would like to 
see that we are not subject to across-the-board cuts or 
sequestration.
    The people of Yakutat thank you, and may our creator truly 
bless you for hearing our voice and for the work that you do on 
our behalf.
    [Speaking native language.]
    [The statement of Ms. Demmert follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Calvert. Thank you. Thank you for your testimony.
    Next, Victor Joseph, chief and chairman of the Tanana 
Chiefs Conference.
    Thank you.
                              ----------                              

                                             Tuesday, May 16, 2017.

                        TANANA CHIEFS CONFERENCE


                                WITNESS

VICTOR JOSEPH, PRESIDENT AND CHIEF CHAIRMAN
    Mr. Joseph. Thank you, Chairman Calvert, Ranking Member Ms. 
McCollum.
    I also want to just thank Mr. Benjamin for all the efforts 
and the tax credits information you sent us. Much appreciate 
it.
    You know my name is Victor Joseph, and I serve as the chief 
chairman of the Tanana Chiefs Conference. Thank you for 
inviting me to testify today. We are grateful for this 
committee's bipartisanship and the positive results the 
committee has made in our communities.
    TCC is a nonprofit Tribal consortium of 42 communities, 37 
of which are federally-recognized Tribes. We serve 
approximately 16,000 people throughout the interior, and we are 
strung along about 1,400 miles of the Yukon River and its 
tributaries. Not only do we serve 16,000 of our Tribal people, 
but we also serve about 700 nontribal vets, and that is through 
our agreement with the VA.
    And in one of our communities, we have recently taken over 
a local healthcare center that provided primary care to 
nontribal members, which was fairly significant for us, as we 
reach out and expand our healthcare system.
    We have major concerns with the America First budget that 
reduces Federal spending for nondefense programs. Such a budget 
undermines this committee's diligent work to increase funding 
in such critical areas as Tribal health, public safety, 
contract support costs, education, and construction.
    With regards to this appropriation, Alaska has the 
unfortunate distinction of having amongst the highest 
healthcare costs in the country. In many cases, Alaska Tribal 
health programs must refer care to outside Alaska. The current 
level of funding does not meet the needs, and often forces 
health care programs to delay referral until the disease has 
progressed beyond the optimal early intervention stages to the 
costlier, less effective later stages of the illness.
    Chronic underfunding is resulting in higher morbidity and 
mortality with higher cost of care. We rely heavily on PRC 
funds, and request a substantial increase over last year's 
funding.
    We also appreciate the appropriation of $5 million for 
small ambulatory programs, also known as SAP, in 2017. We ask 
the subcommittee to increase this figure in 2018 so additional 
Tribes can construct small ambulatory clinics in their 
communities.
    I would like you to know that I still have clinics in our 
area that are not hooked up to water or sewer, and so that 
makes it really hard to provide quality healthcare in these 
type of facilities.
    We urge the subcommittee to include an additional $10 
million in fiscal year 2018 within BIA's public safety and 
justice count for Tribal courts, or TPA funding, and include 
report language that increases should be used by BIA and Public 
Law 280 states like Alaska.
    As a Public Law 280 State, the State of Alaska has 
jurisdiction over crimes in Native American communities. The 
BIA, with limited law enforcement funds, prioritizes public 
safety funds in nonPL280 States in the incorrect assumption 
that Public Law 280 states are investing resources and 
personnel required to ensure public safety and law enforcement 
in our communities.
    Finally, I want to share a success story that was borne out 
of Tribal sacrifice. It concerns the Chinook salmon, or also 
known as the king salmon, management along the Yukon River 
during the 1990s. The average king run was about 300,000 fish. 
Runs began to decline in early 2000, and in 2013, the run 
plummeted to a record low of 60,000.
    The Native Alaska villages along the Yukon knew that it 
would fall to them to make sacrifices, which they did. In 2014 
and 2015, these villages, our Tribes imposed a self-moratorium 
on king salmon. The villages also formed the Yukon River 
Intertribal Fish Commission, which TCC supports financially. 
The self-imposed moratorium left Tribal members with little to 
no traditional king salmon harvest.
    Due to this sacrifice in over the first time in over a 
decade, the United States had met its escapement goal to Canada 
in 2014, 2015, and 2016. That was a major sacrifice by our 
people.
    I just wanted to add a little to your--you were talking 
about wildfires. And there are solutions, and part of that 
solution is working with Tribal entities that could help train 
firefighters to be ready to take on fires. A few years ago 
Alaska had a major fire that was early in the season, and it 
called out over ten crews from outside of Alaska, called out.
    And so they had to call in crews from outside, and that is 
normal, it comes and goes, but the reason why they called it 
out was simply because our firefighters did not have their 
permit for tree falling. And if you think about that, to knock 
down a tree. Our people have been doing that for years, that is 
how we warm our houses, but we couldn't go out on a fire to cut 
down a tree, and they had to go to the extreme cost of sending 
crews to Alaska and not using Alaska crews.
    So I just want to share, there are solutions. I am going to 
reach out to Mr. Simpson and also Ms. McCollum if you would as 
we look at what we can do to improve our firefighting response.
    Thank you, sir, and thank you for the opportunity here.
    [Speaking native language.]
    [The statement of Mr. Joseph follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
    
    Mr. Calvert. Thank you. I appreciate your testimony.
    Next, Christopher Bolton, the chief operating officer of 
the Norton Sound Health Corporation.
                              ----------                              

                                             Tuesday, May 16, 2017.

                    NORTON SOUND HEALTH CORPORATION


                                WITNESS

CHRISTOPHER BOLTON, CHIEF OPERATING OFFICER
    Mr. Bolton. Thank you, members of the committee, for 
allowing us to testify in the 2018 appropriations.
    My name is Chris Bolton. I am the chief operating officer 
of Norton Sound. I have been there about 5 years, I have been 
working in Alaska about 11 years.
    Norton Sound is the only regional hospital serving 
northwest Alaska, about 44,000 square miles. We are not 
connected to any large cities by any road. We are over 500 air 
miles from Anchorage. And we operate a regional hospital, a 
long-term care facility, and 15 village clinics in remote 
villages.
    I want to talk to you about three needs today. We have more 
than that in our written testimony, but the three biggest 
challenges we face are facility needs for substance abuse and 
behavioral health, the village--the new village clinic funding, 
and then also water and sewer projects.
    So one of the most important issues facing us right now is 
financing for construction and staffing of a new wellness 
center. We have a really nice new hospital that was constructed 
about 5 years ago with our funding, but behavioral health is 
notoriously underfunded in terms of reimbursement, and we need 
to deal with the addiction in our region.
    We have a crisis, which affects not only our people's 
overall health, but is also connected to higher suicide rates, 
school and vocational dropouts, incarceration, Child Protective 
Services cases, and referrals to women's shelters. People are 
literally dying from addiction, and we do not treat them well 
enough.
    In response to community surveys, which is part of our 
personal funding requirements, Norton Sound is developing a new 
wellness and training center. Services will include 
detoxification, intensive outpatient services, day treatment, 
and sober housing. It will allow us to provide a higher level 
of care for the patients who receive the deep clinical 
counseling required to combat a lifetime of substance abuse, 
mainly brought on by enter generational trauma.
    The building will also house our health aid training 
program. It is one of only four health aid training programs in 
the State of Alaska. I am not sure if you are familiar with 
health aids, but it is a physician extender model, low cost 
physician extender model that has been very successful, but it 
is also been underfunded.
    We have already funded the design work for the wellness 
center and the initial phases of the project through grant 
funding and donations and $1.9 million of our own funding. We 
have pledged another $2.5 million towards construction. The 
total cost is $11.8 million. We were hopeful that the new 
center would be jointly funded by Norton Sound and his, but 
that is not the case. His has denied our participation in the 
competitive joint venture program because the project includes 
a behavioral health component.
    Behavioral health facilities, like any healthcare facility 
in Indian Country, are in desperate need of additional funding 
for staffing and operating their programs, and IHS's position 
is not supported under the applicable authority in the Indian 
Health Care Improvement Act. We thus ask this committee--or 
subcommittee continued support for the his joint venture 
program, but that program should be expanded to allow 
behavioral health programs to participate.
    We have also recently started construction on two new 
health clinics in Gambell and Savoonga on St. Lawrence Island, 
isolated communities of Gambell and Savoonga located close to 
the Russian border. You literally can see Russia from Gambell.
    We had intended to apply for the fiscal year 2017 small 
ambulatory clinic funding, but have been informed by his that 
our projects will not be eligible because construction is 
already in progress. So we basically took our own funding. We 
were told all along that we would be eligible. Now we are being 
told that we are not eligible. So we ask you to direct his to 
accept small ambulatory clinic funding applications for new 
health clinician even if the construction is already in 
progress.
    And then the final item I want to talk to you about is 
water and sewer projects, a major concern for Norton Sound. We 
don't have the funding for adequate water and sewer, especially 
in the remote villages. To put it in perspective, five villages 
within our region are still completely unconnected to any 
water, running water or sewer. In three of the villages, 30 to 
50 percent of the homes are also unconnected to running water 
and sewer, and we have ongoing sewer and water upgrade 
maintenance backlogs in seven of our communities.
    There are multiple Federal programs that help fund these 
projects, but they cannot all be used for the same thing, and 
it can be challenging to coordinate the funding in order to 
plan for and many complete these projects. Establishing a 
program within his that would allow Tribes to enter into 
contracts with the private sector, use Federal sewer and water 
funding from multiple agencies to support the complete 
construction of running water and sewer in a community would 
lead to a clear path toward water and sewer development.
    We ask for the subcommittee to help make it possible to 
streamline and align Federal agency authorities for running 
water and sewer through the his and for expanding the current 
funding within the his budget that is allocated towards water 
and sewer.
    I started off by telling you that I have been in Alaska for 
10 years, at Norton Sound for 5. I am there because I have 
never been at a place that I could see the pieces coming 
together for a health system to really deliver preventative 
care, and we are doing it. We have got a great new facility, we 
have got a great her, we have the patients at our medical home, 
but the behavioral health piece missing is a huge problem for 
it. The village clinics, where 70 percent of our care occurs in 
rundown, underfunded facilities without water, those are huge, 
huge problems. Thank you.
    [The statement of Mr. Bolton follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
    
    Mr. Calvert. Thank you.
    Thank you all for your testimony.
    Ms. Hudson, I was just curious, on the Chester Lake Dam, 
who built the dam in the first place?
    Ms. Hudson. The Corps of Engineers back in the early 1970s.
    Mr. Calvert. So have you gone back to the Corps and asked 
them to take another look at that, to the district out there?
    Ms. Hudson. We sure have.
    Mr. Calvert. And they haven't been too responsive to you?
    Ms. Hudson. They told us it belongs to us now and it is our 
responsibility.
    Mr. Calvert. Ah. Was there a contract signed that turned 
over the responsibility at that time?
    Ms. Hudson. Yes.
    Mr. Calvert. I see. Well, Don Young is a great friend of 
ours around here. I am going to talk to him on the authorizing 
side, but I am also on the Energy and Water Committee. I will 
take a look at that and see--if the Corps didn't build the dam 
to its safety provisions, I wonder if they can sign away their 
obligations to that. We will take a look at that.
    Ms. Hudson. Sir, I was kind of hoping Mr. Young would come 
busting through the door and save the day.
    Mr. Calvert. I think he was trying to get here. That is 
what he does. I think he was in Alaska this last week, so he 
was trying to get back in time.
    Ms. McCollum. There are storms.
    Mr. Calvert. Is that right? So that is probably it, because 
that is why we have--I suspect that he wanted to be here, but--
he usually is.
    And I know internet service is a challenge all around these 
remote areas all around the whole country, so that is not 
really in our jurisdiction. But since we represent a lot of 
these rural areas, I will mention that to Lisa Murkowski too, 
because she has the whole State, and do so the same thing with 
Don. So we will make sure that that is recognized.
    And, Mr. Joseph, as far as commonsense is concerned, 
sometimes in the Federal Government we don't have much, yet 
bringing in an outside group because they know how to cut down 
trees doesn't seem to make a lot of sense. So we will certainly 
take a look at that. There must be some kind of a waiver 
program that the BIA or the Forest Service can have that would 
waive that requirement.
    Mr. Joseph. Currently, we have a request in to BLM to take 
over that role of training our local Tribes within the State of 
Alaska. The problem is is some delays that it takes through the 
approval process. If we can work on that approval process that 
it gives us the authority, we could have been providing that 
training this year.
    Mr. Calvert. Right.
    Mr. Joseph. As it is now, we have to wait until the next 
fiscal year, and you only get approval for 2 years at a time, 
and so we are hoping we can work through that.
    Mr. Calvert. Okay. And, Mr. Bolton, I hear you on this 
issue with behavioral programs should absolutely be a part of 
this. I think, you know, we will look into that and find out 
why they are thinking the way they do. Obviously, addiction in 
Indian Country is, unfortunately, more prevalent than most 
parts of the country, so we have to deal with it.
    So with that, Ms. McCollum.
    Ms. McCollum. Thank you.
    So, Mr. Bolton, I know different States use different 
licensing terms, and I just want to understand what your needs 
are, because there is a big difference. And I was looking this 
up, a physician extender is usually somebody who has a 4-year 
degree who goes on to get something else, a PA, or we call them 
physician's assistants in Minnesota. You kind of said you 
needed health aides or physician extenders. So do you need 
both, because the health aide is only a 120-hour program, or 
what do you need most?
    Mr. Bolton. We do need both, but the health aides are the 
backbone of our care in the remote villages.
    Ms. McCollum. And is that a problem with offering training 
or is it just a labor shortage, people aren't interested?
    Mr. Bolton. No. A number of the training facilities around 
the State have closed, and, again, it has been underfunded. 
Medicaid in the State of Alaska, fortunately, is actually 
coming up with a community health aide provider, a CHAP, 
encounter right now.
    So, traditionally, when we would send a physician or a PA, 
a mid-level, to a village, which is very expensive, we would 
get an encounter rate of about $600. When a health aide would 
see the same patient, we would get 85 percent of the physician 
fee schedule, which would be about $85. So that was 
underfunded.
    And so facilities don't have the incentive to keep working 
with health aides because we get much more reimbursement for 
the more expensive provider, which is against the whole idea. 
The whole idea was to have less expensive providers, but the 
reimbursement mechanism has made it such that we staff with PAs 
and physicians.
    The training centers also were not funded. They were 
typically grant funded by the State of Alaska, if we didn't 
have Federal funding for training centers. And what we are 
doing is combining the training center with the wellness center 
with the intent of trying to get enough funding to build a 
whole building.
    Ms. McCollum. So you have got lots of problems----
    Mr. Bolton. We do.
    Ms. McCollum [continuing]. With staffing, because you have 
your reimbursement rate, you have struggles with people being 
trained, and then there are the professionals that are in 
between a nurse practitioner, a PA, a doc, and then you have 
got the health aide, but you have R.N.s certified in between. 
So you have got some challenges.
    Mr. Bolton. We do, but I have got to tell you, we have 
worked well with the various agencies to try to make the best 
of it. So, for example, we work with HERSA to get--we are a 
community health center, so we get grants from HERSA to keep 
the doors open. We have a close relationship with State of 
Alaska Medicaid, so we ensure that we enroll as many 
beneficiaries as possible so we can get the Medicaid as well as 
the compact funding that comes from his.
    So your funds comes from Interior. These other funds come 
from Health and Human Services, and we have been doing 
everything we can to make the whole system work, because his, 
again, traditionally underfunds not only our hospitals but 
especially our clinics, haven't recognized the health aides, so 
we have had to make due with these other programs. And we have 
been doing it, but we would like to see it all come together 
better.
    Ms. McCollum. Is Alaska doing Medicaid expansion?
    Mr. Bolton. They are. They have.
    Ms. McCollum. I don't want to get into the middle of the 
health bills, but you need something that recognizes the 
importance of the expansion that currently exists or you are 
going to have another problem.
    Mr. Bolton. We do. And, again, really, behavioral health is 
what we are trying to promote, because as part of the patient 
center medical home and in prevention, we can get people on 
diets, we can get them to get their annual physical, but if 
they are putting--you know, if they are committing suicide 
because they have behavioral health issues, or they just 
won't--you know, they won't work out, they won't see the 
physician because there is so much depression, and again, a lot 
of it goes to intergenerational trauma. And that key piece has 
been notoriously underfunded, and it is still underfunded as 
evidenced by this joint venture. It doesn't make sense that 
behavioral health is excluded with joint venture funding.
    Ms. McCollum. Okay.
    Mr. Bolton. That is our biggest ask, by the way.
    Ms. McCollum. Let's turn to the DOD cleanup, because the 
Chairman and I are both on the Subcommittee that funds the 
Department of Defense. I have worked with the DOD on cleanups, 
and you have to stay on top of the Department on the cleanups. 
Is that going along to plan? Is that way behind? Are there 
arguments about how the cleanup is going?
    Ms. Demmert. There is all these arguments about what their 
responsibility is, and they have different levels and play with 
words.
    Ms. McCollum. Yeah. How clean is clean, right?
    Ms. Demmert. Right. And our concern is to be able to clean 
it up completely, because we actually had to move our culture 
camp, our children's culture camp because of dioxins in the 
water and our crab and our clams in the area and berry picking. 
So we are working on cleaning it up to the point where we can 
have the culture camp there again. We had to move it. We have 
moved it to a river, but----
    Ms. McCollum. They typically only want to clean up to 
industrial standards, and you need residential standards to 
have children present on the grounds?
    Ms. Demmert. Right. And then there is argument about where 
the dioxins are coming from so----
    Ms. McCollum. Oh, really? They just fell from the sky.
    Ms. Demmert. Also not only the DOD, we have the NALEMP and 
the brownfields cleanups, but we also had a White Alice site in 
the same location as a lot of the other Quonset huts and the 
varied oil drums, and so all of that is getting cleaned up now. 
It is just going to take a while. They keep saying, well, we 
have done it to as far as we can, and we then we push them, 
well, we still have got stuff in the ground.
    Ms. McCollum. In some of our signoffs, the Minnesota 
Pollution Control Agency also had a voice into certifying all 
the cleanup. Is the State of Alaska with you with getting up to 
residential standards or----
    Ms. Demmert. You know, they are not really involved with 
this.
    Ms. McCollum. Okay. Because it kind of depends upon the 
compacts and all that.
    I am going to learn more about that, but I will do it in 
working with the gentleman from Alaska.
    Ms. Demmert. Okay.
    Ms. McCollum. I will have a conversation with him.
    Ms. Demmert. Thank you.
    Ms. McCollum. And August 7th I might be hugging a 
grandbaby, I don't know, but it is awfully tempting to come to 
Alaska in August. It is so beautiful.
    Thank you, your Honor, for the invite.
    Ms. Hudson. You are welcome.
    Mr. Calvert. Thank you.
    Just real quickly, most of this waste, this was all from 
World War II?
    Ms. Demmert. The majority of it is. About 99 percent of it, 
and the other is from the White Alice, but they weren't in just 
one area. They were all over the place. There are big cannons 
out on the beaches. We have our own cannon beach because of the 
cannons themselves as part of, you know, watching for the ships 
going by. And then all through the peninsulas and on the 
islands and throughout the mainland, they were everywhere.
    Mr. Calvert. Sure. Thank you.
    And thank you. This concludes this afternoon's hearing on 
American Indian and Alaskan Native Programs.
    Thank you all for making the effort to be here today, and I 
encourage you to meet with as many members and staff while you 
are in town.
    So with that, hearing adjourned. Thank you.

                                           Wednesday, May 17, 2017.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              


                         CATAWBA INDIAN NATION

                                WITNESS

WILLIAM ``BILL'' HARRIS, CHIEF, CATAWBA INDIAN NATION
    Mr. Calvert [presiding]. Welcome to this public witness 
hearing specifically for American Indian and Alaska Native 
programs under the jurisdiction of the Interior and Environment 
Appropriations Subcommittee.
    I especially want to welcome the distinguished tribal 
elders and leaders testifying today and in the audience. Most 
of you have traveled a long way to be here this week. I hope 
you will seize the opportunity to meet with other members of 
Congress outside this subcommittee to remind them that honoring 
the Nation's trust obligations is a responsibility shared by 
all members of Congress, regardless of our State or 
congressional district.
    I can assure you that your voices are heard by this 
subcommittee. For those new to the process, today's hearings 
are just the start of a dialogue we have come to depend upon to 
help us make smart choices in the budget and to earn the votes 
of our colleagues.
    American Indian and Alaska Native programs will continue to 
be a non-partisan priority for this subcommittee just as they 
have been in recent years under the chairmanships of both 
Democrats and Republicans alike.
    Before we begin, I have a bit of housekeeping to share. 
Committee rules prohibit the use of outside cameras and audio 
equipment during the hearings. The hearing can be viewed in its 
entirety on the committee's website, and an official hearing 
transcript will be available at gpo.gov.
    I will call each panel of witnesses to the table one panel 
at a time. Each witness will have 5 minutes to present 
testimony. Your full written testimony will be included in the 
record, so please do not feel pressured to cover every item in 
5 minutes. Finishing in less than 5 minutes would be 
appreciated if you can.
    We will be using a timer to track the progress of each 
witness. When the light turns yellow, the witness will have 1 
minute remaining to conclude his or her remarks. When the light 
blinks red, that is when I will ask the witness to stop.
    We will hear from every witness on each panel before 
members will be provided an opportunity to ask questions. 
Because we do have another full day ahead, I request that we 
try to keep things moving in order to stay on schedule and 
respect each other's time. I am sure many of you have planes to 
catch.
    With that, I thank you again for being here today. And I am 
happy to yield now to our distinguished ranking member, Betty 
McCollum, for her opening remarks.
    Ms. McCollum. Thank you, Mr. Chair.
    I want to thank all the people who have come to testify 
today, and I am ready to listen. Thank you, Mr. Chair.
    Mr. Calvert. Great. Thank you. Well, I want to thank our 
first panel, and I am going to recognize William ``Bill'' 
Harris, chief of the--I always pronounce this wrong--Catawba--
--
    Mr. Harris. Catawba.
    Mr. Calvert. Okay. Okay. Catawba Indian Nation. You are 
recognized for 5 minutes. Thank you for coming.
    Mr. Harris. Okay, mike is on. So, on behalf of the Catawba 
Nation----
    Mr. Calvert. Move it up a little bit.
    Mr. Harris. On behalf of the Catawba Nation, thank you for 
this opportunity to testify before this subcommittee.
    My name is William Harris, and I am the chief of the 
Catawba Nation. This committee has heard me testify before and 
has been very supportive of the Catawbas. I have had the 
opportunity to talk to you about our Tribe's long and close 
relationship with the United States. We stood side by side with 
the American patriots during the Revolution, and have fought on 
behalf of the United States in every conflict since.
    Today I would like to talk to you about the importance of 
funding economic development for tribes that do not have 
substantial revenue from resources like gaming.
    Technically, the tribe, the Catawba Tribe, is currently 
allowed one form of gaming, which is bingo, played according to 
traditional rules and not on machines. Unfortunately, we just 
announced last week that we had to shut down our bingo hall. 
Over the last few years, the bingo operation grossed about $14 
million.
    However, since we are the only tribe in the country that is 
required to pay a tax to the State straight off the top, the 
State gets 10 percent of the gross. So, the State got $1.4 
million, and we had to comply with other restrictions involving 
payouts, so in the end, there was no net revenue. This means 
that the tribe made nothing, but we lost money, and South 
Carolina made $1.4 million.
    Similarly, we are the only tribe in the country that is 
required to pay to send our kids, our children, to local public 
school, in our case, at the county rate. Our local school 
district, which has done a good job educating our children, has 
taken the position that with interest, we owe $4.5 million on 
that debt, which far exceeds our total assets.
    So, we want to achieve economic self-sufficiency, but we 
have been financially crushed by the unexpected restrictions 
placed in our Settlement Act at the insistence of the State of 
South Carolina. We have to find another path.
    Many tribes are economic engines in such areas as tourism, 
energy, small business development, and commercial services, 
among many others. However, limited access to capital and 
investment financing remain substantial barriers to economic 
development in Indian Country.
    We struggle with uniquely burdensome Federal restrictions 
and regulations, poor infrastructure, and other challenges that 
limit our economy from flourishing. It is important to create 
avenues for investment funds, financial resources, and business 
models that are mutually advantageous to tribes and potential 
partners for economic advancement, stability, and 
diversification. We encourage this subcommittee to provide 
increased support for investment opportunities in Indian 
Country. Such funding could flow through the Office of Indian 
Energy and Economic Development at the BIA.
    As an artist and traditional potter, I am intimately 
familiar with the press of cool clay beneath my fingers and the 
process of creating a new form from the South Carolina earth. 
Such vessels transmit not only the impressions of the artists 
who created them, but also the cultural heritage and world 
views of all those individuals who came before. When these 
items are removed from native communities through illegal 
trafficking, theft, or disruptions in the transmission of 
traditional practices, an irreplaceable aspect of our cultural 
expression and identity is lost as well.
    We would like to take this opportunity to provide a 
heartfelt thanks for you providing expanded funding for NAGPRA-
related law enforcement activities in the 2017 omnibus. With a 
secure and dedicated funding stream, BIA and tribal officials 
will have an enhanced capacity to combat and to deter 
trafficking of tribal cultural patrimony.
    When aligned with the Federal protections of the Protect 
Patrimony Resolution passed by the Congress last year, the 
Catawba Indian Nation can see a positive path forward in 
ensuring that the next generation will have access to these 
important cultural resources. We strongly encourage you to 
continue to support programs that protect our cultural 
heritage, including law enforcement funding and funding for the 
Tribal Historic Preservation offices.
    I thank you for this opportunity to talk to you about the 
needs of the Catawba Nation.
    [The statement of Mr. Harris follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
 
    Mr. Calvert. Thank you, and thank you for your testimony.
    Next, Kirk Francis, president of the United South and 
Eastern Tribes Sovereignty Protection Fund. You are recognized 
for 5 minutes. Thank you.
                              ----------                              

                                           Wednesday, May 17, 2017.

      UNITED SOUTH AND EASTERN TRIBES SOVEREIGNTY PROTECTION FUND


                                WITNESS

KIRK FRANCIS, PRESIDENT, UNITED SOUTH AND EASTERN TRIBES SOVEREIGNTY 
    PROTECTION FUND
    Mr. Francis. Thank you, Chairman Calvert, Ranking Member 
McCollum, Representative Pingree, and members of the 
subcommittee. Again, I appreciate the opportunity to share my 
thoughts with you this morning.
    As elected officials, you know all too well the great 
responsibility that comes with serving the interests of the 
citizens who elect us to office. We share in common the desire 
to make a positive difference in our communities and within the 
lives of our fellow citizens.
    As chief of the Penobscot Indian Nation and president of 
the United South and Eastern Tribes Sovereignty Protection 
Fund, I come before you today with a great sense of urgency and 
anticipation. The Penobscot Indian Nation, the 26 federally-
recognized nations of USET, and tribal nations across the 
country continue to evolve, grow, and mature as sovereign 
governments, just like any other sovereign government, 
including the United States.
    Due to the perseverance of us as a people and through the 
blessings of our Creator, we are still here today. I know that 
you are all intimately familiar with our unique and special 
relationship. However, many in Congress do not have this same 
level of familiarity and understanding, which is the reason for 
the existence of organizations such as ours. You know, as 
Congressman Cole has stated in the past, when you, the members 
of Congress, swear allegiance to the Constitution, you are 
swearing an allegiance to Indian sovereignty whether you know 
it or not.
    Ours is a story and relationship between two sovereign 
government entities that has not been without its fair share of 
challenges. It is a relationship that includes the exchange, 
sometimes voluntary, but most often involuntary, of our land 
and natural resources for promises of our protection and 
overall well-being. These promises have no expiration date and 
have been further validated and confirmed by the Constitution, 
treaties, and numerous laws and court decisions. These lands 
and natural resources that the United States acquired from 
Indian Country are at its very foundation and directly 
attributable to this country becoming the most powerful and 
influential Nation in the world.
    However, despite these facts, I once again come before you 
asking the United States to honor its commitments, to honor its 
sacred promises. As I sit here, tribal nations across this 
country, the first peoples of this land, continue to experience 
some of the greatest disparities in health and overall wellness 
and well-being. As you move forward with this budgetary 
process, fulfillment of the trust obligations should not be 
viewed and executed as a yearly discretionary decision as it 
currently is rendered.
    This is not a question about addressing poverty and needs 
across Indian Country. Our relationship is much more than this. 
This is ultimately a question about honor, about fulfilling 
commitments and promises. The Nation's exceptionalism is 
grounded in these principles.
    As leaders who have consistently demonstrated a true 
understanding of this commitment and obligation, I implore you 
to lead the change within Congress that is necessary to improve 
how the United States views, honors, and fulfills its promises 
to Indian Country. The Federal budget is a reflection of that 
commitment. I recognize that there are many causes and issues 
that this body considers. However, I ask you to always remember 
the Nation's first promise to its first people.
    Regarding our specific priorities for Fiscal Year 2018, it 
appears the Indian Health Service and the Bureau of Indian 
Affairs are largely protected under President Trump's budget 
blueprint. However, we have deep concerns with proposed cuts 
and eliminations of other programs and agencies critical to 
meeting that trust responsibility. We urge the subcommittee, as 
some of Indian Country's greatest congressional allies, to 
ensure the trust responsibility is upheld during the Fiscal 
Year 2018 budget and appropriations process.
    We are also concerned that the across-the-board 
sequestration of all Federal agencies and programs will return 
as a real possibility for Fiscal Year 2018. This violation of 
the Federal trust responsibility must never happen again. And 
we urge this subcommittee to ensure the permanent exemption of 
all Federal Indian programs from any sequestration.
    The USET is troubled by the President's signing statement 
for the Fiscal Year 2017 omnibus suggesting that the Native 
American housing block grant is race based, and, therefore, 
unconstitutional. As this subcommittee knows, all Federal 
Indian programs are based on a political government-to-
government relationship between the United States and tribal 
nations. USET SPF seeks the assistance of this subcommittee in 
educating the White House on this sacred relationship.
    We join tribal nations and organizations across the country 
advocating for greater increases in the Indian Health Service's 
chronically underfunded budget. For Fiscal Year 2018, the work 
group recommends a 37 percent increase for a total of $7.1 
billion. We totally support this request.
    Within the Department of Interior, the BIA historically has 
received lower percentages increases than any other program. 
The TIBC representatives that advise on the BIA budget have 
been asked to spread a projected 8 percent across the 125 
separate BIA line items, a very impossible task.
    So finally, USET recognizes that a major priority for the 
President is the full reorganization and reduction in workforce 
of the executive branch. However, we also note that executive 
orders and memoranda issued do not, with only very limited 
exceptions, exempt positions in the agencies to deliver on this 
trust responsibility.
    I again want to thank you for all your time, and attention, 
and patience with my testimony, and I am happy to answer any 
questions.
    [The statement of Mr. Francis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Calvert. Thank you. Next, Maulian Smith, Council Member 
of the--how do you pronounce that, your Indian nation----
    Mr. Smith. Penobscot.
    Mr. Calvert. Penobscot Nation. Great. You are recognized 
for 5 minutes.
                              ----------                              

                                           Wednesday, May 17, 2017.

                            PENOBSCOT NATION


                                WITNESS

MAULIAN SMITH, COUNCIL MEMBER, PENOBSCOT INDIAN NATION, ISLAND, MAINE
    Ms. Smith. Thank you. Good morning. On behalf of the 
Penobscot Nation, I want to thank the leadership of this 
subcommittee for continuing to hold these public witness 
hearings. I also encourage each of you to visit tribal nations 
so that you can see how these Federal programs are working on 
the ground. The Penobscot Nation would happy to host you.
    Thank you also to Congresswoman Shelly Pingree for being a 
tireless advocate for tribal nations in Maine.
    Many of the issues that the Penobscot Nation faces are a 
result of what we believe to be unintended consequences of the 
Maine Indian Claim Settlement Act. This Federal law was 
supposed to resolve longstanding land claims by tribal nations 
in Maine, and provide a path forward for productive government-
to-government relationships between the tribes and State. 
Instead, it has resulted in a legal maze whereby we find 
ourselves in constant litigation with the State, spending vital 
dollars defending our sovereignty rather than on critical 
programs.
    Since passage of the act in 1980, we have spent 2 decades 
in litigation defending our rights against attacks by the 
State. All we want and ask for is to be treated the same as any 
other federally-recognized tribal nation.
    We have over 123,000 acres of land. This includes about 200 
islands covering approximately 80 miles of the Penobscot River. 
Our Natural Resources Department is the largest department 
within our government, and probably the most important to our 
hunting and fishing rights. Fowl, moose, and deer hunts, and 
fishing throughout spring and summer provide food for our 
people throughout the year.
    We are very concerned about the funding cuts being proposed 
by President Trump for the EPA. The base funding for our 
Natural Resources Department comes from the BIA, but we rely on 
grants from the EPA to supplement our programs. The EPA's 
Brownfields Program, Air Quality Program, and the Wetland 
Program allow us to monitor any contamination of our land and 
air.
    EPA funding allows us to monitor, sample, and analyze the 
water quality of the Penobscot River, which is critical to the 
health of our fish. We have not harvested a salmon since 1984, 
but with the help of Federal funding last year, more than 1,300 
salmon came through the Penobscot River. Any cuts to these 
vital EPA programs would have a critical impact on our lands, 
water, and natural resources.
    Currently, we are in 2 lawsuits with the State. One 
involves our right to regulate waters within our territory 
where our people conduct sustenance fishing. The second lawsuit 
involves the EPA requiring the State's water quality standards 
to meet a minimum level that keep the fish happy. Healthy and 
happy. [Laughter.]
    While the State acknowledges our right to fish, it does not 
believe such a right entitles us to eat healthy fish. In both 
of these lawsuits, the Federal government has been on our side. 
In fact, two members of this subcommittee, Ms. McCollum and Mr. 
Cole, signed onto an amicus brief for one of those cases, and 
we are very grateful for that support.
    I raise this matter because my constituents believe that 
the Maine Indian Claims Settlement Act is becoming a failed 
Federal policy that is degrading the health and well-being of 
our people. The constant conflict between us and the State 
jeopardizes our ability to adequately implement Federal 
programs.
    For example, we receive Indian Child Welfare funds to help 
ensure that our children are kept within our community, but we 
are constantly fighting with the State over which court system 
has jurisdiction to decide the placement of these children. 
This conflict results in wasted resources by us and the State.
    For this reason, we ask that the subcommittee consider 
including language in its report directing the Interior 
Department to work with the tribes in Maine to identify ways to 
address the impact of the Maine Indian Claims Settlement Act.
    Our biggest health problem is the epidemic of opioid abuse. 
It is creating alarming levels of death, overdoses, crime, 
juvenile delinquency, and unemployment. One in four deaths in 
Maine now involve heroin or morphine, and 87 percent of 
Penobscot child welfare cases involve parental opioid abuse. We 
are hugely disappointed that we were not invited to the opioid 
summit attended by Secretary Tom Price last week.
    Tribes play a critical role in addressing these issues on a 
statewide level. Our law enforcement and social services 
personnel work well with our counterparts at the State and 
local level. It is the politics of the government that tend to 
get in the way.
    We do a great job cobbling together our various Federal 
funding to develop a comprehensive strategy for combatting the 
epidemic we are facing. Within our court system, we have 
developed a Healing to Wellness Program. It involves 
collaboration between 10 tribal departments that work together 
to develop a holistic treatment and wellness plan for each 
participant, and none of the graduates of this program have re-
offended in the years following their program completion. And 
the cost of this program is substantially less than 
incarcerating people.
    The base funding for our tribal court system comes from the 
BIA. Funds specifically for our Healing to Wellness Program 
come from the Department of Justice, but we would not be able 
to support this program without having a stable tribal court 
system in place. Thus, any cuts to the BIA's public justice and 
safety programs would directly impact our ability to help these 
people.
    We could do a lot more if we had a drug investigator 
assigned to the main tribes. The BIA employs three drug 
investigators to cover the 26 tribes from Maine to Texas. Given 
the crisis in Maine, we need a drug investigator designated for 
our tribal communities.
    I recognize that as appropriators, you constantly have to 
make hard decisions with too little money to address all the 
needs, so let me end by saying [Speaking native language], is 
thank you in our Abenaki language. Thank you for supporting 
programs that allow us to protect our language, our culture, 
and our sustenance way of life.
    [The statement of Ms. Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
   
    Mr. Calvert. Thank you, and thank you for your testimony.
    Next is Camille Ferguson, executive director of the 
American Indian Alaska Native Tourism Association.
                              ----------                              

                                           Wednesday, May 17, 2017.

           AMERICAN INDIAN ALASKA NATIVE TOURISM ASSOCIATION


                                WITNESS

CAMILLE FERGUSON, EXECUTIVE DIRECTOR, AMERICAN INDIAN ALASKA NATIVE 
    TOURISM ASSOCIATION
    Ms. Ferguson. Good morning, Chairman Calvert, Ranking 
Member McCollum, and members of the House Interior 
Appropriations Committee. I actually really appreciate and 
thank you very much from the bottom of my heart to be able to 
have this opportunity to speak with you.
    As you mentioned, I am Camille Ferguson, the executive 
director of the American Indian Alaska Native Tourism 
Association. I am here to request funds for the implementation 
of the Native American Improving Visitors Experience Act, the 
NATIVE Act as it is referred to, and it became law last fall. I 
have the honor to lead the Nation's only nonprofit solely 
devoted to developing and sustaining Indian Country tourism.
    Cultural tourism provides sustainable economic development, 
job creation, and infrastructure development in rural and 
remote communities across the United States. International 
visitation to Native American communities contributes $8.6 
billion annually to the U.S. economy, according to the U.S. 
Department of Commerce.
    AIANTA has contributed to this success supported by the 
Bureau of Indian Affairs Transportation Division, and we have 
been working in the international marketplace since 2007. The 
good news is as a result from our work from 2007 to 2015, 
international visitation to Indian Country has increased a 
whole 180 percent. This huge growth is good for the United 
States as a whole.
    International visitors to Native American communities spend 
12 extra days in the United States. Because they spend those 
extra days, they spend their extra dollars, and because they 
spend their extra dollars and they are visiting more 
communities and more cities using rental cars, taking more 
domestic flights, they visit national parks, small towns, art 
galleries, museums, and fine restaurants, and cultural heritage 
sites, dropping their dollars along the way.
    Tourism tribes are grateful for each and every one of you 
who have voted for the NATIVE Act, and endorse the potential 
for economic development for job creation. AIANTA is ready to 
facilitate closer tribal and Federal agency collaboration, 
organize tribal resources, and build capacity to attract and 
satisfactory travelers to Indian Country destinations.
    However, in order to implement the mandate of the NATIVE 
Act, AIANTA is asking less than $5 million for 3 major or 3 
Interior agencies: the Bureau of Indian Affairs, the National 
Park Service, and the Bureau of Land Management. We believe 
this investment in Indian Country will attract 3 million new 
visitors to Indian Country by 2020. And that was with a minimum 
of 5 percent based upon, again, the U.S. Department of 
Commerce. The annual revenue will increase to an estimate of 
$13 billion annually.
    Our goal by 2020 is that tribes and tribal members in many 
States will have tourism development training, have been 
consulted by Federal agencies, guided through assessments of 
their tourism potential and product development. They will be 
collaborating with nearby public lands, with labor, housing, 
arts, and humanities, and other agencies to expand the capacity 
to serve visitors.
    Tribes will have increased capacity and become better 
organized. Their presence on the AIANTA-run destination 
website, nativemamerica.travel, and other marketing will help 
attract thousands in additional international and domestic 
visitors. We will have improved data and analysts, leading to 
investments and infrastructure.
    Indian Country tourism is an opportunity for advancement 
that reinforces, and does not diminish our native culture, 
history, and pride. It actually perpetuates and gives pride to 
Native Americans and adds value and enhances our visitors' 
industry. This is good for the USA. One billion overseas 
travelers annually guarantee a long prosperous life for Indian 
Country tourism if we fund the NATIVE Act implementation.
    We are proud to have the appropriations request supported 
by the U.S. Travel Association, the Affiliated Tribes of the 
Northwest Indians, the State of Washington Indian Affairs, 
Nevada Inter-Tribal Council, the All Pueblo Council of 
Governors, Rocky Mountain Leaders Association, Minnesota travel 
organizations, and other industry leaders and tribal 
organizations.
    To succeed in tourism, Indian Country needs 3 things: the 
collaboration of Federal agencies, additional native workforce 
capacity, and an improved infrastructure. These challenges are 
doable because AIANTA and BIA have provided technical 
assistance and training for cultural tourism development, and 
Congress has given Indian Country the NATIVE Act to encourage 
economic prosperity.
    And, again [Speaking native language], which is thank you 
in my Tlingit language, and I will be more than happy to answer 
any questions you may have.
    [The statement of Ms. Ferguson follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Calvert. Thank you. Thank you for your testimony.
    Chief Harris, I was wondering, your agreement with South 
Carolina, I guess they have limits on gaming in South Carolina. 
That is why you are limited to bingo, and you cannot negotiate 
a compact with the State that would be----
    Mr. Harris. It is one of those things where the State has 
actually ruled against us. Under our agreement, it said that, 
you know, we could have on our reservation that which the State 
has authorized. Well, the State has authorized gaming, but it 
goes out 3 miles into Federal territorial waters. Our 
reservation is Federal territorial land.
    So, there is a Supreme Court rule that, you know, we have 
to go out 3 miles. Well, we are landlocked. They did authorize 
it. So, it did not say in the agreement that it had to be where 
their gaming was. It just said if the State authorized it, the 
Catawba Nation was allowed to have that which was authorized by 
the State.
    Mr. Calvert. And also in the State, I assume because the 
schools, do you pay a local property tax within South Carolina?
    Mr. Harris. Well, that was what led us to this school tax. 
When we did the settlement agreement in 1993, we were allowed 
to take 3,600 acres into Federal trust. The beauty of this is 
the Catawba Nation has only taken 307 acres into Federal trust. 
So, we did not actually impede the tax base, but yet we were 
charged an out-of-county rate for our students that was 
equivalent to, currently right now it is $4,500 per student for 
public school.
    Mr. Calvert. Thank you. So, your main problem is not with 
the U.S. government. The problem is in South Carolina.
    Mr. Harris. Well, I think, you know, it took three of us to 
come together-- the Catawba Nation, the Federal government, and 
the State of South Carolina--to actually work our way into this 
fiasco. So, maybe between the Catawba Nation and the Federal 
government, we can work our way out of it.
    Mr. Calvert. Right. Mr. Francis, I agree with you. We have 
trust obligations. This committee is very aware of it, and we 
try to do the best we can under the limits we have financially. 
But we try to make sure that we fully fund our contract health 
service, and I know we have some challenges on education and so 
forth.
    As far as the workforce is concerned, you know, I think 
every agency could be more efficient. I am hoping that every 
agency looks at ways over time to create more efficiency, just 
as the private sector does. And so, I do not think the BIA is 
immune to that. I just wanted to make that point.
    Mr. Francis. Well, I appreciate it, and, again, appreciate 
the opportunity to get some of these things. We realize we are 
preaching to the choir here a lot of times, and you folks have 
fought the hardest on behalf of Indian Country and these areas. 
We are extremely appreciative of all your efforts.
    And, on behalf of USET, as the newly-elected president, 
very proud president of USET and the powerful nations we 
represent, thank you for having these hearings, and also for 
your attention. And not only that, but the effort and results 
we have obtained over the years.
    Mr. Calvert. Thank you. We heard yesterday from 40 tribes, 
and the opioid abuse seems to be the common theme here, and not 
just in Native American country, but throughout the country. I 
think there are a thousand deaths a day from opioid abuse right 
now. It is terrible, so we need to do more.
    And I am sorry you were not invited to that summit. I think 
that is probably an oversight that somebody made. I am sure 
that Tom would want you there, and certainly the Native 
Americans there to give testimony.
    And tourism is a good thing. So, I have been up to Alaska a 
number of times, and a lot of native tribes up in Alaska, and 
certainly through Nevada and Arizona. And so, that is a big 
part of the business I am sure for everybody here. So, we need 
to encourage that, and we will see what we can do.
    Ms. Ferguson. I appreciate that. Thank you.
    Mr. Calvert. Ms. McCollum.
    Ms. McCollum. Mr. Chair, with your permission, I would like 
to yield to the gentlewoman from Maine, Ms. Pingree.
    Mr. Calvert. Sure.
    Ms. Pingree. Now, I have got all the time in the world. 
[Laughter.]
    I understand the chair is trying to keep us on track this 
morning, so I will not take up too much time, and I thank the 
ranking member for yielding. Thank you all for being here on 
the panel today, and in particular I am very proud to have two 
people from Maine here, and I really appreciate your testimony.
    I do not need to reiterate everything you said because I 
think you were very eloquent, and I appreciate the chair 
recognizing that the opioid epidemic is particularly 
challenging in most of our States, but also in even more 
difficult ways for the tribes. The request on extra enforcement 
and, the way you laid it out, Councilwoman Smith, about the 
lack of enforcement up and down the coast. We really would 
support that request.
    Also, in our State we are particularly concerned, as you 
articulated, about potential cuts at the EPA and the impact 
they could have on the tribes. Since our State has been at odds 
at times, and our State is not necessarily partisan. It is just 
there is a feeling amongst some people who represent State 
government, and we have been fortunate to have the EPA 
assisting in keeping the river clean. We are very excited about 
the return of the salmon, and I am glad that they are happy.
    Ms. Smith. They are happy. [Laughter.]
    Ms. Pingree. Because I just feel that is going to make even 
more of them want to come, and they will be reproducing even 
more. But that is really important, and it was wonderful that 2 
members of this committee did sign on to the amicus brief 
because I know that has been beneficial.
    The one thing I will let you talk about just a little bit 
before we get cut off, I do think we have a particularly 
challenging role with our land claim settlement, and I am 
sympathetic to South Carolina. I can see that many States have 
had difficulties in how these have panned out.
    But now, Chief Francis, because you are at USET, and 
congratulations on your new position, you have seen a lot of 
different settlements. Maybe just make a couple more comments 
for the benefit of the Committee about how hard this has been 
for our tribe, and how it compares to some of the other 
settlement agreements.
    Mr. Francis. Sure. So, just, you know, briefly, you know, 
at USET, I believe we have 8 tribes that are affected by some 
form of restrictive settlement act that States have been able 
to use to, one, assume a delegated responsibility to tribes 
through exercising what amounts to a plenary authority over 
Indian tribes, but really having no legal responsibility or 
fiduciary or trust responsibility to tribes.
    So, in Maine, for example, we have a clause in our act that 
says acts passed for the benefit of Indians generally, and I am 
paraphrasing, after 1980 will not apply in Maine unless the 
State of Maine and the tribes agree. Well, for close to 40 
years, we have not gotten one agreement from the State of Maine 
on anything, whether it is TLOA, VAWA, the HEARTH Act, on and 
on. So, and certainly not the Indian Game Regulatory Act.
    We have been hampered in a lot of ways despite the fact 
that we run over a hundred Federal programs. We have 19 
departments, about 300 government employees that provide a 
comprehensive service, and that is not unlike every tribe 
affected with this issue. So, the tribes, it is not just an 
economic issue. It is really a social issue. And as 
Councilwoman Smith mentioned earlier, you know, our ability to 
address things like the opioid crisis really requires the 
tribe. And I think what Congress has very wisely decided in 
these areas of violence against women and other things is that 
a local response is going to produce the best results to these 
things.
    And as she also stated, on the ground, the Maine Drug 
Enforcement Agency, our folks, you know, Maine Department of 
Environmental Protection and our folks on the ground, they work 
famously together. We tend to mess those things up at our level 
in this struggle over power, and nobody is taking 
responsibility for the conditions.
    I think these unique things have to be looked at. Congress 
is a party to these things. We have had great engagement by 
Department of Interior over the last couple of years. We have 
held roundtables in Maine with several Federal agencies, 
members of the delegation. And we are just looking for a path 
forward to allow the tribe to simply benefit no more, no less 
than anyone else from the conditions we are trying to fix here, 
and make you all understand that there are tribes getting left 
behind on those issues.
    Ms. Pingree. Thank you, Mr. Chair, and thank you very much 
for your testimony.
    Mr. Calvert. Thank you, and I thank this panel. I 
appreciate it, and have a good day, and we hope to help you out 
here a little bit. Yep.
    Next, we have Paul Torres, chairman of the Pueblo Council 
of Governors, Michael Chavarria, governor of the Pueblo of 
Santa Clara, and Virgil Siow, governor of the Pueblo of Laguna.
    Ms. McCollum. Mr. Chair, as the distinguished panel is 
taking their seats, I am wondering if either you or I, or if 
Mr. Cole and I, as co-chairs of the Native American Caucus, 
should write to our fellow appropriators about looking at some 
of the other issues that keep being brought up in testimony, 
whether it is judiciary, housing, education, CDC, some of the 
other accounts in which there are grants made to Native 
American communities. As they are making their budgetary 
decisions, we should encourage them to think of how it is going 
to affect the Native community.
    Mr. Calvert. I have a feeling that most of those accounts 
are probably in Tom's allocation, but you are right, we 
should----
    Ms. McCollum. Most of them are, but the judiciary accounts 
and the housing accounts are not.
    Mr. Calvert. That would probably be helpful.
    Ms. McCollum. Okay. Thank you, Mr. Chair.
    Mr. Calvert. Great. Thank you. Good morning.
    Voices. Good morning.
    Mr. Calvert. Thank you for coming out here today, and I am 
glad to recognize Paul Torres, chairman of the All Pueblo 
Council of Governors first. You are recognized for 5 minutes.
                              ----------                              

                                           Wednesday, May 17, 2017.

                    ALL PUEBLO COUNCIL OF GOVERNORS


                                WITNESS

E. PAUL TORRES, CHAIRMAN, ALL PUEBLO COUNCIL OF GOVERNORS
    Mr. Torres. Good morning, Chairman Calvert, Ranking Member 
McCollum, and members of the subcommittee. Thank you for this 
opportunity to testify. My name is Paul Torres, and I am the 
chairman of the All Pueblo Council of Governors, a tribal 
consortium comprised of 19 Pueblos in New Mexico, and one 
Pueblo, Ysleta del Sur, from Texas.
    Natural resources protection. The APCG encourages 
congressional support for effective natural resource 
management, particularly in regards to the National Forest 
Service and the Interior Forestry Programs. Our forests play 
critical roles in economic development, disaster mitigation, 
recreation, and regional ecology for birds and wildlife. They 
also play an irreplaceable role in our traditional practices 
and ceremonies.
    Cuts in Federal funding for natural resource management at 
the Interior, Forest Service, and USDA threaten the delivery of 
services in each of these areas. We respectfully request 
additional funding for Interior forestry programs and the 
funding of the National Forest Service, at least at the Fiscal 
Year 2016 enacted level to maintain our national forests and 
their diverse resources for future generations.
    NAGPRA funding. I would like to take this opportunity to 
thank the members of the subcommittee and Congress for 
providing the $1 million to support NAGPRA-related law 
enforcement activities under the 2017 omnibus. Dedicated 
funding for BIA law enforcement advances stronger Federal 
protections for cultural patrimony put in place under the 
Protect Patrimony Resolution. We thank you for your support, 
and encourage continued funding in this important area going 
forward.
    The Bears Ears National Monument. My testimony on the need 
for greater protections for tribal cultural patrimony would be 
incomplete without a discussion of the cultural landscapes that 
define us as Pueblo and native people, including Bears Ears. 
While I understand that Bears Ears is not directly an 
appropriations matter, the designation of Bears Ears cultural 
landscape as a national monument is of critical importance to 
tribes. And funding for its protection represents money well 
spent by the subcommittee.
    As Pueblo people, we do not just reside on the beautiful 
land of the southwestern United States. We are the people of 
this land. We carry it in the very essence of our being. Our 
cultural heritage is passed down not only through tangible 
objects protected by NAGPRA and the Protect Patrimony 
Resolution, but also in the living landscapes of our tribal and 
Pueblo communities.
    Our ancestral ties to Bears Ears, for example, run deep 
beneath the soil of the Greater Cedar Mesa area, and are 
visible in the ancient roads, dwellings, and petroglyphs that 
enrich the entire region. However, these sites are under 
constant threat by erosion, human damage, such as vandalism and 
off-road vehicle use, and the general degradation of the 
natural landscape. The continuation and very existence of our 
traditional practices in this area are an immediate and 
unacceptable risk.
    The open 15-day comment period for Bears Ears will close on 
May the 26th, and it is entirely too short to address our 
complex concerns. Moreover, only online comments are being 
accepted. As my written testimony describes in further detail, 
our Pueblo communities and Indian Country in general face 
tremendous discrepancies in access to broadband services. How 
can the Secretary expect meaningful tribal comments and 
consultation when many of us do not have internet access to 
have our voice heard? We urge Congress to protect our cultural 
heritage by providing designated funding for the preservation 
of Bears Ears National Monument in the Fiscal Year 2018 budget.
    Thank you for the opportunity to testimony on the natural 
resource concerns of the All Pueblo Council of Governors. We 
look forward to working with you on advancing the critical 
funding needs of Indian Country programs under the Fiscal Year 
2018 budget.
    [Speaking native language.]
    [The statement of Mr. Torres follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    Mr. Calvert. Thank you. Next, Michael Chavarria, governor 
of the Pueblo of Santa Clara.
                              ----------                              

                                            Wednesday, May 17, 2017

                           SANTA CLARA PUEBLO


                                WITNESS

J. MICHAEL CHAVARRIA, GOVERNOR, SANTA CLARA PUEBLO
    Mr. Chavarria. Good morning. [Speaking native language.] 
Out of respect for my language of Tiwa, I lay down the respect, 
and may I speak in front of this committee. Thank you, 
Chairman, members of the committee.
    Well, good morning, Chairman, members of the committee. My 
name is Michael Chavarria. I serve as governor for Santa Clara 
Pueblo. They are in New Mexico. I also serve as the secretary 
for the All Pueblo Council of Governors. Today I am here on 
behalf of my Pueblo, which is Santa Clara.
    As the subcommittee is well aware, the process of 
appropriating a Federal budget reflects the political nature of 
the government-to-government relationship, and it's reflected 
by the Federal government's trust responsibility to Indian 
tribes and communities. The Federal government's trust 
responsibility is to be fulfilled by regular, direct, and 
meaningful tribal consultation, which provides tribal leaders 
an opportunity to engage in meaningful dialogue that affects 
Federal issues, but also affects the direct actions on us as 
tribal communities. And so, that is what is very important.
    So, today is also a forum of tribal consultation. This 
enables us as tribal leaders to voice our concerns for our 
people, our resources, our land, our water. We still live off 
the land and utilize the resources that ties into our tradition 
and our culture, but it comes back down to our native 
languages. And so, that is very important.
    Santa Clara is a self-governance tribe, meaning we assume 
control over Federal programs. We can now redesign those 
Federal programs to best meet the needs of our people and our 
communities in Santa Clara. We provide a full range of 
governmental services that include education, elder care, 
public works, law enforcement, tribal courts, to support the 
personal growth of our people and our communities in Santa 
Clara.
    Our inherent powers of self-governance are rooted in our 
tribal sovereignty as recognized by the United States 
Constitution, treaties, Federal law, Supreme Court cases, and 
other agreements. The Office of Self-Governance in Interior 
plays a pivotal role in supporting the exercise of our Tribal 
sovereignty by advocating for implementing tribal self-
governance statutes and Federal policies.
    However, they are a staff of 16. However, there are 277 
tribes, federally-recognized tribes, that now operate self-
governance of our programs, a ratio of almost 17 to 1. The 
Interior, however, currently provides only $1.5 million on a 
recurring basis for the office; however, the need is almost $2 
million. Again, that is to employ full-time staff.
    The office is constantly operating in a deficit, which 
impairs its ability to fully support self-governance tribes in 
the delivery of essential, timely services to our people. Self-
governance is the cornerstone of modern tribal sovereignty. 
Supporting tribal self-determination is necessary in supporting 
the mission of the Office of Self-Governance. So, again, we, 
therefore, urge Congress to support their investment in self-
governance tribes by providing full funding for the Office of 
Self-Governance.
    Also for law enforcement. A key expression of our Tribal 
sovereignty is a provision in public safety and law enforcement 
services, such as police, firefighters, tribal court systems, 
rehabilitation services, child protection services, among 
others, which enable tribal leaders to provide a safe and 
vibrant environmental community or safe communities for our 
Pueblo.
    However, the Pueblo is deeply alarmed by the overnight 
shutdown of the Emerald Corporation's Turning Point 
Incarceration Rehabilitation Program there in Yuma, Arizona on 
April 7th. Our Pueblo have seen many positive benefits from 
that program, including a successful rehabilitation rate of 76 
percent of substance abusers, and a reduced Pueblo crime rate 
of almost 50 percent over the past 4 years. Yet, we received no 
advance notice of that shutdown.
    And the closure has resulted in the immediate increase in 
detention costs, and left our law enforcement officers and 
tribal courts scrambling to find appropriate placements for 
those individuals. Tribal members who have been beneficiaries 
from these essential services are now all left without any 
adequate aid and assistance in their more pressing time of 
need, again, within their lives.
    So, we are requesting significant funding to implement a 
similar program at an alternative center. We also request that 
the Office of Justice Services actively consult with tribes as 
part of the decision-making process going forward to avoid any 
crisis in the future. And so, that's very important, and, 
again, it comes down to tribal consultation.
    So, again, members, Chairman and members of the committee, 
I thank you for the time to testify regarding the Fiscal Year 
2018 budget, and I look forward and stand for any questions. 
Thank you.
    [The statement of Mr. Chavarria follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
 
    Mr. Calvert. Thank you. Thank you for your testimony. Next 
is Virgil Siow, governor of the Pueblo of Laguna.
                              ----------                              --
--------

                                           Wednesday, May 17, 2017.

                            PUEBLO OF LAGUNA


                                WITNESS

VIRGIL SIOW, GOVERNOR, PUEBLO OF LAGUNA
    Mr. Siow. Good morning, Chairman Calvert, Ranking Member 
McCollum, and distinguished members of the committee. On behalf 
of the Pueblo of Laguna, I thank you very much for the 
opportunity to provide our testimony today.
    Our Pueblo is one of the original 19 Pueblos located in the 
State of New Mexico. Our existence has been since time 
immemorial. We are located west of Albuquerque, and currently 
have approximately 8,700 tribal members. Our reservation is 
over 550,000-plus acres.
    I will speak to four of our priorities in my testimony 
today, one being litigation and negotiation funding for water 
rights.
    The Pueblo is a party to a general stream adjudication of 
the Rio San Jose Basin, State of New Mexico versus Kerr-McGee, 
filed in 1983. The system provides the only water source for 
our Pueblo. In the years 2014 through 2016, we have received 
$290,750 from the BIA. During this same period, the Pueblo 
expended $2.7 million of its own funds protecting our water. We 
ask that funding be increased through funds provided to the BIA 
to support the Pueblos' efforts to protect this precious 
resource.
    Bureau of Indian Education. Last year, the Pueblo of Laguna 
Department of Education was one of 10 applicants selected to 
have its severely outdated and dilapidated BIA-funded Laguna 
Elementary School replaced. The 2017 appropriations lacked the 
funds necessary for new school construction. Instead, there is 
merely an allocation of $130 million nationwide for operations 
and maintenance and emergency repairs.
    The Pueblo has completed the planning phase, and is ready 
to begin the design phase, and move to the construction phase. 
We ask that funding be made available for the construction of 
the new Laguna Elementary School. The estimate of planning 
phase construction costs is approximately $24 million. The 
Pueblo request these funds be made available in its 2018 
budget.
    Regarding Indian Health Services and the Affordable Care 
Act. The healthcare services at the Indian Health Center 
service Acoma, Laguna, Canoncito ACL facility have been 
inadequate and severely underfunded for decades. Referrals to 
specialists for services have been non-existent, except for 
individuals who have critical needs. The 2017 appropriations 
only includes $14 million nationwide for purchase/referred 
healthcare. This is inadequate to serve the needs to American 
Indians across the Nation. The Pueblo requests that funding for 
this program be increased.
    In addition, Laguna has established a community health and 
wellness department through a Public Law 93-638 contract with 
IHS, including the Community Health Representative Program. 
This program is one of the few programs that places people in 
the homes of some of our most at-risk tribal members, shut ins, 
and elders, who cannot easily leave their homes. We believe 
this funding is critical, and ask that it be increased, not 
eliminated.
    Regarding the Environmental Protection Agency. Our Pueblo 
had the world's largest open pit mine in operation for 
approximately 30 years. It was known as the Jackpile Mine. It 
closed in 1982. On December 12th, 2013, the U.S. EPA listed the 
site on the National Priorities List, making it a Super Fund 
site. Since then, we have worked with EPA to address issues 
related to the site. We ask for continued funding and support 
for the Jackpile Superfund site cleanup and for the EPA's 
actions to appropriately pressure the principally responsible 
parties into compliance and cleanup of the site.
    We also need support for the removal of the Homestake 
Tailings Pile near Milan, New Mexico, and increased efforts on 
reducing and contaminating the toxic plume spreading south and 
contaminating both shallow and deep aquafers. In addition, 
solid waste management on Indian lands is an issue because most 
Pueblos and tribes do not have a sufficient tax base to support 
efficient solid waste management, including recycling in 
current policy, and reducing the ability of the EPA to support 
those activities on Indian lands.
    Regarding the Clean Water Act, Section 106 Funding. This 
program is critical for the Pueblo to protect its water 
resources. Any reduction could potentially impact the program's 
ability to protect the water resources.
    I thank you for the opportunity to testify today and to 
provide our views and priorities for funding. I am happy to 
respond to any questions you may have.
    [The statement of Mr. Siow follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Mr. Calvert. Thank you. Thank you for your testimony, and 
appreciate you being here.
    Mr. Torres, one thing I wanted to let you know on the 
forest program, because that is important. Mike Simpson, who is 
a member of this committee, has a bill that would allow us to 
use the disaster account for these catastrophic fires, which 
would then allow the U.S. Forest folks to manage their accounts 
more effectively. They would like to spend more money in 
managing the forest of the United States, but it difficult when 
we use up all the money in these catastrophic fires of late.
    One percent of the fires burn up literally 70 percent of 
our forest accounts, you know. So, we need to get support. You 
might mention that to whoever your member of Congress is to 
support this bill. It is supported by all the members of this 
committee, and we are pushing to get this thing done this year, 
which would be very, very helpful.
    As you know, Bears Ears is a little controversial, you 
know, certainly for the folks in Utah and some other parts of 
the area, and some other tribes obviously have different 
opinions. And so, this is a review process that is going on 
right now. We will see where that ends up.
    And certainly, Mr. Chavarria, we believe in self-
governance, and we are happy that you are taking on that 
responsibility and effectively representing your people. And I 
know this issue of drugs has been consistent with virtually all 
the tribes that come here. It is a national epidemic, and so we 
need to all work together to get this under control.
    And, Mr. Siow, we certainly are aware of our difficulties 
with healthcare. We actually have, it is about $1 billion that 
goes into purchased referred care out of our budget, and it is 
still not enough. But we are doing the best we can with what we 
have allocated. But we have a responsibility there. We know 
that, and we are trying as much as we can to do that, and we 
will continue to work on making sure we have the resources 
available for Native Americans nationwide.
    These Superfund sites and Brownfield sites around America, 
we need to push EPA to get these sites cleaned up and get back 
to economic order again. So, you know, this is all over the 
country, so these things go on forever, and I am sure you are 
sharing that frustration since 1984 and, you know, progress is 
slow probably. And I do not know your situation specifically, 
but I suspect that is the case.
    Mr. Siow. Yes, thank you, sir. It has been ongoing for 
quite a while.
    Mr. Calvert. What did they mine there?
    Mr. Siow. They mined uranium.
    Mr. Calvert. Oh yeah, okay. I know exactly where your mine 
is, yeah. That was the World War II effort. That is where most 
of our uranium was, that is correct. Yeah, I have been by 
there.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. To the gentlemen of the 
panel, I have been conferring with staff behind me based on 
your comments trying to get a quick answer for you. It appears, 
Mr. Torres, that written comments related to Bear Ears are 
being accepted, but probably not very user friendly because 
people have to find it on the website, which goes to your 
point. You have to be on a website to find out if you can 
submit written testimony.
    So, I am going to speak with the House members from New 
Mexico. We found out Senator Heinrich has a letter going out 
instructing the Department of Interior to make it more user 
friendly for comments to be made. We are going to do something 
similar in the House, and I will work with the New Mexico 
delegation on that.
    But to your point, if you do not have internet and you 
cannot get on the Department's website because you do not have 
internet, then how do you know what you can do? And lots of 
times now, we are not publishing things in newspapers, and we 
are not buying a radio spot to encourage comments because we 
are just leaving it all up to the internet. I have been out in 
your part of the world, and there is very spotty reception and 
it is very difficult for some people to access the internet.
    So, thank you so much for raising that, and we will do what 
we can. However, for the record, I do want to state that I do 
not necessarily agree that the President has the right to 
revoke a national monument. But that does not mean I am not 
going to make sure that people have an opportunity to comment.
    Mr. Siow. Thank you, Ms. McCollum. I met with Senator 
Heinrich yesterday, and we talked about that. I have a copy of 
that letter that he sent to the Secretary. But the governors 
are having a meeting on Monday, and I am going to make a 
recommendation that they do a letter to Secretary Zinke 
requesting an extension of this time period. So, the governors 
will be addressing that.
    Ms. McCollum. If I could ask you, gentlemen, to comment on 
something. I have had the, and I do mean this genuinely, the 
privilege to be in some of the pueblos in some of the areas in 
which there are sacred sites. They are not marked for a reason, 
and that reason is because of the looting that takes place and 
the disrespect that takes place.
    So, the fact that these sacred sites have not been marked, 
lends to sometimes people saying, ``Well, these really do not 
exist'', or ``People are''--I am just cutting to the chase 
here--``People are making it up.'' You have heard all the 
excuses not to honor sacred sites.
    So, if you would take a second to say how important it is 
that the respect be given, and why you do not go out and 
identify sacred sites. What happened to the tribes in Standing 
Rock is an example. When they did start identifying sacred 
sites, when the pipeline was going through, was looting and 
harmful activities taking place on the sacred sites.
    Mr. Chavarria. Thank you.
    Mr. Siow. Well, if I could respond. You did mention that 
that is the concern. If we do identify those and plot them on a 
map, that we will have individuals go in there and actually 
start digging or looting those particular sites. And, you know, 
those sites are very sacred to us. They go centuries back, you 
know. We still make pilgrimages to those sites; however, you 
know, that is not made public. We still take sacred items 
there, and ask for help from our ancestors to continue moving 
forward in this world. So, they are sacred to us. Thank you.
    Ms. McCollum. If I could, just one more question. The 
Laguna School, is that where the earthquake was? I was out in 
that area. Is that where the earthquake was?
    Mr. Siow. At one point, there was a minor earthquake, yes, 
and it did affect the school. It did put little cracks in the 
building. Right now, the gym for that school is held up by high 
beams to support the gymnasium. So, it has been condemned 
several times, and it has been refurbished, but I think it is 
about time that we get new school to replace it.
    Ms. McCollum. Mr. Chair, at one point, I had been in one of 
the buildings, and they had put a piece of metal mesh on it 
because they were measuring whether or not the building was 
cracking any farther. They had condemned the building. But the 
Bureau painted the building, and it was magic paint because it 
went from being condemned to not being condemned. [Laughter.]
    So, I think this is a school we should look at, Mr. Chair. 
Thank you.
    Mr. Siow. Thank you.
    Mr. Calvert. Well, as you know, we are trying to figure out 
a way to come up with significant funds for the schools around 
America. We have a big challenge ahead of us on that.
    Oh, Ms. Pingree, excuse me.
    Thank you. Thanks to this panel. We appreciate it, and have 
a great day.
    Voice. Come and visit us in New Mexico.
    Mr. Calvert. Well, I love New Mexico. It is a great State.
    Ms. Pingree. I am going to find myself some of their paint.
    Mr. Calvert. There you go. Let us see. Our next panel: 
Robert Valencia, Edward Manuel, and Walter Phelps. Good 
morning.
    Voice. Good morning.
    Mr. Calvert. How are you today?
    Voice. Good.
    Mr. Calvert. Good. Okay. Good morning. Take a seat there.
    First, we are going to recognize Robert Valencia, chairman 
of the Pascua Yaqui Tribe. Welcome, and you are recognized for 
5 minutes. Turn on your mic. That would be great. Thank you.
                              ----------                              --
--------

                                           Wednesday, May 17, 2017.

                           PASCUA YAQUI TRIBE


                                WITNESS

ROBERT VALENCIA, CHAIRMAN, PASCUA YAQUI TRIBE, ACCOMPANIED BY ROSA SOTO 
    ALVAREZ, COUNCIL MEMBER
    Mr. Valencia. [Speaking native language]. Chairman Calvert, 
Ranking Member McCollum, and members of the subcommittee, my 
name is Robert Valencia. I am the chairman of the Pascua Yaqui 
Tribe. With me today is Councilman Rosa Soto Alvarez.
    The tribe appreciates the opportunity to testify before the 
subcommittee today. I would like to speak in support of 
appropriations within the Department of Interior, Bureau of 
Indian Affairs, and the Indian Health Service for American 
Indian/Alaska Native programs. It is important that you hear 
the voices from across Indian Country today so that you may 
know the importance of Federal programs to tribes and tribal 
peoples. A fully-funded budget for the BIA and IHS are 
essential to support many important programs that help improve 
the lives of tribal members.
    The Pascua Yaqui Tribe is a sovereign nation located in 
southern Arizona. The tribe has a reservation southwest of 
Tucson with a non-reservation population of about 5,000 
members. The total population of the Pascua Yaqui Tribe is 
close to 20,000 members.
    In addition to the reservation, which comprises 2,216 
acres, the tribe also has several predominantly Pascua Yaqui 
communities off the reservation throughout southern and central 
Arizona. These communities predate the tribe's Federal 
recognition in 1978 and the designation of the reservation at 
the time. While not trust lands, these Pascua Yaqui communities 
are home to tribal members for whom the tribe provides 
services, including housing, healthcare, and various other 
costly services and programs.
    The Pascua Yaqui Tribe is governed by a tribal council 
comprised of 11 elected members. The tribal council wants to 
support tribal self-determination for the improvement of the 
lives for tribal members. While a few of the tribe's programs 
and direct services program are through the BIA, including BIA 
detention, many of the tribe's programs are through PL 93-638 
self-determination contracts.
    Today I would like to provide testimony to let you know the 
Pascua Yaqui Tribe's views and recommendations on the Fiscal 
Year 2018 budget for the BIA and Department of Health and Human 
Services Indian Health Services, IHS.
    One concern of the Pascua Yaqui Tribe is that the Tiwahe 
Initiative remain fully funded and even increased. The tribe is 
a recent recipient of Tiwahe Initiative funding. Today the 
tribe has received about $800,000 in funding to improve system 
coordination and integration of service delivery among Yaqui 
government agencies to Yaqui families.
    A Child and Family Networking Board coordinates the efforts 
of tribal departments to improve coordination of tribal 
programs and the use of resources available to the tribe's 
communities. The goal is to increase department collaboration 
and, thus, improve outcomes for families.
    The funding also supports the tribe's work under the Indian 
Child Welfare Act, providing funding for programs to keep 
Indian families together. The tribes specifically ask that 
Tiwahe Initiative funding remain at Fiscal Year 2017 levels in 
2018, if not receive an increase. The need is great, and the 
tribe is seeking to fully implement the program to maximize its 
benefit for tribal members. It would leave a tremendously 
beneficial program unfinished, and the tribe would not be able 
to sufficiently fund these programs without support through the 
initiative.
    The Pascua Yaqui was one of the pilot project tribes in 
implementing the Special Domestic Violence Criminal 
Jurisdiction enacted by VAWA, the Violence Against Women Act. 
Although the tribe has been pursuing VAWA prosecutions, which 
call for more qualifications of attorneys and judges, the tribe 
has also had to expend significant resources to do so. 
Currently, the Office of the Prosecutor receives only 14.8 
percent of its budget from Federal support.
    An increase to funding for justice services is essential to 
help the tribe continue its implementation of VAWA, as well as 
prosecutions under the Tribal Law and Order Act, TLOA. These 
laws are helping bring domestic violence perpetrators and 
offenders committing serious crimes to justice, and have been 
highly successful on the Pascua Yaqui Tribe's reservation. 
However, cuts in funding will be a disaster to these programs, 
which are in their infancy.
    The tribe requests funding for VAWA prosecutions and for 
serious prosecutions under TLOA. The tribe has had longstanding 
issues with the detention of prisoners incarcerated by order of 
the tribal courts. Detention services are direct services 
provided by the BIA, yet the tribe finds that the beds are 
limited, and often the BIA insists that we pick up prisoners or 
house them in our short-term facility for longer than is right. 
BIA detention needs better funding. They often run out of funds 
for prison contract beds, leaving tribes to deal with inmates 
that are BIA's responsibility.
    We recently learned that our prisoners will be moved 
further down from the tribe's reservation after the BIA lost 
its contract with the Emerald Corporation in San Luis. All the 
vehicles in our police fleet are high mileage vehicles. At 
least one new vehicle is needed to use for transport to and 
from the new facility that BIA will contract with. But 
importantly, the BIA detention services need increased funding 
to better serve the tribe.
    Other important programs that the tribe hopes you will 
support are social service programs, education, BIA, water 
programs, housing, and IHS. The tribe hopes you will continue 
to support full funding of the contract support costs for both 
BIA and IHS. This is of paramount concern to the tribe. Full 
funding of the contract support costs makes it possible for the 
tribe's programs to function properly, and we ask that you 
continue to support it.
    I submitted a full statement with greater detail in 
writing. I would like to thank you again for the opportunity to 
present and for your attention to all the critical needs of the 
Pascua Yaqui Tribe as well as Indian Country.
    [Speaking native language.] Thank you.
    [The statement of Mr. Valencia follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    Mr. Calvert. Thank you. Next, Edward Manuel, chairman of 
the Tohono O'odham Nation.
                              ----------                              

                                           Wednesday, May 17, 2017.

                         TOHONO O'ODHAM NATION


                                WITNESS

EDWARD MANUEL, CHAIRMAN, TOHONO O'ODHAM NATION
    Mr. Manuel. Good morning, Chairman Calvert, Ranking Member 
McCollum, and distinguished members of the committee. My name 
is Edward D. Manuel. I am chairman of Tohono O'odham Nation 
located in Arizona. It is a federally-recognized tribe, 34,000 
members, and it is one of the largest reservations in Arizona 
and throughout the United States as well.
    We also share 62 miles of the international boundary with 
Mexico. It is one of the longest shared international borders 
of any Indian tribe in the United States.
    Thank you for giving me the opportunity to testify in 
regard to the Nation's Federal funding priorities. First, I 
would like to present our water settlement challenges.
    Tohono O'odham Nation is facing a serious water crisis due 
to the Federal government's ongoing failure to fund the 
nation's historic water settlement. The Southern Arizona Water 
Rights Settlement Act, known as SAWRSA. SAWRSA authorized up to 
$32 million for a cooperative fund to pay for the delivery of 
the nation's water entitlement, and directed the Secretary of 
the Interior to inform Congress of the amount of money 
necessary to carry out the settlement. However, the Interior 
has never requested any of these funds to inform Congress that 
this settlement will be in jeopardy without the cooperative 
funding.
    The Bureau of Reclamation projects that our settlement may 
run out of funding for water delivery within 3 years. We do not 
want to close the tribal farms, lay off employees, default on 
crop loans, and the breach of related agreements.
    Our water settlement is meaningless without water. We 
respectfully request that the committee direct the Secretary of 
Interior to provide notice of the Federal funds of the 
cooperative funding shortfall, and that funding be included in 
the Fiscal Year 2018 budget, and not jeopardize the Southern 
Arizona Water Rights Settlement Act.
    Next, I will turn to law enforcement. The Tohono O'odham 
Nation faces significant and unique law enforcement challenges 
because of our shared border with Mexico and the size of the 
reservation. Our police patrol remote and isolated areas that 
are difficult to access. Radio communication among tribal and 
Federal law enforcement agencies is also unreliable. As a 
result, officers face increasing, sometimes unnecessary, risks 
in the field.
    Due to our extensive shared border with Mexico, drug 
trafficking, illegal immigration, and border security divert 
limited tribal police resources from our communities. While the 
nation works closely with Border Patrol and other law 
enforcement agencies, we spend millions of dollars in tribal 
revenues annually to help meet Federal border security 
responsibilities. Additional funding is desperately needed to 
improve communication, hiring and training officers, vehicles, 
and addressing the overcrowded jail, and to improve the 
security of police stations.
    Next, I will discuss road funding. The nation has hundreds 
of miles of damaged and poorly maintained roads: inadequate BIA 
funding, heavy monsoon rains, flooding, and heavy usage by 
Border Patrol vehicles. 200 Border Patrol agents utilize these 
roads 24 hours a day, 7 days a week. All of these contribute to 
the poor road conditions.
    During the monsoon season, flooding washes out bridges, 
isolate communities, strand children on school buses, and 
prevents access for emergency vehicles. Sadly, a number of our 
people have been killed by flooding while traveling on these 
roads.
    Despite years of discussion, BIA and Border Patrol cannot 
agree on how they can share existing appropriations and 
authorities to fund the repair of the roads damaged by Border 
Patrol vehicles. All that is needed is a technical legislative 
fix. The nation's written testimony contains draft legislation 
language to make the technical fix. We ask that the 
subcommittee work with the Homeland Security Subcommittee and 
consider including that language in the appropriations bill.
    Finally, I would like to address healthcare funding. Tohono 
O'odham Nation hospital that serves the nation in Sells, 
Arizona is over 50 years old. It is one of the oldest 
facilities in the IHS. The hospital is completely inadequate to 
meet the nation's healthcare needs.
    Our hospital has been listed for replacement for over 2 
decades. However, the backlog is so bad that there still are 
several projects ahead of us on the IHS priority listing. Even 
though they requested a budget increase, it is still unlikely 
that the nation's hospital will be funded.
    Additional funding is desperately needed for IHS to address 
this backlog. We ask the committee to provide a substantial 
increase in the IHS facilities budget.
    In conclusion, the nation appreciates the subcommittee's 
dedication to provide Indian Country with much-needed resources 
in a very challenging Fiscal climate. I am happy to answer any 
questions. Thank you.
    [The statement of Mr. Manuel follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Mr. Calvert. Thank you. Thank you, Mr. Manuel, for your 
testimony.
    Next, Walter Phelps. Good to see you again. You are 
recognized for 5 minutes.
                              ----------                              

                                           Wednesday, May 17, 2017.

         NAVAJO HOPI LAND COMMISSION AND NAVAJO NATION COUNCIL


                                WITNESS

WALTER PHELPS, CHAIRMAN, NAVAJO HOPI LAND COMMISSION, AND DELEGATE, 
    NAVAJO NATION COUNCIL
    Mr. Phelps. Good morning, Chairman Calvert, Ranking Member 
McCollum, and honorable member Pingree. My name is Walter 
Phelps. I chair the Navajo Hopi Land Commission for the 23rd 
Navajo Nation Council. My colleagues and I on the Navajo Hopi 
Land Commission are entrusted with addressing ongoing efforts 
of the relocation and people being relocated off their 
ancestral lands, as well as dealing with the realities of the 
nine chapter communities within the former Bennett Freeze Area 
in Western Navajo Nation.
    First, I want to still once more express appreciation for 
this subcommittee for your efforts in paying special attention 
to the complex and important matters. Since the visit by this 
subcommittee to Navajo Nation in January 2015, some very good 
progress has been made. The increased funding made possible by 
this subcommittee has dramatically accelerated the delivery of 
benefits to many who have been on a waiting list for many 
years.
    As you are aware, the Office of Navajo Hopi Indian 
Relocation was established by Congress to carry out relocation 
activities, and serve as a trustee and Federal land 
administrator to the Navajo Nation. Unfortunately, although the 
Office of Navajo Hopi Indian Relocation carried out its charge, 
the work was done at a very slow pace. However, as a result of 
increased funding, OHNIR in its November 14th, 2016 report 
stated that by the end of September 30th, 2016, there remained 
a total of 74 eligible qualified applicants ready to receive 
housing benefits, 199 pending appeals to be addressed in Fiscal 
Year 2017, and 3 pending cases before Federal district courts.
    In OHNIR's report, it further states our goal, and I quote, 
``Our goal has always been to assure that all relocation 
activities that are conducted by the office are consistent with 
the intent of Congress and the executive branch as expressed in 
the Navajo Hopi Settlement Act of Public Law 93-531, and the 
Navajo Hopi Indian Relocation Amendments Act, Public Law 96-
305.''
    Let me point out that in 1981, this same office provided a 
report and plan to Congress by stating, ``Congress was greatly 
concerned that relocation of Indian families to be to areas 
where community facilities and services exist or will exist. 
The Commission's plan for relocation shall,'' ordered Congress, 
``assure that housing and related community facilities and 
services, such as water, sewer, roads, schools, and health 
facilities for such households, shall be available at their 
relocation sites.'' That was Public Law 93-531. ``The 
Commission intends to carry out this mandate with the same 
vigor as the sympathetic and generous Congress conceived it.''
    The point is that the Relocation Commission ``failed to 
adequately address the requirements of the original act in 
ensuring that housing and related community facilities and 
services, such as water, sewer, roads, schools, and health 
facilities, for such households shall be available at their 
relocation sites.'' In moving forward, my colleagues and I on 
the Navajo Hopi Land Commission appreciate the need to bring 
closure to the relocation process. However, we believe that the 
Federal government has the responsibility to bring closure 
about in a conscientious and compassionate manner, and live up 
to the promise of a thorough and generous relocation.
    The second portion of my testimony has to do with the 
urgent need for rehabilitation of the 9 Navajo chapters in the 
Former Bennett Freeze Area and western agency. The freeze 
remained in effect from 1966 to 2006, during which development 
of housing, community facilities, and economic development were 
restricted. Field hearings conducted by the Senate Interior 
Appropriations Subcommittee in 1993 concluded that the Former 
Bennett Freeze Area would require a sustained construction 
program implemented over a decade or more in order to recover 
and redevelop.
    We ask the subcommittee to support innovative incentives 
that can encourage private sector partnerships and investments 
and streamlining of Federal regulations. We request funding for 
critical needs in the Former Bennett Freeze Area for safe 
drinking water, electricity, emergency response services, 
telecommunications, infrastructure, and community facilities. 
Lastly, we request establishment of a DOI task force for the 
benefit of the Former Bennett Freeze Rehabilitation.
    Thank you for the opportunity to provide this testimony. I 
am happy to answer questions.
    [The statement of Mr. Phelps follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    Mr. Calvert. Thank you, and thank you for your testimony. 
We appreciate that.
    I know there are some consistency here on law enforcement, 
and that is a challenge that we are going to have to deal with, 
and we are going to do the best we can in this committee. You 
have a particular challenge because of your border with Mexico. 
I have been down there.
    Is Homeland Security in any way done anything to help 
improve some of the roads along the border there? And I am also 
curious, what kind of infrastructure along the border have we 
put up? Anything at all, or is it just the old fence that used 
to be there.
    Mr. Manuel. Right now, they are working on the border.
    Mr. Calvert. Yeah.
    Mr. Manuel. Right now, they are working on the border road, 
and also they put in the, they call it the IFP tower, 
integrated fixed tower. And there are about 9 of them that are 
proposed on the main borderline, but also there are also 4 more 
that they are proposing along the mountain range. And they also 
have some FOBs, forward upright bases, too, along the border in 
our land base where the Border Patrol utilize those stations so 
many days a week, and then they leave them so more can come in.
    Mr. Calvert. Do you still have a significant amount of 
drugs coming across that border?
    Mr. Manuel. There are still drugs coming through, yes.
    Mr. Calvert. Yeah. We will talk to Homeland Security about 
this. Obviously they have a responsibility. If they are using 
your roads, they have a responsibility to help fix that. We 
need to get an infrastructure bill done here and have Indian 
Country a part of it. The Navajos have issues on their roads, 
and I am sure that whole place in the southwest. So, we will 
certainly look into that and see if we cannot be of some 
assistance.
    Mr. Phelps, we have met a number of times over the years.
    Mr. Phelps. Yes.
    Mr. Calvert. And hopefully we are going to close in on 
this. As you know, a goal of mine is to, and I think of the 
committee, is to bring this to an end and have the resources 
there to bring it to an end.
    Mr. Phelps. Absolutely.
    Mr. Calvert. And hopefully we are closing in on this after 
40 years. That is a long time. So, hopefully we can, for 
everybody, you know, for the Navajo people, for the Hopi 
people, for the American people, everybody, we can bring this 
to a positive conclusion.
    Mr. Phelps. Yes, thank you. Thank you, Chairman. We have 
the same desire and goal, but we know that as a trustee, our 
people were given, you know, substantial commitments by this 
Congress. And we just want to remind our members that that is 
what we still stand on. So, we thank you for that.
    Mr. Calvert. All right. Thank you.
    Mr. Phelps. And by the way, Congressman, the school that 
you visited is going to have a ribbon cutting on Friday if you 
want to come down.
    Mr. Calvert. Oh great. I would love to be down there, yeah. 
I still remember that bus ride over. [Laughter.]
    Mr. Phelps. Right. Right.
    Mr. Calvert. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. Thank you, gentlemen, 
for your testimony. As the chair said and we mentioned earlier, 
we need to get some of our other committees more engaged in 
some of the challenges or opportunities in Indian Country 
because these are across-the-board cuts. If they are not 
mindful of how they are going to affect the work that this 
committee is doing, they can have an unintended consequence in 
not moving Indian Country forward.
    So, thank you for your testimony.
    Mr. Calvert. Ms. Pingree.
    Ms. Pingree. No.
    Mr. Calvert. Well, thank you for your testimony.
    Voice. Thank you very much.
    Mr. Calvert. Next, we are going to call up our next panel. 
Jamie Henio, vice president of the Ramah Navajo Chapter, 
Marlene Martinez, president of the Ramah Navajo School Board 
for Pine Hill School, and Faye BlueEyes, administrative 
services director. And I am not even going to try to pronounce 
this. Well, I will try then. [Laughter.]
    Dzilth-Na-O-Dith-Hle Community Grant School. That is about 
as good as I can do. But thank you for attending. We will see 
if we can get that door closed, and we will move on.
    Okay. First, I recognize Robert Valencia, chairman of the 
Pascua--oh, excuse me--Jamie Henio, vice president of the Ramah 
Navajo Chapter. Welcome.
                              ----------                              

                                           Wednesday, May 17, 2017.

                          RAMAH NAVAJO CHAPTER


                                WITNESS

JAMIE HENIO, VICE PRESIDENT, RAMAH NAVAJO CHAPTER
    Mr. Henio. [Speaking native language.] Honorable Chairman 
Calvert, Ranking Member McCollum, and Committee Member Pingree, 
my name is Jamie Henio. I am the vice president of the Ramah 
Navajo Chapter, Ramah Band of Navajo Indians. I appreciate this 
opportunity to provide oral testimony regarding the Department 
of Interior BIA Fiscal Year 2018 budget.
    The Ramah Navajo Chapter has four areas of concern in our 
written testimony: number one, inadequate and untimely 
distribution of 638 Program funding; and, two, the lack of 
funding for adequate police officer salaries; three, the lack 
of funding for equipment and operation of our brand new 
detention correctional facility; and four, unmet needs for our 
transportation and road maintenance program.
    The chapter appreciates you holding these hearings on an 
annual basis, and over the years you have listened to us and 
our concerns, and have moved towards resolution on many of our 
concerns and issues.
    The Ramah Navajo Chapter has operated as a self-government 
since 1986 using the Public Law 93-638 contracting requirement. 
So, therefore, number one, my point is that there is inadequate 
funding for 638 contract programs as compared to BIA programs. 
Every year, the BIA, they put tribes through an exercise of 
prioritizing unmet needs and budget requests.
    And the Ramah Chapter, we comply with this exercise, but 
what happens is we rarely see any type of funding increases. 
While we operate on the same funding year after year, and BIA, 
while they operate similar programs, these programs see a 
substantial increase. This is our issue here, is that the BIA 
views the Ramah Chapter as a 638 tribe, so when it comes to 
appropriations and distribution of funds, we are told stand at 
the end of the line while the BIA central office and 
administrative programs get a buckle of that money. So, what we 
are asking is that a lot of these funds be distributed to the 
front lines where we provide direct services to the people as 
it was intended.
    And then also if these funds are awarded, we need to have 
BIA distribute these funds in a timely manner. Many times we 
have to wait months at a time just to see any type of funding 
from the BIA. So, what we are requesting for is that BIA be 
expressly directed to distribute the funds to tribal programs 
immediately upon appropriation.
    Number two, a lack of funding for adequate police officer 
salaries. Pursuant to 25 C.F.R., Subsection 12.34, police 
officers operating under a 638 contract should be paid the same 
wages as a BIA police officer. To this point, BIA has not 
funded this mandate.
    The Ramah Navajo Chapter, we have a budget for 10 police 
officers to provide public service to the citizens of the Ramah 
Navajo community, but then our officers are severely underpaid. 
If you look at our written testimony, we have included that in 
there. That shows the disparity between the Ramah Navajo police 
officers' annual wage comparing that to a BIA police officer. 
And then we also included officers from New Mexico State 
Police, from the nearby sheriff's department, and also the City 
of Gallup, and you will see that the Ramah Navajo police 
officer is the lowest paid officer within that geographical 
area.
    And with this, we lose officers to these nearby agencies. 
We bring in a young police officer. We invest money in the 
officer, take him to the Federal law enforcement training 
academy where they get federally certified. Then we also take 
him to the New Mexico State Police Academy for state 
certification and other specialized training. And when they 
come back, they enticed by other agencies with higher pay. We 
need to keep our officers within our location.
    The third area of concern that we have is a lack of funding 
for equipment and operation of our new detention facility. The 
Ramah Chapter was awarded TARP Recovery Grant money, and using 
the grant money, along with other matching funds, we were able 
to construct a 13,000-square feet detention facility. In 
November of 2016, the BIA issued a certificate of occupancy, 
and our detention center is in full operation right now.
    And BIA has failed to award funds sufficient, though, to 
operate the facility in accordance with the BIA standards. They 
set their stands up here, but they only fund us at this level. 
So then, we need to have BIA fully fund the operations.
    And lastly, what we have also included as a concern is the 
unmet needs for our transportation and road maintenance 
program. We have included some data in our written testimony 
for reference. And we have contracted the roads program 3 years 
ago, and BIA has failed to sufficiently fund the program to 
adequately meet the road needs for our community.
    And so, at the end in closing, the Ramah Navajo Chapter has 
been a successful steward, and we have been diligent in 
operating the Public Law 93-638 Program for many decades. And 
from the onset, we have had clean audits.
    So, the Ramah Navajo Chapter, we appreciate the continued 
support of Congress in our effort to build a sustainable 
community and to be resilient throughout the oncoming years.
    I stand for questions. [Speaking native language.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    [The statement of Mr. Henio follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Mr. Calvert. Thank you. Thank you for your testimony.
    Next, Marlene Martinez, president of the Ramah Navajo 
School Board for the Pine Hill School. You are recognized for 5 
minutes.
                              ----------                              --
--------

                                           Wednesday, May 17, 2017.

           RAMAH NAVAJO SCHOOL BOARD FOR THE PINE HILL SCHOOL


                                WITNESS

MARLENE MARTINEZ, PRESIDENT, RAMAH NAVAJO SCHOOL BOARD FOR THE PINE 
    HILL SCHOOL
    Ms. Martinez. Good morning, Honorable Chair and committee 
members. My name is Marlene Martinez. I am the president of the 
Ramah Navajo School Board, Pine Hill Schools, and I appreciate 
the opportunity to allow us to provide oral testimony to 
Congress on behalf of our schools.
    Today I am providing testimony on our school buildings that 
are showing signs of drastic aging and nearing the end of its 
useful life. After nearly a half century, our school buildings 
are showing significant wear and tear. These buildings have 
deteriorated almost beyond repair, have inoperable heating 
systems, have unsafe water systems, and are unusable due to 
serious mold issues.
    In recent years, it has gotten to a point where the 
students have had to be sent home early due to cold classrooms 
or a water line break on campus that causes no water or low 
water pressure. The water lines on campus are corroded with 
rust.
    Our students are also exposed to the dangerous environment 
due to leaking roofs in certain classrooms, or playing on the 
wet basketball court in the gymnasium, and walking on crumbling 
sidewalks. The biggest concern is the presence of mold in our 
library in our kindergarten building. These buildings have been 
closed due to the health and safety of our students. This 
caused our students to be shuffled around, to be housed in 
other areas of the facility.
    We are alarmed that due to the leaking roof in our 
gymnasium, the water caused the inside ceiling insulation to be 
exposed, and the presence of mold has been detected. The 
insulation fiberglass particles may become airborne and cause a 
serious health issue to our students.
    The heating system in the high school building has been 
inoperable and outdated. The BIA committed to designing and 
installing a heating system in our high school since December 
2016. The BIA is still in the bidding stage to repair the 
heating system. Our students have been subjected to the cold 
and it has created a negative learning environment. It has been 
almost 7 years since the heating system has been inoperable.
    Our school facilities were built in the '70s, and most do 
not meet the ADA requirements, therefore, causing a challenge 
for our disabled students. Our students' academic performance 
has been negatively impacted by the substandard school 
facilities. If our students were not exposed to this type of 
learning environment, we believe they would be more successful 
academically.
    We fully support the committee and BIE to begin the effort 
towards replacing all BIE schools. Then our students would not 
have to be housed in aging, unsafe, and dilapidated buildings.
    We appreciate the commitment of Congress to continue 
funding school facilities so that the BIA funded schools will 
begin planning design and construction of new school 
facilities. In the meantime, we request that Congress increase 
funding for emergency and minor improvement and repair projects 
so that schools, such as Pine Hill, can address the current 
deficiencies in our school buildings.
    And on behalf of the Ramah Navajo School Board, I would 
like to thank you for your time and the consideration of 
Congress to help schools out in Indian Country. Thank you.
    [The statement of Ms. Martinez follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    Mr. Calvert. Thank you, and thank you for your testimony.
    Next, Faye BlueEyes, administrative services director. And 
you can pronounce the name of the school.
                              ----------                              --
--------

                                           Wednesday, May 17, 2017.

              DZILTH-NA-O-DITH-HLE COMMUNITY GRANT SCHOOL


                                WITNESS

FAYE BLUEEYES, ADMINISTRATIVE SERVICES DIRECTOR, DZILTH-NA-O-DITH-HLE 
    COMMUNITY GRANT SCHOOL
    Ms. BlueEyes. Good morning. Thank you for the opportunity 
to be here on behalf of Dzilth-Na-O-Dith-Hle Community School.
    Local controlled schools such as ours educate our students 
to be contributing members of our community and to come back 
and help our people. This focus has helped improve our 
students' performance. Our students' assessment for the last 2 
years has looked very promising. In some areas, our students 
have even outscored the National Test Assessment. If we were 
able to operate our schools without funding shortfalls and 
constant worries, we think, wow, we could do a lot more better. 
Our students could even reach amazing heights.
    At the onset, we do want to recognize the testimony of Dine 
Bi'Olta School organization and fully support their 
recommendations, such as fully fund new school construction, 
provide $109 million for facilities operation and $76 million 
for facilities maintenance, protect BIE and Indian education 
programs from sequestration or shut down.
    Our school is proud to say that we have been one of the 
successful applicants for new school construction, and we are 
in the first round of the planning phase as our school 
facilities were outdated and insufficient for our needs. We are 
looking forward to being able to offer a safe and improved 
school for our students.
    We will be completing the planning phase for our new school 
by July. We have worked closely with the BIA facilities staff 
in moving this project along, and have made great success. We 
are on schedule, and we are in line with our budget. If 
necessary, we hope the subcommittee will recognize that there 
must be flexibility in timelines for funding availability in 
these projects, and work with us and the BIE on these matters.
    Our school is fortunate to be selected for new school 
construction. However, we feel for other Bureau-funded schools 
who also need school replacements. Their students and staff 
have to endure the same problems we have, such as water lines 
breaking that we have to divert students to another part of the 
building for a restroom, and that causes them to lose valuable 
instruction time, or sewer lines breaking and our staff and 
students having to smell the awful sewer causing headaches.
    And, again, inefficient heating and cooling, and it is too 
cold in the winter because the outdated aged boiler is down, or 
too hot because we do not have any air conditioners in our 
school. And we have obsolete utilities systems where parts are 
no longer available, and it costs extra money to have parts 
actually be built again for some of our systems. That is 
another loss of funds for schools.
    At least for the Dzilth-Na-O-Dith-Hle School, we see a 
light at the end of the tunnel. How many more years will the 
rest of the Bureau-funded schools have to wait to get their new 
schools?
    According to the Department of Interior's 2013 figure, the 
backlog of construction projects is now estimated to be as high 
as $1.3 billion. But we are encouraged by the substantial 
increase that this subcommittee provided for education 
construction in Fiscal Year 2016 and maintained it for Fiscal 
Year 2017. We believe BIE schools are due for full school 
replacement efforts like that provided for the Department of 
Defense schools where 134 of their schools were rebuilt over 5 
years beginning in 2011.
    Our schools support the call for full funding for school 
construction funds to immediately address this need. We urge 
the committee and the BIE to engage in consultation with tribal 
schools and tribes to begin the efforts towards modernization 
of all BIE schools.
    Lastly, we ask that Indian related programs be protected 
from budget fights that result in sequestration or government 
shutdown. We join those in urging this subcommittee to include 
language in the budget and appropriation bill that continue 
funding for native and related programs through these 
challenges. Funding for our programs is scarce enough. 
Reductions for sequestration and shutdowns hit reservations 
extremely hard, and the students do feel the same stresses that 
affect their parents and neighbors.
    We look forward to working with the subcommittee on 
furthering the important work of our schools and enriching our 
students. Thank you very much for the opportunity to provide 
testimony.
    [The statement of Ms. BlueEyes follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
      
    Mr. Calvert. Thank you. Thank you for your testimony. Let 
me just go back to my notes here. First, I want to talk about 
roads a little bit since that has been brought up. We recognize 
we have a problem throughout the United States on roads in 
Indian Country. And I have been on the, at least on the Arizona 
side, the Navajo reservation in Arizona. I suspect they are 
very similar to what you have in your part of the country in 
New Mexico, but they are in bad shape.
    So, if we ever get around to an infrastructure bill, that 
we have a section in the bill for road construction throughout 
the United States on Indian reservations to rebuild those 
roads. So, we can work together on doing that.
    On school construction, which both of you obviously are 
mentioning that, you are right. We have over a billion-dollar 
need, and we need to come up with, like you mentioned, a DOD 
kind of program. Now, that was a public/private partnership 
that did that, and not just for schools, but also for housing 
for the military, and it was very successful. The Department of 
Defense was able to generate by moving off excess property that 
they had. We do not have that luxury in Native American 
country, so we have to come up with a financial mechanism which 
hopefully we can do, and figure out a way to finance this. And 
I would like to see all the schools around the United States 
rebuilt. And I know that that is shared by this entire 
committee. We hate to see kids going to schools that are in a 
difficult situation.
    We have directed the BIE to do the analysis. It is the same 
thing the Department of Defense did, which is a necessary step. 
And we are going to try to find a way to do this just like we 
did with the DOD schools.
    With that, Ms. McCollum.
    Ms. McCollum. Well, thank you, Mr. Chair. I think one of 
the frustrations, besides what the chairman mentioned, is that 
we are trying to figure out different financing mechanisms, 
loans, repayments, grants, and such. We are leaving no stone 
unturned to figure out how to do a school renovation rebuild or 
remodel, as well as figure out a way to have a maintenance 
account so that we keep up on maintenance.
    When you first notice your roof is leaking, you do not want 
to walk away from it. You should be able to pick up the phone 
and figure out what is causing the leak, and get it repaired so 
it does not spread any further.
    But I think one of the frustrations that is coming across 
in your testimony is when you, sir, pointed out the fact that 
the Bureau of Indian Affairs is not getting the contracts and 
the bids out in a timely fashion. In part, we own that as a 
Congress when we are doing continuing resolutions and we do not 
get our bills closed and our homework done on time.
    We are talking schools here, so we need to hand our 
homework in on time. We need to complete the assignment because 
when we do continuing resolutions, the agencies are out there 
not sure at the end of the day what they are going to have for 
resources. I know that the Appropriations Committee stands 
ready to get our work done on time. We just have to convince 
our other colleagues on both sides of the aisle that we want to 
complete the appropriations bills on time. I know that is the 
goal of our chair and our ranking at large and our goals when 
we get our bills done.
    Some of this is that we need to push the agencies to do a 
better job. But some of this is not necessarily the agencies' 
fault. It has been the inability of the entire Congress, both 
House and Senate, to get their jobs completed in a timely 
fashion. So, we need to do better by you as well.
    So, thank you, Mr. Chair.
    Mr. Calvert. Thank you, and I want to thank the panel for 
coming today and testifying.
    Thank you to this panel, and we appreciate your attendance.
    Speakers. Thank you.
    Mr. Calvert. Okay. All right. The next panel is Genevieve 
Jackson, president, and I will let her pronounce it, and Jerry 
Chavez, president of the Dine Grant School Program, and Royd 
Lee, president of the Native American Grant School Association 
School Board member for the Shonto Preparatory School.
    At least we have two out of three. Okay. So, Royd? Okay. 
Here we go. Welcome.
    Ms. McCollum. Mr. Chairman, these are many different 
languages, languages that we do not hear every day for many of 
these tribes. And I appreciate your willingness to boldly go 
with pronunciations because most Americans have never heard 
these languages spoken until today. So, Mr. Chair----
    Mr. Calvert. Well, as a former teacher, I hope you do not 
grade me on this. [Laughter.]
    Ms. McCollum. Mr. Chair, I appreciate your willingness to 
try. And I can see the look on the faces of the tribal members 
as they come up. They are appreciating it, too.
    Mr. Calvert. Okay. All right.
    Ms. Jackson. We will give you an ``A'' for effort.
    Mr. Calvert. Okay. There you go. [Laughter.]
                              ----------                              --
--------

                                           Wednesday, May 17, 2017.

                 DINE BI'OLTA SCHOOL BOARD ASSOCIATION


                                WITNESS

GENEVIEVE JACKSON, PRESIDENT, DINE BI'OLTA SCHOOL BOARD ASSOCIATION
    Mr. Calvert. Okay. You are recognized.
    Ms. Jackson. I am Genevieve Jackson, president of the Dine 
Bi'Olta School Board Association, also known as [Speaking 
native language]. And I would like to thank Mr. Honorable 
Calvert, and Darren Benjamin, Ms. McCollum, and Ms. Pingree for 
giving us this time.
    We submit our position on Fiscal Year 2018 budget request, 
and provide recommendations on the overall direction of the BIA 
education system. For the Fiscal Year 2018 proposed commitment 
to self-determination, we support continued funding 100 percent 
of the administrative cost grants. On the Indian School 
Equalization Program, also known as ISEP, we supported 
increasing the amount of $6.5 million. We would also like to 
see an estimate of the funding needed to meet the DOD teacher 
pay requirements compared to the overall increase for Indian 
Country and education.
    Facilities O&M, we support the increase of $6 million. This 
will reduce the problem of schools having to divert 
instructional dollars to keep the lights on. The failure 
through the years to adequately fund these line items results 
in minor repairs evolving into major repairs. For education 
program enhancements, the BIE requested an increase of $2 
million. It is not clear how this funding is to be used.
    The justifications for the program have been rather vague 
and the results seem minimal. There needs to be a fair and 
transparent process established by which the tribes can apply 
for such funding. We have questioned the funding of 26 FTEs 
with education program enhancement funds, and the proposed 
increase of 8 more FTEs in the Fiscal Year 2017 budget. The 
Bureau should consider transferring this line item to education 
program management budget to more accurately account for 
personnel.
    For school transportation, we support the retention of the 
Fiscal Year 2016 level of $4 million increase in 
transportation. Historically, the funding in this line item has 
been inadequate to cover the full cost of the transportation 
program. The shortfall means that the school must take funding 
out of instructional programs just to get the students to 
school.
    On the broadband and IT enhancement, BIA received only a $2 
million increase for information technology, far less than the 
$34 million actually needed. A great many innovative teaching 
techniques and materials, including testing materials, are 
based on digital platforms and cannot be used without such 
access.
    For the BIE school construction, we support the Fiscal Year 
2016 school construction funding level in the budget of $138 
million, but with an increase of $7.5 million for employee 
housing. The lack of adequate housing for staff is a 
significant factor in teacher turnover in our schools. The 
current backlog of repair costs for employee housing is $107.8 
million on Navajo Nation schools alone.
    We agree with the House report that reads, ``A more 
comprehensive long-term planning approach is needed for every 
campus and component facility in the BIA system modeled after 
the Department of Defense education activity.''
    On early childhood and family development, we support the 
increase of $4 million for the FACE Program. We also support 
the release of the 2013-2014 study and internal review of the 
program.
    On BIA education program management, we ask that the true 
implementation of the statute in 25 U.S.C. 2006(a) and (b) 
would involve a transfer of functions, personnel, and funding 
from BIA to BIE, as well as provide new funding. These 
statutory provisions are consistent with the GAO 
recommendations and with language in House Report 114-632 and 
Senate Report 114-281. And these are our recommendations for 
the BIE education system and the reorganization.
    On the budget analysis division for the 25 U.S.C. 2001(h) 
requires the comptroller general to conduct a study to 
determine the adequacy of funding and formulas used by the 
Bureau to determine funding for programs operated by Bureau-
operated schools. We believe these statutory mandates should be 
implemented.
    The GAO Report 13-774, states its intention clearly, citing 
problems related to the organizational structure, 
accountability, finance, health, and safety, and student 
performance. The Department's reorganization plan does not 
address the GAO's recommendation, and it is not in compliance 
with applicable statutes. The Department of Defense education 
system receives its total funding through its own DOD 
appropriation. It is, therefore, free to develop its own 
educational programs to meet the special needs of the students 
it serves.
    We recommend that the BIA set aside funding from the 
Department of Education and ESSA be transferred to the Interior 
budget for BIE. The BIE then should be required to have 
substantial consultations with the tribes' school staff and BIA 
funded school boards to further develop a unique education 
system based on self-determination and deemed most beneficial 
and effective for Indian youth.
    And I thank you for your time. I know it is going to be a 
long day for you, so thank you.
    [The statement of Ms. Jackson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Calvert. Thank you. Thank you, Ms. Jackson.
    Ms. Jackson. [Speaking native language.]
    Mr. Calvert. Next, Jerry Chavez, president of the Dine 
Grant School Association. Welcome.
                              ----------                              --
--------

                                           Wednesday, May 17, 2017.

                     DINE GRANT SCHOOL ASSOCIATION


                                WITNESS

JERRY CHAVEZ, PRESIDENT, DINE GRANT SCHOOL ASSOCIATION
    Mr. Chavez. Good morning, honorable chairman and committee 
members. My name is Jerry Chavez, president of the Dine Grant 
School Association. We are comprised by six Navajo BIE funded 
schools. As local school boards, we have both the greater 
freedom and the tremendous responsibility to ensure that our 
students receive high-quality, culturally-relevant education 
that will help them to reach the fullest potential.
    We take this responsibility seriously, and we would like to 
thank this subcommittee for playing an important role in our 
students' success. Thank you.
    Our highest funding priorities are travel grant support 
costs, facility operations and maintenance, ISEP formula funds, 
and BIE budget, as well as education construction and repair in 
the BIA budget. Today I am here to give our testimony of why 
Federal funding is important to our local schools in Navajo 
land.
    We need continued funding to maintain our facilities so we 
can provide a safe environment for our students to provide a 
high-quality education that will help our students achieve 
success. We want our principals, teachers, educational 
assistants, and all other key staff members to be up to date 
with training, and it costs money to provide them the tools to 
be effective in each role.
    Since 1988, tribally-operated schools have received funding 
for administrative expense incurred for the operations of our 
school through our administrative cost grant, now called tribal 
grant support costs. These funds are used for essential 
services, such as contract grant administration, program 
planning and development, human resources, insurance, physical 
procurement, and property management, and require annual 
audits, record keeping, legal and other overhead services.
    In Fiscal Year 2016, tribal grant support costs were fully 
funded for the first time in Fiscal Year 2017. Congress 
increased this amount at the BIE's recommendation to $80 
million. On behalf of Dine Grant School, we thank you for such 
an increase. The increase we received prevents from redirecting 
ISEP funds to funds to cover essential administrative costs 
that our school has done in the past.
    Consistent full funding of tribal grant support costs is a 
primary necessity for tribes to continue to operate schools, 
and for more tribes to decide to take on this responsibility. 
We are grateful for Congress' commitment to fully and 
willingness to work with tribal school boards and BIE to arrive 
at an amount that fulfills this obligation. Particularly, more 
schools convert from BIE operated to tribally controlled.
    The Indian School Equalization Program formula is a core 
budget account for educational and residential programs on the 
BIE elementary and secondary schools and dormitories. These 
funds are used for instructional programs at the BIE-funded 
schools, and include salaries for teachers, educational 
assistance, and principals. I want to share the importance of 
these funds and highlight where these funds are used.
    Professional development. Funds allow us to provide 
professional development for our staff so they can be better 
equipped to provide teaching strategies and align with Common 
Core. Student support services. Counseling, which are needed at 
our schools to address social needs of our students. College 
and career readiness are necessary to prepare our students to 
excel and be successful in higher education, or prepare them 
for potential career opportunities.
    Language and culture. These programs are developed based on 
our students' desire to learn our Navajo language and culture 
for self-identify and self-esteem. We can include you on the 
language immersion. [Laughter.]
    Mr. Calvert. I need it.
    Mr. Chavez. The $6.5 million program increase for a total 
of $400 million that Congress provided in Fiscal Year 2017 will 
be very helpful. However, it does not acknowledge the 
shortfalls that have been building for years. We respectfully 
request a total of $431 million for the critical budget 
category.
    Thank you for the opportunity to provide testimony on these 
critical matters. As we work to provide high-quality education 
for our students, we consider members of Congress to be 
partners in this endeavor. Thank you very much.
    [The statement of Mr. Chavez follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Mr. Calvert. Thank you. Thank you for your testimony.
    Next, Royd Lee. You are recognized for 5 minutes.
                              ----------                              

                                           Wednesday, May 17, 2017.

                NATIVE AMERICAN GRANT SCHOOL ASSOCIATION


                                WITNESS

ROYD LEE, PRESIDENT, NATIVE AMERICAN GRANT SCHOOL ASSOCIATION
    Mr. Lee. Good morning. Thank you, Mr. Chair. To start off, 
I would like to introduce myself in my Navajo language. 
[Speaking native language.] Thank you. Good morning.
    My name is Royd Lee, and I am the current president of the 
Native American Grant School Association, also known as NAGSA. 
I would like to take this time to write this testimony on 
behalf of our schools that work with Native American children 
from both the Navajo Nation and Hopi Tribe within the two 
States of Arizona and New Mexico.
    I am an enrolled member of the Navajo Nation. I am only 26 
years old. I come from a small community in northeast Arizona 
from a place called Shonto. I am a product of Shonto Boarding 
School before it converted into Shonto Preparatory School, a 
100297 school. I am currently serving as an elected school 
board member for Shonto Preparatory School.
    At age 26, I have seen the issues, and I feel for our 
Native American children that many still live in Third World 
conditions. I grew up with no running water, lack of 
electricity, and unpaved bus routes. And yet to this day, there 
is no excuse why our children live in these same conditions.
    Becoming the objectives of NAGSA testifying before you 
today is to advocate for our schools. Each of our schools face 
independent challenges. Overall, our schools still lack the 
resources to ensure that our students receive the best 
educational needs. Our school truly depends on funding for our 
school. Without the education community, it will vanish.
    Currently, NAGSA represents 16 schools with two residential 
halls, a second home for our Native American students, a total 
of seven schools on the Hopi side, and 9 schools on the Navajo 
side. Today I am here to represent both tribes. I am here to 
speak for those who cannot speak for themselves, primarily our 
students, because it is an ethical duty that I did to take the 
oath of office.
    Our students have the obligation to reach the potential, 
but yet with President Donald Trump's proposed plans and budget 
cuts, I positively protest in a positive manner that our 
funding should adequately stay the same. One percent can make a 
drastic difference. Our resources can deplenish. I am here for 
those because our students deserve equal education as those in 
the multicultural areas.
    And so, with that, with all of the promises and the 
credentials that our students need, it is crucial that we stand 
together as the Native American community that the budget cuts 
is not for us, and it will never be for us, because the EPA 
needs to do a vital role. We have 2 schools on the Hopi 
reservation that have high-level arsenic, and that needs to be 
looked into. With any budget cuts, everything that we look 
forward to is diminishing.
    We all share a common interest in the common issues that we 
have, teacher shortage. The teacher shortage is that we have a 
lack of housing. We need funding to increase better housing. 
The Navajo Nation is nearly the size of West Virginia, but yet 
we only have 13 grocery stores. And so, that is hard to recruit 
and retain our teachers.
    NAGSA is working hard with our member schools. As the 
president, I visit schools. I have attended school board 
meetings. I have looked at the conditions. I took the time and 
effort to make sure that our students are there for whatever 
purposes it is to receive the best education.
    On behalf of that, I am also an educator. I teach the 
Navajo language. I am a Navajo language teacher. So, with all 
these adequate resources, the ESSA needs to be left alone 
because the Federal level, we mandate so many requirements that 
it takes the time away from our school administrators to 
actually ensure that our students are ready for the Common Core 
and all endeavors that are replayed at the State and tribal 
level.
    Again, thank you very much that we keep everything the same 
it is, and I thank you, congressional leaders. Thank you.
    [The statement of Mr. Lee follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    Mr. Calvert. Thank you. Thank you, and I appreciate your 
testimony.
    Obviously education is extremely important, and I cannot 
think of anything more important than education throughout 
Indian Country, or throughout the rest of the country. And we 
have our challenges, and we are trying to face those challenges 
over the last number of years to try to increase funding for 
education in general, and obviously the school construction. 
And as I have mentioned to the previous panel, we are 
attempting to find a way to resolve this problem once and for 
all and get on with it. We have an obligation to do this, and 
we all agree that that's an obligation we need to meet.
    I appreciate your offer for a language immersion 
program.[Laughter.]
    I may take you up on it. Some people think I cannot speak 
English very well, so this would probably help me out.
    And as far as the budgets are concerned, we have been 
through Republican presidents and Democratic presidents, and we 
agree to disagree on occasion. And so, those budgets will be 
proposed, and the Congress will, as the Constitution outlines, 
put together the budget and the appropriation bills, and 
hopefully pass them in regular order as we all should do.
    And with that, Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. Thank you for your 
testimony. I think we have heard a very solid, united front 
from across Indian Country. I think we will hear from the 
Plains States and a couple more of the Great Lakes States 
tribes today on some of the same issues. I thank you for that.
    And thank you, at 26, for standing up and running for 
school board because sometimes students do not think the people 
serving on school boards really know what it is like to go to 
school. I think you speak with fresh experience of the struggle 
that students in Indian Country face when trying to focus in on 
their studies. So, thank you very much, Mr. Lee, for your 
testimony.
    Mr. Lee. Thank you.
    Mr. Calvert. Great. Thank you. Ms. Pingree.
    Ms. Pingree. Thank you. Thank you for your testimony.
    Mr. Calvert. Well, thank you. Thank you for your testimony. 
We appreciate your being here today. Have a great day.
    Voice. Thank you very much.
    Voice. Thank you.
    Mr. Stewart [presiding]. We welcome the panelists. Thank 
you for being here. And we appreciate your time, and we want 
you to know that we are here to listen to you, and that your 
time here is well spent, and it can make a difference.
    So, I am Congressman Stewart substituting for the chair 
today, and I believe Tom Miller from the Association of 
Community Tribal Schools. Mr. Miller, we will start with you, 
and you have 5 minutes.
                                           Wednesday, May 17, 2017.

                ASSOCIATION OF COMMUNITY TRIBAL SCHOOLS


                                WITNESS

TOM MILLER, CHAIRPERSON, ASSOCIATION OF COMMUNITY TRIBAL SCHOOLS
    Mr. Miller. Good morning, and thank you for the opportunity 
to testify.
    I am the president of the Association of Community Tribal 
Schools, and we are an organization that has been around since 
1982. In the schools, we represent a significant number of the 
130 schools and the 30,000 students that are in the BIE-funded 
system. There are approximately 21 States that have schools in 
them, and Minnesota is one Michigan, my area where I am from, 
the Great Lakes area. I am a member of my home tribe, which is 
the Sault Ste. Marie Tribe of Chippewa Indians.
    And these schools are operated directly by tribal governing 
bodies or tribal organizations, and they have to be authorized 
by tribal governing bodies. We have something that we have done 
for years that is now coming into schools of choice. Our 
schools, which started with the original tribally-controlled 
school, which was Rough Rock Demonstration School in 1966, we 
always say we are the original schools of choice, and we 
continue to be so nowadays.
    I would like to thank Congress for the modest increase that 
we saw in appropriations. We would like to see more, of course. 
And I think one of the last panel members highlighted something 
that happened. We had tribal grant support costs funded at 100 
percent for the first time in 50 years, so that is kind of a 
significant thing for us.
    Appropriations, of course, have been at we feel a modest 
level, but we would like to thank you for doing that. We feel 
increases in our five major elements areas, which are ISEP 
facility operations, facility maintenance, student 
transportation, tribal grant support costs, probably are in 
need of about $60 to $70 million a year. We are getting $13 
million in those areas this year. So, you can say when I say 
thank you for the increase, but a larger increase would be very 
well appreciated.
    The area of facility operation and maintenance, which I get 
into my area that I am really on is the facilities. And we 
would like to see a possibility of the $125 million for 
facility operation and maintenance be forwarded to kind of take 
us out of the political ping-pong game that we are kind of 
involved with right now, and allow the schools to at least plan 
and have secure funding for that 1 year because facilities are 
so important.
    Early childhood and family development. One of our key 
areas funded, but, boy, it could be funded a lot better, $3 
million. It could be $4, $5, $6. It is one of our top priority 
programs to enable our tribes to have more success when the 
children get to the K through 12 system.
    Facilities. The deterioration rate right now for the 
facilities that are in the BIA-funded system is $75 million a 
year. We do not even get funding to replace that. We are in a 
declining spiral downward movement on it, and we really need to 
have Congress look at adequately funding and developing a plan 
by which the schools would be able to be replaced in a timely 
manner so the facilities and the cycle of life of a school, 
which is 40 years, would mean something.
    If we go with the present rate right now, and I am not 
exaggerating this, it will be 120 years before the last school 
on the list is done. I do not plan on being around that long. 
You know, actually it is mind boggling when you look at the 
need and then the actual appropriations which are in place.
    ACTS is working on the fact that we could develop a plan 
with help from all the associations that are here for timely 
replacement of the schools and get the kids into quality 
educational facilities that will help us better educate them.
    The things like infrastructure, school construction, staff 
housing. One of the things that the schools have that most of 
the schools around the Nation do not have to worry about, 
teacher recruitment, teacher retention, that we need a housing 
factor to help get quality teachers there and to keep them 
there. That is something else that has not been funded 
adequately.
    The last thing I have got is we are looking at trying to 
get a study done where the tribes new school starts, which we 
have a legislative moratorium on which we would like to see 
lifted. A number of tribes want to expand grades, which have 
been blocked for the last 20 years. And then there is also the 
aspect with the BIE taking all the hits it takes on bad 
management. There might be a need for a separate agency to be 
formed similar to AIANTA, and maybe let us try to manage the 
thing through that. And those are ideas that are out there.
    With that, I thank you for the time, and I could go on for 
a few hours, but thank you.
    [The statement of Mr. Miller follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    Mr. Stewart. Thank you, Mr. Miller. We appreciate again 
your testimony. I would like to follow up on just one thing. 
You had $13 million this year. What was it in previous years? 
You said it was up a little bit.
    Mr. Miller. It has always been just a modest increase. It 
has never been near the need. The need and actual, they are 
light years apart.
    Mr. Stewart. You are saying $60 to $70 is a need, and maybe 
$125 for some of the facilities' infrastructures?
    Mr. Miller. Well, if you did the infrastructure stuff and 
you wanted to get rid of the backlog, which it deteriorates 
faster than replacement, you probably need a billion.
    Mr. Stewart. Yeah.
    Mr. Miller. It is a significant sting for the 
appropriations if you are going to actually do something 
significant and actually lessen or get rid of the problem.
    Mr. Stewart. We appreciate the frustration. Sometimes when 
the numbers are unknown year to year, it makes it very 
difficult, as you said, for future planning.
    Ms. McCollum.
    Ms. McCollum. I will wait.
    Mr. Stewart. Okay. Thank you. Thank you, Mr. Miller.
    Leander ``Russ'' McDonald then, who is representing United 
Tribes Technical College. Mr. McDonald.
                              ----------                              

                                           Wednesday, May 17, 2017.

                    UNITED TRIBES TECHNICAL COLLEGE


                                WITNESS

LEANDER ``RUSS'' MCDONALD, PRESIDENT, UNITED TRIBES TECHNICAL COLLEGE
    Mr. McDonald. Thank you. Good morning. I am Russ McDonald, 
president of United Tribes Technical College located in 
Bismarck, North Dakota. I am enrolled member of the Spirit Lake 
Dakota Nation, and a proud descendent of the Sahnish and 
Hidatsa Nations, all located in North Dakota.
    Thank you for holding this hearing to hear knowledge from 
tribes and tribal organizations regarding Fiscal Year 2018 
funding for Indian programs under your jurisdiction. There are 
very few public witness appropriations hearings this year, and 
we are very appreciative that you are devoting 2 entire days to 
listening to us.
    The United Tribes Technical College has been in the 
education and training business for 48 years. 40 of these years 
were operated under an Indian Self-Determination Act agreement. 
We are governed by a 10-member board of directors composed of 
the chairman and one delegate from each of the five tribes 
located in North Dakota.
    We are a residential college offering technical and 
academic education with support services to enhance the success 
of the individuals and families we serve. Our Indian student 
body comes from all over the Nation, but primarily from the 
Great Plains. Over 70 percent of our students receive Pell 
Grants. Our written submitted testimony tells our course 
offerings and data regarding our services and student outcomes.
    Before summarizing our recommendations, we want to thank 
you specifically for two specific things: number one, for 
$500,000 Fiscal Year 2017 increase in the Bureau of Indian 
Education budget for tribal technical colleges. This funding is 
shared with Navajo Technical University. And number two, for 
putting tribal technical colleges on a forward funded basis as 
of Fiscal Year 2016. Forward funding has made a positive 
impact, especially in years like this one when Federal agency 
funding is uncertain due to long-term continuing resolution.
    In summary, we request $11 for the Bureau of Indian 
Education line item for tribal technical colleges, which would 
be a $3.1 million increase over the Fiscal Year 2017 enacted 
level. Given the great need in Indian Country and elsewhere for 
a better prepared and trained workforce, this is a good 
investment.
    Continuation of full funding for contract support costs and 
placement of this funding on a permanent mandatory basis. As a 
self-determination contract, we are directly affected by this 
provision. Continuation of full funding for tribal grant 
support costs for tribally-operated elementary and secondary 
schools. We have a Bureau of Indian Education-funded pre-K 
through 7th grade school on our campus, the Theodore Jamison 
Elementary School, for whom this is very important. Many of the 
children of our United Tribes Technical College students and 
staff attend this school. We like the deal of parents and their 
children attending school on the same campus.
    Lastly, Northern Plains Tribal Law Enforcement Academy. We 
continue to feel strongly that there should be a tribal law 
enforcement academy in the Northern Plains. Establishment of 
such an academy is supported by the Great Plains Tribal 
Chairman's Association. The body of Indian law, including 
expanded tribal authorities under the Tribal Law and Order Act, 
the Violence Against Women Act, and requirements of the Indian 
Child Protection statutes, all call for tribally-directed 
training.
    We also have growing issues with drug addiction, and human 
trafficking, and crimes related to addiction. We understand 
that State and national training resources would have an 
important role in this new endeavor. Basic law enforcement 
training is currently provided to the Bureau of Indian 
Administration's police academy in Artesia, New Mexico, with 
the BIA using State academies to supplement what it provides. 
That is something that we could develop and provide a tribal 
college located on the northern tier of the United States.
    United Tribes Technical College already has a criminal 
justice program offering two- and four-year degrees. We want to 
expand our program to better help meet law enforcement needs in 
Indian Country. Given our criminal justice program, our 
location, and our campus resources, we propose the 
establishment of a Northern Plains Indian law enforcement 
academy, and ask that you support such an endeavor.
    Thank you for your consideration of our recommendations.
    [The statement of Mr. McDonald follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Now President Wilson. Ryan Wilson is president of the 
National Alliance to Save Native Languages.
                              ----------                              

                                           Wednesday, May 17, 2017.

               NATIONAL ALLIANCE TO SAVE NATIVE LANGUAGES


                                WITNESS

RYAN WILSON, PRESIDENT, NATIONAL ALLIANCE TO SAVE NATIVE LANGUAGES
    Mr. Wilson. Thank you, Congressman Stewart. I congratulate 
you for being appointed to this committee, too, and we always 
need new allies coming in. So, I am glad you are here with us.
    Just so I am being honest, I got jealous of the Navajos 
talking Dine here, so we will share a little bit. [Speaking 
native language.] Just saying that little bit, and we will on 
another day translate for you and so forth, but it is all good 
words, you know, yeah. [Laughter.]
    Mr. Stewart. We are trusting you, yeah.
    Mr. Wilson. Thank you. So, I will just jump right into it 
that we want to thank the committee for the Fiscal Year 2017 
report language where they allocated $2 million for immersion 
projects in these schools, and that came out of program 
enhancement. What our request here today is on behalf of the 
National Alliance is that we double that for this 2018 Fiscal 
Year.
    And we take the position that the urgent need and the 
crisis in language loss is so profound that it has to be done 
now. And we also thank the committee in Fiscal Year 2015. They 
had report language that really substantiated and documented 
for the first time in the history of this committee that they 
support immersion in these BIE schools. And then in Fiscal Year 
2016, they expanded the report language to include what Tom 
Miller was talking about, you know, expansion of BIE, there has 
been a moratorium on any expansion. But in that report 
language, you guys allowed expansion to occur if it was 
immersion school related to grandfather in community-based 
immersion schools and things of that nature.
    So, we are moving in the right direction, and I thank you 
guys for that. It means a lot. Many years ago, not to give up 
our age or so forth, but Congresswoman McCollum and I when I 
was a NIA, and others, we worked very hard on the Esther 
Martinez Native Language bill, which is in HHS.
    At that time, people kind of thought we were crazy talking 
about immersion schools, you know, and native languages as the 
medium of instruction. Yet the people in the beltway here are 
all familiar with immersion. They send their children to French 
immersion, and Spanish immersion, and Chinese language and so 
forth. And so, it was kind of really introducing a new concept.
    And I am scared to be sitting so close next to my brother-
in-law. We are not supposed to sit by each other, like this 
might be lightening hitting here or something. [Laughter.]
    But he is a leader in the tribal college movement. And back 
in the 70s, my mom worked very hard for passage of the Tribal 
College Act. At the time, they thought Indian Country was crazy 
thinking that they could handle tribal colleges, and these 
colleges were all being run out of portables and trailers and 
in the middle of nowhere, you know. And having the vision and 
being progressive, not liberal, just progressive in our 
thought. It is a sacred progression of next logical steps. So, 
this committee could take a big step in emboldening this budget 
specifically for the immersion.
    I would also ask you to pay high attention to detail in the 
report language because some of the same leadership in the 
Bureau was the same leadership that created this fattened 
bureaucracy that we see now with the middle management. They 
have been recycled from the Bush Administration, you know, back 
10 years ago. And you need to be cognizant of that, that I 
think we need higher specifics in directing funding and so 
forth. So, I, you know, wanted to share that little bit.
    There are always questions on who supports this, and as I 
indicated in the written testimony, this is supported by the 
National Congress of American Indians. This is supported by the 
National Indian Education Association for which I was a board 
member for 15 years and a former president. It is supported by 
the Rocky Mountain Tribal Leaders Council. It is supported by 
Tribal Interior Budget Council, who had two resolutions 
covering three different Fiscal Years to do this. It was 
supported by Great Plains Tribal Chairman's Association.
    So, tribes themselves have made, I think, you know, a 
cognizant decision that they are going to have to give up 
something somewhere to assure that immersion exists in this BIE 
system.
    In my written testimony, I explain the authority and what 
authority you have as a committee as well under statutes, you 
know, to do this, which is really broad based, and it also 
explains other justifications in here. In previous years, I 
have introduced probably a stack this tall of research, 
scientifically research-based things that show these are best 
practices in Indian Country as well.
    So, I will conclude by thanking you. As my brother-in-law 
said, it is not lost on us that you guys give up 2 days of your 
time. To us, we know that is like a year of your time. And I 
hope you continue to honor the tradition of this hearing and 
keep doing that. And it is good to see you guys again.
    Thank you.
    [The statement of Mr. Wilson follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Mr. Stewart. Thank you, Mr. Wilson. And I can pretty much 
assure you, I think, speaking for the chairman, that we will 
certainly continue with these 2 days. They are very valuable to 
us. So, thank you.
    Victoria Kitcheyan, who is with the Winnebago Tribe of 
Nebraska. Did I say your last name close?
    Ms. Kitcheyan. Close. Kitcheyan.
    Mr. Stewart. Kitcheyan.
    Ms. Kitcheyan. No ``yan.''
    Mr. Stewart. Okay. Thank you. And I turn time over to you 
for 5 minutes then.
                              ----------                              

                                           Wednesday, May 17, 2017.

                      WINNEBAGO TRIBE OF NEBRASKA


                                WITNESS

VICTORIA KITCHEYAN, COUNCILWOMAN, WINNEBAGO TRIBE OF NEBRASKA
    Ms. Kitcheyan. Thank you, Congressman Stewart. Good 
morning, Congressman Stewart and members of the committee. My 
name is Victoria Kitcheyan, and I am from Winnebago, Nebraska, 
and I serve as the tribal council treasurer. And I would like 
to thank you, this committee, Congress Fortenberry, his staff, 
and all those that have been with us on this ongoing crisis in 
the Great Plains.
    And as you know, Winnebago has the only federally-operated 
health facility to ever lose its CMS certification. So, for 2 
years now, we have not been able to collect third party revenue 
that our facility heavily relies on. As you know, IHS is 
underfunded, and this third-party revenue has been tragic, and 
the loss of services and support from that revenue has been 
detrimental to our tribe, our people, and all those that that 
facility serves.
    Collectively, it serves about 10,000 people, so it is just 
not the Winnebago in Omaha who are suffering. It is the 
tristate area who count on that facility.
    Mr. Chairman, as you know, the certification has been lost 
for 2 years, and I wish I could come here and tell you that we 
are close to regaining that certification. The tribe learned 
that May 1 we would submit an application, and then pending the 
CMS review in Pine Ridge and Rosebud, they decided to push that 
back, and for all logical reasons that seems like a good move 
to do another internal review, have the governing body look at 
this application.
    But I just come here yet again with no good news. We are 
not certified. We are pushing it back further. And, frankly, I 
am tired of coming here telling you the same thing over and 
over again. And you have been a great partner to the tribe, yet 
we need to support that effort so that we can make some real 
sustainable changes.
    While IHS is telling the congressional delegation that 
improvements have been made, the progress and the concerns of 
my council have grown greater. We have 51 vacancies at our 
service unit out of 202. That is a little over 25 percent. And 
without the funding and the personnel to correct this 
corrective action plan and see it through, our service unit 
continues to suffer.
    Additionally, we are up to $4 million in lost revenue from 
the CMS de-certification. And every day that we do not have 
that certification, we are losing and burning through the 
carryover dollars. So, it is unreasonable to think that we can 
deal with this crisis with a net loss of $4 million, a 25 
percent vacancy rate. And it is just not set up for success or 
for adequate healthcare.
    This is not to say that there have not been some 
improvements. Last fall, we got a new CEO. We had been asking 
for, like, 7 years, and just a cycle of administrators coming 
through with no continuity of healthcare nor administration. 
And so, although our CEO generally believes in his work, and 
works very hard, and works well with the council, this 
gentleman does not control the funding of the service unit, and 
we found great difficulty in just in his tenure on making these 
improvements.
    And just several days ago when I am telling you that I have 
great news to report that we have a CEO, I learned just 
yesterday that this CEO is going to be leaving our facility for 
family reasons. And it is like another tragedy. It is like 
somebody passed away. I mean, that is how critical our service 
unit is and how this is not good. So, I am sorry I am getting 
caught up in that.
    So, it is the lack of funding, the lack of personnel, that 
we are not going to be able to continue on under these 
circumstances. For all these reason, we are requesting 
assistance in obtaining a clearly identified portion of that 
additional funding that was just allocated for recertification 
issues. But without an administrator, all the funding in the 
world is not going to solve our problems.
    So, you can understand we are at a critical juncture in our 
recertification process. And not only that, this gentleman who, 
like I said, is highly respected by the council and has been a 
great resource, has to jump through hoops to get these critical 
positions identified as prerequisites to the recertification 
process filled. He goes to area, and area finance department 
says this is not in your budget, you cannot fill this position. 
What do you mean? We need this dietician. We need this AO. You 
know, it has to happen, but without this funding and it not in 
the budget, we are not making any progress.
    Additionally, the hiring freeze, although, you know, we are 
hearing that it is lifted, it is no issue, in the Great Plains, 
it is still an issue. We know that the area office can submit 
for exemptions, and I know that 19 exemptions were applied for. 
But as I said, we have 51 vacancies, and that 19 exemptions are 
probably across the Great Plains and not for Winnebago.
    So, when we ask for funding and we ask for continued 
support, it is to fill those vacancies to get out of jeopardy, 
to save lives. And it is just an urgent need.
    So, this ongoing certification, no later than October 1. If 
we do not certify by October 1, we are not going to be able to 
continue to operate at the already unacceptably low level, and 
then we do not collect anything. It is just unreasonable.
    So, we know that this committee has never failed to pass 
its budget out of full committee, and we appreciate that. But 
it is our colleagues or your colleagues at Congress that will 
kindly have to have to fund these needs, or we are just not 
going to come out of this rut. And it is hard to plan under a 
continuing resolution, and you can imagine more than one 
continuing resolution. So, it is really difficult to do this.
    So, I am here. I am worried. And I am just asking for your 
support. Rumors of future cuts in IHS and HHS, and it is those 
make difficult recruitment, difficult to save the jobs even 
going to be available. And so, we just ask for your continued 
support from this subcommittee, and we know that we you have 
always worked hard to fund these programs. So, I just thank you 
for your time and your full consideration in helping Winnebago 
out.
    [The statement of Ms. Kitcheyan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Mr. Stewart. All right. Thank you. To all of the panel, 
thank you again for being here and bringing these important 
issues to our attention. We sense your stress and concern, and 
it is apparent why that would be the case.
    I have a few follow-up questions I will do very quickly. 
But before I do, I will yield the time to Ms. McCollum, the 
ranking member.
    Ms. McCollum. Thank you, Mr. Chair. I think a theme that we 
were not hearing as articulately put until you raised it, Mr. 
Miller, is your very rural areas and rural schools--whether 
tribal nation schools, or rural schools, or rural hospitals--
are all facing a lot of challenges with housing, internet 
connection, and pay for teachers, law enforcement, for 
everything. It is very, very difficult.
    Then you add the continuing resolutions from Congress and 
some of the challenges, like the hospitals are facing, and 
people question do I want to take a job at someplace that is 
not accredited? It is creating a snowball effect, which is just 
making the situation feel all the more hopeless. But we want to 
work with you to turn that around. We cannot turn it around if 
we do not look at the problem face on.
    I do not know if you were here earlier when the Chairman 
and I mentioned we are going to be talking to our counterparts, 
whether it is homeland, housing, and the other appropriations 
committees, saying we want you to do your due diligence as to 
cuts and programming that you are doing in accounts that 
directly impact Native Americans. Because we could do 
everything we want in Interior, but if we are not looking cuts 
could be happening in the Justice Department. We are very 
fortunate with Chairman Cole being on this committee because he 
is watching what is going on in Labor, Health, and Human 
Services. But we need to have that happen with appropriations 
across the board.
    I wanted to ask if there has been movement to work on year-
round Pell Grants. Could you talk about how year-round Pell 
Grants, Mr. McDonald, would be helpful for your students? Then 
I have another question for you as well, too. You talk about 
your law enforcement training. Is there work within the State 
of North Dakota with some of their law enforcement schools to 
share resources? Some of it gets right down to shooting ranges 
and some infrastructure that is very expensive to build into 
law enforcement training.
    So, as you see yourself rolling this out, are you located 
in a situation where the State school system for higher ed 
would be willing to be cooperative? And where are the trade 
schools? Being from Minnesota, I am not in the Plains, but I am 
right next to it. I know the pressure for welders coming in 
from all around the country and trade schools working with 
technical school.
    So, if you could, just give me a little more background of 
what's going on.
    Mr. McDonald. Well, thanks for the question. First of all, 
the Pell Grants, the year-round Pell Grants, they are just 
going to be a phenomenal help to those students trying to 
complete their education. And I think what we are seeing out 
there in regard to our students is that they are excited about 
it. And visiting with some of them is that, because they want 
to go to school year round. They want to complete, and they 
want to get out there and get to work, so we are seeing that.
    And as the United Tribes Technical College, our roots are 
in the trade area. In fact, we have a waiting list. Our highest 
programs of interest there are welding and heavy equipment 
operating. And these are good salary, good career type jobs 
that are still needed within the State of North Dakota, 
especially because the oil boom is still going on.
    With regard to the other question and regard to the police 
academy is that there are resources within the Bismarck area. 
There is a highway patrol training facility there. Bismarck 
State College is located right up on the hill from us. 
University of Mary is located on the other side of the hill 
from us. And both of them have resources in regard to these 
areas.
    The other part is that we are not part of the North Dakota 
University System, but we collaborate often with the North 
Dakota University System. So, we work not in United Tribes 
Technical College, but the North Dakota Association of Tribal 
Colleges. There are five tribal colleges in North Dakota, and 
we all work closely in regard to course transfer and to help 
our students.
    If we do not have a program of study, maybe they get their 
generals done with us or vice versa. They either come to our 
college, or we come to their college, so we become feeder 
programs for one another to help get our students out the door 
and to get them out there working.
    Ms. McCollum. Are you looking at doing a 4-year law 
enforcement or a 2-year law enforcement? A lot of law 
enforcement have moved to the 4-year degree and then doing the 
post. I want to work to have law enforcement as you are 
describing it, tribally run, tribal leaders and that. But if 
you are going to be competing, how do we ensure they are not 
scooped off.
    You train them in, as other people have talked about 
earlier in the panel, and then they get scooped off. I will use 
an example. North St. Paul. When I was on the city council, the 
first year out of the academy, we would be able to hire. The 
bigger cities were looking to see who looked like they were the 
cream of the crop, right? Then after we had invested the first 
year of full police training, Minneapolis and St. Paul would 
come knocking at the door.
    So, if you are looking at doing the full 4-year, then we 
are going to have to look at what we do then for paying law 
enforcement well so that we do not start the cycle of you 
making all the investments, we are making all the investments, 
and then other people coming and taking the treasure.
    Mr. McDonald. Well, good points. For us, we already offer a 
2-year and 4-year. And what we are seeking to do is enhance 
that activity by providing the extra training that is provided 
already, and duplicating that work up in the Northern Plains, 
you know.
    But you are absolutely right in regard to faculty and some 
of the other issues, and this committee really recognizing what 
is happening in rural America. So, this is not just an Indian 
Country issue. This is a rural issue. And so, we see a lot of 
our teachers, our faculty, our police officers, EMS being 
pulled into the city because of better paying jobs.
    The other issues that were mentioned already is the lack of 
housing within our areas, the lack of transportation. Those 
things are just non-existent. And then we are looking at the 
younger workforce, and so there is not a whole lot of 
relationship if they are looking to get married or something, 
or build a family. And so, there are not a whole lot of single 
folks available out there either, you know, especially in North 
Dakota with our aging population.
    So, you know, there are things along those lines that I 
think are really recruitment efforts and retention efforts that 
would help us in regard to all these professions that are not 
there right now. And it is a really a rural issue.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Stewart. Thank you, ma'am. So, one very quick comment 
and then a question for you, Victoria, if I could. But, Mr. 
Wilson, it is just interesting to me that you we have an 
immersion program for some of these native languages. I had no 
idea that they were on the precipice of losing those types of 
skills and that type of thing was necessary. And we want to 
help you on that.
    Can you tell me what will it take to recertify? What is the 
key to that?
    Ms. Kitcheyan. So, 2 years ago when the hospital lost its 
certification, the service unit engaged in a further, I guess, 
an oversight of some sort, and they came up with a corrective 
action plan. And so, they have been working on that corrective 
action plan to move the hospital into good standing and ready 
to apply.
    And so, we have had several internal reviews. We have had 
Joint Commission come to ensure that we are ready. Well, Pine 
Ridge and Rosebud did not do well, so now IHS is scared that 
Winnebago is not going to do well either. And so, it is filling 
these vacancies and filling these positions so that we are even 
at the bare bones standard of what healthcare should be.
    Mr. Stewart. Yeah. Well, and it seems like that is a self-
fulfilling event because you lose the certification, and now 
people are hesitant to come. You lose a certain part of your 
revenue, and it becomes, again, kind of a death spiral, and it 
makes it much, much more difficult to recertify this as 
necessary.
    Ms. Kitcheyan. It has been a direct impact on patient care, 
and you are right, and the reputation of the place. So, it is 
hard to recruit. It is hard to get people to go there. I mean, 
it is just a multilayered crisis.
    Mr. Stewart. Have you been able to meet your payroll in a 
sense with this reduction in revenue? Is there any stress at 
all with meeting the current payroll that people----
    Ms. Kitcheyan. They are able to meet the payroll, but the 
current staff is, although they work hard, it is not adequate 
to man the ship.
    Mr. Stewart. Okay.
    Ms. Kitcheyan. And those 51 vacancies are direct deficiency 
to the healthcare that is provided.
    Mr. Stewart. Well, and that makes it hard on the people 
that are working hard there when they are covering for a 25 
percent deficit in personnel. And it makes it much more 
difficult for them.
    All right. Well, thank you. Again, Ms. McCollum, you are 
complete and you are good?
    Ms. McCollum. Yes, I am. Thank you. Thank you.
    Mr. Stewart. All right. So, in that case, this concludes 
the morning's hearing on American Indian and Native Alaskan 
programs. I want you to know, as I said, we will honor the 
trust responsibility that all Members of Congress have, not 
just those of us that are here participating with you today.
    Thank you once again for your time, and this hearing is 
adjourned, and the next hearing will begin at 1:00.
                                           Wednesday, May 17, 2017.

                           AFTERNOON SESSION

                              ----------                              --
--------


        AMERICAN INDIAN AND ALASKA NATIVE PUBLIC WITNESS HEARING


          SHOSHONE-BANNOCK TRIBES OF THE FORT HALL RESERVATION


                                 WITNESS

 DARRELL SHAY, ACTING CHAIRMAN
    Mr. Simpson. Welcome to the public hearing specifically for 
American Indian and Alaska Native programs under the 
jurisdiction of the Interior and Environment Appropriations 
Subcommittee.
    I especially want to welcome the distinguished tribal 
elders and leaders testifying today and in the audience. Most 
of you have traveled a long way to get back here this week, 
just as I did yesterday to get back here.
    I hope that you will seize the opportunity to meet with 
other Members of Congress outside of this subcommittee to 
remind them that honoring the Nation's trust obligations is a 
responsibility shared by all Members of Congress, regardless of 
our States or congressional districts. I can assure you that 
your voices are heard by this subcommittee.
    For those new to this process, today's hearings are just 
the start of a dialogue we have come to depend upon to help us 
make smart choices in the budget and to earn the votes of our 
colleagues. American Indian and Alaska Native programs will 
continue to be a nonpartisan priority for this subcommittee, 
just as they have been in recent years under the chairmanships 
of Democrats and Republican alike.
    Before we begin, I have a bit of housekeeping items to 
share. Committee rules prohibit the use of outside cameras and 
audio equipment during the hearings. The hearings will be 
viewed and can be viewed in its entirety on the committee's Web 
site, and an official hearing transcript will be available at 
GPO.gov.
    I will call each panel of witnesses to the table one panel 
at a time. Each witness has 5 minutes to present their 
testimony. Your full written testimony will be included in the 
record. So please don't feel pressured to cover everything in 5 
minutes.
    Finishing in less than 5 minutes may even earn you more 
brownie points. We have to abide by the 5-minute rule in order 
to keep on schedule with the many, many different witnesses we 
have, and we want to hear from all of them.
    So welcome. We are glad to have you here today. We will be 
using a timer to track the progress of each witness. When the 
yellow light turns yellow, the witness will have one minute 
remaining to conclude his or her remarks. When the light blinks 
red, I will have to ask the witness to stop.
    We will hear from every witness on each panel before 
members will be provided an opportunity to ask questions. 
Because we have a full day ahead, I request that we try to keep 
things moving in order to stay on schedule and respect each 
other's times. I am sure many of you have planes to catch.
    With that, I thank you all again for being here today, and 
I am happy to yield to our distinguished ranking member, Ms. 
McCollum, for any opening remarks she might have.
    Ms. McCollum. Mr. Chair, I have heard about these brownie 
points for a couple of days. Did you bake any brownies?
    Mr. Simpson. Oh, yes. And I am good at it.
    Ms. McCollum. All right. No, I sincerely thank you all for 
coming here. This has been a very enlightening day and a half, 
and I look forward to the last section teaching me even more on 
how to be more effective in doing my job for Indian Country.
    Thank you.
    Mr. Simpson. Our first panel is Darrell Shay, the acting 
chairman of the Shoshone-Bannock Tribes; Mary Jane Miles, 
chairman of the Nez Perce Tribal Executive Committee; Rodney 
Mike, chairman of the Duckwater Shoshone Tribe; and Ted Howard, 
chairman of the Shoshone-Paiute Tribes of the Duck Valley 
Reservation.
    Darrell, you are first.
    Mr. Shay. Thank you.
    I want to introduce myself. My name is Darrell Shay. I am 
the acting chairman of the Shoshone-Bannock Tribe, and I wanted 
to mention one of my ancestors, you guys probably know about 
her, is Sacagawea.
    I come from what we call the Agaidika band of Shoshone, but 
we got moved over to Fort Hall. We are part of the Shoshone-
Bannock Tribes from Fort Hall, Idaho, now. So I just wanted to 
mention that.
    I wanted to thank the committee for this opportunity. From 
what I understand, it is a really important committee, you 
know, when we are talking about financing. And then I wanted to 
thank Representative Simpson for all the efforts he has done 
for Indian Country over the years, even being the chairman of 
this committee.
    And I guess, you know, my testimony will be kind of guarded 
because that painting there, I have witnessed that group of 
people many times in my lifetime coming up. And you know, the 
women of our tribe are really strong, and they provide a lot of 
guidance for us. So that is an appropriate picture to be 
sitting here, especially if Shoshone people talk. Most Shoshone 
people will identify with strong women like that.
    So, today, my remarks will pretty much focus on the efforts 
to protect my people from all the different things that are 
going on. One of the things that we have is infrastructure that 
is old and deteriorated that we inherited from the Bureau of 
Indian Affairs. Most of the stuff was built back in the '40s 
and the '50s, and since we have taken over it, we have had to 
deal with that. They are old. They are unsafe.
    Another area is in the environment. We have a lot of 
contaminated water. A lot of our land is contaminated, both on 
the reservation and for off reservation because we exercise 
off-reservation treaty rights.
    Another important area that you guys have been dealing with 
kind of on the national scene, but it hits us harder at home, 
is the healthcare. You know, we depend on the funding that is 
available to us, and it is critical.
    And the Treaty of Fort Bridger, 1868 treaty, required the 
U.S. to protect the Shoshone-Bannock people, and our land on 
the reservation is considered our permanent home now. I mean, 
we were nomadic in the earlier days, but that is our home now 
and we can't go anywhere else. So we have to take extra care to 
protect it.
    And there is another picture here. I have an assistant. He 
is not Vanna, but probably more like the Lone Ranger. 
[Laughter.]
    I am Tonto, but he is my assistant. It is right there. It 
kind of points out the off-reservation treaty rights, the 
exercise of it, our culture and stuff.
    Then we have the health clinic. It was built in the late 
'70s. And then our high school, they are there. And then there 
is another picture of somebody that you are going to recognize. 
He is standing right there.
    But even though we have some of the modern, up-to-date 
facilities, we still need the financing to run the programs 
within those facilities. So that is important there, and we 
urge the committee to provide as much adequate funding as we 
can to address our needs there in Indian Country.
    Like I said before, we inherited old BIA roads. They are 
unsafe. They are probably substandard. You know, they cause a 
lot of, like, wrecks. You can't touch the shoulder of the road 
before you end up rolling over, and a lot of these roads are in 
the back country of our reservation.
    They used to be called farm-to-market roads, but we are 
running out of space to develop so some of our housing gets 
developed along those roads, and they are used more by our 
people rather than the farmers.
    There is other infrastructure needs that I provided in my 
written testimony about the sewer and water upgrades that we 
need. We have a lot of contaminated water that we have to deal 
with, both from the industries that are adjacent to the 
reservation as well as from agriculture.
    Going to the environment, I would like to urge the 
committee to protect funding for the tribal programs that are 
provided by EPA. And EPA has become one of those agencies that 
is, I guess, responsible for contaminated water, the air, and 
the land, and our people are getting sick from a lot of that. 
We are noticing a lot of respiratory illnesses and even some 
cancerous development.
    And even off the reservation and both on, our traditional 
ways of life and culture depend on that. A healthy environment 
helps us protect that, and we depend on the EPA.
    One of the things that we continue to do is spearfishing up 
there on that picture, and that takes place every summer. We 
have two Superfund sites that are located on the reservation. 
One of them is called the Eastern Michaud Flats, and then the 
other one is the Gay Mine, and both of them produced phosphate 
at one time.
    And the two sites that process these things are closed now, 
but just because they are closed and not there, they still--the 
effects of their contamination and, you know, their legacy is 
creating an unsafe environment there.
    Speaking of the EPA, we have developed a love-hate 
relationships with them. And but the solution that we keep 
hearing is that--and it is not, the solution is not to slash 
their budgets. We want to make them work to protect our land, 
and we have been. We request this subcommittee to direct the 
EPA to clean up and remove the contamination at those sites and 
direct the Department of the Interior to work with the EPA and 
the tribes on this matter.
    Going to the health area, and Indian Health Service mainly, 
we urge the committee to fully fund the Indian Health Service 
because, you know, our Indian people are getting sick, and they 
are hurting from the unsafe infrastructure, the environment, 
the contamination, and along with that, we have the problems of 
substance abuse, you know? We have a pretty modern health 
clinic over there, but if we don't have the financing or the 
doctors and the staffing needs, it doesn't help very much if 
you have that.
    So substance abuse and the other conditions are leading to 
extreme violence, and we are noticing that. Just so you know, 
at one time, Fort Hall, in the 1960s and the '70s, our tribe 
had one of the highest rates of suicide in the United States. 
And unfortunately, we are seeing more and more of that come 
back again, and we don't want it to escalate to any rates 
higher than what it is.
    So we urge the subcommittee to prioritize these community 
wellness initiatives because we don't see very much funding in 
the area of wellness. We want to create a wellness center as a 
way to, I guess to combat a lot of the illnesses. Rather than 
treating them after they happen, we want to try to prevent them 
from happening.
    So I want to thank you for your consideration, and I hope I 
made some brownie points.
    [The statement of Mr. Shay follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    Mr. Simpson. Thank you for being here today. You went on a 
couple minutes longer than 5 minutes, and that comes out of 
Mary Jane's time. [Laughter.]
    Mr. Shay. Uh-oh.
    Mr. Simpson. I am just kidding. Mary Jane. Go ahead.
                              ----------                              

                                           Wednesday, May 17, 2017.

                  NEZ PERCE TRIBAL EXECUTIVE COMMITTEE


                                 WITNESS

 MARY JANE MILES, CHAIRMAN
    Ms. Miles. Thank you, Mr. Chairman and subcommittee. I 
appreciate the time, and I say [speaking Native language]. That 
is ``thank you'' in Nez Perce.
    And I acknowledge and express our deep gratitude that the 
subcommittee affords us in time and in monies that you look for 
for our programs on our tribal reservations.
    And I say [speaking Native language] for our appreciation 
in the recently enacted Fiscal Year 2017 Consolidated 
Appropriations Act, and it increased funding in BIA, BIE, and 
IHS. Increased it to $60 million and $232 million, hugely 
significant to the citizens of our tribes and liken to 
restoring and maintaining habitat for all the creatures that we 
subsist on.
    [Speaking Native language] also for the funding for the 
contract support cost to IHS and BIA, and we hope this funding 
continues. I will summarize recommendations that our tribe 
requests in our letter to you or our testimony, written 
testimony to you.
    The Environmental Protection Agency. These programs and 
services does for the tribe what we want to do ourselves to 
keep the Nez Perce reservation in ideal condition for the 
animals and the fish.
    Idaho experienced a record-setting year of 2012, 2014, and 
2015 in wildfires. The result was extremely poor levels of air 
quality, and the tribe's air program provided critical health 
benefits for tribes and nontribal members in our area.
    The tribe addresses pollution from underground storage 
tanks, brownfields, and we recommend, one, Indian General 
Assistance Program funded be at $75 million; two, tribal 
allocation under Clean Water Act 106 program increase to 20 
percent; three, $13 million for tribal air quality management; 
four, $80 million for brownfields program; five, $13 million 
provided in lieu of percent cap on tribal funding for nonpoint 
source pollutant control.
    Indian Health Service. We have two clinics, Nimiipuu 
clinics, one at Lapwai and one in Kamiah. They serve 3,950 
clients each year, computing to 40,000 visits. We still have to 
rely on third-party billing and supplemental funding to ensure 
timely, effective service to our clients. We ask to continue 
the $5 billion funding enjoyed in the 2017 and have an 
increased purchase/referred care to $51.9 million.
    Fish and Wildlife Services. We rely heavily on the U.S. 
Fish and Wildlife Service, which manages the Kooskia fish 
hatchery. Recently, we lost 60,000 juvenile due to a 
malfunction of a switch that didn't turn back on. The Lewiston 
Morning Tribune reported it, and there was a general pall of 
dismay over the workforce. I was expecting to get a sympathy 
card, ``Sorry for your loss.''
    Through these grants, tribes worked on diverse issues, as 
wolf monitoring, Big Horn sheep research, rare plant 
conservation, and condor habitat research. We urge increased 
funding, $66 million in increased tribal share by $2 million. 
They provide a large return for a small investment. These 
grants are a few of the sources of funds that we can tap into 
for wildlife management.
    The Nez Perce Tribe has long been a proponent of self-
determination for tribes and believe our primary obligation is 
to protect the treaty-reserved rights of the tribe and its 
members. This work cannot be accomplished unless the United 
States continues to affirm and follow through on its trust 
responsibility to tribes by properly funding programs. All of 
the work of the tribe is guided by this principle.
    Congressman Simpson has asked to bring members of this 
subcommittee to Idaho, and the Nimiipuu would welcome you to a 
land that we share with the deer, elk, moose, bear, wolf, Big 
Horn sheep, mountain lion, that watches the eagle announce the 
return of the salmon, alongside the trout and now the coho.
    Come to one of our pow wows. It is no longer a place where 
we are contemplating a war. We are just having fun and enjoying 
our culture. Come and join us.
    Thank you.
    [The statement of Ms. Miles follows:] 
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    
    Mr. Simpson. Thank you, Mary Jane.
    Rodney.
                              ----------                              

                                           Wednesday, May 17, 2017.

                        DUCKWATER SHOSHONE TRIBE


                                 WITNESS

 RODNEY MIKE, CHAIRMAN
    Mr. Mike. Thanks for allowing me to come and visit with you 
folks. I must say that you guys have a really busy city here.
    This is the first time I have been on the east coast. I 
have never been past Colorado. So it has been a real adventure. 
So I am really impressed by the country here.
    Mr. Simpson. There is an old song that goes, ``If I ever go 
east of Denver again, it will be too damn soon.'' [Laughter.]
    So those of us in the West understand that.
    Mr. Mike. Yes. Yes, it is beautiful here, beautiful. But it 
is a busy place, and I know you guys are busy people.
    Give you a brief history. I am the chairman of the 
Duckwater Tribe. We are located about 4 hours north of Las 
Vegas in the central part of Nevada, more on the east coast by 
the Utah side. Very small community, about 420 people. Total 
enrollment, about 150, give or take who is home on the weekend, 
you know? So very small place.
    We are one of the very first seven tribes that was a self-
governance tribe. We are kind of proud of that, but funding is 
always an issue. Money is always an issue and probably will 
always be an issue.
    But when we hear of budget cuts, sequestrations, and things 
like that, that really affects us, and it affects us deeply 
because of our funding. We have no economical development in 
our area. We are looking for things that can possibly down the 
road in the future give us that, but being where we are located 
at, it is very difficult.
    We live in a State that is known for mining. It is probably 
one of the richest States in the country, but yet we are so far 
away from that, and our resources are just not there. So the 
funding that is provided is very, very important. I don't know 
how to stress that.
    Our population base is 50 and over is the huge part of that 
population base. The young people no longer stay there because 
they can't. There are no jobs there. The tribe provides most of 
the employment for the people that live there.
    We have ranchers there, but ranching does not, cannot stand 
alone. They have to find jobs to support. So without funding on 
the IHS side and the BIA side, it becomes very difficult for 
our people.
    Our remote location, we have to travel quite a ways to get 
the basics, 75 miles to go get a loaf of bread, tank of gas, 
you know, things like that. It is normal for us, but it poses a 
problem, especially when it comes to healthcare for our people 
because location is not exactly attractive for physicians and 
nurses and things like that that we need.
    We just expanded our health clinic, and trying to find a 
doctor to come and work there has been really difficult. When 
they find out the nearest Wal-Mart is 3 hours away towards 
Ted's country, they don't really want to come.
    So these are some of the issues that we are faced with. And 
healthcare is a really big one. It really is, like I said, with 
our population base being 50 and over, the majority of the 
population base being 50 and over and the elders.
    We also have an infrastructure problem with roads also. Our 
roads are dilapidated. They have been there for a lot of years. 
There is a one way in situation dirt road on the other end out 
going to the next town. We live in a big, long valley. We have 
our non-Native friends down below us. So we all share the same 
problem. They also have to deal with the dirt road whenever 
they need to go north.
    So, what I would like to ask of you guys is to see that the 
contract support continues, very needed in our country, both on 
the IHS and the BIA side, and see that sequestration does not 
affect IHS.
    See that we have funding for diabetes which happens to be a 
really big problem in Indian Country. I am a member of that 
club, I guess you can say. But without what I have learned from 
education and dieting and things like that, I probably would 
have never known.
    But anyway, that is my spiel, and I want some brownies. So 
I am going to quit, and I thank you very much.
    [The statement of Mr. Mike follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    Mr. Simpson. Thanks, Rodney. I appreciate it.
    Mr. Mike. Thank you.
    Mr. Simpson. Ted.
                              ----------                              

                                           Wednesday, May 17, 2017.

          SHOSHONE-PAIUTE TRIBES OF THE DUCK VALLEY RESERVATION


                                WITNESS

TED HOWARD, CHAIRMAN
    Mr. Howard. Thank you.
    Good afternoon, Acting Chairman Simpson, Ranking Member 
McCollum, subcommittee members. My name is Ted Howard, and I am 
the chairman for the Shoshone-Paiute Tribes. Our reservation is 
half in Idaho and half in Nevada and almost dissected down the 
middle.
    Thank you for inviting me to testify here today concerning 
the fiscal year 2018 budget for the BIA, BLM, and the Indian 
Health Service. The Shoshone-Paiute Tribes are grateful for 
this subcommittee's longstanding support for Indian tribes and 
for sharing your understanding of Indian Country with your 
House colleagues.
    As you have done for fiscal year 2017, I ask that you 
reject the administration's budget blueprint for fiscal year 
2018, which calls for unwarranted reductions in nondefense 
agency appropriations important to tribes. If enacted, the 
budget would cause great harm to tribal communities and to 
Native Americans, who, more than most Americans, rely heavily 
on Federal appropriations across multiple Federal agencies, not 
just the Interior and Department of Health and Human Services.
    Our priorities for fiscal year 2018 include the following. 
With regard to the Indian Health Service, we appreciate the 
$232 million increase provided for 2017 for the Indian Health 
Service and request an increase in funding for clinical 
services, including purchase/referred care, contract support 
costs, and facilities construction.
    We are a remote reservation and would like to expand our 
health programs to our 2,000 tribal members. We urge the 
committee to continue its current approach of employing a 
separate and definite appropriation for contract support costs.
    With regard to the BIA funding, we ask the committee to 
continue its commitment to public safety on tribal reservations 
by providing increases to the BIA public safety and justice 
program next year. The BIA struggles to provide adequate law 
enforcement services on the Duck Valley Reservation. We 
received a modest $250,000 in supplemental funding to fight 
recidivism on the reservation under the BIA's Special 
Initiatives Program, and we are seeking--just a minute.
    And we are working to develop alternatives to incarceration 
with limited facilities and program personnel. It is a 
struggle. An increase in funds would help us renovate FEMA 
trailers that we plan to use for education, family support, for 
incarcerated youth, equine activities, emergency medical 
services. We estimate a $2.5 million budget for the 
infrastructure for these programs.
    We also request statutory language which authorizes the 
purchase of temporary trailers and modular units using Special 
Initiative funds. For rural communities, housing is often the 
linchpin to program success.
    Regarding the BIA Road Maintenance Program, we appreciate 
the $3.6 million increase and ask the committee to add an 
additional $10 million in fiscal year 2018. That should be 
prioritized for the purchase of replacement heavy road 
maintenance equipment in rural regions like Western Region and 
BIA Eastern Nevada Agency.
    The Western Region has the highest percentage of BIA system 
roads, 26 percent. Our equipment is ancient, and repair shops 
do not carry the parts anymore.
    While BIA or IHS may not be the primary agency for 
broadband, we ask the committee to increase funding for this 
much-needed utility. We require $500,000 in Federal funds to 
construct a new fiber network.
    Regarding the Bureau of Land Management, please provide the 
funding for the Owyhee initiative, a joint effort by ranchers, 
recreationists, county and State officials, and the Shoshone-
Paiute Tribes to protect sacred lands and manage public lands 
in the tri-State area of Idaho, Nevada, and Oregon.
    Increased recreational use in the Owyhee River Wilderness 
Area threatens cultural resources. BLM's Boise District has 
three to four rangers to cover three million acres of land. We 
seek recurring funds to pay our chief tribal ranger, continue 
flying patrols, hire an assistant director tribal ranger and 
part-time youth rangers.
    We contribute the vast majority of the required budget, but 
it is a burden. We seek $600,000 to fully fund these important 
activities that support our culture.
    We also support additional funds for the BLM cultural 
resources management to protect historic properties on public 
lands and request Interior funding to expand the native plant 
program and our greenhouses. We cooperate with the BLM to 
propagate and make available native seedlings for planting on 
public lands.
    Finally, please increase the BIA's Trust-Natural Management 
and its Tribal Management/Development Program, and Fish, 
Wildlife, and Parks Program to support the tribe's program to 
return salmon to the Duck Valley Indian Reservation, which had 
been a staple food source for our people up to 1930 when dam 
construction along the Columbia and the Snake River cut off our 
reservation from the salmon runs.
    And we have returned salmon to the reservation waters in 
2015 and 2016 and took them by spearfishing. Please support our 
trap and haul program.
    Thank you.
    [The statement of Mr. Howard follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Simpson. Thank you all.
    Obviously, this is a panel that is near and dear to my 
heart, being from Idaho and northern Nevada. I know there is a 
great deal of needs there, and I do hope to get the committee 
out--we have talked about this for a while--and visit some of 
the tribal lands out in Idaho and let them see what is going on 
at the various places.
    So I thank you for your testimony. I know that Chairman 
Calvert and Ranking Member McCollum have done a great job, I 
think, in this last budget in trying to protect funding for 
those programs that are vital to Native Americans, and I am 
sure they will continue to do that in the future. And it has 
been a bipartisan effort.
    So appreciate you being here. I just was coming back to 
Washington a couple weeks ago, and I was walking through the 
airport, and there was a book there that had just come out 
called Thunder in the Mountains. And so I picked it up and read 
it, and it was the fascinating history of the Nez Perce war and 
General Howard and Chief Joseph and stuff. It was really very 
thorough and very interesting, yes.
    So, anyway, thank you all.
    Betty, did you----
    Ms. McCollum. I appreciate the tribal nations speaking up 
on behalf of the work that the EPA does, both in land and in 
water and the Superfund sites, too. Because lots of times when 
people think of Superfund sites, they think of big industrial 
area chemical spills and things like that. They are not 
thinking of what is actually happening out in rural America.
    We are going to have the EPA Administrator at some point in 
to testify, and I really appreciate you speaking up and 
speaking out about this and the work that they do because, as 
you know, that budget is one of the ones to be targeted for the 
biggest cuts.
    So thank you very, very much for your words.
    Mr. Simpson. And while I shouldn't say this. But that has 
never stopped me before.
    Ms. McCollum. Do you want me to cover my ears?
    Mr. Simpson. Yes, between me and you and the walls here, I 
am not too worried about the Trump budget because, frankly, I 
just don't think it could pass, you know? There are too many 
things in there that are slashed and burned and things that 
Members of Congress care about, and our tribal responsibilities 
are part of that.
    So it was interesting to hear the request for funding on 
the Owyhee Initiative. I want to sit down and talk to you a 
little bit more about what needs to be done on that. I know 
that was an effort by Senator Crapo and getting that important 
bill passed. But now it has to be funded in a variety of ways. 
So I want to work with you on that.
    So, anyway, thank you all for being here, and we will be 
out as soon as I get--Darren is going to want to come to Idaho 
again. He has been out once. [Laughter.]
    Anyway, I am going to have to adjourn for just about 15 to 
20 minutes before we call the next panel. We have two votes, 
and we will be back ASAP. Shouldn't take more than about 15 
minutes, and then we will call our next panel up, okay?
    Thank you.
    [Recess.]
    Mr. Calvert [presiding]. Good afternoon. Our hearing will 
come to order.
    Our second panel, we are joined by Tony Small, councilman 
from the Ute Tribe of Utah; Levi D. Carrick, president of the 
Chippewa Ottawa Resource Authority; and Patrick Roberts, health 
policy fellow, the National Native American AIDS Prevention 
Center.
    So welcome, and we will start with you, Mr. Small, for 5 
minutes.
    Thank you.
                              ----------                              

                                           Wednesday, May 17, 2017.

                           UTE TRIBE OF UTAH


                                WITNESS

TONY SMALL, COUNCILMAN
    Mr. Small. Good afternoon, Mr. Chairman and members of the 
subcommittee. My name is Tony Small. I am the vice chairman of 
the Ute Tribal Business Committee.
    Thank you for this opportunity to testify on behalf of the 
Ute Indian Tribe and the Uintah and Ouray Reservation. We ask 
that the subcommittee take action on two issues that are vital 
to us and many other tribes. We need the subcommittee's 
immediate support for our new justice center, and we ask for 
your continued support for Indian energy development.
    First, we need $4.85 million in annual funds to staff and 
operate our new justice center. We have been waiting for BIA to 
replace our original BIA jail for more than 10 years. In 2006, 
our BIA operated and funded jail was condemned. We spent many 
years near the top of BIA's priority list, but nothing 
happened. Instead, BIA paid to house a few detainees in the 
county jails.
    After it became clear that both the BIA and the Department 
of Justice had stopped funding the construction of detention 
facilities, we had no choice but to act. We spent the last 5 
years designing and building a new $36 million BIA justice 
center.
    We built this new BIA justice center with our own money. 
Construction followed strict Federal requirements and was 
supported by BIA's Office of Justice Services. In August 2016, 
the new facility was opened. As you can see, we have the 
justice center, pictures of the justice center there.
    The justice center includes our tribal court, our BIA 
police command center, and is available to be BIA's primary 
adult and juvenile detention facility. But today, the jail is 
only partially open. This is due to the lack of BIA operating 
funds.
    This is why I am here. We need our BIA jail money back. We 
need it updated to accommodate our current needs. Our needs 
have increased from gangs and drugs being brought onto our 
reservation. BIA has an average of 39 adult prisoners to 14 
beds.
    Let me be clear. The UTE Indian Tribe has done its part by 
funding construction of the BIA's justice center. The Federal 
Government has a treaty and trust responsibility to provide law 
enforcement on our reservation.
    Our new justice center could be a national leader for 
providing alcohol and substance abuse treatment, but we can't 
do any of this without your support. We ask that you open up 
Medicare and Medicaid funding to help support alcohol and 
substance abuse treatment for detainees.
    Many studies show the relationship between addiction and 
crime on Indian reservations, but current law prevents Medicare 
and Medicaid funding from helping to solve the problem. Current 
law also restricts IHS and the Substance Abuse and Mental 
Health Service Administration from treating addiction in tribal 
and Federal jails. How can we fix this problem if we cannot 
treat those that are most in need?
    The Ute Indian Tribe strongly supports Federal policies 
promoting alternatives to detention. These are cost-effective 
solutions that treat the real cause of criminal activity, but 
without Medicare and Medicaid and IHS funding, alternatives to 
detention will never become a real alternative.
    The second issue we need your immediate action on is 
funding for Indian energy. And we appreciate the subcommittee's 
support for BIA's Indian energy service center. In fiscal year 
2016, the subcommittee provided $4.5 million to establish a 
service center. The center will support efforts at the local 
level to process energy permits.
    To support the work of the service center, we ask the 
subcommittee provide $13 million needed to fully fund the 
service center so that it can open and begin operating as soon 
as possible. Just like the law enforcement, supporting Indian 
energy is an area where this subcommittee can make a real 
impact in the lives of tribal members.
    Indian energy funds are government and services we provide 
our members. It also employs thousands of people and supports 
economic activity across our region.
    Despite these benefits, BIA's budget for oil and gas 
development is usually about 3 percent of the funding BLM 
receives for oil and gas development on Federal lands. BIA 
energy budget is about the same as Fish and Wildlife Service 
energy budget. This is unacceptable. Tribal governments provide 
lifesaving and essential services to our communities.
    The Federal Government support for tribal law enforcement 
and justice must be increased to meet the need, and we need a 
budget bigger than Fish and Wildlife Service budget to unlock 
the potential of our energy resources.
    Finally, we ask that you fund BLM and Forest Service work 
on Bears Ears National Monument. We understand that Congressman 
Chaffetz asked that you not provide any funding for agency work 
related to Bears Ears. Bears Ears is a sacred landscape that 
needs protection.
    Thank you for the opportunity to testify. I am available 
for any questions you may have. Thank you.
    [The statement of Mr. Small follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Mr. Calvert. Thank you.
    Next we have Levi Carrick, Chippewa Ottawa Resource 
Authority. You are recognized for 5 minutes.
                              ----------                              

                                           Wednesday, May 17, 2017.

                   CHIPPEWA OTTAWA RESOURCE AUTHORITY


                                WITNESS

LEVI D. CARRICK SR., PRESIDENT
    Mr. Carrick. Thank you, Mr. Chairman, members of the 
subcommittee.
    My name is Levi Carrick. I am the president of the Bay 
Mills Indian Community, which is a little reservation fishing 
village on the east shores, the east end of Lake Superior where 
the Ste. Marie's River dumps all that clean water down into 
Lakes Huron and Michigan through an 80-mile river system.
    So, but I am here on behalf of Chippewa Ottawa Resource 
Authority, which is an intertribal resource management 
organization that was established by the five federally 
recognized Indian tribes in the State of Michigan whose 
ancestors signed the treaty of March 28, 1836. This treaty 
reserved the right to hunt, fish, trap, gather on the lands and 
waters that were ceded to the United States.
    This area encompasses about two-thirds of the State of 
Michigan, the land mass and the large portions of Lake 
Superior, Michigan, and Huron. So it is a vast area. CORA 
provides for the management and preservation and enhancement of 
all species and habitats which are within this area.
    I requested the opportunity to testify today just to 
personally express CORA's appreciation for the Rights 
Protection Implementation Program, RPI--easier to say that way, 
right?--funding request for CORA that is contained in the 
President's 2018 budget for Department of Interior.
    RPI funds enable CORA's tribes and their members to 
regulate and exercise the reserved right to hunt, fish, trap, 
and gather on the lands and waters. But I have to say the RPI 
funds we do receive are nowhere near enough to accomplish what 
is needed to protect the resources. It seems like every day we 
hear of a new invasive species that we have to deal with. 
Whether it be a plant, animal, microscopic, we have to find a 
way to deal with it, and they are coming more and more.
    So we do this management through different funding sources 
in addition to the RPI. I guess, when we don't really say 
``climate change'' anymore. I think the new administration does 
not like that term, but that funding that was available was a 
help. But now in the most recent Green Book, it is on a 
competitive basis. That makes it difficult. We shouldn't have 
to compete to try and protect the resources. If something could 
be cleaned up on that so it would go directly to the tribes, 
that would be appreciated.
    The way things are going lately, we are getting a little 
more concerned. For instance, the Secretary of Interior 
recently in a statement somewhere, it was all over the press, 
said if the tribes had an off ramp, they would take it, maybe 
become corporations. Well, we are not interested in that, and I 
think you probably got 560 other tribes to tell you the same. 
So we are not interested in that because we are here on a 
treaty right, and treaty rights are permanent. So we appreciate 
any assistance that you can offer and when it comes up, if it 
comes up.
    The GLRI went on the chopping block in the President's 2017 
budget, where he reduced it by more than 90 percent. It was 97, 
actually. And he wants to eliminate the EPA.
    We give a big thanks to all involved that understood it was 
not the right thing to do and you put that back in, and I did 
not even hear an argument about it, basically. It was back in 
the budget. So we went from big low to big high instantly 
because it shows you are concerned about the environment and 
what we have out there. So thank you.
    The EPA is the funding agency for many programs under GLRI, 
and you might consider direct funding some of these to the 
tribes themselves, the GLRI funds, so that we can especially 
with the stress it is putting on the EPA, hopefully, they are 
still here, but we support any fight on that also.
    But, as the tribes have proven over and over again that 
they are protectors of the lands and the waters, and so give 
them the funding to continue to try at least to go. But CORA, 
we're operating under a 1980 consent decree with the State and 
then the Federal Government, which basically comes to a head 
here in 2020. We have to renegotiate, and we are starting 
preparing that process now.
    But we hold regular executive council meetings with the 
State and the Feds down at Fish and Wildlife to help manage the 
resources there in the Great Lakes. This is the Great Lake 
portion of it.
    We just recently had a meeting, one of these such meetings, 
and NOAA came in and put on a presentation to us about the 
status of the fisheries in northern Lake Huron and Michigan. 
And we were there to basically assess the lake draw quota 
harvest numbers for the year going through to 2020 when this 
consent decree is up.
    When they got done with their presentation, we were all in 
awe. We were just, you know, jaws on the table because of what 
they had to offer. The presentation was called the Lower 
Trophic Food Web, which deals with the microscopic. I hope 
somebody has seen that. I see the reaction. It is devastating 
what the zebra and the quagga mussel have done to our lakes out 
there.
    We take and it started out with the phosphorus levels. Way 
back in the day, there was too much phosphorus in the soap. So 
they took and reduced it, eliminated it. Now that has 
plummeted, and it is so low they do not get the algae bloom, 
the spring algae blooms that come to the surface that is vital 
to the sustenance of all the organisms out there. That has all 
changed. The water is so filtered out.
    Back in 1994-1995, the zebra mussels hit, and everybody was 
screaming about it. It was near shore, plugging intake lines 
and river mouths. But near shore and shallow. By 2000, the 
quagga mussels showed up, and that turned and that is basin-
wide deep, and that filtered out everything. You know, the 
sunlight penetrates so much in the water now that there is no 
different temperature levels. It is all basically the same 
level as far as the sun will reach.
    So this is coming from NOAA's report. It has really messed 
things up out there. Most important one is like the diaphoria. 
That, it is a small shrimp-looking thing that lives on the 
bottom. That is just about eliminated from the Upper Great 
Lakes of the Michigan and Huron. It was large masses of it, and 
it just about gone now.
    So we are all screaming about Asian carp, keeping them out 
of the Great Lakes, but I think we have got to work on the 
quagga mussel, do something with them. I haven't seen any 
studies where they are even attempting to control them yet.
    I thank you.
    [The statement of Mr. Carrick follows:]
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
      
    Mr. Calvert. Thank you. Thank you, Mr. Carrick.
    Next, Patrick Roberts, National Native American AIDS 
Prevention Center.
                              ----------                              --
--------

                                           Wednesday, May 17, 2017.

            NATIONAL NATIVE AMERICAN AIDS PREVENTION CENTER


                                WITNESS

PATRICK ROBERTS, HEALTH POLICY FELLOW
    Mr. Roberts. Chairman Calvert and members of the committee, 
I want to thank you for being here today. My name is Patrick 
Roberts, and I am a Colorado resident and a registered tribal 
member of the Hopi Nation.
    My mother is a member of the Clay Clan with the Hopi Tribe 
in a village 50 miles north of Winslow, Arizona, called 
Shongopovi, Arizona.
    I am also a member of the LGB, Two-Spirit Native community, 
and I have been living with HIV for 30 years. I am also a proud 
survivor of HIV.
    I also represent two organizations, the National Native 
American AIDS Prevention Center in Denver, Colorado, and the 
Caring Ambassadors Program, located in Oregon City, Oregon, as 
a health policy fellow.
    We encourage members of the committee to immediately 
investigate the opportunity to save money and eliminate the 
burden of hepatitis C, utilizing creating financing 
recommendations and other recommendations that are in a recent 
report called the National Strategy on the Elimination of 
Hepatitis B and C by the National Academies of Science, 
Engineering, and Medicine.
    In this report, the report clearly states the elimination 
of hepatitis B and C as a public health threat is possible by 
the year 2030 only if Congress and the administration provide 
strong leadership. Hepatitis C is the most common chronic 
blood-borne infection in the United States, yet it remains 
unrecognized in the minds of many Americans. It also is one of 
the leading causes of death within Native communities.
    Annual deaths due to hepatitis C have surpassed deaths of 
HIV in the U.S. While an estimated 1 million Americans have 
been infected with HIV virus, at least 2.7 million to 3.9 
million Americans are chronically infected with the hepatitis C 
virus. Native people have both the highest rate of acute 
hepatitis C infection and mortality than any other racial/
ethnic group in the U.S.
    From 2002 to 2012, hepatitis C infection increased by 82.6 
with Natives, and incident rates of acute hepatitis C have 
remained higher relative to any other racial or ethnic group in 
the U.S. Funding for accurate data collection and inclusion of 
Natives is needed to eliminate this virus.
    Data should be streamlined with tribes, State, and national 
registries, and electronic data collection should be funded in 
tribal clinics and agencies. We encourage you to review the IHS 
budget and develop a program which is similar to the Department 
of Veterans Affairs to test and treat Natives living with 
hepatitis C, regardless of their stage of liver disease.
    The Cherokee Nation's Hepatitis C Elimination Program is a 
model that can be used within all Native communities. The cost 
of end-stage liver disease caused by cirrhosis and hepatitis C 
infection or liver transplants can be avoided through early 
screening, treatment, ultimately lowering the cost to patients, 
providers, and the Medicaid programs.
    Hepatitis C elimination is possible. In October 2015, Dr. 
Jorge Mera, Director of Infectious Disease with the Cherokee 
Nation, developed the Hepatitis C Elimination Program. At the 
start of this program, an estimated 5,000 members of the 
Cherokee Nation were infected with hepatitis C.
    Within the first 60 days of the project's implementation, 
eight pregnant women were identified as hepatitis C positive, 
and increased surveillance or screening resulted in at least 
one new case of hepatitis C per day. To date, nearly 300 
patients have been treated for hepatitis C, and based on a 12-
week treatment, 96 percent sustained a positive cure rate.
    Three important factors came out of this--increased 
screening for hepatitis C results in accurate prevalence rates; 
early intervention to screen, identify, and treat hepatitis C 
infection works within the Native communities; and the actual 
rate of infection for the Cherokee Nation was 5.8 as compared 
to the CDC's estimate of 2.8.
    Hepatitis C treatment is cost-effective, but due to the 
high rate of infection, it puts a strain on Medicaid, NIHS 
policy, and also within tribal communities. We encourage the 
committee to adopt the recommendation 6.1 in a National 
Strategy for the Elimination of Hepatitis B and C.
    We ask the following. One, we ask for increased funding to 
IHS and also for them to participate in the World Health 
Organization's elimination program of hepatitis C by 2030. We 
request the committee to investigate the benefits of purchasing 
the rights of direct-acting antivirals to aid in the 
elimination of hepatitis C by 2030.
    The Cherokee Nation project also highlighted the need for 
better data. We request increased funding for data collection 
and data and that data collection include all Natives for more 
accurate reporting. Datasets must be streamlined with tribe, 
State, and national registries, and electronic data collection 
should be funded in tribal clinics and agencies.
    And lastly, we ask for the committee to request that the 
Senate on Indian Affairs Committee conduct an expert hearing to 
address the state of viral hepatitis in populations that are 
served by IHS as well as Native community-based organizations. 
We ask that Native community stakeholders be invited to speak 
at the hearing so that they may address their firsthand 
experience of hepatitis C infection within their community.
    We have an opportunity that rarely exists within medicine, 
and that is cure. We need the political will--your political 
will to ensure cure. Delay in treatment will only result in 
tens of thousands of deaths and billions in wasted dollars for 
healthcare costs in tax dollars.
    We look forward to hearing from you and making hepatitis 
history, and I want to thank you on behalf of the Native 
American AIDS Prevention Center, the Caring Ambassadors 
Program, and all Native communities within the U.S.
    I want to thank you for the opportunity to speak today.
    [The statement of Mr. Roberts follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    Mr. Calvert. Thank you. Thank you for your testimony.
    I want to thank all of our witnesses.
    The new justice center, it is quite a justice center you 
put up there. How much money did you spend on that?
    Mr. Small. We spent $36 million, close to $37 million, Mr. 
Chairman.
    Mr. Calvert. And you think it is going to cost how much per 
year to operate that?
    Mr. Small. $4.8 million.
    Mr. Calvert. And right now, you are not receiving any 
money?
    Mr. Small. No, we are not. We are funding it. The tribe is 
funding it right now.
    It is only partially open.
    Mr. Calvert. And before you built that, did they assure you 
that they would--if you built it, they would pay the operating 
cost of that?
    Mr. Small. Yes. It was built to their specifications. So, 
yes.
    Mr. Calvert. So it was built to their specs with the 
assurety that they would pick up the operating costs, and they 
have not done so. So we will follow through on that, see where 
that is at.
    Mr. Small. Thank you, Mr. Chairman.
    Mr. Calvert. Certainly we are interested in energy 
production so we need to take a look at, I think, energy 
production throughout the West because it seems that we may 
have some opportunities to work together with both the BLM and 
with Department of Energy. Maybe we can figure out a way to do 
this.
    Mr. Small. We can gather those together.
    Mr. Calvert. I just said that because Department of Energy 
is under his jurisdiction.
    Mr. Small. Okay. [Laughter.]
    Mr. Calvert. So maybe we can work together to resolve that.
    And certainly, the Great Lakes, I hear a lot about the 
Great Lakes, Mr. Carrick, because to my left here, we have a 
great advocate for that, and we have, actually, two of them. 
That is right. I have got two people here. Plus, we have on our 
side, we have a few.
    So as you notice, in the 2017 bill, we did not cut back on 
the Great Lakes.
    Mr. Carrick. We noticed, thank you.
    Mr. Calvert. And we are big supporters of all that fresh 
water, especially if we could export it to California, but they 
tell me I can't do it. [Laughter.]
    Mr. Simpson. We need some more medical care.
    Mr. Calvert. Yes, right.
    And I guess the good news about hepatitis C and B is that 
we have a cure for it now?
    Mr. Roberts. There is a cure for it, right.
    Mr. Calvert. So the bad news is I--just bring that mike up. 
The bad news, as a matter of fact, I had a close friend--well, 
he is still a close friend. I mean, happily, he is cured. But 
he didn't even know he had hepatitis. He got in a traffic 
accident early in his life, and they did a blood test and found 
out he had it.
    Mr. Roberts. Roughly about 70 percent of Natives don't know 
that they have hepatitis C or have been exposed to hepatitis C.
    Mr. Calvert. So they never had a blood test.
    Mr. Roberts. Correct.
    Mr. Calvert. But it is, what, $100,000 per treatment to 
cure. Is that about right?
    Mr. Roberts. Correct. And the current Medicaid policy for 
most States is there are five different fibrosis scores that 
you have to wait for. Most States are fibrosis Stage 3. But at 
that point, you're already on death's door when it comes to 
that.
    Mr. Calvert. Right, right.
    Mr. Roberts. So sometimes treatment is available at that 
stage, but it is not always effective.
    Mr. Calvert. Right. Yes. But it has been, even with severe 
cases, over 90 percent effective on cure, right?
    Mr. Roberts. Yes.
    Mr. Calvert. So that is encouraging. As I think if these 
drugs are out there longer, the price of these drugs are going 
to come down. But right now, it is very, very expensive, but we 
will look into that.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    Back to your point, Mr. Roberts, about having a hearing. 
There are ways. There are health groups, bipartisan, caucuses, 
that put together hearings quite often. I will get your card 
afterwards, and we will work with some members, to see if we 
can have an informal hearing. Staff can attend and figure out 
some legislation and some policies and that to work forward on 
it.
    It is interesting that you brought this up because I had a 
health disparities meeting with the different populations 
within my congressional district last summer. I spent a lot of 
time with them, and this came up, but it came up very quietly.
    Mr. Roberts. Yes.
    Ms. McCollum. And the numbers weren't there the way that 
you pointed it out.
    Mr. Roberts. I can certainly provide you additional numbers 
if you would like.
    Ms. McCollum. I am going to go back and talk to my 
community health clinics and then talk to our State 
epidemiologist about it because I know this is important--as 
the chairman pointed out, to be tested for it, to find out you 
have it before it activates in your system.
    Mr. Roberts. Correct.
    Ms. McCollum. Stopping that permanent damage is cost 
savings for the healthcare system, but it is the cost savings 
to you as a human being, you know, there is no price tag you 
can put on it like that.
    Mr. Roberts. And as a community because hepatitis C just 
not only affects the patient or the person that is infected by 
hepatitis C, but community at large because we are so engrained 
in our family and culture and community. This virus really has 
an effect on community at large and how it affects people's 
perceptions and emotion and spiritual state.
    Ms. McCollum. So do you have to ask to be tested in most 
States, or are some States retroactively----
    Mr. Roberts. Mostly in every clinic, you have to ask, 
specifically ask for hepatitis C screening. It is not provided. 
But with the Cherokee Nation's elimination program, they are 
testing anybody 20 or above, and they are also screening in the 
dental clinic.
    So we are trying to adopt that process and that policy 
across all nations. So it is just a matter of education and 
making sure that people are aware.
    Ms. McCollum. Because you can always refuse to have it 
tested, but if no one offers to have it tested, you don't know 
to ask.
    Mr. Roberts. Correct, yes.
    Ms. McCollum. Thank you.
    Turning to the Great Lakes, I couldn't agree with you more 
about all the problems that we are having, not only in the 
Great Lakes, but all of our Lakes, with some of the algae and 
all the quagga mussels and the zebra mussels. We are just 
getting really overwhelmed with a lot of invasive species.
    The other thing that we are seeing in the north is all the 
salt runoff accumulating over years, changing the alkaline of 
our lakes. We are not so sure that that is reversible. So that 
is another issue that we are starting to have to look at.
    Thank you for bringing that up.
    Mr. Calvert. Thank you.
    Ms. Kaptur.
    Ms. Kaptur. I just want to thank our witnesses very much 
for being with us today. Being an Ohioan, I am interested in 
where the Chippewa Ottawa Resource Authority is located?
    Mr. Carrick. In Sault Ste. Marie.
    Ms. Kaptur. Way up in the Sault.
    Mr. Carrick. Right. Right at the headwaters of all three 
lakes, where Ste. Marie's River dumps into the other ones.
    Ms. Kaptur. You haven't seen any Asian carp up there, have 
you?
    Mr. Carrick. No.
    Ms. Kaptur. Okay. We don't want those.
    Mr. Carrick. No, we don't want them. We don't want quagga 
mussels up there either. We are fortunate in Lake Superior 
right now they are not there because of the fresh cold water, 
but don't know.
    Ms. Kaptur. While we have such distinguished witnesses in 
front of us, I feel obligated to say that we worked very hard 
over the years with little success with the Department of 
Interior to try to get interpretation of the tribal history 
that has been a part of the Northwest Territory, America's 
first frontier after the 13 colonies.
    And I just wish to place that on the record because I think 
that your life and the lives of those you represent are just as 
important as those who happened to live west of the Mississippi 
River and have much fuller interpretation. So I would hope you 
just know you have an ally on this committee, maybe more than 
one, to take a look at the entire region.
    I represent counties called Cuyahoga, Erie, Ottawa. The 
lake I represent is called Erie, and there is a huge history 
that the Department of Interior just puts its hands up like 
this. I would think that they could put a little more due 
diligence into the histories of our particular region of the 
country.
    So just thank you very much for coming here today to 
testify.
    Mr. Calvert. Thank you, and I thank you for listening.
    Mr. Simpson. Mr. Chairman, let me ask just a really quick 
question. Tony, it looks like a pretty nice justice center you 
built. Is the detention part of this for tribal members only, 
or do you do regional detention?
    Mr. Small. It is for tribal members only. We were looking 
at that and maybe bringing in different tribes into the area if 
we could. And, but basically, it is for tribal members.
    Mr. Simpson. We have encouraged the Department to use some 
of these for regional detention, which I think would be 
beneficial.
    Mr. Small. Would be.
    Mr. Simpson. So, okay, thank you.
    Mr. Small. Thank you.
    Mr. Calvert. Okay. Thank you very much for this panel. We 
appreciate your attendance. You are excused.
    And we are going to ask the next panel to come up. Robert 
Blanchard, chairman of the Bad River band of Lake Superior 
Chippewa Tribe; George Thompson, councilman of the Lac du 
Flambeau Tribe; and Michael ``Mic'' Isham, chairman of the 
Great Lakes Indian Fish Wildlife Commission. If you will please 
come on up.
    Boy, you tribal chairmen are getting younger every time. 
[Laughter.]
    We can't call you an elder. No way. Everybody get a seat 
here.
    Well, welcome, and we are going to start with Mr. 
Blanchard, the chairman of the Bad River band of Lake Chippewa 
Tribe. You are recognized.
                              ----------                              

                                           Wednesday, May 17, 2017.

             BAD RIVER BAND OF LAKE SUPERIOR CHIPPEWA TRIBE


                                WITNESS

ROBERT BLANCHARD, CHAIRMAN
    Mr. Blanchard. Thank you. [Speaking Native language.] Good 
afternoon, everyone.
    Mr. Calvert. Oh, move your mike just a little closer. That 
would be great. Thank you.
    Mr. Blanchard. I thank you for the opportunity to come 
before you to testify today.
    Bad River Reservation is located in northern Wisconsin on 
the south shore of Lake Superior, which holds 10 percent of the 
world's fresh unfrozen water supply. The tribe has over 7,000 
enrolled members. About 1,500 live on the reservation.
    Our people migrated to the Lake Superior region to what is 
now called Odanah, Wisconsin, where it was said that we would 
settle when we came across food that grows on water called 
manomin, or wild rice. It is our sacred food.
    The Bad River and Kakagon Slough area is the largest 
pristine freshwater estuary in the Lake Superior region and 
contains the wild rice beds that are important to the people of 
Bad River.
    Four main issues I would like to talk about today that 
directly affect my people are the environment, our 
infrastructure, our health, and our drug addiction, mostly 
opiates and meth.
    Our environment is paramount to our survival. The Great 
Lakes Restoration Initiative allows for investigation, 
education, and solutions to protect culturally significant 
water resources, historic harvesting techniques, and healthy 
food access. GLRI funding helps to restore wetlands, wild rice 
beds, brook trout habitat, and protects spawning grounds 
critical to Lake Superior fisheries, such as the lake sturgeon, 
which are spiritually significant to my people.
    The Bad River Tribe requests your support for the 
continuation of the Great Lakes Restoration Initiative. Bad 
River is one of 42 tribes with EPA-approved water quality 
standards. The funding we receive through the EPA program 
allows us to make decisions based on sound science.
    The natural resources management funding we receive through 
the Bureau of Indian Affairs supports our fish hatchery 
operations, which releases about 4 million walleye fry annually 
back into the rivers and streams leading to Lake Superior, 
which benefits the entire fisheries of the western Lake 
Superior region. Sustaining or increasing this funding received 
from the Bureau of Indian Affairs is critical to maintaining 
the resources.
    EPA funding provided through the Safe Drinking Water Act, 
the Clean Water Act, and through the IHS sanitation deficiency 
system, which provides vital funds that helps remove critical 
infrastructure efficiencies which are required to meet the 
health needs of the Bad River band.
    The second issue I would like to discuss is our 
infrastructure. SAFETEA-LU, which was designed to supplement 
the Tribal Roads Maintenance Program, is now the main roads 
funding for a majority of tribes. An increase to this funding 
is necessary to maintain and improve the transportation 
infrastructure of the Bad River community.
    Roads, bridges, and trails are an important part of our 
daily lives for access to work and access to recreational 
activities and the economic benefit they provide. The 
development of a recreational trail across the reservation is a 
project that my tribe wants to continue to develop, in part 
with the use of Bureau of Indian Affairs funding.
    A project such as this would have huge positive impact not 
only for the tribe, but our neighbors as well, as this would 
connect Iron County and Ashland County and Bayfield County 
together, and we would have that as a corridor going through. 
So we ask that you consider the needed increase in funding for 
needed improvements in our infrastructure.
    The final two issues I would like to talk about are 
healthcare and drug addictions. Our tribe is very proud of our 
new tribal health and wellness center. However, with the drug 
epidemic growing, our ability to treat drug addictions and help 
families which maintaining normal health service has strained 
our resources to the maximum.
    The Indian Health Service alone cannot provide the funds 
required. Our clinic relies heavily on third-party funding, and 
a decrease in Medicaid funding would only increase the 
financial burden on the healthcare system.
    The Bad River tribal community has seen an influx of 
illegal drugs being distributed on the reservation. Meth is the 
number-one drug.
    Our social services programs are experiencing an increase 
in caseload involving tribal members who are struggling with 
the drug addiction and violence as well as children suffering 
from neglect, abuse, and trauma due to violence. Due to the 
meth epidemic, we ask that the Department of Interior Bureau of 
Indian Affairs funding be increased to address these issues.
    Our Housing Authority recently reported that nine 
residential homes tested positive for meth. These hazardous 
waste properties require special staff training and equipment 
to make the properties livable again. This has cost our Housing 
Authority an additional $60,000 in the past 90 days.
    So it is essential to keep working to honor treaties with 
my tribe and my neighbor tribes in the western Lake Superior 
region and to provide funding to support pristine water and 
air, safe and sanitary housing and related infrastructure, and 
adequate healthcare through the Indian Health Service.
    I would just like to say [speaking Native language]. Thank 
you for your time, and may the Great Spirit be with you all.
    [The statement of Mr. Blanchard follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Calvert. Thank you.
    Next George Thompson, councilman for the Lac du Flambeau 
Tribe. Yes, I got it. Okay.
                              ----------                              

                                           Wednesday, May 17, 2017.

                         LAC DU FLAMBEAU TRIBE


                                WITNESS

GEORGE THOMPSON, COUNCILMAN
    Mr. Thompson. I have some additional information.
    Mr. Calvert. Thank you. We will submit that for the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Mr. Thompson. Good afternoon, Chairman Simpson, Chairman 
Calvert, Ranking Member McCollum, and members of the 
subcommittee.
    I am George Thompson. I am a tribal council member for the 
Lac du Flambeau band of Lake Superior Chippewa Indians located 
in northern Wisconsin. I am joined here today by our tribal 
president, Joseph Wildcat Sr., and Larry Wawronowicz, our 
tribal natural resource director, and my son Mason, who is here 
as a part of an educational piece to see what we are working 
towards for his future here.
    Our tribe of 3,400 members is the largest employer in Vilas 
County. Together with tribal enterprises, the tribe employs 800 
individuals. Of that 800, about 25 percent of our workforce are 
paid full or in part with appropriations made under the 
subcommittee's jurisdiction.
    If Congress were to enact President Trump's proposed budget 
for fiscal year 2018, the tribal government would have to 
resort to potential layoffs of these dedicated tribal 
employees. I am confident the committee will uphold the Federal 
Government's trust responsibility to Native Americans and 
oppose the White House's harmful budget cuts.
    We are grateful for the bipartisan leadership this 
committee has demonstrated with enactments of the Fiscal Year 
2017 Continuing Appropriations Act, which has increased funding 
for fiscal year 2017.
    To give an idea of the challenges we face on our 86,600-
acre reservation, we have 260 lakes, 71 miles of streams and 
rivers, approximately 4,200 acres of forested land, and roughly 
42,000 acres of water and wetlands. Our waters are sacred. Like 
many rural areas, we are dealing with opioid abuse and the 
challenges of creating and maintaining jobs for our citizens 
and our residents.
    Please recognize the interconnectedness of IHS, BIA, and 
EPA programs which help us promote healthy tribal members and 
healthy communities, the essential building blocks for stable 
communities. We want to raise our tribal youth in safety and 
security so that they may realize their fullest potential and 
contribute to our community's and our Nation's future.
    With respect to IHS funding, we greatly appreciate the $232 
million increase Congress provided for fiscal year 2017. We 
operate our own healthcare and dental program, a family 
resource center, a domestic abuse program, a youth center, a 
child support agency, and recently opened a drug treatment 
program. We employ 140 individuals in our healthcare programs. 
We respectfully ask for increases in fiscal year 2018 so we can 
continue to engage in proactive, preventive healthcare, which 
saves lives and saves money.
    Wisconsin has seen a large increase in children born 
addicted as a result of women taking prescription drugs and 
using illegal narcotics during pregnancy. Vilas County has the 
second-highest rate of such babies, 2 to 3 per 100 births. 
Early treatment is critical. Combined with the opioid epidemic, 
our budget is stretched to the breaking point.
    With respect to the BIE and BIA funding, we oppose proposed 
cuts for fiscal year 2018, which threaten to undermine 
educational services for Native youth and adults returning to 
school. We ask that you please support the important Johnson 
O'Malley grant program and increase adult scholarships and 
special higher education scholarships for fiscal year 2018. 
Education is the key to our tribe's future.
    I operate the tribal roads program in Lac du Flambeau. So I 
want to personally thank you for the $3.6 million increase for 
BIA road maintenance. A $10 million increase is required for 
fiscal year 2018 so that the percentage of the BIA system's 
road maintained in fair condition can increase beyond the 
current 16 percent. It is a public safety issue, plain and 
simple, and the BIA funding is inadequate.
    Let me conclude my testimony with natural resource needs. 
We have a vibrant natural resource program that we are proud of 
at Lac du Flambeau. Our natural resource programs protect our 
culture, our health, our economy, and is part of Wisconsin's 
$19.3 billion fishing, recreation, and tourism industry.
    Minnesota and Wisconsin lead the Nation with mercury 
contaminated lakes, and we are a fish culture tribe. To protect 
our reservation, we ask the committee to, one, maintain funding 
for Great Lakes Restoration Initiatives at $300 million; 
increase the fiscal year 2018 funding for BIA's Trust-Natural 
Resource Management Programs above $201 million and protect 
funding for Great Lakes Indian Fish and Wildlife Commission; 
three, protect EPA's Tribal General Assistance Program's grants 
and support and increase funding for BIA's Circle of Flight 
program to protect vital habitats.
    Thank you for your time.
    [The statement of Mr. Thompson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
       Mr. Calvert. Thank you. Appreciate your testimony.
    Michael ``Mic'' Isham. You are recognized for 5 minutes.
                              ----------                              --
--------

                                           Wednesday, May 17, 2017.

            GREAT LAKES INDIAN FISH AND WILDLIFE COMMISSION


                                WITNESS

MICHAEL ``MIC'' ISHAM, CHAIRMAN
    Mr. Isham. Chairman and members of the committee, I want to 
thank you for the opportunity to testify before you this 
afternoon.
    My name is Mic Isham. I am chairman of the Lac Courte 
Oreilles band of Lake Superior Chippewa Indians and also 
chairman of the Great Lakes Indian Fish and Wildlife 
Commission.
    In northern Wisconsin, where I am from, it is still the 
middle of spring, unlike the middle of summer like it is here 
today, and our tribal citizens have just finished up our main 
fish harvesting season. Fish is a sacred food to the Ojibwe 
people. There are four sacred foods that we must have at all 
feasts, funerals, and ceremonies, and that is wild rice, 
berries, venison, and fish. Those are the four foods.
    Many of our citizens harvest these fish off of our 
reservation, and we are able to do this for a few reasons. 
First and foremost, our ancestors told the United States 
Government that we would not sell our land unless the U.S. 
guaranteed and wrote into the treaties that our tribe would be 
able to hunt, fish, and gather as we always have throughout the 
territory that we ceded.
    Another reason we can do this today is that the U.S. 
Federal courts have agreed with us that our rights that we kept 
in the treaties never went away in the 150 years since we 
signed them. And finally, we can do this because we have 
developed, in partnership with the Federal Government, the 
institutions needed for us to regulate this activity by our 
citizens so that we protect the natural resources and public 
health and safety.
    Now the Great Lakes Indian Fish and Wildlife Commission, 
which I chair, is the intertribal natural resource agency that 
helps our 11 member tribes implement the Federal court's orders 
that reaffirmed our right to self-regulation. Our treaty-ceded 
areas cover over 73 million acres of land and water in what is 
now known as Michigan, Minnesota, and Wisconsin, and it is in 
the second last page of the handout there.
    We greatly appreciate the decades of funding and other 
technical support that Congress and each administration have 
provided to our commissions and member tribes. For over 30 
years, the Federal Government has wisely chosen to invest in 
our program as efficient and cost-effective ways to fulfill the 
Federal treaty obligations at the appropriate government level.
    We respectfully request that Congress and the House 
continue to support our programs by funding the Rights 
Protection Implementation line item within the BIA's budget at 
no less than fiscal year 2017 levels. We also request that 
funding through that line item be distributed as it has in the 
past, proportionately based on historic allocations. As the 
primary mechanism through which the Federal Government supports 
the intertribal commissions that implement treaty rights in the 
Great Lakes and Northwest regions, competition has no place 
within this line item.
    As an example of how our RPI funding, how we use it, we 
will use the fish harvest season that just ended. Our GLIFWC 
wardens, they are at all the boat landings and they enforce 
tribal regulations, ensure public safety, and provide for creel 
teams to count and measure every fish and collect biological 
data to help ensure population health.
    Our population assessments lead to harvest and management 
policies undertaken with cooperation with State agency 
partners. These assure that our small, super highly regulated 
harvest doesn't harm the fishery.
    GLIFWC's public information office spreads the word about 
how our treaty-reserved rights are implemented to calm fears 
and to encourage the relative social stability that we see 
today rather than the protests, threats, and intimidation that 
we have seen at the boat landings in the 1980s.
    We also request that you support, as you have heard 
earlier, and fund the Great Lakes Restoration Initiative at 
$300 million. This program has allowed for significant progress 
in the restoration of the Great Lakes and their ecosystems. It 
has also enhanced interjurisdictional cooperation and 
coordination in the management of the Great Lakes.
    With GLRI funding, GLIFWC and member tribes have been able 
to restore and protect wild rice beds, control non-native 
invasive species, test mercury levels in fish, and provide 
consumption advice to tribal citizens, and bring a tribal 
perspective to intergovernmental management activities.
    The GLRI is bringing on-the-ground results, but it needs to 
continue so that we can finish the important work that we have 
begun. These treaty rights are fundamental to who we are as 
Indian people. They benefit us, and the exercise of our 
cooperative management responsibilities benefits the natural 
resources for all people. We ask the subcommittee to continue 
our partnership by funding the RPI line item at no less than 
the fiscal year 2017 levels.
    And I have sat here through a couple of committees here, 
and I have heard a lot of the issues that the tribes have, and 
we share in those issues. We like to say culture is the cure. 
We really promote the treaty rights to our youth as a way to 
help with all those issues--diabetes. Obviously, game and fish 
are much better for our bodies than the Big Macs and such and 
the USDA commodity cheese. No offense. I know we are in the Ag 
building here, too. [Laughter.]
    But also the exercise of those treaty rights are good 
physical activity that youth need to be in, and when you can 
provide a young person like this guy here, can provide that 
those four sacred foods for the ceremonies, they get their 
identity as an Ojibwe person rather than getting an identity 
from a gang.
    Thank you for your time.
    [The statement of Mr. Isham follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    
    Mr. Calvert. Thank you. Thank you.
    And I know from this whole panel is a great amount of 
support for the Great Lakes. I even see you wearing a button 
there signifying the Great Lakes.
    Mr. Isham. Yes, that is what it is. That is what it is, Ms. 
McCollum. [Laughter.]
    Ms. McCollum. Mr. Chair, I just have to say for the record 
that the fact that someone wearing a Green Bay pin would kind 
of, you know, pooh-pooh cheese was very interesting. 
[Laughter.]
    And being a Vikings fan, I will say no more.
    Mr. Isham. Cheese is for wearing on your head, not for 
eating.
    Mr. Calvert. I just thought I would point that out. But a 
number of the issues that have been pointed out today. The 
budget, of course, as you have heard, we are waiting for it.
    They say May 23rd Mick Mulvaney will be coming up here to 
submit the budget. I think they will make it public May 22nd. 
That is supposedly the date. I hear they may slip a couple of 
days. I hope not.
    Mr. Isham. Cheese is for wearing on your head, not for 
eating.
    Mr. Calvert. Yes, you and me both. But the President--you 
know, that is the way these things go. The President proposes a 
budget. This is the Congress. The Constitution is pretty clear. 
We will look at it and go to the Budget Committee, and we vote 
then on the Budget Committee, and that will be processed. And 
then we will deal with it. We will see what happens.
    As far as EPA is concerned, you know, we want to make sure 
that EPA does their core functions, and we will be working 
together to make sure that they continue to do that, especially 
these programs like the Great Lakes and other areas in the 
country that we try to clean up and bring back to health.
    So we will be working together through this whole process. 
I am sure I will be hearing from all of you as we go through 
this and, hopefully, have a successful conclusion.
    With that, Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Blanchard, I appreciate the fact that you brought up 
meth because that still is a problem. The problem besides it 
poisoning people and destroying people's lives, is the toxic 
residue you mentioned in the houses. They actually become 
superfund sites, and the law enforcement sometimes walks 
unknowingly into those toxic sites. No drugs are good, and I am 
not saying opioids are any better. They are all terrible, but 
there is a different legacy issue that actually comes along 
with meth.
    As long as I have the three of you here, let's talk about 
the role of the EPA. Mr. Thompson, in your handouts, you have a 
lot of information on watching mercury levels in walleye. That 
is something that I know many of us pay strict attention to, 
the mercury levels in our lakes--and I am from Minnesota--
especially if you find yourself in a family where someone is 
planning on becoming pregnant, you are very, very focused on 
mercury level.
    And then sulfates, with some of the mining activity that 
has been talked about up in the large watershed. As I was 
telling people, we are on the Laurentian Divide. So where I am 
in Minnesota, the water is flowing north at a certain point 
into the lakes, into the Boundary Waters Wilderness, and that.
    The EPA has a role both in sulfate and in mercury 
regulation--mercury in fish, sulfate affects wild rice. Could 
you maybe talk a little bit about mercury levels and how that 
can affect your commercial fishing or your own personal 
consumption. Why is it important that we actually regulate it?
    You know, the three of you can say something or just one of 
you wants to. I would like to get that on the record because it 
is the EPA that helps you monitor those levels.
    Mr. Isham. Yes. You know, just as you mentioned, our people 
are more susceptible to environmental contamination than the 
general public because we subsist so much on fish, game, and 
berries, and things like that out in the environment. And so, 
it is different if you are just catching a couple walleye or 
putting a big muskie on your wall. But when you are like us, we 
just harvested fish, we put them away like a farmer puts corn 
in a silo, and then we use them throughout the year.
    So we did a study, I believe it was in the '80s, when I was 
director of our conservation department, and did blood testing. 
And our people were really high in mercury. So what the Great 
Lakes Indian Fish and Wildlife Commission, and I don't remember 
what the grant was at the time, but we started doing mercury 
testing of the fish that we harvest. Different sizes--big, 
small, medium. And then we make mercury maps, which I think are 
included.
    And so the DNR, the State DNR tested them different than we 
did. They throw like the whole fish in there. But we tested 
them with just the filet, without the lips and the scales and 
the tail and all that. And so ours were a little different. But 
our members harvest based on those maps, and so that funding 
was very important to us.
    You mentioned meth and all these other things. There is one 
other thing that tends to get overlooked in tribal housing, not 
just at LCO, but across the country, and that is mold in 
housing. And I don't know if this committee deals with that. 
That might be HUD. But that is another issue that can be a 
toxic thing in housing.
    Mr. Calvert. Mr. Simpson.
    Mr. Simpson. I just have one question. What is your name?
    Mason. My name is Mason.
    Mr. Simpson. Mason?
    Mason. Yes.
    Mr. Simpson. Is this the first time you have been to 
Washington?
    Mason. Yes, this is my first time in Washington, and I am 
enjoying it here.
    Mr. Simpson. Great. It is kind of a crazy place, isn't it?
    Mason. Yes, it is.
    Mr. Simpson. Welcome, and thank you for bringing your son. 
Appreciate it.
    Mr. Calvert. Well, we certainly thank you for coming here 
today and your testimony, and we will try to get up there and 
try some of that wild rice out. Get up there soon.
    Ms. McCollum. Walleye.
    Mr. Calvert. I love walleye. I was in Cleveland over the 
summer for a special occasion. You might remember it. And I had 
some walleye while I was there. So that was fantastic. So thank 
you very much.
    [Pause.]
    Okay. Our next panel is Lisa White Pipe, councilwoman; 
James ``Joe'' Dunn. Hi, how are you? I think it is just the two 
of you. So, yes, I think, Lisa, James, that would be fine.
    Welcome. Nice to have you, and first, we are going to 
recognize Lisa White Pipe, councilwoman with the Rosebud Sioux 
Tribe. You are recognized and start any time.
                              ----------                              --
--------

                                           Wednesday, May 17, 2017.

                          ROSEBUD SIOUX TRIBE


                                WITNESS

LISA WHITE PIPE, COUNCILWOMAN
    Ms. White Pipe. Good afternoon, Chairman Calvert and 
Ranking Member McCollum and members of the subcommittee. On 
behalf of the Rosebud Sioux Tribe, I would like to thank you 
for the opportunity to share our fiscal year 2018 
appropriations priorities.
    I am Lisa White Pipe, a Rosebud Sioux Tribal Council 
representative.
    We have numerous priorities, and it is a difficult and 
humbling task to attempt to rank such priorities. Nonetheless, 
I will discuss a couple of Rosebud Sioux Tribe's priorities 
with you today.
    Despite making gradual progress in its economic development 
efforts, the Rosebud Sioux Tribe experiences an overwhelming 
level of unmet need. However, this is not unmet need. It is 
unmet treaty obligations. The Federal Government has a 
fiduciary trust responsibility under the Fort Laramie Treaty of 
1868 to provide adequate resources to the Rosebud Sioux Tribe.
    As of May 5, 2017, the Rosebud Sioux Tribe's enrollment 
office reported that we have 34,856 living tribal members. It 
is estimated that 29,628 of our tribal members reside within 
the reservation. That is 34,856 human beings that the Rosebud 
Sioux tribal government and the United States Government has 
the responsibility to provide services to, which include 
healthcare, law enforcement, justice, education, and 
infrastructure. And I know that like the Rosebud Sioux Tribe, 
this is a task that the United States does not take lightly.
    I would like to mention our most pressing priority to start 
with is healthcare. Native Americans have a lower life 
expectancy than any other racial or ethnic group in the Nation. 
In fiscal year 2015, the 35-bed Rosebud service unit had 12,760 
emergency room visits.
    On November 23, 2015, the Centers for Medicare and Medicaid 
Services, the CMS, delivered a notice of intent to terminate 
the Medicare provider agreement based on alleged deficiencies. 
On December 5, 2015, I had just placed the Rosebud on a divert 
status.
    The Rosebud hospital emergency room has been recently 
removed from the divert status. However, as you may be aware, 
the Rosebud service unit continues to struggle and maintain 
Centers for Medicare and Medicaid accreditation.
    The Snyder Act of 1921 and the Indian Healthcare 
Improvement Act expressly provided legislative authority for 
Congress to appropriate funds specifically for Indian 
healthcare. We are grateful for these congressional acts 
because they reinforce the United States duty to provide 
healthcare to members of the Rosebud Sioux Tribe.
    We recognize and appreciate the $29 million included in the 
fiscal year 2017 omnibus for IHS units facing CMS accreditation 
emergencies. We humbly request that the Congress continue to 
honor--continue this honorable progress, exercise their 
authority, and fulfill their duty by increasing total funding 
for the Indian Health Service by at least $7.1 billion for the 
fiscal year 2018.
    We believe that an increase in funding, combined with the 
IHS reform legislation that has been introduced, will help to 
recruit and retain medical professionals and purchase updated 
medical equipment.
    For the sake of brevity, I will touch on one more priority. 
As you may know, the death rate experienced by the American 
Indian and Alaska Native population is far greater than any 
other group of Americans, 50 percent greater according to the 
Centers for Disease Control and Prevention. Unfortunately, the 
Rosebud Sioux Tribe is not immune to these statistics.
    When a loved one is lost, families not only face the 
emotional hardship associated with the absence of that person, 
they also face the associated cost of providing their loved one 
with a respectful burial.
    Under 25 CFR 20.100 states that a burial assistance payment 
is made on behalf of an indigent Indian who meets eligibility 
criteria to provide minimal burial expenses according to the 
BIA payment standard established by the Assistant Secretary of 
Indian Affairs.
    The Bureau maximum burial payment standard is currently 
$2,500. The National Funeral Directors Association calculated 
the median cost of a funeral in 2014 at $7,181. This has likely 
increased since.
    As you can see, there is quite a disparity between the 
maximum burial standard payment and the median cost of a 
funeral. The Rosebud Sioux Tribe has recently experienced an 
increase in deaths, which has taken a toll on the tribe 
emotionally and financially.
    The adequate maximum burial standard payment for the 
funding of indigent burial assistance service that has left the 
tribe scrambling to find resources to help ensure that tribal 
members are provided with a respectful burial. One of the very 
few local funeral homes almost had to close its doors due to 
delays in payments from the BIA of an outstanding balance of 
$70,000.
    In an effort to address this issue, the Rosebud Sioux Tribe 
enacted a resolution requesting an increase in the BIA burial 
assistance payment. The superintendent of the Rosebud agency 
mentioned that there may be funds available elsewhere in the 
BIA budget. However, a statutory cap has been exercised since 
2009 that prohibits a transference of funds from elsewhere in 
the BIA budget into the burial assistance program.
    The resolution also seeks to address this issue by 
requesting the United States Congress to take the necessary 
action to lift the statutory cap prohibiting transference and 
adding additional funding into the BIA burial assistance 
program.
    I would like to thank you once again for your time and this 
opportunity, and I will attempt to answer any questions that 
you may have.
    [The statement of Ms. White Pipe follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    
    Mr. Calvert. Thank you, and thank you for your testimony.
    Mr. James ``Joe'' Dunn, you are recognized for 5 minutes. 
Standing Rock Sioux Tribe.
                              ----------                              

                                           Wednesday, May 17, 2017.

                       STANDING ROCK SIOUX TRIBE


                                WITNESS

JAMES ``JOE'' DUNN, COUNCILMAN
    Mr. Dunn. Thank you, Mr. Chairman, committee members.
    [Speaking Native language.]
    This day I offer my hand with a good heart.
    My name is Joe Dunn. I am the chairman of the Standing Rock 
Sioux Tribe's Judicial Committee. I appreciate the opportunity 
to testify regarding the fiscal year 2018 Interior/Environment 
budget.
    I especially want to thank Chairman Calvert for his 
continuous support of Indian Country as the chairman of this 
subcommittee and for his work on the fiscal year 2017 budget, 
which did not reflect the deep cuts proposed by the new 
administration. Although this year's budget gives me some 
relief, I remain concerned about the next budget cycle and what 
may come of the new administration's intentions to aggressively 
shrink discretionary spending.
    I am here to remind you that the obligations made in the 
treaty signed by our grandfathers were not considered to be 
discretionary, nor were they meant to be subject to changes in 
administrations or shifts in fiscal policies. The Standing Rock 
Sioux Tribe has a government-to-government relationship with 
the United States that is reflected in our 1851 and 1868 
treaties. These treaties underscore the United States 
obligations to the tribe, and our testimony today is submitted 
with those obligations in mind.
    I respectfully ask for the subcommittee's support for three 
main areas--law enforcement, education, and healthcare. The 
Federal funding for our tribe has always been inadequate. We 
are doing our best to develop our economies and rebuild our 
infrastructure, but our aging facilities and underfunded 
services place us at a tremendous disadvantage when compared to 
most of the United States.
    For example, regarding law enforcement, the tribe 
participated in the High Priority Program goal which involved 
the use of proven, effective law enforcement strategies, and 
these strategies included providing sufficient police officers 
to cover our large land base.
    As a result of this program, our crime rate decreased by 19 
percent. Then the High Priority Program goal ended in 2013 with 
no explanation other than the BIA had proven its theory that 
with adequately funded law enforcement, crime decreases.
    We would greatly appreciate a more stable and satisfactory 
funding source for the BIA law enforcement so we can sustain 
and decrease crime rates for the long term. For example, we are 
currently staffed at 50 percent of the recommended staffing 
level for police officers.
    So we have about 14 police officers to provide law 
enforcement services for an area of 2.3 million acres. So our 
staffing is insufficient. The crime rate continues to increase.
    Along with law enforcement, our judicial branch lacks 
suitable buildings for our court system, and we are in great 
need of a modernized detention facility. Our current detention 
facility has an approximate capacity of about 40, but often 
houses 80 or more prisoners.
    So this poses a couple of different risks for the health 
and safety of the staff and the prisoners as well.
    Next I would like to discuss our education. The 
administration's near flat-line funding for virtually all 
aspects of Bureau of Indian Education programs fails to 
consider population growth, increased costs, or inflation. Lack 
of adequate teacher housing is a great detriment to the 
community.
    When we have this problem with having to import people to 
work in our school systems, often they lack the commitment that 
our people would have if they had some stake in the community. 
So there is a number of ways that is impacted.
    First of all, their commitment to the children. Secondly, 
we lose the economic benefit of having them live in the 
community. And thirdly, we lose them--their contribution as 
community members. So this has been a significant concern of 
mine over the course of my participation in this 
administration.
    So I am grateful for the recent attention on education of 
Indian youth, but we are still waiting to see how this 
awareness will translate into actual changes in our school 
systems. While an increase in construction funding is a 
positive sign, unfortunately, not a single school in the Great 
Plains is slated for new construction under the existing 
methodology for new BIA school construction.
    Our Bullhead School is over 100 years old. But it will be 
decades before the children's needs are fully met in this 
community, and so we ask you for increased funding for these 
schools and also direct the Department of Interior to examine 
and propose a new funding strategy that is both fair and just 
for our children.
    Finally, we are alarmed by the deep cuts proposed to all 
health programs in fiscal year 2018, and we encourage Congress 
to continue health investments and prioritize IHS preventive 
healthcare service programs, such as the diabetes grant 
program. Increased funding above the modest increase provided 
for in fiscal year 2017 is also necessary to meet Indian Health 
Service priorities, especially funding for healthcare 
personnel.
    In many instances, if additional funding for our clinical 
services and preventive health programs were available, illness 
and injuries could be treated at their initial stages or 
prevented altogether. This is especially important at Standing 
Rock, where many of our members' health program's problems 
could be addressed if timely preventive care were available.
    We have an ongoing methamphetamine and opioid addiction 
problem that we are struggling to address because of the 
inadequate funding and availability of facilities and services. 
We also support fiscal year 2018 increases in dental health, 
mental health, and purchase and referred care, which has been 
historically underfunded.
    Also we have the same concern that you have heard from 
others today about the environment and the culture. As you may 
be aware, the Standing Rock Sioux Tribe has been in the news 
over the course of this past year, and so we support the 
sustained funding for EPA programming as well.
    And I assure you that all of these needs are very real, and 
I personally extend an invitation to you to come to Standing 
Rock.
    Mr. Calvert. Well, we would love to get out there. We would 
love to get out there.
    Mr. Dunn. So on behalf of the Standing Rock Sioux Tribe, I 
would like to thank you for this time.
    [The statement of Mr. Dunn follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Calvert. Thank you. Thank you very much for your 
testimony.
    First, I want to say to Ms. Pipe, it is an embarrassment 
that this accreditation issue occurred, and we need to fix it. 
I know that was a priority for us to patch this and get that 
back, your accreditations. But you know, these facilities, as 
you point out, both Mr. Dunn and yourself, are old and need to 
be replaced. And we need to come with a methodology to not just 
replace your health facilities, but also the schools. And we 
are trying to figure out a way to do that, you know?
    We have over a $1 billion requirement in Indian Country for 
school construction, and certainly, health is a big challenge 
also. We are going to be working with Chairman Cole, who has 
significant jurisdiction in Labor-H and, obviously, is very 
interested in these issues, and so we are going to see if we 
can't figure out a way to work together and see if we can get 
more money flowing into resolving some of these healthcare and 
education issues.
    And certainly, law enforcement is a big problem in Indian 
Country. You hear that consistently with all the tribes. 
Obviously, drugs is a big problem, and this opioid epidemic is 
costing 1,000 lives a day in the United States, 1,000.
    Ms. White Pipe. We are experiencing a methamphetamine 
epidemic right now, and it is affecting our housing. They are 
being tested at high levels, which is leading to evictions or 
relinquishments of the homes. So right now, our council is 
working on a strategic action plan to get something in place. 
But we also need help with the tribal courts, and I have it 
listed in my list of priorities with the staffing.
    And I did talk to somebody at SAMHSA today, and they had 
informed me that our meth treatment center is underfunded also. 
And so SAMHSA will provide funding for a meth treatment center 
if we have a drug court for a year, but we need to find the 
funding to fully staff our court.
    Mr. Calvert. We will see what we can do to help.
    Ms. McCollum.
    Ms. McCollum. Thank you.
    I want to point out and ask you to comment on some things. 
As the chairman said rightly, the President proposes the 
budget. The Budget Committee, under the Republicans, will come 
up with a different budget. But one of the things that I know, 
even within Congress, something often cut is the Low-Income 
Heating and Energy Assistance Program.
    I have to believe that a lot of your tribal members, 
especially the elders, really rely on that. As you know, that 
was zeroed out in the President's budget. I don't think it will 
be at zero in the budget here. I don't get to set those 
numbers, but I am concerned about any cuts into that.
    Maybe if you could explain on the record how many people 
are reliant on that? Usually, you have one person who 
administers it. You describe the program because it is a 
lifesaving program in the areas that you two represent.
    Mr. Dunn. This is a great concern to Standing Rock. We have 
a high number of people because of the state of our economy, we 
have a lot of people that are unemployed or underemployed. And 
so the result is that this program is very helpful to assisting 
them to make it through. That is a real challenge for a lot of 
our members.
    A lot of them are living in substandard housing. You know, 
whatever it is that is available, they are living in, and they 
got to find a way to heat them things through the 30 below wind 
chill winter. So this is a great, this is a great concern. So 
any assistance with all fuel assistance program is greatly 
appreciated, I assure you.
    Mr. Calvert. Were you responsible for that Internet hit 
that was the one where it showed this cold weather outside? And 
I don't know.
    It was 30 below zero. They said it was colder than Mars or 
something like that. Don't go outside.
    Ms. McCollum. But we are.
    Mr. Calvert. Yes.
    Mr. Dunn. Well, I will give you an example as over this 
past winter, now a lot of those heating systems that have 
propane and electricity interdependence, we had during a 
blizzard that where people couldn't move out of their homes for 
several days lost their electricity. So they lost their ability 
to use their propane heating also.
    Mr. Calvert. I can't even imagine it is that cold.
    Mr. Dunn. This is an elderly couple, they called me during 
the second day of the storm, and they said they couldn't even 
get out of the house because the house had been encompassed in 
a snow bank, and there was no electricity. So this was after 2 
days without heating. They were heating with whatever they 
could to heat the home.
    They were probably using the propane cook stove that they 
could light with a match or something. Finally, after like the 
third day, we were able to get some neighbors over there to get 
the house open.
    Mr. Calvert. Wow. I am from near Palm Springs. We complain 
when it is 50 degrees. So I can't imagine it being 30 below 
zero. So----
    Ms. McCollum. These programs are lifesaving.
    Ms. White Pipe. Our LIAP program, the monies that we 
allocated for the 2017 funding have already almost been 
diminished, and last month we had to supplement the program by 
I think it was $60,000 or $80,000. Over the winter months, 
President Kendall does set up a program where he has different 
individuals come in and cut cords of wood, and we went through 
so much wood this past winter. Now it is going to start going 
into our resources, which is our timber reserve.
    Mr. Calvert. Okay. Well, we appreciate it.
    Ms. White Pipe. So it is disheartening to hear that the 
LIAP program will be eliminated.
    Mr. Calvert. Well, again, I am sure we will be going 
through this process. We will be working all that out, but 
thank you for coming. I appreciate it.
    Ms. White Pipe. Thank you for your time today.
    Mr. Calvert. We will talk to you soon.
    Mr. Dunn. Thank you. Very appreciative.
    Mr. Calvert. Thank you.
    Mr. Dunn. [Speaking Native language.]
    [Pause.]
    Mr. Calvert. All right. Our next panel, Robert Flying Hawk, 
chairman of the Yankton Sioux Tribe; David Kills-A-Hundred, 
tribal council member of the Flandreau Santee Sioux Tribe; Troy 
Scott Weston, president of the Oglala Sioux Tribe; and Cecelia 
Firethunder, representative of the Oglala Sioux Tribe, Oglala 
Lakota Nation Education Partnership.
    Thank you for coming out here to Washington, D.C. We 
appreciate that.
    We are going to recognize Mr. Hawk first, chairman of the 
Yankton Sioux Tribe. You are recognized for 5 minutes, sir.
                              ----------                              

                                           Wednesday, May 17, 2017.

                          YANKTON SIOUX TRIBE


                                 WITNESS

 ROBERT FLYING HAWK, CHAIRMAN
    Mr. Flying Hawk. Thank you, Chairman and committee.
    I just wanted to greet each and every one of you with a 
heartfelt handshake and good to see you. Traditionally, we have 
been sending delegations to the city here, making our asks. And 
we are here again.
    We have some challenges at home, as what you have been 
hearing, and we at the Yankton Reservation are experiencing 
those same types of things.
    The four areas are our health, our education, our welfare, 
and our economic development. So those are some of those 
challenges that we have been sending delegations up here to 
share those concerns, and we hope we aren't sounding like a 
broken record. But we, as a people in this free nation, are 
facing those challenges together, working together as nation-
to-nation, and we really thank you for that.
    The health challenges are for us at home, it is a hospital 
that was working as a hospital, but now is just a clinic. So we 
would ask that we be returned to that emergency care. An 
example for asking for that emergency care is some of our 
members, because of billing, do not wish to go in when it is 
after hours because of paying that bill.
    So in some instances, it involves the heart, and it is very 
critical. But our members would choose not to come in, and 
there are times when life has been lost.
    But that is how serious it is. We, as a people, have lived 
and understand that we are a strong people. But yet because of 
the tradition that we have and with Government saying that we 
are to be taken care of, and we have taken that a little bit 
too far, but yet we are trying to achieve that balance to 
understand that we need to get back to that strength as a 
people.
    And with that, it is having these delegations here to share 
those concerns that we have a life that is a strong life. But 
with the education of our children, we seem to be missing some 
history, some language, some culture, and it is--we have the 
basics, the sciences, the maths, the biology, and we understand 
we need those.
    But because of that lack in the language, lack in the 
history of who we are, I think that was mentioned by one of the 
gentlemen earlier, the identity. That seems to affect us. We 
need to have that for that self-worth, that self-esteem so that 
we can continue to be a strong people to get up, to have that 
work ethic, to go out to rake a yard, to scoop some snow.
    But to get up. That traditionally is what we have in our 
blood that we did these things. But for some reason, through 
the history, as we worked together, we misconnected there. 
There was a disconnection, and the understanding wasn't there.
    We share, I think one of our leaders had said, I think it 
was the Sitting Bull said as we go through our life, we pick 
things up that are good and some things that are bad. We put 
those things back down that are bad for us and carry those 
things that are good.
    And so that's us as a people. Our economy is always in 
need, and with the dollars that are there with some of the cuts 
that were mentioned, we ask that they be maintained where they 
are at and possibly increased if at all possible.
    We need those programs. We have program development for us 
at home. It is a food service program that is going to be 
started, and our people need that.
    So we have so many challenges, but they are written, and 
they are given to you for your consideration.
    So thank you.
    [The statement of Mr. Flying Hawk follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Mr. Calvert. Thank you, Chairman Hawk.
    And we will look at all the written statements, and they 
will be submitted for the record, and we will be looking 
through them. And we appreciate your testimony.
    Next, David Kills-A-Hundred, you are the council member for 
the Flandreau Santee Sioux Tribe.
    Mr. David Kills-A-Hundred. Yes, sir.
    Mr. Calvert. You are recognized for 5 minutes.
    Mr. David Kills-A-Hundred. At the risk of maybe breaking 
protocol, I ask would it be okay if Representative Firethunder 
and President Weston were heard before me. They are my elders.
    Mr. Calvert. Sure. Just have them have a seat over here.
    Mr. David Kills-A-Hundred. They are right here.
    Mr. Calvert. Oh, right here. Oh, I am sorry. I thought it 
was some additional people. Sorry.
                              ----------                              

                                           Wednesday, May 17, 2017.

                           OGLALA SIOUX TRIBE


                                WITNESS

TROY SCOTT WESTON, PRESIDENT
    Mr. Weston. Thank you, David. That was a very, very good 
sign of respect. Thank you for that.
    To the chairman, thank you for allowing us to be here. 
Representative McCollum, thank you for allowing us to be here 
in front of you today.
    I was given this oral testimony, but I believe Chairman 
Flying Hawk a precedent here with his knowledge, his caring, 
and his fight for our people, not only for his tribe, but for 
ours. Because a lot of what is being said here is pretty much 
everything across the board of Indian Country today.
    Our fights in our healthcare. IHS, for one thing, is our 
biggest fight. Along with education. Along with our police 
department, public safety. We have those are our three biggest 
fights right now.
    Within our IHS, we have a system within the Aberdeen area 
that allows our PRC to allow a contractor to refer all of our 
emergency, whether if you get a stubbed toe, I mean, it gets to 
that point. They are being referred out to Rapid City Regional 
Hospital.
    We don't have a specialty doctor. We have P.A.s. The 
majority of them are P.A.s. We have a couple of M.D.s. No 
specialties. We don't have any rheumatologists. We don't have a 
cardiologist. We are just pushing this out.
    And to me, it sounds like it is a corporate move. I don't 
care for it because we cannot allow our people to be burdened 
with having to be referred out to another facility, thereby 
having the tribe have to pick up a bill to return them home. 
And some of the people need to have assistance to go after that 
family member, and the tribe has to pick up another bill. So 
there is a lot of inequities that we need to really sit down, 
and that is one of them.
    On another hand, it is our law enforcement. You know, there 
was another story earlier. I believe it was the councilman from 
Standing Rock, talked about the law enforcement.
    Our law enforcement has issues. Three million acres. Our 
reservation is approximately 100 miles from east to west and 60 
miles north to south. I think that may be four Rhode Islands.
    So we need to understand that as big as we are, we have 33 
officers. I think that came from the councilwoman from Rosebud. 
She was in the ballpark.
    Within the BIA system, the way everything is recorded, we 
should be allowed to operate fully staffed at 120 officers, and 
that is still not enough because we are sitting at 40,000 
members. That is just on the reservation. We still have another 
30,000 to 35,000 off of the reservation that come back and 
forth to utilize IHS, law enforcement, land, everything across 
the board--our education.
    Our former president will get in detail about our education 
problems here, but we have serious issues. I believe you got to 
come out in 2012 to our reservation. We invited you back in I 
believe it was 2012, when President Steele invited you, and 
Representative McCollum, Simpson, and Representative Cole. Yes, 
yep, yes.
    And came out, and they got to see what was going on. They 
got to see the real picture. Well, that picture hasn't changed 
because of the fact that we cannot genuinely operate with the 
amount of money that we are not getting. You know, we are 
already cut. We were already running at 48 percent.
    And then with all of these proposed cuts, we cannot 
operate. We really cannot operate. What is that going to say to 
our officers who are already working 12-hour shifts, four per 
shift per every 12 hours. That is unreal. That is unheard of. 
That is inhuman.
    I am trying to pull at your heartstrings because I know you 
understand how I feel and how we all, as tribal leaders, feel. 
And I know you have that same thought and that same mindset 
because we know what we have to have for our people. And I 
wouldn't be doing my job if I wouldn't be trying to jerk at 
them heartstrings.
    We need help. We need more money. We need technical 
assistance. We have to have what we need to have.
    I thank you for your time.
    [The statement of Mr. Weston follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Mr. Calvert. I appreciate it. Thank you very much.
    Representative Firethunder, you are recognized.
                              ----------                              --
--------

                                           Wednesday, May 17, 2017.

   OGLALA SIOUX TRIBE, OGLALA LAKOTA NATION EDUCATION COALITION, THE 
                          LITTLE WOUND SCHOOL


                                WITNESS

CECELIA FIRETHUNDER, REPRESENTATIVE, OGLALA SIOUX TRIBE, OGLALA LAKOTA 
    NATION EDUCATION COALITION, PRESIDENT OF THE LITTLE WOUND SCHOOL
    Ms. Firethunder. Thank you very much.
    Chairman Calvert, Ranking Member McCollum, and honorable 
members of the subcommittee, thank you for the opportunity to 
testify on behalf of the Oglala Lakota Nation Education 
Coalition.
    My name is Cecelia Firethunder, a member of the Oglala 
Sioux Tribe. I am speaking on behalf of the Oglala Lakota 
Nation Education Coalition, which represents the Oglala Sioux 
Tribe's six tribal treaty schools.
    We are all Public Law 100-297 tribal grant schools funded 
through the Bureau of Indian Education under authorization of 
Public Law 93-638. We are located on the on the Pine Ridge 
Indian Reservation in southwestern South Dakota, and we have 
22,114 eligible students attending our schools, elementary 
through the 12th grade.
    Accompanying me today are members of my tribal school board 
from across the rails, and sitting next to me is my colleague 
Dr. Gloria Kitsopoulos, superintendent of American Horse 
School, also a retired colonel from the United States Army. 
Well, that tells you something, Congressman Calvert. Somebody 
keeps us in line.
    Mr. Calvert. There you go. Thanks for your service. 
Appreciate that.
    Ms. Firethunder. Thank you. All right.
    Indian School Equalization Program, ISEP, formula grants 
are the primary source of educational and residential programs 
at BIA-funded elementary and secondary schools for 
instructional services. The most pressing concern we have at 
our level right now is the underfunding constraints in our 
facilities' operation and maintenance.
    You know what our utility costs are during the winter in 
the Great Plains region? It gets pretty cold there sometimes. 
And because we don't have adequate monies in our facilities, we 
use our ISEP dollars to substantiate and pay for our fuel 
costs. I am just going to drop down there a little bit here.
    One of the greatest challenges we face today, along with 
the facilities operation and maintenance is our teacher 
salaries. The base at our salaried schools is $9,000 less than 
the local South Dakota public schools. As you know, recently 
the State of South Dakota gave an increase to its teachers 
within its public school system, which are within 15 miles of 
our newer schools, who are all on the same land base.
    As we use more and more of our ISEP funding to supplement 
the areas which are drastically underfunded, we have less and 
less money to bring these amounts closer to the schools near us 
and with whom we compete for teachers. The public schools can 
offer a larger salary base, but also a better health insurance 
package and a retirement package.
    Another area that impacts teacher recruitment and retention 
is the major use of funds to provide health insurance for our 
employees. Congressman, we provide really good healthcare 
coverage for our employees. That allows them not only to use 
the HIS facility, but if necessary, to leave the reservation 
and seek healthcare in the surrounding small communities where 
they have providers.
    Public Law 93-638 is the foundation for programs to receive 
Federal employee health benefits. We have been since 2012 as 
tribal schools have been seeking a way for our schools to be 
able to access Federal employee health benefits so we can 
provide better health insurance at a lower cost.
    Congressman, you know, we started to analyze what we are 
paying in health insurance with the premiums that keep 
escalating, we could pay for two teachers for some of our 
schools.
    Facilities. Facilities is something that everyone here has 
been talking about. Yes, we have some old buildings. 
Maintaining and operating them is very, very costly because 
they are old.
    I am going to ask you to turn to the graph because this 
graph kind of says everything that I need to tell you. ISEP is 
the funding that we use for instructional services. However, if 
you take a look at that graph, we like for you to take because 
it speaks for itself. So when you begin to take a look at the 
total ISEP dollars here, when we are over one-fourth of our 
ISEP dollars are being used.
    For example, for Little Wound School, which is a K-12 
school, we have 800 students. So when you take a look over here 
for facilities, we are using $753,300 out of our facilities 
line item of ISEP to fund facilities and then transportation.
    So we wanted to show you that we have taken instructional 
monies, and supporting those line items to keep our school 
going takes away from our students. Down here, American Horse 
School, Dr. Gloria is the superintendent, and I would like for 
her to address that from a K-8 level.
    Mr. Calvert. And please state your name for the record.
    Ms. Kitsopoulos. Dr. Gloria Coats-Kitsopoulos, and I am an 
enrolled member of Oglala Sioux Tribe.
    Mr. Calvert. Thank you.
    Ms. Kitsopoulos. Our school is a K through 8. We have a 
face program, we are a Pre-K up through 8th grade. When I 
arrived retired from the military and went back home, we had 
110 students. We have over 327 now. The big problem we have is 
recruiting teachers.
    They put a new water plant in. I am also--I run a little 
city. I have the lagoon. I have the water that I have to answer 
to EPA on.
    One of our biggest things is that we are not getting funded 
enough money. The quarters are falling apart. The water system 
doesn't work. So I put my teachers on a shower schedule. They 
have to start at 5:00 in the morning, and everyone has to get 
in there, get their shower, and be off in 15 minutes so the 
other teachers in the other buildings can use the shower.
    So it is very hard to recruit with saying you don't have 
facilities there, and we have got no money to fix the 
facilities. It took me 6 years to get a fire alarm system in my 
school.
    We just need more. We are not asking for anything more. We 
are just asking for what Congress said we would get. We are not 
getting 100 percent, and that is what we ask so we can bring 
that ISEP dollar back, so we can get better education for our 
students.
    This year, I am bringing a teacher from Saudi Arabia and 
three from the Philippines because I cannot pay the salaries 
around me.
    Mr. Calvert. Well, I appreciate that, and I hear you. And I 
need to get--I know that Ms. McCollum has been over there, 
along with Mike Simpson and Mr. Cole, Chairman Cole, and I want 
to get out there, too, if I can.
    Ms. Firethunder. I apologize, but this last graph you have, 
Congressman, is very important because we have been tracking 
our facility shortfalls for the last 26 years, but we only 
included this. This is a really important piece of information 
because if you take a look at the shortfalls, these shortfalls 
that we are picking up out of ISEP, Congressman, and this is 
money that is coming out of the classroom to support this.
    So, in conclusion, this is what we are going to 
respectfully ask. Using the 2016-based budget of $33,241,715, 
for my six schools, we are asking for a 17.7 increase, which 
brings it up to $43,450,599. And in the spirit of relatives--
and thank you, David, for what you did today. In the spirit of 
relatives, we would like to ask you to consider increasing 
across the whole United States with our tribal grant school the 
17.7 percent to bring us up to part for what we need, and that 
is all we are asking.
    Thank you.
    [The statement of Ms. Firethunder follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Mr. Calvert. Thank you. Well, we will be working on our 
budget this year. We are going to be challenged, as you have 
probably been reading in the newspapers, but I am hearing from 
all of Indian Country, and we are going to be working on that, 
I think.
    Did you have any additional comments?
    [Pause.]
    Okay. Did you have any additional comments to make? You are 
the last witness to testify. You have 5 minutes.
                              ----------                              --
--------

                                           Wednesday, May 17, 2017.

                      FLANDREAU SANTEE SIOUX TRIBE


                                WITNESS

DAVID KILLS-A-HUNDRED, TRIBAL COUNCIL MEMBER
    Mr. David Kills-A-Hundred. I want to thank you, Chairman 
Calvert, Ranking Member McCollum, and the members of this 
subcommittee. It is a pleasure to speak with you regarding our 
various funding issues relevant to the Flandreau Santee Sioux 
Tribe, located in South Dakota.
    I intend to primarily discuss the funding issue present for 
our Joint Venture Construction Program healthcare facility and 
the Flandreau Santee Sioux Tribe tribal police, but will 
briefly discuss issues of other critical programs if time 
permits.
    For decades, the healthcare service provider to the members 
of my tribe have been grossly inadequate. We have utilized 
Public Law 93-638 contracting to operate the tribal health 
clinic to the best of our abilities, but due to insufficient 
and untimely funding, unpaid contract support cost, and limited 
facilities, we are failing our people.
    We have a lack of privacy issues in our current clinic, 
coupled with inadequate space to fully perform necessary 
program functions. The Joint Venture Construction Program, 
found at Section 818(e) of the Indian Healthcare Improvement 
Act, authorizes the Indian Health Service to establish projects 
that allow American Indian and Alaska Native tribes to 
construct tribally owned healthcare facilities in exchange for 
HIS providing the post construction funding for equipment, 
operations, and maintenance for a minimum of 20 years.
    Left without adequate means to self fund the construction 
of a healthcare facility, in 2007, the tribe made applications 
to the Indian Health Service to participate in the Joint 
Venture Construction Program. The tribe was awarded a 
commitment in 2009 but took several years to organize its 
efforts under the program.
    In 2012, the tribe aggressively pursued the opportunity and 
hired a Minnesota architect and South Dakota construction 
manager to plan the project. These groups worked exclusively 
with the Indian Health Service to design a state-of-the-art 
facility which met all Federal requirements.
    The tribe and the Indian Health Service formalized the 
arrangement in July of 2014 by entering into a joint venture 
agreement. There were new provisions to the joint venture 
agreement itself that left the tribe with fewer options to 
finance the construction.
    Construction was also pushed back over a year because of 
the miscommunication between IHS area office in Aberdeen and 
IHS headquarters that kept us out of the President's budget. 
With financing in sight, the tribe took the risk and began 
constructing in March of 2016, regardless of the obstacles 
faced. The tribe was able to successfully sell bonds in June of 
2016, and construction has continued under budget and on time, 
with an expected completion date in July of 2017.
    The tribe now faces its largest endeavor. Article 8 of the 
joint venture agreement provides, ``In exchange for the tribe's 
design and construction of the facility, the tribe's purchase 
of the initial equipment for the facility, IHS agrees to 
provide the equipment, supplies, and staffing for the operation 
and maintenance of the facility for an initial period of 20 
years, subject to provision of appropriations by Congress.''
    The tribe must have funding promised by the IHS 
appropriated to assure our membership and all nontribal members 
that we serve that we can operate our new facility. A 
continuing resolution for fiscal year 2018 would not allow the 
additional funding promised, causing a possible default on our 
financial obligations and resulting in a grossly underfunded 
facility.
    The tribe pleads with the subcommittee to fulfill the 
contractual obligations of the Indian Health Service. We are in 
the process of needing to hire around 50 new employees to fully 
staff our facility, and we can simply not afford to use tribal 
funds dedicated to other critical programs to continuously 
supplement our clinic.
    We further have issues with our police department funding 
that I would like to expound on as well. Public safety is one 
of our utmost importance to all tribes, especially in South 
Dakota, where the State is becoming plagued by methamphetamine. 
We have stagnant funding for the police while our expenses are 
rising exponentially.
    We have had stagnant funding for the police while all our 
other expenses are rising exponentially. The tribal police 
drive arrests of individuals on the reservation, we have to 
drive them 125 miles away to be detained, which poses serious 
community exposure during transportation due to gaps in 
coverage. The facility 120 miles away was the only detention 
center willing to house our arrestees.
    The tribe has two police officers and another who is in the 
police academy. With our current funding level, we cannot 
afford to provide coverage that our community needs. Even a 
modest increase would have an incredible impact on our small, 
but equally troubled reservation.
    We implore the subcommittee to consider all of the programs 
that our membership depends on and to maintain or increase 
funding. We are trying to run professional government 
operations and are doing it in the absence of clarity. The 
tribe is relying on its funding and cannot provide adequate 
services and gridlock. And the tribe further demands parity 
with the States on all funding matters because of the Federal 
promises of promoting tribal sovereignty and self-sufficiency.
    Mr. Chairman, this concludes my prepared remarks and my 
colleagues and I are prepared to answer any questions you may 
have.
    [The statement of Mr. David Kills-A-Hundred follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Mr. Calvert. Thank you. Thank you. Sorry I missed you for a 
second.
    One thing I wanted to mention to Chairman Hawk. There are 
some other programs, too, that we will be working with. For 
instance, in earlier testimony on saving languages in Indian 
Country all around the country, the National Endowment for the 
Humanities is very much involved. And I don't know if they are 
involved with your tribe or not, but certainly, you should look 
into that because there are grant programs that are available 
through the National Endowment for that purpose, you know, to 
put together a vocabulary of your language, which would be kept 
for prosperity.
    So you might want to look into that. They have done that 
for a number of tribes.
    Mr. Flying Hawk. Okay. Will do. Thank you.
    Mr. Calvert. And so that is something important. And I hear 
consistently the three major problems in Indian Country, of 
course, law enforcement, education, and healthcare. And I get 
it, and we have a challenge, and we need to meet that 
challenge, and we are going to do what we can.
    I know Chairman Cole is going to work with us. He has the 
committee that has the primary jurisdiction over healthcare in 
the United States, but I have the jurisdiction over Indian 
healthcare. So, but he has a much bigger budget than I do. So, 
hopefully, we can work together to help resolve some of these 
issues.
    Infrastructure is another issue. I know in your part of the 
world, you are working with so many, you know, 3 million acres. 
That is a lot of land. And when we do an infrastructure bill, 
which I hope we do later this year, I hope Indian Country helps 
us and pushes that there should be a section in that bill for 
infrastructure on tribes all around the United States.
    And that would be very helpful to us to push that to get 
that section in the bill that we can go in and fix a lot of 
these problems.
    Same thing with school construction. We would like to 
figure out a way, similar what we did with DOD and is to fix 
that problem universally across Indian Country. It is $1 
billion that we have that we need to spend to fix this problem 
throughout Indian Country.
    I was curious. On your new health facility, you said you 
sold bonds. What kind of bonds were they?
    Mr. David Kills-A-Hundred. On that one, I would refer 
probably back to the treasurer.
    Mr. Calvert. Yes, I was wondering because I used to--you 
usually have to have an income stream. What is the income 
stream you are using to pay for the bonds?
    Mr. David Kills-A-Hundred. I want to say it was a third-
party, I think. Third-party billing. In truth, a lot of this 
stuff with our clinic was done before I came on. I was just 
elected back in August. This was done before that.
    I do believe it was third-party billing.
    Mr. Calvert. Okay. I would be just curious to see how that. 
Well, maybe the gentleman can? Please state your name for the 
record, and grab that mike from Chairman Hawk and say your name 
for the record.
    Mr. Ryan Kills-A-Hundred. My name is Ryan Kills-A-Hundred. 
I am the treasurer for the Flandreau Santee Sioux Tribe and 
tribal member as well, and now my newly elected little brother 
is my boss now.
    Mr. Calvert. Okay, great. [Laughter.]
    I figured you guys were related.
    Mr. Ryan Kills-A-Hundred. So, yes. Yes, we are using our 
third-party revenue streams to take care of that.
    Mr. Calvert. Can you define what third-party revenue stream 
means?
    Mr. Ryan Kills-A-Hundred. That is what we bill out for 
tribal members or for who have insurance.
    Mr. Calvert. I see. Okay.
    Mr. Ryan Kills-A-Hundred. So if we can get that revenue in, 
which, again, closes the problem. We are using that for our new 
facility and we can't get funding for our new facility, and we 
are stuck operating out of the same tin can that they are doing 
the best job they can in right now, the money that we are using 
to help subsidize that, our third-party revenue is taken up.
    So, now we have to pay for a new building and try to carry 
the load of what we are already having problems with.
    Mr. Calvert. Okay. Thank you. I appreciate that.
    Okay, Ms. McCollum.
    Ms. McCollum. So your officers go 125 miles, then they have 
to go back to court, right?
    Mr. David Kills-A-Hundred. Yes.
    Ms. McCollum. They could be in court all day before they 
get on the stand, and so now you are down an officer with only 
two officers. If you have one in court, you are down to one 
officer for the whole reservation.
    Mr. David Kills-A-Hundred. That is correct. And court does 
not need to get involved. If there is an arrest and they have 
to take them to Sisseton, one officer, that could take an 
entire shift. And while he is gone, there can be another arrest 
that requires the other officer to go to Sisseton as well.
    Ms. McCollum. I know policies for States are different and 
courts are different, but do you have video facilities where 
one of your officers could be sworn in over video and testify 
over video, or do they have to drive all the way in?
    Mr. David Kills-A-Hundred. No, we do not. But the problem 
is, is we have to bring them back. The offense happened in 
Flandreau. So we have to drive up there, bring them back to our 
court system, which again poses that manning problem. And if 
they have to go back to jail, then you know, we take them back 
up there.
    So it is not that we are taking them that long, you know, 
that many miles so they can be arrested, detained, and they go 
to court there. We have to drag them all the way back to 
Flandreau for court.
    Ms. McCollum. I understand what you are saying, but you 
don't have mutual agreements or anything between the courts? 
Sometimes you can have cross jurisdiction, yes?
    Mr. Ryan Kills-A-Hundred. Not amongst the courts, no. We 
have our own tribal court system. So I mean, no, we don't have 
that. That being said, we have assist agreements with local law 
enforcement, but that is assist only during the problem. They 
are not going to help cover our shortfalls.
    Ms. McCollum. Sure.
    Mr. Ryan Kills-A-Hundred. If they only assist when the 
extra men----
    Ms. McCollum. Yes, I know how mutual aid works. Okay. The 
question that I have for you, Ms. Firethunder and your school 
board: you have these three teachers, two from the Philippines 
and one other?
    Ms. Kitsopoulos. We will be bringing in five teachers, 
three from the Philippines and--I guess four from the 
Philippines and one from Saudi Arabia.
    They are pre-certified.
    Ms. McCollum. Got it. They are pre-certified by whom?
    Ms. Kitsopoulos. By the teacher exchange out of Austin, 
Texas. St. Francis School has used the program, and they are 
already certified. Several of them have master's degrees, and 
they come through, get a visa and come over here and work. They 
can work up to 5 years.
    Ms. McCollum. So they are certified by an international 
exchange in Austin, Texas?
    Ms. Kitsopoulos. Yes.
    Ms. McCollum. And do they teach to subject? I don't have a 
master's degree, but I taught social studies. If I had a 
master's degree in social studies, you wouldn't want me for 
your trig teacher.
    Ms. Kitsopoulos. Yes. No, we brought them in by subject 
that we needed. The BIE had taken basically social studies and 
science out of our schools for about 6 years. Now that we are 
building back up, we are finding that is a shortage. So I am 
bringing in two social studies teachers, one science, and one 
intermediate math, and one elementary, kindergarten teacher, 
and they are all specialized in those areas.
    Ms. McCollum. Okay. I am going to talk to you afterwards 
for a few minutes because I am afraid my questioning is going 
to sound not as supportive as I want to be on the teacher 
licensing.
    Ms. Kitsopoulos. Well, we started with Teach for America, 
but it is such a cost to bring them in. By the second year, 
they have got it, and then they are gone. And so when we do our 
professional development, if we include them, we are figuring 
maybe $5,000 for 2 years in professional development, then they 
are gone.
    Ms. McCollum. So who pays for this? You are paying these 
teachers $9,000 a year. Are you providing housing?
    Ms. Kitsopoulos. The ones that are coming over?
    Ms. McCollum. Yes.
    Ms. Kitsopoulos. They are on our salary scale, and yes, we 
give quarters, the quarters that we have.
    Ms. McCollum. That is why you were talking about you have 
to sign up for your shower at 5:00 in the morning.
    Ms. Kitsopoulos. That has been going on since they changed 
the water power out. We needed a lift station at each one of 
the houses and the apartment complex, and it was approved 2 
years ago. But nobody ever sent the money.
    Ms. McCollum. You basically have to live on the reservation 
close to the school to teach there?
    Ms. Kitsopoulos. Yes, yes.
    Ms. McCollum. So that is another hardship, right?
    Ms. Kitsopoulos. Yes, yes. They have to live there because 
when the weather gets bad, and we are kind of down in a canyon 
and we get a lot of snow. So we basically make our staff that 
do not have homes there in the county live right there at the 
school.
    Ms. McCollum. And do you have any telecommunications? I 
know some of the schools are working with doing some distance 
learning. Do you have that available to you with a broadband 
hookup?
    Ms. Kitsopoulos. We are on a BIE server, and we are working 
with the other schools. The one thing that all of our schools 
now, all six of us are using the Common Core standards, and we 
are allowed to infuse at 15 percent with our language and our 
culture. So that is what we are using, and our curriculums are 
all scientific-based research. And my specialty is a reading 
specialist, and basically, we are all six schools are using the 
same foundations for reading.
    Some of use different math programs, but they all, you 
know, meet the Common Core standards.
    Ms. McCollum. Well, I know you are trying really hard, all 
of you, and I live in the cities, but coming from Minnesota, I 
understand the rural community. I understand a grandfather 
driving a grandmother 2 hours to get to dialysis, to get to 
Williston and all that. And I know you are trying your level 
best, and we are going to try to do what we can to support you.
    Thank you, Mr. Chair.
    Ms. Kitsopoulos. One of the things is I had two tours in 
D.C.--one at the Surgeon General's office, one at Fort Belvoir. 
And we used to care for the prisoners from Lorton. They would 
bring them up from Fort Belvoir, and their facilities are nicer 
than my teachers'.
    Ms. Firethunder. I would like to just make a real quick 
comment on what we are working collectively to get our students 
to prepare for a future to be a teacher. So we have got these 
programs going to really encourage our young people to consider 
being a teacher.
    A second thing we are doing is based on the healthcare 
provider shortage area for not only Pine Ridge, but the whole 
State of South Dakota, we started health careers club so we can 
start getting our young people to take a look at a career once 
they get out of high school. So it is strengthens our science 
and math capabilities, and it starts getting them hands on, 
taking them to Rapid City to radiology, wherever so they can 
get a real sense of a career and they start preparing for it.
    So out of high school, they could go right into training as 
our solution, one of our solutions to fulfilling the health 
career shortage area.
    Mr. Calvert. Yes. The last point I was going to make. In 
the rural States like South Dakota, North Dakota, Alaska, they 
have a problem statewide in getting specialists. I mean, they 
can't keep them in the State.
    They come out to California. They go to Texas, you know, 
the large urban population where they can make money, and so it 
is a real challenge to get docs to, especially specialists, to 
stay in those areas. That is a problem we have nationwide.
    So, anyway, I appreciate your testimony, appreciate your 
attendance. This will conclude 2 days of hearings on American 
Indian and Alaska Native programs on the trust responsibility 
that all Members of Congress share. Talk to all your Members of 
Congress, you know, not just this committee.
    Thank you so much for being here today.
    This hearing is adjourned.


                               I N D E X

                              ----------                              


                          Members' Hearing Day
                           February 28, 2017
                     Witnesses--Members of Congress

                                                                   Page
Adams, Hon. Alma S...............................................    88
Chaffetz, Hon. Jason.............................................     6
Cleaver, Hon. Emanuel............................................    63
Gosar, Hon. Paul.................................................    69
Griffith, Hon. Morgan............................................    50
Higgins, Hon. Brian..............................................    19
Jackson Lee, Hon. Sheila.........................................    56
LaMalfa, Hon. Doug...............................................    44
Panetta, Hon. Jimmy..............................................    82
Plaskett, Hon. Stacey............................................    96
Posey, Hon. Bill.................................................     2
Price, Hon. David................................................    76
Radewagen, Hon. Aumua Amata Coleman..............................    30
Rooney, Hon. Francis.............................................    24
Sewell, Hon. Terri...............................................    38
Slaughter, Hon. Louise...........................................   102
Thompson, Hon. Glenn ``GT''......................................    34
Westerman, Hon. Bruce............................................    13

                 Written Testimony--Members of Congress

Brownley, Hon. Julia.............................................   109
Cicilline, Hon. David N..........................................   112
Comer, Hon. James................................................   114
Engel, Hon. Eliot L..............................................   116
Goodlatte, Hon. Bob..............................................   118
Grijalva, Hon. Raul M............................................   120
Lance, Hon. Leonard..............................................   124
Sablan, Hon. Gregoria Kilili Camacho.............................   127
Torres, Hon. Norma...............................................   128
Velazquez, Hon. Nydia............................................   130

             American Indian/Alaska Native Public Witnesses
                         Day One--May 16, 2017
                             ORGANIZATIONS

                                                                   Page
AK-Chin Indian Community.........................................   242
American Indian Higher Education Consortium (AIHEC)..............   151
California Rural Indian Health Board.............................   184
Cherokee Nation..................................................   191
Chickasaw Nation and Oklahoma Humanities Council.................   211
Chugach Regional Resources Commission (CRRC).....................   407
Columbia River Inter-Tribal Fish Commission......................   336
Confederated Tribes of Siletz Indians............................   376
Confederated Tribes of the Colville Reservation..................   383
Confederated Tribes of the Grand Ronde Community of Oregon.......   396
Fond du lac Band of Lake Superior Chippewa.......................   233
Indian Health Center of Santa Clara Valley and California 
  Consortium for Urban Indian Health.............................   172
Intertribal Timber Council.......................................   401
Lower Elwha Klallam Tribe........................................   343
Lower Elwha Klallam Tribe, Port Angeles School District..........   361
Metlakatla Indian Community......................................   421
Muscogee (Creek) Nation..........................................   197
National Congress of American Indians (NCAI).....................   302
National Council of Urban Indian Health..........................   166
National Indian Child Welfare Association........................   254
National Indian Education Association (NIEA).....................   141
National Indian Health Board.....................................   134
National Tribal Contract Support Cost Coalition..................   260
Native Village of Eyak...........................................   413
Navajo Nation....................................................   323
Northwest Indian Fisheries Commission............................   330
Norton Sound Health Corporation..................................   440
Oneida Nation of Wisconsin.......................................   249
Osage Minerals Council...........................................   203
Puyallup Tribe of Washington State...............................   356
Quinault Nation..................................................   296
Red Lake Band of Chippewa Indians................................   226
Riverside--San Bernardino County Indian Health, Inc..............   178
Seattle Indian Health Board......................................   308
Shoalwater Bay Tribe.............................................   368
Squaxin Island Tribe.............................................   350
Tanana Chiefs Conference.........................................   434
The Healing Lodge of the Seven Nations (IHS Youth Regional 
  Treatment Center)..............................................   313
Tribal Education Departments National Assembly (TEDNA)...........   157
University of Oklahoma--Spoken Creek Documentation Project.......   218
Upper Columbia United Tribes.....................................   389
Yakutat Tlingit Tribe............................................   427

                               WITNESSES

                                                                   Page
Baker, Bill John.................................................   191
Bill, Leland.....................................................   336
Billy, Carrie L..................................................   151
Bolton, Christopher..............................................   440
Boone, Cynthia...................................................   203
Brown-Schwalenberg, Patty........................................   407
Bryan, Annette M.................................................   356
Charles, Frances.................................................   343
Demmert, Victoria................................................   427
Dupuis, Kevin R..................................................   233
Elgin, Lisa......................................................   184
Evans, Yatibaey..................................................   141
Floyd, James R...................................................   197
Hawley, Vinton...................................................   134
Hoover, Mark.....................................................   413
Hudson, Audrey...................................................   421
Jensen, Mark.....................................................   178
Johnson, Jennifer L..............................................   218
Johnstone, Edward................................................   330
Joseph, Victor...................................................   434
Leno, Reynold L..................................................   396
Lucero, Esther...................................................   308
Martin, Aurene...................................................   254
Michel, Donald R.................................................   389
Miguel, Robert...................................................   242
Miller, Lloyd B..................................................   260
Nelson, Charlene.................................................   368
Nez, Jonathan....................................................   323
Payment, Aaron...................................................   302
Penney, Samuel...................................................   313
Peters, Jim......................................................   350
Pigsley, Dee.....................................................   376
Rigdon, Phil.....................................................   401
Seki, Darrell....................................................   226
Sharp, Fawn......................................................   296
Tehassi Hill, Ron................................................   249
Tetnowski, Sonya.................................................   172
Tonasket, Mel....................................................   383
Tuomi, Ashley....................................................   166
Valadez, Jamie...................................................   361
Walters, Valorie.................................................   211
Whitlow, Carrie F................................................   157

             American Indian/Alaska Native Public Witnesses
                         Day Two--May 17, 2017
                             ORGANIZATIONS

                                                                   Page
All Pueblo Council of Governors..................................   481
American Indian Alaska Native Tourism Association................   472
Association of Community Tribal Schools (ACTS)...................   559
Bad River Band of Lake Superior Chippewa Tribe...................   635
Catawba Indian Nation............................................   451
Chippewa Ottawa Resource Authority (CORA)........................   620
Dine BiOlta School Board Association.............................   540
Dine Grant School Association....................................   547
Duckwater Shoshone Tribe.........................................   601
Dzilth-Na-O-Dith-Hle Community Grant School (DCGS)...............   533
Flandreau Santee Sioux Tribe.....................................   694
Great Lakes Indian Fish and Wildife Commission (GLIFWC)..........   651
Lac du Flambeau Tribe............................................   642
National Alliance to Save Native Languages.......................   570
National Native American AIDS Prevention Center (NNAAPC).........   625
Native American Grant School Association, Shonto Preparatory 
  School.........................................................   553
Navajo Hopi Land Commission......................................   514
Nez Perce Tribal Executive Committee.............................   595
Oglala Sioux Tribe...............................................   681
Oglala Sioux Tribe, Oglala Lakota Nation Education Coalition.....   687
Pascua Yaqui Tribe...............................................   501
Penobscot Nation.................................................   465
Pueblo of Laguna.................................................   493
Pueblo of Santa Clara............................................   487
Ramah Navajo Chapter.............................................   521
Ramah Navajo School Board for the Pine Hill School (RNSB)........   528
Rosebud Sioux Tribe..............................................   659
Shoshone-Bannock Tribes, Fort Hall Business Council..............   587
Shoshone-Paiute Tribes of the Duck Valley Reservation............   607
Standing Rock Sioux Tribe........................................   666
Tohono O'odham Nation............................................   508
United South and Eastern Tribes Sovereignty Protection Fund (USET 
  SPF)...........................................................   458
United Tribes Technical College..................................   564
Ute Tribe of Utah................................................   614
Winnebago Tribe of Nebraska......................................   576
Yankton Sioux Tribe..............................................   675

                               WITNESSES

                                                                   Page
Blanchard, Robert................................................   635
BlueEyes, Faye...................................................   533
Carrick, Levi D., Sr.............................................   620
Chavarria, J. Michael............................................   487
Chavez, Jerry....................................................   547
Dunn, James......................................................   666
Ferguson, Camille................................................   472
Firethunder, Cecilia.............................................   687
Flying Hawk, Robert..............................................   675
Francis, Kirk....................................................   458
Harris, William..................................................   451
Henio, Jamie.....................................................   521
Howard, Ted......................................................   607
Isham, Michael...................................................   651
Jackson, Genevieve...............................................   540
Kills-A-Hundred, David...........................................   694
Kitcheyan, Victoria..............................................   576
Lee, Royd........................................................   553
Manuel, Edward...................................................   508
Martinez, Marlene................................................   528
McDonald, Leander................................................   564
Mike, Rodney.....................................................   601
Miles, Mary Jane.................................................   595
Miller, Tom......................................................   559
Phelps, Walter...................................................   514
Roberts, Patrick.................................................   625
Shay, Darrell....................................................   587
Siow, Virgil.....................................................   493
Small, Tony......................................................   614
Smith, Maulian...................................................   465
Thompson, George.................................................   642
Torres, E. Paul..................................................   481
Valencia, Robert.................................................   501
Weston, Troy.....................................................   681
White Pipe, Lisa.................................................   659
Wilson, Ryan.....................................................   570

          Written Testimony from Individuals and Organizations

1854 Treaty Authority............................................   704
Alaska Department of Natural Resources, Division of Mining, Land 
  and Water......................................................   706
American Alliance of Museums (AAM)...............................   710
American Forests.................................................   714
American Geophysical Union.......................................   719
American Geosciences Institute (AGI).............................   722
American Institute of Biological Sciences (AIBS).................   726
Americans for the Arts...........................................   730
Animal Welfare Institute.........................................   733
Appalachian Mountain Club (AMC)..................................   737
Association of Air Pollution Control Agencies....................   739
Association of Art Museum Directors..............................   742
Association of Public and Land-grant Universities (APLU) Board on 
  Natural Resources (BNR)........................................   746
Association of State Drinking Water Administrators (ASDWA).......   750
Association of State Floodplain Managers.........................   754
Bardin, David Jonas..............................................   756
Bristol Bay Area Health Corporation..............................   760
Central Arizona Water Conservation District (CAWCD)..............   764
Choctaw Nation of Oklahoma.......................................   767
City Parks Alliance..............................................   771
City University of New York (CUNY), Department of Modern 
  Languages......................................................   773
Colorado River Basin Salinity Control Forum......................   776
Colorado River Board of California...............................   779
Consortium of Aquatic Scientific Societies (CASS)................   782
Cooperative Alliance for Refuge Enhancement......................   784
Dance USA........................................................   788
Defenders of Wildlife............................................   792
Ecological Society of America 



ENERGY STAR Participants.........................................   800
Entomological Society of America (ESA)...........................   804
Federation of State Humanities Councils..........................   808
Friends of Dungeness National Wildlife Refuge....................   812
Friends of Great Swamp National Wildlife Refuge..................   813
Friends of Malheur National Wildlife Refuge......................   815
Friends of Rachel Carson National Wildlife Refuge................   817
Friends of the Front Range Wildlife Refuges......................   820
Friends of the Savannah Coastal Wildlife Refuges, Inc............   822
Friends of the Tampa Bay National Wildlife Refuges, Inc..........   826
Friends of the Tualatin River National Wildlife Refuge...........   830
Geological Society of America (GSA)..............................   832
Gila River Indian Community......................................   835
Humane Society of the United States (HSUS).......................   838
Institute of Makers of Explosives (IME)..........................   842
Interstate Mining Compact Commission.............................   845
Jamestown S'Klallam Tribe........................................   849
League of American Orchestras....................................   853
Little River Band of Ottawa Indians..............................   857
Mescalero Apache Tribe...........................................   861
National Assembly of State Arts Agencies.........................   865
National Association of Chemical Distributors....................   867
National Association of Clean Air Agencies (NACAA)...............   869
National Association of Clean Water Agencies (NACWA).............   873
National Association of State Energy Officials (NASEO)...........   876
National Association of State Foresters (NASF)...................   879
National Conference of State Historic Preservation Officers 
  (NCSHPO).......................................................   883
National Ground Water Association (NGWA).........................   887
National Humanities Alliance.....................................   891
National Parks Conservation Association (NPCA)...................   895
National Society of Professional Engineers (NSPE)................   899
National Trust for Historic Preservation.........................   901
National Wildlife Refuge Association.............................   905
Native Alliance Initiative.......................................   909
Natural Science Collections Alliance.............................   913
Navajo County Board of Supervisors...............................   916
Officers of the Environmental Council of the States..............   917
OPERA America....................................................   921
Oregon Water Resources Congress (OWRC) 



Outdoors Alliance for Kids.......................................   933
Partnership for the National Trails System.......................   937
Pennsylvania, Department of English, Paul Henderickson...........   941
Performing Arts Alliance (PAA)...................................   942
Port Gamble S'Klallam Tribe......................................   946
Pueblo of Acoma..................................................   950
Pueblo of Picuris................................................   954
Recording Academy................................................   958
Regional Air Pollution Control Agency............................   960
Restore America's Estuaries......................................   962
Sac & Fox Nation.................................................   966
Saint Regis Mohawk Tribe.........................................   970
San Juan County Commission.......................................   974
Sauk-Suiattle Indian Tribe.......................................   976
Self-Governance Communication & Education Tribal Consortium 
  (SGCETC).......................................................   980
Skokomish Tribe of Washington....................................   984
Society of American Foresters (SAF)..............................   988
Southcentral Foundation..........................................   992
State Fire Assistance and Volunteer Fire Assistance Organization.   996
Supporters of Land and Water Conservation Fund State Assistance 
  Programs.......................................................   998
Supporters of the Colorado River Basin...........................  1000
Sustainable Urban Forest Coalition...............................  1005
The American Institute of Architects.............................  1009
The Corps Network................................................  1012
The Federal Forest Resource Coalition............................  1016
The Metropolitan Water District of Southern California...........  1020
The National Institutes for Water Resources......................  1023
The Nature Conservancy...........................................  1027
The Nature Conservancy; USDA Forest Service......................  1030
The Trust for Public Land (TPL)..................................  1034
The Wilderness Land Trust........................................  1038
The Wilderness Society (TWS).....................................  1042
The Wildlife Society.............................................  1046
Theatre Communications Group (TCG)...............................  1050
Theodore Roosevelt Conservation Partnership......................  1053
U.S. Section of the Pacific Salmon Commission (PSC)..............  1057
University of California, Los Angeles, Department of Comparative 
  Literature.....................................................  1060
University of California, Riverside, College of Humanities, Arts, 
  and Social Sciences............................................  1062
USGS Coalition...................................................  1064
West Virginia Commission on the Arts.............................  1068
Western Governors' Association...................................  1069
White Earth Band of Chippewa.....................................  1073
Wildlife Conservation Society....................................  1076
Yurok Tribe......................................................  1080

                                  <all>
</pre></body></html>
